IN THE SUPREME COURT OF THE UNITED STATES

No.
CYRUS MARK SANAI,
Petitioner,
v.

D. JOSHUA STAUB, an individual; FREDERICK BENNETT,
an individual; PHU CAM NGUYEN, an individual;
CHRISTOPHER MCINTIRE,
Respondents,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55427
CYRUS MARK SANAI,
Petitioner,
v.

MARK BORENSTEIN, an individual;
Respondent,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55429
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CYRUS SANAI
SANAIS
9440 SANTA MONICA BOULEVARD #301
BEVERLY HILLS, CA 90210
Telephone (310) 717-9840
cyrus@sanaislaw.com

RECEIVED
JAN 2 7 2021
gSFp'nClM°ErcToH5RCTLgf

TABLE OF CONTENTS OF APPENDIX
APPENDIX

Document

Page

APPENDIX A

Memorandum Order of
the Ninth Circuit Court
of Appeals Filed April
13, 2020 in Appeal 1955427.

A1

APPENDIX B

Memorandum Order of
the Ninth Circuit Court
of Appeals Filed April
13, 2020 in Appeal 1955429.

B1

APPENDIX C

Order Denying Petition
for Rehearing Filed
Filed September 24,
2020 in Appeal 1955427

Cl

APPENDIX D

Order Denying Petition
for Rehearing Filed
Filed September 24,
2020 in Appeal 1955429

Dl

APPENDIX E

Order of District Court
Dismissing Action
Entered in Action

El

APPENDIX F

Order of District Court
Denying Motion for
Disclosure

FI

APPENDIX G

Order of District Court ,
Denying Motion for
Recusal
'

G1

APPENDIX H

Order of District Court
Denying Motion for New
Trial or to Amend or
Vacate Judgment

HI

APPENDIX I

Order of District Court
Dismissing Action
Entered in Action

II

APPENDIX J

Order of District Court
Denying Motion for
Disclosure

J1

APPENDIX K

Motion for Disclosure
and Recusal of Ninth
Circuit Judges filed

Kl

APPENDIX L

Request for Judicial
Notice

LI

APPENDIX M

Motion for Disclosure
and Recusal of Ninth
Circuit Judges filed

Ml

APPENDIX N

Request for Judicial
Notice

Nl

APPENDIX O

Relevant Statutes and
Rules

01

A1

APPENDIX A

Case 2:18-cv-02136-RGK-E Document 33 Filed 04/13/20 Page 1 of 3 Page ID #:232
A2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CYRUS MARK SANAI, an individual,
Plaintiff-Appellant,

FILED
APR 13 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-55427
D.C. No. 2:18-cv-02136-RGK-E

v.
MEMORANDUM
D. JOSHUA STAUB, an individual; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
R. Gary Klausner, District Judge, Presiding
Submitted April 7, 2020**
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Attorney Cyrus Mark Sanai appeals pro se from the district court’s judgment
dismissing his 42 U.S.C. § 1983 action alleging constitutional claims. We have
jurisdiction under 28 U.S.C. § 1291. We review for an abuse of discretion the
district court’s dismissal for failure to prosecute. Al-Torki v. Kaempen, 78 F.3d

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case 2:18-cv-02136-RGK-E Document 33 Filed 04/13/20 Page 2 of 3 PagelD#:233
A3

1381, 1384 (9th Cir. 1996). We affirm.
The district court did not abuse its discretion by dismissing Sanai’s action
because Sanai failed to file proof of timely service of the complaint on all
defendants after being warned that failure to do so would result in dismissal. See
id. (discussing factors to be considered before dismissing an action for failure to
prosecute).
The district court did not abuse its discretion by denying Sanai’s post­
judgment motion to vacate or amend the judgment because Sanai failed to
demonstrate any basis for such relief. See Sch. Dist. No. 1J, Multnomah Cty., Or.
v. ACandS, Inc., 5 F.3d 1255, 1262-63 (9th Cir. 1993) (standard of review and
grounds for relief under Federal Rule of Civil Procedure 59(e) or 60(b)).
Because we affirm the district court’s dismissal of Sanai’s action for failure
to prosecute, we do not consider his challenges to the district court’s interlocutory
orders regarding recusal and judicial disclosure. See Al-Torki, 78 F.3d at 1386
(“[IJnterlocutory orders, generally appealable after final judgment, are not
appealable after a dismissal for failure to prosecute, whether the failure to
prosecute is purposeful or is a result of negligence or mistake.” (citation and
internal quotation marks omitted)).
//
//

2

19-55427

Case 2:18-cv-02136-RGK-E Document 33 Filed 04/13/20 Page 3 of 3 PagelD#:234
A4

Each judge on this panel declined the request to recuse.
All pending motions and requests are denied.
AFFIRMED.

3

19-55427

B1

APPENDIX B

Case 2:18-cv-05663-RGK-E Document70 Filed 10/24/18 Page lot7 PagelD#:1565
B2

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

Present: The Honorable R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE
Sharon L. Williams (Not Present)

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendant:

Not Present

Not Present

Proceedings:

I.

(IN CHAMBERS) ORDER re: Defendant McDonnell’s Motion to Dismiss
(DE 44) and Defendant Borenstein’s Motion to Dismiss (DE 45)

INTRODUCTION

Plaintiff is currently subject to a contempt order in Superior Court of Los Angeles County
(“Superior Court”), and a bench warrant has been issued for his arrest. Following the contempt hearing,
Plaintiff filed petitions for writ of mandate, writ of habeas corpus, and a stay of the contempt order in
the California Court of Appeal . Plaintiff alleges that these proceedings are ongoing. Nevertheless,
Plaintiff brings this action against Superior Court Judge Mark Borenstein (“Borenstein”) and Los
Angeles County Sheriff James McDonnell (“McDonnell”) (collectively, “Defendants”) seeking an
injunction that would stay enforcement of the contempt order. Plaintiff also seeks declaratory judgment
that the state court proceedings against him violated his due process rights.
Presently before the Court are Defendants’ Motions to Dismiss Plaintiff’s First Amended
Complaint (‘TAC”) pursuant to Federal Rule of Civil Procedur e (“Rule”) 12(b)(1) and Rule 12(b)(6).
For the following reasons, the Court GRANTS the motions.
H.

FACTUAL BACKGROUND i

Plaintiff is the attorney of record for the plaintiff in an ongoing state court matter captioned as
United Grand Corp. v. Malibu Hillbillies, LLC, No. BC 554172 (L.A? Super. Ct. Aug. 8, 2014) (“United
Grand”). Defendant McDonnell is a Los Angeles County Sheriff in charge of detentions for civil
contempt cases. Defendant Borenstein is a judge in the Superior Court.
On January 5, 2017, in the United Grand action, Plaintiff filed a notice of motion and motion for
sanctions and an ex parte application asking the court to recognize an automatic stay. (FAC ^ 44, ECF
No. 41; PI. ’s Opp’n Borenstein Mot. Dismiss at 8, ECF No. 54.) Plaintiff alleges that Defendant
Borenstein sua sponte imposed sanctions on Plaintiff for requesting sanctions in the ex parte application
without supporting law or argument. (FAC ^ 41.) Plaintiff asserts that Defendant Borenstein fabricated
For puiposes of the Motions fo Dismiss, the Court accepts as true all factual allegations in the FAC.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 2 of 7 Page ID #:1566
B3

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sana! v. McDonnell

Date

October 24, 2018

tlie record to impose sanctions against Plaintiff. Plaintiff further alleges that Defendant Borenstein; the
Court Counsel for the Superior Court; Judge Elizabeth Grimes, who sits on the Second District of the
California Court of Appeal; and several other judges are a part of a wide-ranging conspiracy within the
Superior Court to punish and disbar' Plaintiff. (Id.)
When Plaintiff did not pay the sanctions, Defendant Borenstein held Plaintiff in contempt and
ultimately sentenced him to imprisonment until he complied with the sanction orders. (FAC T| 45.) On
April 12, 2018, Plaintiff petitioned the Second District of the California Court of Appeal for (1) writ of
mandate, (2) writ of habeas corpus, and (3) an immediate stay of the contempt order. (FAC K 59-61.) On
April 23, 2018, the Court of Appeal denied Plaintiff’s request for an immediate stay of the contempt
order, and the California Supreme Court denied review of Plaintiff’s petition for an immediate stay of
the contempt order on April 25, 2018. (FAC 59.) The petition for writs of mandate and habeas corpus
remain ongoing in the Court of Appeal. (Id. )
On June 27, 2018, Plaintiff filed the instant action in this District asserting claims for (1) writ of
habeas corpus, (2) relief under 42 U.S.C. § 1983 (“§ 1983”), and (3) declaratory judgment. On June 28,
2018, the Honorable Stephen V. Wilson denied Plaintiff’s ex parte application for a temporary
restrainin g order, and on August 1, 2018, Judge Wilson denied Plaintiff’s ex parte application for a
preliminary injunction.
On August 20, 2018, Plaintiff filed a FAC alleging the same claims as the original complaint.
Shortly after, the matter was transferred to this Court.
III.

JUDICIAL STANDARD

A.

Rule 12nbim

Federal courts ar e courts of limited jurisdiction and presumptively lack jurisdiction over civil
actions. Kokkenen v. Guardian Life Ins. C. ofAm., 511 U.S. 375, 377 (1994). The party who invokes
jurisdiction bears the burden of establishing subject matter jurisdiction. Id.
A motion to dismiss under Rule 12(b)(1) may be “facial” or “factual.” See Safe Airfor Everyone
v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). In a facial attack, the challenger asserts the allegations
contained in a complaint are insufficient on their- face to invoke federal jurisdiction. Id. The court must
assume the factual allegations in the complaint are true and construe them in the light most favorable to
the plaintiff See Warren v. Fox Worldwide, Inc., 328 F.3d 1136, 1139 (9tli Cir. 2003). However, the
court need not accept as true legal conclusions pled as factual allegations. Id. A Rule 12(b)(1) motion
will be granted if, on its face, the complaint fails to allege gr ounds for federal subject matter jurisdiction
as required by Rule 8(a). See id.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 3 of 7 PagelD#:1567
B4

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell
B.

Date

October 24, 2018

Leave to Amend

If a court chooses to dismiss the complaint, it must then decide whether to grant leave to amend.
Leave to amend shall be freely given when justice so requires, but the ultimate decision to grant leave
remains “within the sound discretion of the [district] court.” Fed. R. Civ. P. 15(a); DCD Programs, Ltd.
v. Leighton, 833 F.2d 183, 185-86 (9th Cir. 1990). However, when any amendment would be futile, the
Court may dismiss the complaint with prejudice. Bonin v. Calderon, 59 F.3d 815, 845 (9th Cir. 1995).
IV.

DISCUSSION

Defendants move to dismiss all of Plaintiff’s claims for lack of subject matter jurisdiction or, in
the alternative, for failure to state a claim upon which relief can be granted. The Court addresses each
claim in turn.
A.

Claim 1: Writ of Habeas Corpus

Defendant McDonnell contends—-and Plaintiff does not dispute—that Plaintiff lacks standing to
seek a writ of habeas corpus in federal court. (Def. McDonnell’s Mot. to Dismiss at 9, ECF No. 44; Pl.’s
Opp’n McDonnell Mot. Dismiss at 5, ECF No. 53.) Indeed, 28 U.S.C. § 2254, which governs habeas
corpus relief, requires that a prisoner seeking habeas relief be “in custody.” 28 U.S.C. § 2254(a). Since
Plaintiff is not currently in custody, Plaintiff lacks standing to bring a habeas corpus claim.
Accordingly, the Court DISMISSES Plaintiff’s claim for writ of habeas corpus.
B.

Claims 2 and 3: Injunctive and Declaratory Relief under 42 U.S.C. 8 1983

In his second and third claims,2 Plaintiff seeks an order enjoining the enforcement of Defendant
Borenstein’s contempt order. Plaintiff also seeks declaratory judgment stating that the contempt hear ing
and the subsequent petition proceedings in state court violated his civil rights. The Court addresses each
in turn.
1.

Injunctive Relief

Plaintiff seeks preliminary injunctive relief staying the enforcement of Defendant Borenstein’s
contempt order. After Defendant Borenstein found Plaintiff in contempt, but prior to the instant action,
Plaintiff filed—in the Second District of the California Court of Appeal—petitions for wr it of habeas
corpus, writ of mandate, and a stay of the contempt order. The Court of Appeal denied Plaintiff’s request
for a stay on the contempt order. Plaintiff then petitioned the California Supreme Court, which denied
2 Since Plaintiffs second and third claims for declaratory judgment are seemingly identical, the Court addresses the claims
together.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 3 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 4 of 7 Page ID #:1568
B5

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

review. Therefore, judgment on Plaintiff’s request for a stay of the contempt order is final in state court.
The Rooker-Feldman doctrine bars federal district courts from reviewing a state court’s final
judgment. Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923); District of Columbia Court ofAppeals v.
Feldman, 460 U.S. 462 (1983). This doctrine applies to cases where the state court judgment was
rendered before the federal proceeding commenced. Exxon Mobil Corp. v. Saudi Basic Industries Corp.,
544 U.S. 280,284 (2005). Here, the California Supreme Court denied Plaintiff’s petition for a stay of the
contempt order on April 25,2018. Plaintiff filed the Complaint in the instant action in federal court on
June 27, 2018. As such, Plaintiff’s request for a stay of the contempt order was final before Plaintiff
commenced this federal proceeding. The Court is therefore barred by the Rooker-Feldman doctrine from
exercising jurisdiction as to Plaintiff’s request for a stay of the contempt order.
2.

Declaratory Judgment

Plaintiff also seeks declaratory relief under § 1983, requesting that the Court declare: (1)
Defendant Borenstein and other co-conspirators are barred from conducting any legal proceedings
involving Plaintiff; (2) Plaintiff does not have any feasible means of litigating his state or constitutional
claims in United Grand before Defendant Borenstein, the Second District of the California Court of
Appeal, or other attorneys represented by the Coin! Counsel for the Superior Couit; (3) Plaintiff does
not have a meaningful right to be heard in the state couit proceedings because his due process rights
have not been and likely will not be met; and (4) it is unlawful to imprison Plaintiff until he has an
opportunity to be heard by an impartial tribunal. (FAC at 34—36.)3
Defendants contend that the Court should dismiss Plaintiff’s declaratory judgment claims under
the Younger abstention doctrine. It is well-established that federal courts should abstain from litigation
which implicates issues that ar e the subject of an ongoing state criminal prosecution. Younger v. Harris,
401 U.S. 37, 45 (1971). The United States Supreme Comi has extended the Younger doctrine to civil
actions as well. See Huffman v. Pusue, Ltd., 420 U.S. 592, 611—12 (1975). Thus, federal courts abstain
from state court proceedings under Younger in three “exceptional circumstances” that involve important
state interests: (1) state criminal prosecutions; (2) civil enforcement proceedings; and (3) “civil
proceedings involving certain orders that are uniquely in furtherance of the state courts’ ability to
perform their judicial functions.” Sprint Comm’ns, Inc. v. Jacobs, 571 U.S. 69, 73 (2013) (citing New
Orleans Public Service, Inc. v. Council of City ofNew Orleans, 491 U.S. 350, 367-68 (1989)).
In a § 1983 action, Younger principles apply where (1) the existence of an ongoing state judicial
proceeding; (2) the implication of an important state interest; (3) whether there is an adequate
opportunity to raise constitutional challenges in the state court proceeding; and (4) whether the federal
action would enjoin the state proceeding. Logan v. U.S. Bank Nat. Ass ’n, 722 F.3d 1163, 1167 (9th Cir.
3 Plaintiffs declaratory judgment includes several parties not presently before the Court. The Court therefore lacks
jurisdiction to declare anything as to those parties. Accordingly, the Court analyzes Plaintiffs declaratory judgment claims
only as to Defendant Borenstein and Defendant McDonnell.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 4 of 7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 5 of 7 PagelD#:1569
B6

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

2013).
Here, the Court must apply Younger principles to Plaintiffs declaratory judgment claims.
Plaintiff essentially seeks declaratory judgment finding that the state contempt proceedings violated his
civil rights and declaring that Defendant Borenstein be disqualified from cases involving Plaintiff
because ofhis bias against Plaintiff. Based on the facts, as alleged in the FAC, all four Younger
principles to apply in the instant action.
First, Plaintiffs petitions for writ of mandate and writ of habeas corpus are currently ongoing at
the California Court of Appeal, and the United Grand matter is also ongoing in Superior Court.
Second, the declaratory relief that Plaintiff seeks involves two important state interests. State
contempt proceedings “lie at the core of the state’s administration of justice.” Juidice v. Vail, 430 U.S.
327, 335 (1977). The state court also has significant interest in determining when a state court judge
should be disqualified.
Third, Plaintiff had, and still has, an adequate opportunity to raise his constitutional challenges in
the state court proceedings. Plaintiff need not have actually raised his constitutional challenges in those
proceedings. Id. at 337. Plaintiff “need be accorded only an opportunity” to do so, and “failure to avail
[himself] of such opportunities does not mean that the state procedures were inadequate.” Id. Plaintiff
had an opportunity to raise his constitutional challenges in the Superior Court contempt hearing.
Plaintiff can also raise his constitutional challenges in the ongoing Court of Appeal proceedings, the
California Supreme Court, and the United States Supreme Court.
Fourth, Plaintiff’s request for declaratory relief would effectively enjoin the state proceedings.
The Younger abstention doctrine applies to requests for declaratory judgment when “a declaratory
judgment will result in precisely the same interference with and disraption of state proceedings” as an
injunction. Samuels v. Mackell, 401 U.S. 66 (1971). Issuing a declaratory judgment to the extent
requested by Plaintiff would enjoin Defendant Borenstein from presiding over cases involving Plaintiff,
and any declaratory judgement against Defendant McDonnell would enjoin the enforcement of the
contempt order and bench warrant.
Plaintiff contends that he does not have an adequate opportunity to raise his constitutional
challenges in state court because Defendant Borenstein and Judge Grimes are biased against him.
Plaintiff therefore argues that the Gibson v. Berryhill exception to Younger applies here. In Gibson v.
Berryhill, the Supreme Court created an exception to Younger, enjoining state administrative
proceedings because the defendants presiding over the plaintiffs’ proceedings were biased against the
plaintiffs. 411 U.S. 564, 578-79 (1972) (enjoining Alabama’s Board of Optometiy’s disqualification
healing against individual licensed optometrists). The Supreme Court explained that “those with
substantial pecuniary interest in legal proceedings should not adjudicate” those disputes. Id. at 579
(finding that defendants had substantial financial interest in disqualifying plaintiffs).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 5 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 6 of 7 Page ID #:1570
B7

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-CV-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

Here, Plaintiff conclusively alleges that Defendant Borenstein, Court Counsel for the Superior
Court, and Judge Grimes ar e biased against him. Plaintiff alleges that these individuals and several
others are involved in an elaborate conspiracy to punish and disbar him. As to Defendants Borenstein
and McDonnell specifically, however, Plaintiff fails to allege that they have personal or financial interest
in his demise. While Plaintiff alleges that Judge Grimes had a direct interest in a previous lawsuit
involving Plaintiff and that Superior Court Judge David Sotelo had been promised a transfer if he
punished Plaintiff, Plaintiff does not allege that Defendant Borenstein or Defendant McDonnell will
benefit personally or financially for harassing or punishing him. Plaintiff merely alleges that Judge
Sotelo “worked with Judge Mark Borenstein to craft a plan,” and that Plaintiff was denied constitutional
rights “based on animus against [Plaintiff] by both Borenstein and Grimes.” (FAC 44, 69.) Because
the Court need not accept as true legal conclusions pled as factual allegations, the Court finds that
Plaintiff does not sufficiently plead that Defendant Borenstein was biased against Plaintiff. See Warren
v. Fox Family Worldwide, Inc., 328 F.3d 1136, 1139 (9th Cir. 2003). Therefore, the Gibson v. Berryhill
exception to Younger does not apply.
Plaintiff also contends that the Dombrowski v. Pfister exception to the Younger abstention
doctrine applies to the instant action. 380 U.S. 479 (1965). Dombrowski, however, dealt with overbroad
state statutes. Id. at 1118. Here, Plaintiff does not allege that a state statute is overly broad, vague, or
unconstitutional. The Dombrowski exception therefore does not apply.
For the foregoing reasons, the Court finds that the Younger principles apply to the instant action.
The Court must abstain from healing Plaintiff’s claims for declaratory judgment. Accordingly, the Court
DIMISSES Plaintiff’s second and third claims.
•

Since the Court finds that it lacks subject matter jurisdiction over Plaintiff’s claims, it need not
address Defendants’ arguments for immunity or dismissal under Rule 12(b)(6).
C.

Leave to Amend

As explained above, leave to amend is denied only if it is clear that amendment would be futile,
and that “the deficiencies of the complaint could no,t be cured by amendment.” Noll v. Carlson, 809 F.2d
1446,1448 (9th Cir. 1987). Since Plaintiff’s state court petition is still ongoing, he can raise his
constitutional claims against Defendants in those actions. Therefore, even if the Court grants leave to
amend, any amendment would be futile. Younger will still require the Court to abstain and dismiss
Plaintiff’s claims.
As such, the Court DISMISSES Plaintiff’s FAC without leave to amend.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 7 of 7 PagelD#:1571
B8

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-CV-05663-RGK-E

Title

Sanai v. McDonnell

V.

Date

October 24, 2018

CONCLUSION

In light of the foregoing, the Court GRANTS Defendants’ Motions to Dismiss (DE 44, 45) and
DISMISSES Plaintiffs FAC. Plaintiffs Motion to Vacate (DE 58) is DENIED as moot.
IT IS SO ORDERED.

Initials of Preparer

1

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 7 of7

C1

APPENDIX C

9

Case: 19-55427, 08/24/2020, ID: 11799730, DktEntry: 26, Page 1 of 1
C2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

CYRUS MARK SANAI, an individual,
Plaintiff-Appellant,
v.

D. JOSHUA STAUB, an individual; et al.,

No. 19-55427
D.C. No. 2:18-cv-02136-RGK-E
Central District of California,
Los Angeles
ORDER

Defendants-Appellees.
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Sanai’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 25) are denied.
Sanai’s request for judicial notice (Docket Entry No. 25) is denied.
No further filings will be entertained in this closed case.

D1

APPENDIX D

Case: 19-55429, 08/24/2020, ID: 11799762, DktEntry: 48, Page 1 of 1
D2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 24 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

CYRUS MARK SANAI, an individual,
Plaintiff-Appellant,
v.

MARK BORENSTEIN, an individual;
DOES, 1 through 10, inclusive,

No. 19-55429
D.C. No. 2:18-cv-05663-RGK-E
Central District of California,
Los Angeles
ORDER

Defendants-Appellees.
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Sanai’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 47) are denied.
Sanai’s request for judicial notice (Docket Entry No. 47) is denied.
No further filings will be entertained in this closed case.

E1

APPENDIX E

Case 2:18-cv-02136-RGK-E Document 26 Filed 01/25/19 Page 1 of 2 Page ID #:148
E2

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:18-cv-02136-RGK-E

Title

Sanai v. Staub, et al.

Date

January 25, 2019

Present: The Honorable R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE
Sharon L. Williams

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:
I.

(IN CHAMBERS) Order Re: Plaintiffs Motion to Vacate Order (DE 23)

INTRODUCTION and FACTUAL BACKGROUND

On March 14, 2018, Cyrus Sanai (“Plaintiff’) filed an action in this Court against Defendants D.
Joshua Staub, Frederick Bennett, Phy Cam Nguyen, and Christopher Mclntire (collectively,
“Defendants”) seeking (1) relief under 42 U.S.C. § 1983 and (2) declaratory judgment. Plaintiff did not
file proofs of service.
On October 24, 2018, the Court ordered Plaintiff to show cause as to why the case should not be
dismissed for lack of prosecution. On November 5, 2018, after considering Plaintiff’s response, the
Court dismissed the case finding no good cause for Plaintiffs failure to prosecute.
Presently before the Comt is Plaintiff’s Motion for to Vacate Order pursuant to Federal Rule
Civil Procedure 60. Plaintiff requests that the Comt vacate its Order dismissing the case for lack of
prosecution. For the following reasons, the Comt DENIES the motion.
II.

JUDICIAL STANDARD

A comt has discretion to reconsider a judgment or order pursuant to Federal Rule of Civil
Procedure 60. Sch. Disi. No. 1JMultnomah Cty., Or. v. ACandS, Inc., 5 F.3d 1255, 1262 (9th Cir. 1993).
Absent unusual circumstances, reconsideration is only appropriate where the comt is presented with
newly discovered evidence, the court committed clear error or the decision was manifestly unjust, or
there has been an intervening change in controlling law. Id. at 1263.
Local Rule 7-18 supplements the Federal Rules and states:
A motion for reconsideration of the decision on any motion may be made only on the
grounds of (a) a material difference in fact or law from that presented to the Court before
such decision that in the exercise of reasonable diligence could not have been known to the
party moving for reconsideration at the time of such decision, or (b) the emergence of new
material facts or a change of law occurring after the time of such decision, or (c) a manifest
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 2

Case 2:18-cv-02136-RGK-E Document 26 Filed 01/25/19 Page 2 of 2 Page ID #:149
E3

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:18-cv-02136-RGK-E

Title

Sanai v. Staub, et al.

; Date

January 25,2019

showing of a failure to consider material facts presented to the Court, before such decision.
No motion for reconsideration shall in any manner repeat any oral or written argument
made in support of or in opposition to the original motion.
C.D. Cal. L.R. 7-18.

m.

DISCUSSION

Having reviewed Plaintiffs motion and supporting declaration, the Court denies Plaintiffs
motion because Plaintiff fails to introduce any new facts, new law, or any other compelling reason to
justify reconsideration.
Reconsideration is appropriate only where (1) the Court is presented with newly discovered
evidence, (2) the Com! committed clear error or the initial decision was manifestly unjust, or (3) there
has been an intervening change in controlling law. Dixon v. Wallowa Ct}>., 336 F.3d 1013, 1022 (9th Cir.
2003) (internal citation omitted); see also Fed. R. Civ. P. 60.
In his motion, Plaintiff takes issue with the Court’s order denying Plaintiffs request that the
Coiut disclose certain facts relating to its relationship with Defendants. Plaintiff also takes issue with the
Honorable Christina A. Snyder’s denial of Plaintiff s Ex Parte Application for Recusal. However,
Plaintiff fails to introduce new evidence or show that the Court clearly erred in dismissing Plaintiffs
case for lack of prosecution. Plaintiff, instead, merely re-argues that the Court should release certain
documents or exercise recusal.
Accordingly, the Court finds that Plaintiff fails to pr esent any justifiable reason to warrant
vacatur of the Court’s dismissal for lack of prosecution.
V.

CONCLUSION
For the foregoing reasons, the Court DENIES Plaintiffs Motion to Vacate Order (DE 23).
IT IS SO ORDERED.

Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of2

F1

APPENDIX F

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 1 of 7 Page ID #:1565
F2

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24,2018

Present: The Honorable R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE
Sharon L. Williams (Not Present)

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendant:

Not Present

Not Present

Proceedings:

I.

(IN CHAMBERS) ORDER re: Defendant McDonnell’s Motion to Dismiss
(DE 44) and Defendant Borenstein’s Motion to Dismiss (DE 45)

INTRODUCTION

Plaintiff is currently subject to a contempt order in Superior Court of Los Angeles County
(“Superior Court”), and a bench warrant has been issued for his arrest. Following the contempt hearing,
Plaintiff filed petitions for wr it of mandate, writ of habeas corpus, and a stay of the contempt order in
the California Court of Appeal. Plaintiff alleges that these proceedings are ongoing. Nevertheless,
Plaintiff brings this action against Superior Court Judge Mark Borenstein (“Borenstein”) and Los
Angeles County Sheriff James McDonnell (“McDonnell”) (collectively, “Defendants”) seeking an
injunction that would stay enforcement of the contempt order. Plaintiff also seeks declaratory judgment
that the state court proceedings against him violated Iris due process rights.
Presently before the Court are Defendants’ Motions to Dismiss Plaintiff’s First Amended
Complaint (“FAC”) pursuant to Federal Rule of Civil Procedure (“Rule”) 12(b)(1) and Rrrle 12(b)(6).
For the following reasons, the Comt GRANTS the motions.
H.

FACTUAL BACKGROUND l

Plaintiff is the attorney of record for the plaintiff in an ongoing state comt matter captioned as
United Grand Corp. v. Malibu Hillbillies, LLC, No. BC 554172 (L.A. Super. Ct. Aug. 8, 2014) (“United
Grand”). Defendant McDonnell is a Los Angeles County Sheriff in charge of detentions for civil
contempt cases. Defendant Borenstein is a judge in the Superior Comt.
On January 5, 2017, in the United Grand action, Plaintiff filed a notice of motion and motion for
sanctions and an ex parte application asking the comt to recognize an automatic stay. (FAC ^ 44, ECF
No. 41: PL’s Opp’n Borenstein Mot. Dismiss at 8, ECF No. 54.) Plaintiff alleges that Defendant
Borenstein sua sponte imposed sanctions on Plaintiff for requesting sanctions in the ex parte application
without supporting law or argument. (FAC 41.) Plaintiff asserts that Defendant Borenstein fabricated
For purposes of the Motions to Dismiss, the Court accepts as true all factual allegations in the FAC.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 2 of 7 Page ID #:1566
F3

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24,2018

the record to impose sanctions against Plaintiff. Plaintiff further alleges that Defendant Borenstein; the
Court Counsel for the Superior Court; Judge Elizabeth Grimes, who sits on the Second District of the
California Court of Appeal: and several other judges are a part of a wide-ranging conspiracy within the
Superior Court to punish and disbar Plaintiff. (Id.)
When Plaintiff did not pay the sanctions, Defendant Borenstein held Plaintiff in contempt and
ultimately sentenced him to imprisonment until he complied with the sanction orders. (FAC ^ 45.) On
April 12, 2018, Plaintiff petitioned the Second District of the California Court of Appeal for (1) writ of
mandate, (2) writ of habeas corpus, and (3) an immediate stay of the contempt order. (FAC 59-61.) On
April 23, 2018, the Court of Appeal denied Plaintiffs request for an immediate stay of the contempt
order, and the California Supreme Court denied review of Plaintiff s petition for an immediate stay of
the contempt order on April 25, 2018. (FAC ^ 59.) The petition for writs of mandate and habeas corpus
remain ongoing in the Court of Appeal. (Id.)
On June 27, 2018, Plaintiff filed the instant action in this District asserting claims for (1) writ of
habeas corpus, (2) relief under 42 U.S.C. § 1983 (“§ 1983”), and (3) declaratory judgment. On June 28,
2018, the Honorable Stephen V. Wilson denied Plaintiffs ex parte application for a temporary
restraining order, and on August 1, 2018, Judge Wilson denied Plaintiffs ex parte application for a
preliminary injunction.
On August 20, 2018, Plaintiff filed a FAC alleging the same claims as the original complaint.
Shortly after, the matter was transferred to this Court.
in.

JUDICIAL STANDARD
A.

Rule 12(WU

Federal comts ar e courts of limited jurisdiction and presumptively lack jurisdiction over civil
actions. Kokkenen v. Guardian Life Ins. C. ofAm., 511 U.S. 375, 111 (1994). The party who invokes
jurisdiction bears the burden of establishing subject matter jurisdiction. Id.
A motion to dismiss under Rule 12(b)(1) may be “facial” or “factual.” See Safe Airfor Everyone
v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). In a facial attack, the challenger asserts the allegations
contained in a complaint are insufficient on then face to invoke federal jurisdiction. Id. The comt must
assume the factual allegations in the complaint are true and construe them in the light most favorable to
the plaintiff. See Warren v. Fox Worldwide, Inc., 328 F.3d 1136, 1139 (9th Cir. 2003). However, the
comt need not accept as true legal conclusions pled as factual allegations. Id. A Rule 12(b)(1) motion
will be granted if, on its face, the complaint fails to allege grounds for federal subject matter jurisdiction
as requir ed by Rule 8(a). See id.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 3 of 7 PagelD#:1567
F4

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell
B.

Date

October 24, 2018

Leave to Amend

If a court chooses to dismiss the complaint, it must then decide whether to gi ant leave to amend.
Leave to amend shall be freely given when justice so requires, but the ultimate decision to grant leave
remains “within the sound discretion of the [district] court.” Fed. R. Civ. P. 15(a); DCD Programs, Ltd.
v. Leighton, 833 F.2d 183,185-86 (9th Cir. 1990). However, when any amendment would be futile, the
Court may dismiss the complaint with prejudice. Bonin v. Calderon, 59 F.3d 815, 845 (9th Cir. 1995).
IV.

DISCUSSION

Defendants move to dismiss all of Plaintiffs claims for lack of subject matter jurisdiction or, in
the alternative, for failure to state a claim upon which relief can be granted. The Court addresses each
claim in turn.
A.

Claim 1: Writ of Habeas Corpus

Defendant McDonnell contends—and Plaintiff does not dispute—that Plaintiff lacks standing to
seek a writ of habeas corpus in federal court. (Def. McDonnell’s Mot. to Dismiss at 9, ECF No. 44; Pl.’s
Opp’n McDonnell Mot. Dismiss at 5, ECF No. 53.) Indeed, 28 U.S.C. § 2254, which governs habeas
corpus relief, requires that a prisoner seeking habeas relief be “in custody.” 28 U.S.C. § 2254(a). Since
Plaintiff is not currently in custody. Plaintiff lacks standing to bring a habeas corpus claim.
Accordingly, the Court DISMISSES Plaintiff’s claim for writ of habeas corpus.
B.

Claims 2 and 3: Injunctive and Declaratory Relief under 42 U.S.C. S 1983

In his second and third claims,2 Plaintiff seeks an order enjoining the enforcement of Defendant
Borenstein’s contempt order. Plaintiff also seeks declaratory judgment stating that the contempt hearing
and the subsequent petition proceedings in state court violated his civil rights. The Court addresses each
in turn.
1.

Injunctive Relief

Plaintiff seeks preliminary injunctive relief staying the enforcement of Defendant Borenstein’s
contempt order. After Defendant Borenstein found Plaintiff in contempt, but prior to the instant action,
Plaintiff filed—in the Second District of the California Court of Appeal—petitions for writ of habeas
corpus, writ of mandate, and a stay of the contempt order. The Court of Appeal denied Plaintiffs request
for a stay on the contempt order. Plaintiff then petitioned the California Supreme Court, which denied
2 Since Plaintiff’s second and third claims for declaratory judgment are seemingly identical, the Court addr esses the claims
together.

*

CV-90 (06/04)

erVTL MENTjTES - GENERAL

Page 3 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 4 of 7 PagelD#:1568
F5

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-CV-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

review. Therefore, judgment on Plaintiff’s request for a stay of the contempt order is fmal in state court.
The Rooker-Feldman doctrine bars federal district courts from reviewing a state court’s final
judgment. Rookerv. Fidelity Trust Co., 263 US. 413 (1923); District of Columbia Court ofAppeals v.
Feldman, 460 U.S. 462 (1983). This doctrine applies to cases where the state court judgment was
rendered before the federal proceeding commenced. Exxon Mobil Corp.v. Saudi Basic Industries Corp.,
544 U.S. 280, 284 (2005). Here, the California Supreme Court denied Plaintiffs petition for a stay of the
contempt order on April 25,2018. Plaintiff filed the Complaint in the instant action in federal court on
lime 27, 2018. As such, Plaintiff’s request for a stay of the contempt order was final before Plaintiff
commenced this federal proceeding. The Court is therefore barred by the Rooker-Feldman doctr ine from
exercising jurisdiction as to Plaintiff’s request for a stay of the contempt order.
2.

Declaratory Judgment

Plaintiff also seeks declaratory relief under § .1983, requesting that the Court declare: (1)
Defendant Borenstein and other co-conspirators are barred from conducting any legal proceedings
involving Plaintiff; (2) Plaintiff does not have any feasible means of litigating his state or constitutional
claims in United Grand before Defendant Borenstein, the Second District of the California Court of
Appeal, or other attorneys represented by the Court Counsel for the Superior Court; (3) Plaintiff does
not have a meaningful right to be heard in the state court proceedings because Iris due process rights
have not been and likely will not be met; and (4) it is unlawful to imprison Plaintiff until he has an
opportunity to be heard by an impartial tribunal. (FAC at 34—36.)3
Defendants contend that the Court should dismiss Plaintiff’s declaratory judgment claims under
the Younger abstention doctrine. It is well-established that federal courts should abstain from litigation
which implicates issues that are the subject of an ongoing state criminal prosecution. Younger v. Harris,
401 U.S. 37, 45 (1971). The United States Supreme Court has extended the Younger doctrine to civil
actions as well. See Huffman v. Pusue, Ltd., 420 U.S. 592, 611-12 (1975). Thus, federal courts abstain
from state court proceedings under Younger in three “exceptional circumstances” that involve important
state interests: (1) state criminal prosecutions; (2) civil enforcement proceedings; and (3) “civil
proceedings involving certain orders that are uniquely in furtherance of the state courts’ ability to
perform then judicial functions.” Sprint Comm‘ns, Inc. v. Jacobs, 571 U.S. 69, 73 (2013) (citing New
Orleans Public Service, Inc. v. Council of City ofNew Orleans, 491 U.S. 350, 367—68 (1989)).
In a § 1983 action, Younger principles apply where (1) the existence of an ongoing state judicial
proceeding; (2) the implication of an important state interest; (3) whether there is an adequate
opportunity to raise constitutional challenges in the state court proceeding; and (4) whether the federal
action would enjoin the state proceeding. Logan v. U.S. Bank Nat. Ass ’n, 722 F.3d 1163, 1167 (9th Cir.
3 Plaintiff’s declaratory judgment includes several parties not presently before the Court. The Court therefore lacks
jurisdiction to declare anything as to those parties. Accordingly, the Court analyzes Plaintiff’s declaratory judgment claims
only as to Defendant Borenstein and Defendant McDonnell.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 4 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 5 of 7 Page ID #:1569
F6

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

2013).
Here, the Court must apply Tozwger principles to Plaintiffs declaratory judgment claims.
Plaintiff essentially seeks declaratory judgment finding that the state contempt proceedings violated his
civil rights and declaring that Defendant Borenstein be disqualified from cases involving Plaintiff
because of his bias against Plaintiff. Based on the facts, as alleged in the FAC, all four- Younger
principles to apply in the instant action.
First, Plaintiffs petitions for writ of mandate and writ of habeas corpus are currently ongoing at
the California Court of Appeal, and the United Grand matter is also ongoing in Superior Court.
Second, the declaratory relief that Plaintiff seeks involves two important state interests. State
contempt proceedings “lie at the core of the state’s administration ofjustice.” Juidice v. Vail, 430 U.S.
327, 335 (1977). The state court also has significant interest in determining when a state court judge
should be disqualified.
Third, Plaintiff had, and still has, an adequate opportunity to raise his constitutional challenges in
the state court proceedings. Plaintiff need not have actually raised his constitutional challenges in those
proceedings. Id. at 337. Plaintiff “need be accorded only an opportunity” to do so, and “failure to avail
[himself] of such opportunities does not mean that the state procedures were inadequate.” Id. Plaintiff
had an opportunity to raise his constitutional challenges in the Superior Comt contempt healing.
Plaintiff can also raise his constitutional challenges in the ongoing Court of Appeal proceedings, the
California Supreme Comt, and the United States Supreme Court.
Fourth, Plaintiffs request for declaratory relief would effectively enjoin the state proceedings.
The Younger abstention doctrine applies to requests for declaratory judgment when “a declaratory
judgment will result in precisely the same interference with and disruption of state proceedings” as an
injunction. Samuels v. Macke.ll, 401 U.S. 66 (1971). Issuing a declaratory judgment to the extent
requested by Plaintiff would enjoin Defendant Borenstein from presiding over cases involving Plaintiff,
and any declaratory judgement against. Defendant McDonnell would enjoin the enforcement of the
contempt order and bench warrant.
Plaintiff contends that he does not have an adequate opportunity to raise his constitutional
challenges in state court because Defendant Borenstein and Judge Grimes are biased against him.
Plaintiff therefore argues that the Gibson v. Berryhill exception to Younger applies here. In Gibson v.
Berryhi11, the Supreme Comt created an exception to Younger, enjoining state administrative
proceedings because the defendants presiding over the plaintiffs’ proceedings were biased against the
plaintiffs. 411 U.S. 564, 578-79 (1972) (enjoining Alabama’s Board of Optometry’s disqualification
hearing against individual licensed optometrists). The Supreme Comt explained that “those with
substantial pecuniary interest in legal proceedings should not adjudicate” those disputes. Id. at 579
(finding that defendants had substantial financial interest in disqualifying plaintiffs).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 5 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 6 of 7 Page ID #:1570
F7

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-CV-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

Here, Plaintiff conclusively alleges that Defendant Borenstein, Court Counsel for the Superior
Court, and Judge Grimes are biased against him. Plaintiff alleges that these individuals and several
others are involved in an elaborate conspiracy to punish and disbar him. As to Defendants Borenstein
and McDonnell specifically, however, Plaintiff fails to allege that they have personal or financial interest
in his demise. While Plaintiff alleges that Judge Grimes had a direct interest in a previous lawsuit
involving Plaintiff and that Superior Court Judge David Sotelo had been promised a transfer if he
punished Plaintiff, Plaintiff does not allege that Defendant Borenstein or Defendant McDonnell will
benefit personally or financially for harassing or punishing him. Plaintiff merely alleges that Judge
Sotelo “worked with Judge Mark Borenstein to craft a plan,” and that Plaintiff was denied constitutional
rights “based on animus against [Plaintiff] by both Borenstein and Grimes.” (FAC 44, 69.) Because
the Court need not accept as true legal conclusions pled as factual allegations, the Court finds that
Plaintiff does not sufficiently plead that Defendant Borenstein was biased against Plaintiff See Warren
v. Fox Family Worldwide, Inc., 328 F.3d 1136, 1139 (9th Cir. 2003). Therefore, the Gibson v. Berryhill
exception to Younger does not apply.
Plaintiff also contends that the Dombrowski v. Pfister exception to the Younger abstention
doctrine applies to the instant action. 380 U.S. 479 (1965). Dombrowski, however, dealt with overbroad
state statutes. Id. at 1118. Here, Plaintiff does not allege that a state statute is overly broad, vague, or
unconstitutional. The Dombrowski exception therefore does not apply.
For the foregoing reasons, the Court finds that the Younger principles apply to the instant action.
The Court must abstain from hearing Plaintiff’s claims for declaratory judgment. Accordingly, the Court
DIMISSES Plaintiff’s second and third claims.
Since the Court finds that it lacks subject matter jurisdiction over Plaintiff’s claims, it need not
address Defendants’ arguments for immunity or dismissal under Rule 12(b)(6).
C.

Leave to Amend

As explained above, leave to amend is denied only if it is clear that amendment would be futile,
and that “the deficiencies of the complaint could not be cured by amendment.” Noll v. Carlson, 809 F.2d
1446, 1448 (9th Cir-. 1987). Since Plaintiff’s state court petition is still ongoing, he can raise his
constitutional claims against Defendants in those actions. Therefore, even if the Court grants leave to
amend, any amendment would be futile. Younger will still require the Court to abstain and dismiss
Plaintiff’s claims.
As such, the Court DISMISSES Plaintiff’s FAC without leave to amend.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 7 of 7 PagelD#:1571
F8

JS-6

/

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-CV-05663-RGK-E

Title

Sanai v. McDonnell

V.

Date

October 24, 2018

CONCLUSION

In light of the foregoing, the Court GRANTS Defendants’ Motions to Dismiss (DE 44, 45) and
DISMISSES Plaintiff’s FAC. Plaintiff’s Motion to Vacate (DE 58) is DENIED as moot.
IT IS SO ORDERED.

Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 7 of7

G1

APPENDIX G

Case 2:18-cv-05663-RGK-E Document 65 Filed 10/17/18 Page 1 of 1 PagelD#:1511
G2

)

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
; Title

2:18-cv-05663-RGK-E

Date

October 17, 2018

Sanal v. McDonnell

j*

\ Present: The Honorable R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE
Sharon L. Williams

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

(IN CHAMBERS) Order Re: Plaintiff’s Ex Parte Application (DE 62),
Amended Ex Parte Application (DE 63), and Amended Ex Parte
Application (DE 64)

On October 16, 2018, Plaintiff Cyrus Sanai (“Plaintiff’) filed an ex parte application seeking
various judicial disclosures. On October 17, Plaintiff filed two amended ex parte applications seeking
the same. Plaintiffs ex parte applications (DE 62, DE 63, and DE 64) are hereby DENIED.

IT IS SO ORDERED.

Initials of Preparer

to

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of I

H1

APPENDIX H

*

Case 2:18-cv-02136-RGK-E Document 15 Filed 03/20/18 Page 1 of 3 Page ID #:87
H2

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.
Title

‘O’
CIVIL MINUTES - GENERAL
2:18 -cv-02136-RGK(Ex)
Date ; March 20, 2018
CYRUS SANAI v. D. JOSHUA STAUB ET AL.

Present: The Honorable

CHRISTINA A. SNYDER
Not Present
Court Reporter / Recorder

Catherine Jeang
Deputy Clerk
Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

I.

N/A
Tape No.

(IN CHAMBERS) - PLAINTIFF’S SECOND EX PARTE
APPLICATION FOR RECUSAL AND ALTERNATIVE MOTION
FOR RECONSIDERATION (Dkt. 13, filed March 18, 2018)

INTRODUCTION

Plaintiff Cyrus Sanai moves the Court to reconsider its March 16, 2018 order
denying the requested recusal of the Honorable R. Gary Klausner in the matter of Cyrus
Sanai v. D. Joshua Staub et al, No. 2:18-cv-02136-RGK-E. Dkt. 13 (“Motion”). Sanai
moves again for recusal under 28 U.S.C. section 455 and requests reconsideration under
Local Rule 7-18.
The case before Judge Klausner concerns Sanai’s request for declaratory judgment
under 42 U.S.C. § 1983. Dkt. 1 (“Compl.”). In particular, Sanai requests declaratory
judgment that Sanai has the “right to attack” Los Angeles County Superior Court Judge
Mark A. Borenstein’s orders and his conduct in certain contempt proceedings against
Sanai, on the grounds that Judge Borenstein lacks impartiality under Cal. Code Civ. P. §
170.1 et seq. See Compl.
II.

DISCUSSION

Local Rule 7-18 sets forth the grounds upon which the Court may reconsider the
decision on any motion:
A motion for reconsideration of the decision on any motion may be made
only on the grounds of: (a) a material difference in fact or law from that
presented to the Court before such decision that in the exercise of reasonable
diligence could not have been known to the party moving for reconsideration
CV-2136 (03/18)

CIVIL MINUTES - GENERAL

Page I of 3

Case 2:18-cv-02136-RGK-E Document 15 Filed 03/20/18 Page 2 of 3 PagelD#:88
H3

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

m

Case No.
Title

CIVIL MINUTES - GENERAL
Date
2:18-cv-02136-RGK(Ex)

‘O’

March 20, 2018

CYRUS SANAI v. D. JOSHUA STAUB ET AL.

at the time of such decision, or (b) the emergence of new material facts or a
change of law occurring after the time of such decision, or (c) a manifest
showing of a failure to consider material facts presented to the Court before
such decision. No motion for reconsideration shall in any manner repeat any
oral or written argument made in support of or in opposition to the original
motion.
C.D. Cal. L.R. 7-18.
In support of his request for reconsideration, Sanai contends that he searched the
Pacer system after the March 16, 2018 order for cases involving Judge Klausner. Motion
at 5. Sanai states that “[w]hen he did so again, he accidentally put in a different search
name, looking for ‘Gary Klausner’ instead of ‘Robert Gary Klausner.’ This accident
proved fortuitous, because there are at least three federal proceedings in which Judge
Klausner, while a Superior Court judge, was sued in [federal] court, but under the name
‘Gary Klausner.’ ” Id. Sanai attaches copies of the docket sheets from these three cases
and contends that these cases demonstrate that Frederick Bennett represented Judge
Klausner personally.1 Id. Upon review of the docket sheets for these federal
proceedings, it appears that Frederick Bennett represented Judge Klausner and numerous
other judicial officers of the Los Angeles County Superior Court in three multi-defendant
federal proceedings. See Dkt. 13 & Exs. A, B, C.
Sanai contends that the instant motion relies on different factual grounds than the
original motion to disqualify Judge Klausner, so this is “arguably [] not a motion for
reconsideration.” Id. at 5-6. Sanai further contends that even if the instant motion is a
motion for reconsideration, 28 U.S.C. section 455(e) “does not permit waiver of a
grounds of disqualification except under strict conditions,” and that “no waiver of the
right to disqualify [Judge Klausner] can have occurred based on the relationship until full
disclosure is made” regarding Judge Klausner’s relationship to Bennett. Id. at 6. Sanai
argues that restrictions on reconsideration set forth in Local Rule 7-18 are “overridden”
by 28 U.S.C. section 455(e).
Sanai seeks to disqualify Judge Klausner because of Judge Klausner’s purported
familiarity with Bennett, who is named as a defendant in Sanai’s underlying complaint.
Dkt. 8 at 2. Bennett was Court Counsel of the Los Angeles County Superior Court from
1998 to date, and was former County Counsel who represented the Los Angeles Superior
Court through 2002. Id
CV-2136 (03/18)

CIVIL MINUTES - GENERAL

Page 2 of 3

Case 2:18-cv-02136-RGK-E Document 15 Filed 03/20/18 Page 3 of 3 PagelD#:89
H4

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.
Title

CIVIL MINUTES - GENERAL
2:18 -cv-02136-RGK(Ex)
Date

‘O’

March 20, 2018

CYRUS SANAI v. D. JOSHUA STAUB ET AL.

Last, Sanai asserts that this motion also satisfies the standard for reconsideration
insofar as reasonable diligence—“a search of Pacer in the Central District and Ninth
Circuit under Judge Klausner’s true name”—did not yield any lawsuits in which Judge
“Robert Gary Klausner” was sued. Id. at 6. Sanai also contends that this Court’s March
16, 2018 order “constituted new facts and new law.” Id.
It appears that Sanai’s request for recusal generally repeats the arguments made in
support of his March 15, 2018 request for recusal. In order to obtain recusal of Judge
Klausner in the first instance, Sanai was obligated to point to some extrajudicial source of
bias—such as a personal bias. See United States v. Hernandez, 109 F.3d 1450, 1454 (9th
Cir. 1997). The Court concluded that Sanai failed to demonstrate that Judge Klausner’s
impartiality might reasonably be questioned, and here, the Court finds that Sanai fails to
demonstrate grounds for reconsideration of this conclusion. Exercise of reasonable
diligence could have revealed the three federal proceedings involving Judge Klausner
that Sanai contends he inadvertently discovered, particularly because Sanai’s search
terms merely included what Sanai argues is part of Judge Klausner’s “true name.”
Moreover, plaintiff does not allege the emergence of new material facts or a change of
law occurring since March 16, 2018, or a manifest showing of failure to consider material
facts before the Court. Given these circumstances, and because reconsideration is an 2
extraordinary remedy that should not be granted absent highly unusual circumstances,
the Court DENIES Sanai’s request for reconsideration.
III.

CONCLUSION

In accordance with the foregoing, the Court DENIES Sanai’s request for
reconsideration.
IT IS SO ORDERED.
oo

00

Initials of Preparer

2

CMJ

See 398 Orange St. Partners v. Arnold. 179 F.3d 656, 665 (9th Cir. 1999).

CV-2136 (03/18)

CIVIL MINUTES - GENERAL

Page 3 of 3

11

APPENDIX I

Case 2:18-cv-05663-RGK-E Document 104 Filed 03/26/19 Page 1 of 1 Page ID #:4935
12

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell, et al

Date

March 26, 2019

Present: The Honorable R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE
Sharon L. Williams (Not Present)

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendant:

Not Present

Not Present

Proceedings:

(IN CHAMBERS) ORDER re: Plaintiffs Motion to Vacate Judgment and
Order of Dismissal (DE 88)

On August 20,2018, Cyras Sanai (“Plaintiff’) filed a First Amended Complaint (“FAC”) against
tken-Sheriff James McDonnell and Superior Court Judge Mark Borenstein (collectively, “Defendants”)
alleging claims for: (1) writ of habeas coipus, (2) relief under 42 U.S.C. § 1983, and (3) declaratory
judgment. On October 24, 2018, the Court granted Defendants’ motions to dismiss the FAC. Plaintiff
then filed a Motion for New Trial and to Vacate Order of Dismissal, arguing that the Court erred in
finding that it lacked subject matter jurisdiction. The Court denied the motion on January 25, 2019,
finding that the Rooker-Feldman doctrine barred the Court from exercising jurisdiction over Plaintiff s
claims.
Presently before the Court is Plaintiffs Motion to Vacate Judgment and Order of Dismissal. A
court has discretion to reconsider a judgment or order pursuant to Federal Rule of Civil Procedure 59(e)
or 60(b). Sch. Dist No. 1JMultnomah Cty., Or. v. ACandS, Inc., 5 F.3d 1255, 1262 (9th Cir. 1993).
Absent unusual circumstances, reconsideration is only appropriate where the court is presented with
newly discovered evidence, the court committed clear error, the decision was manifestly unjust, or there
has been an intervening change in controlling law. Id. at 1263. Plaintiffs motion simply re-argues that
the Court erred in finding that the Rooker-Feldman applies in this action. In doing so, Plaintiff fails to
establish that the Court committed clear error.
The Court therefore DENIES Plaintiffs Motion to Vacate Judgment and Order of Dismissal
(DE 88). Accordingly, Plaintiffs ex parte application requesting a temporary restraining order and
preliminary injunction (DE 99) is denied as moot.
IT IS SO ORDERED.

Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 1

J1

APPENDIX J

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 1 of 7 PagelD#:1565
J2

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

Present: The Honorable R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE
Sharon L. Williams (Not Present)

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendant:

Not Present

Not Present

Proceedings:

I.

(IN CHAMBERS) ORDER re: Defendant McDonnell’s Motion to Dismiss
(DE 44) and Defendant Borenstein’s Motion to Dismiss (DE 45)

INTRODUCTION

Plaintiff is currently subject to a contempt order in Superior Court of Los Angeles County
(“Superior Court”), and a bench warrant has been issued for his anest. Following the contempt hearing,
Plaintiff filed petitions for writ of mandate, writ of habeas corpus, and a stay of the contempt order in
the California Court of Appeal. Plaintiff alleges that these proceedings are ongoing. Nevertheless,
Plaintiff brings this action against Superior Court Judge Mark Borenstein (“Borenstein”) and Los
Angeles County Sheriff James McDonnell (“McDonnell”) (collectively, “Defendants”) seeking an
injunction that would stay enforcement of the contempt order. Plaintiff also seeks declaratory judgment
that the state court proceedings against him violated his due process rights.
Presently before the Court are Defendants’ Motions to Dismiss Plaintiff’s First Amended
Complaint (‘TAC”) pursuant to Federal Rule of Civil Procedure (“Rule”) 12(b)(1) and Rule 12(b)(6).
For the following reasons, the Com! GRANTS the motions.

n.

FACTUAL BACKGROUND l

Plaintiff is the attorney of record for the plaintiff in an ongoing state court matter captioned as
United Grand Corp. v. Malibu Hillbillies, LLC, No. BC 554172 (L.A. Super. Ct. Aug. 8, 2014) (“United
Grand"). Defendant McDonnell is a Los Angeles County Sheriff in charge of detentions for civil
contempt cases. Defendant Borenstein is a judge in the Superior Court.
On January 5, 2017, in the United Grand action, Plaintiff filed a notice of motion and motion for
sanctions and an ex parte application asking the court to recognize an automatic stay. (FAC 44, ECF
No. 41: PL’s Opp’n Borenstein Mot. Dismiss at 8, ECF No. 54.) Plaintiff alleges that Defendant
Borenstein sua sponte imposed sanctions on Plaintiff for requesting sanctions in the ex parte application
without supporting law or argument. (FAC 41.) Plaintiff asserts that Defendant Borenstein fabricated
For purposes of the Motions to Dismiss, the Court accepts as true all factual allegations in the FAC.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page I of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 2 of 7 Page ID #:1566
J3

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-CV-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

the record to impose sanctions against Plaintiff. Plaintiff further alleges that Defendant Borenstein; the
Court Counsel for the Superior Court; Judge Elizabeth Grimes, who sits on the Second District of the
California Court of Appeal: and several other judges are a part of a wide-ranging conspiracy within the
Superior Court to punish and disbar- Plaintiff. (Id.)
When Plaintiff did not pay the sanctions, Defendant Borenstein held Plaintiff in contempt and
ultimately sentenced him to imprisonment until he complied with the sanction orders. (FAC f 45.) On
April 12,2018, Plaintiff petitioned the Second District of the California Court of Appeal for (1) writ of
mandate, (2) writ of habeas corpus, and (3) an immediate stay of the contempt order. (FAC ^ 59-61.) On
April 23, 2018, the Court of Appeal denied Plaintiffs request for an immediate stay of the contempt
order, and the California Supreme Court denied review of Plaintiffs petition for an immediate stay of
the contempt order on April 25, 2018. (FAC f 59.) The petition for writs of mandate and habeas corpus
remain ongoing in the Court of Appeal. (Id.)
On June 27, 2018, Plaintiff filed the instant action in this District asserting claims for (1) writ of
habeas corpus, (2) relief under 42 U.S.C. § 1983 (“§ 1983”), and (3) declaratory judgment. On June 28,
2018, the Honorable Stephen V. Wilson denied Plaintiffs ex parte application for a temporary
restraining order, and on August 1, 2018, Judge Wilson denied Plaintiffs ex parte application for a
preliminary injunction.
On August 20,2018, Plaintiff filed a FAC alleging the same claims as the original complaint.
Shortly after, the matter was transferred to this Court.

in.

JUDICIAL STANDARD
A.

Rule 12fbt(D

Federal courts are courts of limited jurisdiction and presumptively lack jurisdiction over civil
actions. Kokkenen v. Guardian Life Ins. C. ofAm., 511 U.S. 375, 377 (1994). The party who invokes
jurisdiction bears the burden of establishing subject matter jurisdiction. Id.
A motion to dismiss under Rule 12(b)(1) may be “facial” or “factual.” See Safe Airfor Eveiyone
v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). In a facial attack, the challenger asserts the allegations
contained in a complaint are insufficient on their- face to invoke federal jurisdiction. Id. The court must
assume the factual allegations in the complaint are true and construe them in the light most favorable to
the plaintiff. See Warren v. Fox Worldwide, Inc., 328 F.3d 1136, 1139 (9th Cir". 2003). However, the
court need not accept as true legal conclusions pled as factual allegations. Id. A Rule 12(b)(1) motion
will be gr anted if, on its face, the complaint fails to allege gr ounds for federal subject matter jurisdiction
as required by Rule 8(a). See id.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of 7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 3 of 7 Page ID #:1567
J4

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-CV-05663-RGK-E

Title

Sanai v. McDonnell
B.

Date

October 24, 2018

Leave to Amend

If a court chooses to dismiss the complaint, it must then decide whether to gr ant leave to amend.
Leave to amend shall be freely given when justice so requires, but the ultimate decision to grant leave
remains “within the sound discretion of the [district] court.” Fed. R. Civ. P. 15(a); DCD Programs, Ltd.
v. Leighton, 833 F.2d 183, 185-86 (9th Cir. 1990). However, when any amendment would be futile, the
Court may dismiss the complaint with prejudice. Bonin v. Calderon, 59 F.3d 815, 845 (9th Cir. 1995).
TV.

DISCUSSION

Defendants move to dismiss all of Plaintiff’s claims for lack of subject matter jurisdiction or, in
the alternative, for failure to state a claim upon which relief can be granted. The Court addr esses each
claim in turn.
A.

Claim 1: Writ of Habeas Corpus

Defendant McDonnell contends—and Plaintiff does not dispute—that Plaintiff lacks standing to
seek a writ of habeas corpus in federal court. (Def. McDonnell’s Mot. to Dismiss at 9, ECF No. 44; Pl.’s
Opp’n McDonnell Mot. Dismiss at 5, ECF No. 53.) Indeed, 28 U.S.C. § 2254, which governs habeas
corpus relief, requires that a prisoner seeking habeas relief be “hi custody.” 28 U.S.C. § 2254(a). Since
Plaintiff is not currently in custody, Plaintiff lacks standing to bring a habeas corpus claim.
Accordingly, the Court DISMISSES Plaintiff’s claim for writ of habeas corpus.
B.

Claims 2 and 3: Injunctive and Declaratory Relief under 42 U.S.C. 8 1983

hi his second and tlihd claims,2 Plaintiff seeks an order enjoining the enforcement of Defendant
Borenstein’s contempt order. Plaintiff also seeks declaratory judgment stating that the contempt hear ing
and the subsequent petition proceedings in state court violated his civil tights. The Court addresses each
in turn.
1.

Injunctive Relief

Plaintiff seeks preliminary injunctive relief staying the enforcement of Defendant Borenstein’s
contempt order. After Defendant Borenstein found Plaintiff in contempt, but prior to the instant action,
Plaintiff filed—in the Second District of the California Court of Appeal—petitions for writ of habeas
corpus, writ of mandate, and a stay of the contempt order. The Court of Appeal denied Plaintiff s request
for a stay on the contempt order. Plaintiff then petitioned the California Supreme Court, which denied
2 Since Plaintiffs second and third claims for declaratory judgment are seemingly identical, the Court addresses the claims
together.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 3 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 4 of 7 PagelD#:1568
J5

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

review. Therefore, judgment on Plaintiffs request for a stay of the contempt order is final in state court.
The Rooker-Feldman doctrine bars federal district courts from reviewing a state court’s final
judgment. Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923); District of Columbia Court ofAppeals v.
Feldman, 460 U.S. 462 (1983). This doctrine applies to cases where the state court judgment was
rendered before the federal proceeding commenced. Exxon Mobil Corp. v. Saudi Basic Industries Corp.,
544 U.S. 280, 284 (2005). Here, the California Supreme Court denied Plaintiff’s petition for a stay of the
contempt order on April 25, 2018. Plaintiff filed the Complaint in the instant action in federal court on
June 27, 2018. As such, Plaintiffs request for a stay of the contempt order was final before Plaintiff
commenced this federal proceeding. The Court is therefore barred by the Rooker-Feldman doctr ine from
exercising jurisdiction as to Plaintiffs request for a stay of the contempt order.
2.

Declaratoiy Judgment

Plaintiff also seeks declaratory relief under § 1983, requesting that the Court declare: (1)
Defendant Borenstein and other co-conspirators are barred from conducting any legal proceedings
involving Plaintiff; (2) Plaintiff does not have any feasible means of litigating his state or constitutional
claims in United Grand before Defendant Borenstein, the Second District of the California Court of
Appeal, or other attorneys represented by the Court Counsel for the Superior Court; (3) Plaintiff does
not have a meaningful right to be heard in the state court proceedings because his due process rights
have not been and likely will not be met; and (4) it is unlawful to imprison Plaintiff until he has an
opportunity to be heard by an impartial tribunal. (FAC at 34—36.)3
Defendants contend that the Court should dismiss Plaintiffs declaratory judgment claims under
the Younger abstention doctrine. It is well-established that federal courts should abstain from litigation
which implicates issues that are the subject of an ongoing state criminal prosecution. Younger v. Harris,
401 U.S. 37, 45 (1971). The United States Supreme Court has extended the Younger doctrine to civil
actions as well. See Huffman v. Pusue, Ltd., 420 U.S. 592, 611-12 (1975). Thus, federal courts abstain
from state court proceedings under Younger in three “exceptional circumstances” that involve important
state interests: (1) state criminal prosecutions; (2) civil enforcement proceedings; and (3) “civil
proceedings involving certain orders that are uniquely in furtherance of the state courts’ ability to
perform their judicial functions.” Sprint Comm’ns, Inc. v. Jacobs, 571 U.S. 69, 73 (2013) (citing New
Orleans Public Service, Inc. v. Council of City ofNew Orleans, 491 U.S. 350, 367-68 (1989)).
In a § 1983 action, Younger principles apply where (1) the existence of an ongoing state judicial
proceeding; (2) the implication of an important state interest; (3) whether there is an adequate
opportunity to raise constitutional challenges in the state court proceeding; and (4) whether the federal
action would enjoin the state proceeding. Logan v. U.S. Bank Nat. Ass ’n, 722 F.3d 1163, 1167 (9th Cir.
3 Plaintiffs declaratory judgment includes several parties not presently before the Court. The Court therefore lacks
jurisdiction to declare anything as to those parties. Accordingly, die Court analyzes Plaintiff’s declaratory judgment claims
only as to Defendant Borenstein and Defendant McDonnell.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 4 of 7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 5 of 7 PagelD#:1569
J6

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

2013).
Here, the Court must apply Younger principles to Plaintiff’s declaratory judgment claims.
Plaintiff essentially seeks declaratory judgment finding that the state contempt proceedings violated his
civil rights and declaring that Defendant Borenstein be disqualified from cases involving Plaintiff
because of his bias against Plaintiff. Based on the facts, as alleged in the FAC, all four' Younger
principles to apply in the instant action.
First, Plaintiff’s petitions for writ of mandate and writ of habeas corpus are currently ongoing at
the California Court of Appeal, and the United Grand matter is also ongoing in Superior Court.
Second, the declaratory relief that Plaintiff seeks involves two important state interests. State
contempt proceedings “lie at the core of the state’s administration ofjustice.” Juidice v. Vail, 430 U.S.
327, 335 (1977). The state court also has significant interest in determining when a state court judge
should be disqualified.
Third, Plaintiff had, and still has, an adequate opportunity to raise his constitutional challenges in
the state court proceedings. Plaintiff need not have actually raised his constitutional challenges in those
proceedings. Id. at 337. Plaintiff “need be accorded only an opportunity” to do so, and “failure to avail
[himself] of such opportunities does not mean that the state procedures were inadequate.” Id. Plaintiff
had an opportunity to raise his constitutional challenges in the Superior Court contempt hearing.
Plaintiff can also raise his constitutional challenges in the ongoing Court of Appeal proceedings, the
California Supreme Corn!, and the United States Supreme Court.
Fourth, Plaintiffs request for declaratory relief would effectively enjoin the state proceedings.
The Younger abstention doctrine applies to requests for declaratory judgment when “a declaratory
judgment will result in precisely the same interference with and disruption of state proceedings” as an
injunction. Samuels v. Mackell, 401 U.S. 66 (1971). Issuing a declaratory judgment to the extent
requested by Plaintiff would enjoin Defendant Borenstein from presiding over cases involving Plaintiff,
and any declaratory judgement against Defendant McDonnell would enjoin the enforcement of the
contempt order and bench warrant.
Plaintiff contends that he does not have an adequate opportunity to raise his constitutional
challenges in state court because Defendant Borenstein and Judge Grimes are biased against him.
Plaintiff therefore argues that the Gibson v. Berryhill exception to Younger applies here. In Gibson v.
Berryhill, the Supreme Court created an exception to Younger, enjoining state administrative
proceedings because the defendants presiding over the plaintiffs’ proceedings were biased against the
plaintiffs. 411 U.S. 564, 578-79 (1972) (enjoining Alabama’s Board of Optometry’s disqualification
hearing against individual licensed optometrists). The Supreme Court explained that “those with
substantial pecuniary interest in legal proceedings should not adjudicate” those disputes. Id. at 579
(finding that defendants had substantial financial interest in disqualifying plaintiffs).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 5 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 6 of 7 Page ID #:1570
J7

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 24, 2018

Here, Plaintiff conclusively alleges that Defendant Borenstein, Court Counsel for the Superior
Court, and Judge Grimes are biased against him. Plaintiff alleges that these individuals and several
others are involved in an elaborate conspiracy to punish and disbar him. As to Defendants Borenstein
and McDonnell specifically, however, Plaintiff fails to allege that they have personal or financial interest
in his demise. While Plaintiff alleges that Judge Grimes had a direct interest in a previous lawsuit
involving Plaintiff and that Superior Court Judge David Sotelo had been promised a transfer if he
punished Plaintiff, Plaintiff does not allege that Defendant Borenstein or Defendant McDonnell will
benefit personally or financially for harassing or punishing him. Plaintiff merely alleges that Judge
Sotelo “worked with Judge Mark Borenstein to craft a plan,” and that Plaintiff was denied constitutional
rights “based on animus against [Plaintiff] by both Borenstein and Grimes.” (FAC fflj 44, 69.) Because
the Court need not accept as true legal conclusions pled as factual allegations, the Court finds that
Plaintiff does not sufficiently plead that Defendant Borenstein was biased against Plaintiff. See Warren
v. Fox Family Worldwide, Inc., 328 F.3d 1136,1139 (9th Cir. 2003). Therefore, the Gibson v. Berryhill
exception to Younger does not apply.
Plaintiff also contends that the Dombrowski v. Pfister exception to the Younger abstention
doctrine applies to the instant action. 380 U.S. 479 (1965). Dombrowski, however, dealt with overbroad
state statutes. Id. at 1118. Here, Plaintiff does not allege that a state statute is overly broad, vague, or
unconstitutional. The Dombrowski exception therefore does not apply.
For the foregoing reasons, the Court finds that the Younger principles apply to the instant action.
The Court must abstain from hearing Plaintiff’s claims for declaratory judgment. Accordingly, the Court
DIMISSES Plaintiffs second and third claims.
Since the Court finds that it lacks subject matter jurisdiction over Plaintiffs claims, it need not
address Defendants’ arguments for immunity or dismissal under Rule 12(b)(6).
C.

Leave to Amend

As explained above, leave to amend is denied only if it is clear that amendment would be futile,
and that “the deficiencies of the complaint could not be cured by amendment.” Noll v. Carlson, 809 F.2d
1446, 1448 (9th Cir. 1987). Since Plaintiffs state court petition is still ongoing, he can raise his
constitutional claims against Defendants in those actions. Therefore, even if the Court giants leave to
amend, any amendment would be futile. Younger will still require the Court to abstain and dismiss
Plaintiff’s claims.
As such, the Court DISMISSES Plaintiffs FAC without leave to amend.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of7

Case 2:18-cv-05663-RGK-E Document 70 Filed 10/24/18 Page 7 of 7 PagelD#:1571
J8

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

18-cv-05663-RGK-E

Title

Sanai v. McDonnell

V.

Date

October 24, 2018

CONCLUSION

In light of the foregoing, the Court GRANTS Defendants’ Motions to Dismiss (DE 44, 45) and
DISMISSES Plaintiffs FAC. Plaintiff s Motion to Vacate (DE 58) is DENIED as moot.
IT IS SO ORDERED.

Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 7 of7

K1

APPENDIX K

Case 2:18-cv-05663-RGK-E Document 68 Filed 10/24/18 Page 1 of 4 Page ID #:1545
K2

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.
Title

‘O’
CIVIL MINUTES - GENERAL
2:18-cv-05663-RGK-Ex
Date October 24, 2018
CYRUS SANAI v. JAMES MCDONNELL; ET AL.

Present: The Honorable

CHRISTINA A. SNYDER
Not Present
Court Reporter / Recorder

Catherine Jeang
Deputy Clerk
Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

I.

N/A
Tape No.

(IN CHAMBERS) - PLAINTIFF’S EX PARTE MOTION TO
DISQUALIFY JUDGE R. GARY KLAUSNER (Dkt. 66, filed
October 18, 2018)

INTRODUCTION AND BACKGROUND

On June 27, 2018, plaintiff Cyrus Sanai filed this action against defendants Sheriff
James McDonnell; Judge Mark Borenstein; and Does 1 through 10. Dkt. 1. On August
20, 2018, plaintiff filed a First Amended Complaint (“FAC”). Dkt. 41. In filing this
action, plaintiff seeks “a halt on the cumulative filing of sanctions and the sentence of
personal imprisonment imposed on him by [Judge] Borenstein in order to litigate the
statutory and due process issues presented by Judge Borenstein’s conduct[,]” and to have
the appellate proceedings “be conducted before a panel of the California Court of Appeal
that is not biased against Sanai.” FAC at 3.
On October 16, 2018, plaintiff filed an ex parte motion for disclosure of facts
relevant to the disqualification of Honorable R. Gary Klausner. Dkt. 62. Plaintiff moved
for Judge Klausner to: (1) disclose all facts regarding his relationship with the employees
and judicial officers identified in the first amended complaint, including Frederick
Bennett and Elizabeth Grimes; (2) to state whether or not Judge Klausner has personal
knowledge of the truth or falsity of any of the allegations set forth in the complaint in this
action; (3) disclose any and all cases in which Judge Klausner was represented by
Bennett; and (4) to make available for review certain files in the District Court’s off-site
storage at no charge. Id. at 2. On October 17, 2018, plaintiff filed two amended ex parte
motions seeking the same. Dkts. 63, 64. On October 17, 2018, Judge Klausner denied
plaintiffs ex parte applications. Dkt. 65.

CIVIL MINUTES - GENERAL

Page 1 of 4

Case 2:18-cv-05663-RGK-E Document 68 Filed 10/24/18 Page 2 of 4 Page ID #:1546
K3

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.
Title

‘O’
CIVIL MINUTES - GENERAL
2:18-cv-05663-RGK-Ex
Date October 24, 2018
CYRUS SANAI v. JAMES MCDONNELL; ET AL.

On October 18, 2018, plaintiff filed the instant ex parte motion to disqualify Judge
Klausner for denying his ex parte application and amended ex parte applications. Dkt. 66
(“Mot.”). Plaintiff moves for disqualification under 28 U.S.C. § 455 (“Section 455”).
II.

DISCUSSION

Under Section 455, judges must disqualify themselves “in any proceeding in which
[their] impartiality might reasonably be questioned.” Id. § 455(a). The substantive
standard for disqualification under Section 455 is “whether a reasonable person with
knowledge of all the facts would conclude that the judge’s impartiality might reasonably
be questioned.” United States v. Studley, 783 F.2d 934, 939 (9th Cir. 1986) (citation
omitted). “The ‘reasonable person’ in this context means a ‘well-informed, thoughtful
observer,’ as opposed to a ‘hypersensitive or unduly suspicious person.’” Clemens v.
U.S. Dist. Court for Central Dist. Of California, 428 F.3d 1175 (9th Cir. 2005) (citing In
re Mason. 916 F.2d 384, 386 (7th Cir. 1990)). Moreover, the alleged bias cannot result
from mere disagreement, however vehement, with a judge’s rulings; instead, “the alleged
bias must stem from an ‘extrajudicial source.’” United States v. Hernandez, 109 F.3d
1450, 1454 (9th Cir. 1997) (quoting Litekv v. United States, 510 U.S. 540, 548 (1994)).
“[0]pinions formed by the judge on the basis of facts introduced or events occurring in
the course of the current proceedings, or of prior proceedings, do not constitute a basis
for a bias or partiality motion unless they display a deep-seated favoritism or antagonism
that would make fair judgment impossible.” Litekv, 510 U.S. at 555.
In the instant motion, plaintiff makes various assertions in support of his
contention that Judge Klausner must be disqualified from the instant matter. At the core
of plaintiffs motion is his disagreement with Judge Klausner’s ruling denying his request
for certain disclosures, which is not a proper basis for disqualification. Cf United States
v. Azhocar, 581 F.2d 735, 739 (9th Cir. 1978) (“Adverse rulings do not constitute the
requisite bias or prejudice of [28 U.S.C. § 144].”) (citing Berger v. United States, 255
U.S. 22, 34 (1921)). Nonetheless, the Court addresses plaintiffs arguments in turn.
Plaintiff argues that: (1) Judge Klausner may have a relationship with Frederick
Bennett, who plaintiff contends is a “key witness” in the action, (2) that Judge Klausner
“may have personally taken legal positions as a defendant... that would cause a
reasonable person to doubt that he could now address the same subject matter,” and (3)
that Judge Klausner may have personal knowledge of the facts alleged in the first
amended complaint. Mot. at 2, 6-7. It appears that in 1993 and 1994, two cases—
Rudder v. Klausner et ah, 2:93-cv-03790-SVW-GHKA, and Thymes et al. v. Mallano et
CIVIL MINUTES - GENERAL

Page 2 of 4

Case 2:18-cv-05663-RGK-E Document 68 Filed 10/24/18 Page 3 of 4 Page ID #:1547
K4

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.
Title

‘O’
CIVIL MINUTES - GENERAL
2:18-cv-05663-RGK-Ex
I Date October 24, 2018
CYRUS SANAI v. JAMES MCDONNELL; ET AL.

ah, No. 2:94-cv-05715-IH-AJW—were brought against Judge Klausner in his capacity as
a Los Angeles County Superior Court judge (“Klausner Cases”). See Dkt. 66-1,
Declaration of Cyrus Sanai f 3, Exs. A, B. Bennett appears to have represented Judge
Klausner in these cases in his capacity as Court Counsel for the Los Angeles County
Superior Court. See id. Both cases were dismissed at the pleading stage. See id.
Plaintiff fails to otherwise sufficiently set forth facts that would lead a reasonable
person to conclude that Judge Klausner’s impartiality might reasonably be questioned.
Given the nature of these two lawsuits and Bennett’s role as counsel for the Los Angeles
County Superior Court, there is no reasonable basis to believe that Judge Klausner has a
“familial, financial, or similarly close” relationship with Bennett that should result in
disqualification. See Pellegrini v. Merchant, 2017 WL 735740 (E.D. Cal. 2017) (A
“judge need not recuse himself as long as the judge does not have a familial, financial, or
similarly close relationship with the party or witness.”). To the extent Judge Klausner
has worked with Bennett in the past, “judges are not required to recuse when they have a
casual relationship with a victim, attorney, witness, or litigant appearing before the court.
Courts have recognized that elevation to the bench does not and should not require
withdrawal from society.” U.S. v. Sundrud, 397 F. Supp. 2d 1230, 1233 (C.D. Cal.
2005).
With respect to plaintiffs speculation regarding Judge Klausner’s potentially
adverse “litigation positions” in the Klausner Cases, the Court finds that a well-informed,
thoughtful observer would not question Judge Klausner’s impartiality on the basis of the
legal arguments put forward in his defense twenty years ago in cases unrelated to the
action before him.
Plaintiffs contention that Judge Klausner may have personal knowledge of the
facts alleged in the first amended complaint also fails because the two cases against Judge
Klausner were initiated in 1993 and 1994, and plaintiff initiated the instant lawsuit in
2018. The allegations in plaintiffs first amended complaint reach far back in time, but
the earliest event did not take place until 1999, well after the initiation of the Klausner
Cases.
Plaintiff also argues that he should not have to pay the customary fee to review
files related to the Klausner Cases that are stored offsite. Plaintiff does not make the
argument that he cannot afford the cost of retrieving and copying the off-site files.
Rather, he contends that Judge Klausner should provide the files for free because “it is
the obligation of the Court to make disclosure.” Mot. at 9. Plaintiff further argues that
CIVIL MINUTES - GENERAL

Page 3 of 4

Case 2:18-cv-05663-RGK-E Document 68 Filed 10/24/18 Page 4 of 4 Page ID #:1548
K5

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.
Title

‘O’
CIVIL MINUTES - GENERAL
Date October 24, 2018
2:18-cv-05663-RGK-Ex
CYRUS SANAI v. JAMES MCDONNELL; ET AL.

Judge Klausner’s denial of his request to provide such files at no cost is itself a basis to
question his impartiality. The Court reiterates that adverse rulings are not a proper basis
for disqualification. See Azhocar, 581 F.2d at 739. Moreover, given the implausibility
of plaintiffs contention that the Klausner Cases provide a reasonable basis to question
Judge Klausner’s impartiality, the Court does not find that Judge Klausner was obligated
to provide the case files to plaintiff. To the extent plaintiff wants to review the offsite
files, he can follow the applicable procedures to do so.
III.

CONCLUSION

In accordance with the foregoing, the Court DENIES plaintiffs request for
disqualification.
IT IS SO ORDERED.
oo

00

Initials of Preparer

CIVIL MINUTES - GENERAL

CMJ

Page 4 of 4

L1

APPENDIX L

Case 2:18-cv-05663-RGK-E Document 65 Filed 10/17/18 Page 1 of 1 Page ID #:1511
L2

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:18-cv-05663-RGK-E

Title

Sanai v. McDonnell

Date

October 17,2018

Present: The Honorable R. GARY KLAUSNER. UNITED STATES DISTRICT JUDGE
Sharon L. Williams

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

(IN CHAMBERS) Order Re: Plaintiffs Ex Parte Application (DE 62),
Amended Ex Parte Application (DE 63), and Amended Ex Parte
Application (DE 64)

On October 16, 2018, Plaintiff Cyrus Sanai (“Plaintiff”) filed an ex parte application seeking
various judicial disclosures. On October 17, Plaintiff filed two amended ex parte applications seeking
the same. Plaintiffs ex parte applications (DE 62, DE 63, and DE 64) are hereby DENIED.

IT IS SO ORDERED.

Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 1

M1

APPENDIX M

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 1 of 143
M2

UNITED STATES COURT OF APPEALS
For the Ninth Circuit
No. 19-55427
CYRUS SANAI, an individual
vs.

Plaintiff, and Appellant

D. JOSHUA STAUB, an individual; FREDERICK BENNETT, an
individual: PHU CAM NGUYEN, an individual; CHRISTOPHER
MCINTIRE, an individual and DOES 1 through 10, inclusive,
Defendants;

m

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
HONORABLE ROBERT GARY KLAUSNER
DISTRICT COURT CASE NO. CV 18-2136-RGK-E

AMENDED MOTION FOR DISQUALIFICATION AND RECUSAL
OF JUDGES AND DISCLOSURE

Cyrus M. Sanai, SB#150387
SANAIS
433 North Camden Drive
Suite 600
Beverly Hills, California, 90210
Telephone: (310) 717-9840
cyrus@sanaislaw.com

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 2 of 143
M3

MOTION FOR DISQUALIFICATION AND RECUSAL OF
JUDGES AND DISCLOSURE

I.

MOTION
For the reasons set forth below, Appellant Cyrus Sanai (“Sanai”)

hereby files a motion to disqualify the following Circuit Judges: Berzon,
Thomas, Goodwin, Wallace, Schroeder, D. Nelson, Canby, O’Scannlain,
Fernandez, Kleinfield, Tashima, Graber, McKeown, Wardlaw, Fletcher,
Fisher, Gould, Paez, Tallman, Rawlinson, Clifton, Bybee, Callahan,
Bea, M.D. Smith, Jr., Ikuta, N. R. Smith, Murguia, Christen, Nguyen,
and Watford.
This motion also moves that the other Circuit Judges, namely,
Farris, Leavy, Trott, Hawkins, Silverman, Hurwitz, Owens, Friedland,
Bennett, R.D. Nelson, Miller, Bress and Bade, as well as any of the
Circuit Judges for whom recusal is requested but who declines to
recuse, make the following disclosures on the record:
1.

Whether or not they are friends of disgraced former Circuit
Judge Alex Kozinski;

2.

Whether they had any knowledge, direct or indirect, of

-2-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 3 of 143
M4

Kozinski’s sexual harassment and distribution of pornography
within the Court prior to December 2017;
3.

Whether they have had any contact, direct or indirect with
Kozinski since his resignation or would otherwise consider
himself or herself as his friend;

4.

Whether they in any way participated or supported the efforts to
censure Appellant Sanai, disbar Appellant Sanai, or interfere in
the employment of anyone at the request of Kozinski or Circuit
Judge Reinhardt.

5.

The dates, if any, the judge served on the Judicial Council.

6.

The relationship any judge has with Frederick Bennett or any
other Defendant.
This motion is amended to address some typographical and

numbering errors, and update the status of the unsuccessful efforts of
the Judicial Council to have Sanai disbarred. See Sanai Decl. Tf35.
II.

BACKGROUND TO APPEAL
This appeal involves a question of first impression in the Ninth

Circuit Court of Appeal: where a party provides admissible of evidence

-3 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 4 of 143
M5

of a past or existing professional or personal relationship between a
federal judge and a party to the litigation, must the federal judge
disclose the material facts concerning the relationship, including
whether it is still ongoing?
The Sixth and Eleventh Circuit have answered this question in
*

the affirmative.
We believe instead that litigants (and, of course, their
attorneys) should assume the impartiality of the presiding
judge, rather than pore through the judge’s private affairs
and financial matters. Further, judges have an ethical duty
to “disclose on the record information which the judge
believes the parties or their lawyers might consider
relevant to the question of disqualification.” Porter v.
Singletary, 49 F.3d 1483, 1489 (11th Cir. 1995). . . . [The
judge] possibly did not consider the matter sufficiently
relevant to merit disclosure, but his non-disclosure did not
vest in [the parties] a duty to investigate him.
Am. Textile Mfrs. Inst., Inc. v. Limited, Inc., 190 F.3d 729, 741 (6th Cir.
1999).
Neither the Ninth Circuit nor the United States Supreme Court
has ever addressed this issue. This appeal presents this issue, and the
scope of appellate disqualification in the federal courts in the wake of
Williams v. Pennsylvania (2016) 579 U.S.

, 136 S.Ct. 1899, 195

L.Ed.2d 99 and Caperton v. A.T. Massey Coal Co. (2009) 556 U.S. 868,

-4 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 5 of 143
M6

129 S.Ct. 2252, 173 L.Ed.2d 1208.
This case involves the relationship between the district court
judge, R. Gary Klausner and defendant Frederick Bennett. The latter
represented the former multiple times in Judge Klausner’s prior job,
and it appears Judge Klausner hired Bennett in this position. See
Motions for Recusal, Dock. Nos. 8, 13, 28. Judge Klausner refused to
recuse and refused to disclose anything about this relationship. See
Dock. Nos. 30, 19. A motion to recuse was denied by a different district
court judge on the grounds, inter alia, that insufficient evidence was
presented abot the relationship. Dock. No. 12.
The action was dismissed by Judge Klausner for failure to serve
any defendant. Dock. Nos 22, 27. Motions to vacate the dismissal and
the subsequent dismissal judgment, and for recusal were filed. Dock.
Nos. 23, 28. The trial court denied the motion to vacate the dismissal
order, but entered judgment of dismissal. Dock. Nos. 26, 27. A timely
appeal of the dismissal judgment and orders denying the motion to
vacate the order of dismissal and the motion to vacate the judgment of
dismissal was filed. Docket No. 31.

-5-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 6 of 143
M7

The same issue of a prior attorney-client relationship between
defendant Bennett and a judge arises in respect of Circuit Judge
Nguyen. She was a judge on the Los Angeles County Superior Court
from 2002 to 2009, when Bennett served as “Court counsel”, frequently
acting as the attorney for individual judges.
This motion for disqualification arises from Justice Nguyen’s
relationship with defendant Bennett and the still ongoing fallout of
disgraced former Chief Judge of the Ninth Circuit Alex Kozinski’s
efforts to turn his chambers into a Pasadena branch of the Pussycat
Theater.
II.

THE LONG-RUNNING HISTORY OF JUDICIAL
RETALIATION RELATED TO THE DISCLOSURE OF
CIRCUIT JUDGE KOZINSKI’S USE USE OF
PORNOGRAPHY AND SEXUAL HARASSMENT
As set forth in the attached declaration and exhibits, public

information would case a reasonable person to believe that all but
twelve of the Circuit Judges in this Court were aware that Circuit
Judge Alex Kozinski distributed pornography for his own pleasure and

-6-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 7 of 143
M8

as a tool of sexual harassment; protected Kozinski when his behavior
was questioned by L. Ralph Mecham, former head of the United States
Administrative Office of the Courts; actively thwarted investigation of
Judge Kozinski by refusing to follow Chief Justice Roberts’ order to
transfer Sanai’s judicial misconduct complaint against Kozinski and
others relating to this matter to the Third Circuit investigating
committee; assigned the complaints to Kozinski’s best friend on the
Court, the late Judge Reinhardt; and retaliated against Sanai by
censuring him and unsuccessfully seeking his disbarment. See Decl. If 2
et seq.

III. ANY REASONABLE PERSON WOULD BELIEVE THAT
CROSSING OR OFFENDING AN APPELLATE JUDGE
WOULD IMPAIR THE TRIBUNAL’S IMPARTIALITY
The efforts to ignite proceedings to disbar Sanai were initially
unsuccessful, but after repeated pressure by Kozinski’s acolyte, Cathy
Catterson, the Office of Chief Trial Counsel filed charges, and the State
Bar Court held a trial. The result? Sanai was exonerated on all but one
charge, and that charge is going to trial next year. Decl.f f 31-5. In

-7-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 8 of 143
M9

particular, after repeatedly urging the Office of Chief Trial Counsel to
disbar Sanai, the Judicial Council refused to cooperate with the
prosecution of the charge, and activively fought subpoenas; the Judicial
Council refused to even provide copies of the judicial misconduct
complaint filed by Sanai.
The result was that the charges that Catterson brought were
dismissed in 2015 with a finding that Sanai’s judicial misconduct
complaints, to the extent they could be determined from public records,
were entirely justified and proper. Decl. 133. However, the bar
proceedings instigated by Catterson at the direction of the judicial
council raised a new issue for Sanai—documents disclosed by the Bar’s
Trial Counsel revealed that defendant Bennett, on behalf of then
Superior Court Judge Elizabeth Grimes, had filed a secret bar
complaint against Sanai as agent for attorneys in his family litigation,
and in that communication admitted that he was acting on behalf of
Judge Grimes. Bennett, acting as Grimes’ attorney, had explicitly
denied that his formal, unsuccessful bar complaint against Sanai had
been filed on her behalf to the Commission on Judicial Appointments in

-8-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 9 of 143
M10

2010, when Sanai opposed her appointment to the California Court of
Appeal.
The meritoriousness of Sanai’s misconduct complaints was
confirmed three years later when a Washington Post national security
reporter, having heard rumors about Judge Kozinski, contacted Sanai
and others and published a blockbuster pair of articles showing that
Kozinski had been openly sexually harassing his clerks and third
parties for years, with this pornography-laded server exposed by Sanai
13 years previously a major tool. M. Zapotosky, Prominent appeals
court Judge Alex Kozinski accused of sexual misconduct” The
Washington Post, Dec. 8, 2017. This exposure had four major
consequences.
First, Judge Kozinski resigned in disgrace. Second, Judge
Kozinski’s former clerk and daughter in law, Leslie Hakala, was the
subject of direct retaliation by Kozinski after he resigned through Cicuit
Judge Reinhardt and Ikuta. Decl. ^[37. Ms. Hakala was married to
Judge Kozinski’s eldest son Yale, and she was a long-time employee of
the SEC in Los Angeles. Approximately four years ago she obtained a

-9-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 10 of 143
M11

0

coveted partnership at K&L Gates; approximately three years ago her
marriage fell apart, and she filed for divorce from Yale Kozinski. The
divorce was extremely bitter, as Ms. Hakala was the breadwinner.
When the Washington Post articles came out last November, her
counsel sought to subpoena Judge Kozinski to obtain information about
his treatment of Ms. Hakala in the context of the legal battles. The
younger Kozinski then acceded to Ms. Hakala’s demands and the
divorce was settled. After Hakala played the #metoo card and the
divorce was finalized, several judges with personal relationship with
attorneys at K&L Gates, including Judge Kozinski’s close friend, the
late Stephen Reinhardt, and Kozinski’s former clerk Sandra Ikuta,
independently told K&L Gates partners that Ms. Hakala’s continued
presence at the firm would injure its representation of its clients in
federal court. Ms. Hakala was then fired.
Third, the federal courts assembled a working group that proposed
changes to the federal ethics and judicial misconduct proceeding rules.
Though these rules were heavily criticized, including by Sanai and Mr.
Mecham, they were passed.

- 10-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 11 of 143
M12

Fourth, inspired by the working group, research attorneys within
the California Court of Appeal issues an internal petition to take similar
steps within the California Court of Appeal. See Carter Stoddard,
“Petition Sparked Johnson Investigation” Daily Journal, August 13,
2019 at 1. When Second Appellate District Judge Elwood Lui inquired
whether this petition was directed at a particular person, the lawyer
organizing the petition identified an incident in 2012 where Justice
Johnson’s research attorney found evidence that someone had been
using her office for sex on the weekends. “Judges Get Whatever They
Want, Atty Tells Misconduct Panel”, law360.com, August 12, 2019
(quoting research attorney Katherine Wohn). Justice Lui then made
further inquiries, and heard direct testimony of sexual harassment from
a California Highway Patrol officer. Justice Lui sent an email setting
out his finding to the entire Appellate Court by accident, which email
was then leaked to the Daily Journal. This unleashed a torrent of
reports about Johnson.
All of the women who had suffered from Justice Johnson’s
behavior kept quiet because they were afraid of judicial retaliation.

- 11 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 12 of 143
M13

The In Re Johnson case demonstrates that virtually no one believed
that the Commission on Judicial Performance could police the
misconduct of appellate justices. The entire world has learned that
attorneys working in the Second Appellate District, California Highway
Patrol officers working to protect the judges, attorneys working outside
the Court, and even the Justices themselves believe that there is a
culture and practice of judicial retaliation for crossing or offending a
justice as to which there is no protection and no remedy by any
institution in California, including this Commission. This has been
attested to in testimony documented in two legal journals, law360.com
and the Daily Journal. See, e.g. Carter Stoddard, “Women describe fear
of retaliation by state justice” Daily Journal, August 7, 2019 at 1
(describing fear of judicial retaliation); Carter Stoddard, “Women
lawyers, clerks say justice made crude remarks ” Daily Journal, August
6, 2019 at 1 (“I was concerned about retaliation”—Roberta Burnette,
sole practitioner); Carter Stoddard, “CHP officer says justice
propositioned her repeatedly”, Daily Journal, August 14, 2019 at 1 (“I
didn’t want the retaliation”—Tatiana Sauquillo, CHP officer); ; Carter

- 12 1

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 13 of 143
M14

Stoddard, “Justice paints complicated relationship with colleague”,
Daily Journal, August 8, 2019 at 1 (“Several women testified they didn’t
speak up about this behavior because of fear of retaliation or blow-back
from the legal community”). These facts would cause any reasonable
person to believe that the Ninth Circuit would not treat whistle-blowers
any differently.
IV.

JUDICIAL DISQUALIFICATION LAW
Judicial disqualification of circuit judges is determined on a

statutory and due process standards. The statutory standard,
Title 28 U.S.C. 455 provides in relevant part:
"(a) Any justice, judge, or magistrate of the United
States shall disqualify himself in any proceeding
in which his impartiality might reasonably be
questioned.
Scienter is not an element of a violation of 455(a).
The judge's lack of knowledge of a disqualifying
circumstance may bear on the question of remedy,
but it does not eliminate the risk that "his
impartiality might reasonably be questioned" by
other persons. To read 455(a) to provide that the
judge must know of the disqualifying facts,
requires not simply ignoring the language of the
provision - which makes no mention of knowledge
- but further requires concluding that the
language in subsection (b)(4) - which expressly
provides that the judge must know of his or her
- 13 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 14 of 143
M15

interest - is extraneous. A careful reading of the
respective subsections makes clear that Congress
intended to require knowledge under subsection
(b)(4) and not to require knowledge under
subsection (a).
Liljeberg v. Health Svcs. Acq. Corp., 486 U.S. 847, 858-9 (1988)
The due process standard is whether an observor, knowing the
publicly available facts, would find that there is a dangerous risk of an
absence of impartiality. Williams, supra; Caperton, supra. Under
Williams, disqualification in an appellate court is infectious; one
disqualified judge or justice who sits on the court requires reversal of
any rulings. There is no requirement that disqualification be proved by
admissible evidence. See, e.g. Caperton (relying on hearsay records).
The facts of both the Kozinski case and Johnson case show that
any reasonable person would doubt the impartiality of an appellate
tribunal where the litigant or lawyer has offended a member of the
tribunal by validly accused a member of misconduct.
The record in this Court’s handling of Sanai’s complaints against
Kozinski show direct retaliation—Sanai was censured for, inter alia,
validly accusing members of the Ninth Circuit Judicial Council of
covering up for Kozinski due to their desire to keep his sexual
- 14-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 15 of 143
M16

harassment out of the press. The fact that the Judicial Council
demanded that a bar proceeding be held against Sanai, but refused to
show the entirely accurate accusations in his misconduct complaint,
demonstrated that the censure order and subsequent efforts before the
Bar was frivolous, harassing conduct to punish whistle-blowing.
Most of the victims and witnesses to Judge Kozinski’s conduct
kept quiet until after he was exposed; many still fear retaliation by his
friends on the Ninth Circuit and the Judicial Council. See M.
Zapatosky, “Nine more women say judge subjected them to
inappropriate behavior, including four who say he touched or kissed
them,” The Washington Post, December 15, 2017 (“Many of Kozinski's
accusers have talked only on the condition that their names and other
identifying information not be published, out of fear that he might
retaliate against them or the institutions for which they work.”) Even
after Kozinski resigned they decline to come forward and with good
reason. Kozinski, through his friends on the Court such as Circuit
Judges Ikuta, Bea, Schroeder and McKeown, still has the power to

- 15 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 16 of 143
M17

destroy people’s careers, as he demonstrated with his former
daughter-in-law. See Decl If 37.
V.

ANALYSIS OF DISQUALIFICATION
Disqualification of the following judges is required because

they have been publicly identified as friends of Judge Kozinski or
were his clerks: Schroder, O’Scannlain, McKeown, Paez, Fletcher,
Bybee, Bea, Ikuta and Watford. Decl. f 39.
Disqualification of the following Circuit Judges is required as
they served on the Judicial Council from 1999 to date, and were
aware (or a reasonably person would conclude they were aware) of
Judge Kozinski’s pornography issues, and later, sexual
harassment, and either did nothing or actively refused to
authorize investigations. Thomas, Berzon, Wallace, Schroeder,
Canby, Kleinfeld, Tashima, Graber, McKeown, Fletcher, Fisher,
Gould Paez, Rawlinson, Clifton, Bybee, Callahan, M. D. Smith,
N.R. Smith, Murguia, and Christen. Decl.^40.
Disqualification of the following judges is required because
they had chambers in Pasadena and had been informed (or a

- 16 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 17 of 143
M18

reasonable person would believe they had to have been informed)
by their clerks of the pornography distribution that Kozinski
engaged in within the Court. Goodwin, Nelson, Fernandez,
Tashima, Wardlaw, Fisher, Paez, Ikuta, Nguyen and Watford.

Deckel.
Disqualification of the following judges is required because
they were directly involved in retaliation against Appellant or
Leslie Hakala and in covering up Kozinski’s misconduct after
hisfirst judicial misconduct complaint. Thomas, Schroeder,
Berzon, Gould, McKeown, Tallman, and Rawlinson. Decl.^42.
Disqualification of the following judges is required because
they were subjects of valid judicial misconduct complaints which
were wrongfully dismissed in order to cover up the full extent of
Judge Kozinski’s misconduct. Thomas, Berzon, Schroeder,
Fernandez, Graber, McKeown, Fletcher, Fisher, Tallman and
Rawlinson. Decl.143.
The following sui generis grounds for disqualification are as
follows: As to Circuit Judge McKeown, she was the subject of

- 17 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 18 of 143
M19

direct criticism by Appellant and Mr. Mecham in the production of
the inadequate working group rule revisions. Judge Tallman
because of his personal relationship with Appellant and his family.
Decl.T|44. As discussed above, Judge Nguyen served on the Los
Angeles County Superior Court and had some kind of professional
and possibly personal relationship with Defendant Bennett. A
chart is attached at the end of the declaration to assist in figuring
out the specific reasons for disqualification.
V.

DISCLOSURE IS REQUIRED FOR THOSE CIRCUIT
JUDGES FOR WHICH DISQUALIFICATION IS NOT
REQUESTED.
Sanai has not identified reasons to disqualify Circuit Judges

Farris, Leavey, Trott, Hawkins, Silverman, Owens, Friedland, R.D.
Nelson, Miller, Bade and Bress or Bennett; however, Circuit Judge
Bennett must disclose if he is related to Frederick Bennett. If any
judge believes that disqualification is not called for or the facts asserted
are wrong, such judge should file a statement as to the true facts and
answer the questions set forth above as to the judge’s relationship with

- 18-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 19 of 143
M20

Kozinski and his prior misconduct, Frederick Bennett, or in the case of
Judge Nguyen her relationship with Bennett.
Other circuit have recognized a duty to on the record information
which the parties or lawyers might consider relevant to the question of
judicial disqualification.
We believe instead that litigants (and, of course, their
attorneys) should assume the impartiality of the presiding
judge, rather than pore through the judge’s private affairs
and financial matters. Further, judges have an ethical duty
to “disclose on the record information which the judge
believes the parties or their lawyers might consider
relevant to the question of disqualification.” Porter v.
Singletary, 49 F.3d 1483, 1489 (11th Cir. 1995). . . . [The
judge] possibly did not consider the matter sufficiently
relevant to merit disclosure, but his non-disclosure did not
vest in [the parties] a duty to investigate him.
Am. Textile Mfrs. Inst., Inc. v. Limited, Inc., 190 F.3d 729, 741 (6th Cir.
1999).
The obligation to uncover conflicts and disclose them is on the
jurist. Ceats, Inc. v. Continental Airlines, Inc., 755 F. 3d 1356 (Fed. Cir.
2014) (magistrate judge has duty to disclose relationship with law firm
under obligations analogous to 28 U.S. §455). This includes an
obligation to disclose matters in the public record. Listecki v. Official
Comm, of Unsecured Creditors, 780 F.3d 731, 750-1 (7th Cir. 2015).

- 19-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 20 of 143
M21

VI.

CONCLUSION.
The circuit judges should either recuse or provide the disclosures

requested in Section I above.
Dated: October 9, 2019,

SANAIS

By:/s Cyrus Sanai
Appellant

-20-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 21 of 143
M22

DECLARATION OF CYRUS SANAI

1.

I am an attorney admitted in California and to this Court. I am

the Appellant in this lawsuit. The following matters are from personal
knowledge or are made based on information disclosed to me by persons
with personal knowledge, including L. Ralph Mecham and federal court
clerks and employees who have spoken to me.
2.

The Ninth Circuit was aware no later than 1998 that it had a

significant and ever growing problem involving employees of the federal
judiciary using government-owned computers to download pornography.
A true and correct copy of G. Walters, Memorandum of Circuit
Executive, April 23, 1998, is attached hereto as Exhibit 1. The heaviest
user of pornography for browsing purposes was Circuit Judge Alex
Kozinski. When the United States Administrative Office of the Courts,
and the former circuit executive Greg Walters, proposed firewalls and
blocking software, Kozinski opposed it. The Judicial Conference took
responsibility for this program and implemented a monitoring system
that showed significant and increasing downloading of music and video

-21 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 22 of 143
M23

files, some of which the late Judge Edwin Nelson believed included child
pornography.
3.

In 2001, the monitoring system was disabled unilaterally in San

Francisco. Who did this is a matter of dispute. L. Ralph Mecham told
me, and publicly accused Judge Kozinski, of taking this action
personally and suggests that this constituted criminal activity. A true
and correct copy of his accusation is attached hereto as Exhibit 2. The
late Judge Nelson ascribed it to the Ninth Circuit’s executive committee
acting unilaterally. Recently Judge Sidney Thomas claimed in an
article that the entire Ninth Circuit Judicial Council unanimously
approved the action. Whatever the case, it appears clear that Judge
Kozinski was the moving force behind this action. While I had no
personal knowledge of the circumstances behind the disabling of this
software, Mr. Mecham’s direct knowledge of this issue suggests that he
is telling the truth. Even if the Ninth Circuit’s Judicial Council or
Executive Committee did approve what Judge Kozinski did, it is
undisputed that the 11th Circuit and 10th Circuit had no idea this was
being done; more important, if the motivation of the action was to allow

i-22-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 23 of 143
M24

de facto unfettered access to pornography by crippling the monitoring
system, then the action was wrongful no matter how many judges
approved it.
4.

Kozinski was losing the war, and directly attacked Mecham in

print in the Wall Street Journal. See A. Kozinski, Privacy on Trial,
Wall Street Journal, September 21, 2001, a true and correct copy of
which is attached hereto as Exhibit 3. In that article, Judge Kozinski
represented to the world the following:
The policy Judge Nelson seeks to defend as benign
and innocuous would radically transform how the federal
courts operate. At the heart of the policy is a warning-very
much like that given to federal prisoners-that every
employee must surrender privacy as a condition of using
common office equipment. Like prisoners, judicial
employees must acknowledge that, by using this
equipment, their “consent to monitoring and recording is
implied with or without cause.” Judicial opinions,
memoranda to colleagues, phone calls to your proctologist,
faxes to your bank, e-mails to your law clerks, prescriptions
you fill online-you must agree that bureaucrats are entitled
to monitor and record them all.
This is not how the federal judiciary conducts its
business. For us, confidentiality is inviolable. No one
else-not even a higher court-has access to internal case
communications, drafts or votes. Like most judges, I had
assumed that keeping case deliberations confidential was a
bedrock principle of our judicial system. But under the
proposed policy, every federal judge will have to agree that
-23 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 24 of 143
M25

court communications can be monitored and recorded, if
some court administrator thinks he has a good enough
reason for doing so.
Another one of our bedrock principles has been trust
in our employees. I take pride in saying that we have the
finest work force of any organization in the country; our
employees show loyalty and dedication seldom seen in
private enterprise, much less in a government agency. It is
with their help-and only because of their help-that we are
able to keep abreast of crushing caseloads that at times
threaten to overwhelm us. But loyalty and dedication wilt
in the face of mistrust. The proposed policy tells our 30,000
dedicated employees that we trust them so little that we
must monitor all their communications just to make sure
they are not wasting their work day cruising the Internet.
How did we get to the point of even considering such a
draconian policy? Is there evidence that judicial employees
massively abuse Internet access? Judge Nelson’s memo
suggests there is, but if you read the fine print you will see
that this is not the case.
Even accepting the dubious worst-case statistics, only
about 3% to 7% of Internet traffic is non-work related.

5.

Kozinski’s statements were misleading, and the Judicial Council

knew it. The problem that the Ninth Ciruit was facing was not
pornography viewed by employees on their own, it was Kozinski’s own
bizarre sexual fetishes. However, none of the Judicial Council at the
time stepped forward to correct Judge Kozinski’s false statements.
6.

While Kozinski succeeded in keeping open access to pornography,

-24-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 25 of 143
M26

he soon realized that there was no way to stop internal tracking of his
access to pornography. Kozinski utilized pornography for three
purposes. First, his sexual titillation. Second, he enjoyed using it as a
tool to harass women. Third it was a way of testing women’s limits to
his sexual approaches.
7.

From at least 1998, the Ninth Circuit Judicial Council was aware,

from information provided to it by Greg Walters, that Kozinski was the
heaviest user of pornography. In addition, his close friends on the
bench, in particular Judges Reinhardt and Ikuta, were aware of it and
had watched it with him. All of Judge Kozinski’s clerks had been made
to watch the pornography, and Kozinski had invited, or in some cases,
as a “joke”, compelled, other clerks from other chambers in Pasadena to
watch pornography. All of the Circuit Judges who had chambers in
Pasadena were aware from being informed by their clerks of Judge
Kozinski’s behavior in this regard. In addition, beginning in that time
period, professors at elite law schools began receiving feedback from
clerks and externs about Kozinski’s predilections.
8.

After 2001, Judge Kozinski, realizing that his pornography

-25 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 26 of 143
M27

viewing would be easily tracked by system administrators, decided on a
new mechanism for viewing and distributing pornography. He set up a
home server and placed his favorite, curated pornography and other
materials on it, along with his public writings and other material he
wanted to distribute outside the Court email system. This server, set
up around 2002, made it impossible for the internet service monitoring
system to determine what it was that Kozinski was accessing on his
site, since all that would be reported would be accesses to Kozinski’s
website.
9.

In 2005 I submitted an opinion piece to The Recorder of San

Francisco concerning the ongoing controversy over citation of
unpublished opinions.1 I addressed a matter of great public interest
that was about to be decided by the Judicial Conference, then-proposed
(and now adopted) Federal Rule of Appellate Procedure 32.1. Judge
Kozinski’s testimony to Congress on this subject was cited by me as
representing the view of those opposing citation of unpublished
opinions, and Howard Bashman’s commentary was quoted as
representative of the side favoring citation. I also urged the Court to

-26-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 27 of 143
M28

grant more rehearings en banc to settle perceived or actual conflicts in
Ninth Circuit authority, starting with the conflicts surrounding the
Court’s Rooker-Feldman precedent.
10.

It was while researching Judge Kozinski’s views on the subject of

citation of unpublished appellate dispositions that I first came across
alex.kozinski.com, specifically the directory alex.kozinski.com/articles/.
There were numerous links discoverable by Google to articles in this
directory, some of which had clearly been supplied by Judge Kozinski
himself.
11.

Four days after my article was published, the Judicial Conference

decided the issue in favor of permitting citations. Judge Kozinski was
quoted condemning this move by the Judicial Conference, and
expressing his hope that the Supreme Court would reject it.2

12.

Two days later, Judge Kozinski published his response to my

article in The Recorder.2, Judge Kozinski laid out a response to the

1 C. Sanai, Taking the Kozinski Challenge, The Recorder, September 16, 2005
2 Tony Mauro, Cites to Unpublished Opinions Ok’d, Legal Times, September 21,
2005
3 Alex Kozinski, Kozinski Strikes Back, The Recorder, September 23, 2005, a true
and correct copy of which is attached as Exhibit 4.
-27-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 28 of 143
M29

arguments in the pending petition and a novel analysis of the Ninth
Circuit’s past precedent concerning the Rooker-Feldman doctrine.
13.

Judge Kozinski’s article did not address the primary subject of my

article, which is the citation policy of the Ninth Circuit. It ignored my
discussion of the debate between the majority and dissent over what
constitutes binding precedent in the Ninth Circuit.4 Instead, Judge
Kozinski focused the first part of his article solely on refuting my
contentions that there is a severe conflict in the Ninth Circuit’s
authority concerning the Rooker-Feldman doctrine. He began the
second part of his article as follows:

Despite his colorful language, Mr. Sanai’s article raises no
legitimate question about whether the Ninth Circuit has
been derelict in following circuit or Supreme Court
precedent. But the article does raise serious issues of a
different sort. Mr. Sanai’s article urges us to “grant en banc
rehearing of the next decision, published or unpublished,
which asks the court to resolve the split among H.C.,
Napolitano and Mothershed.'” A petition for en banc
rehearing raising this very issue crossed my desk just as Mr.
Sanai’s article appeared in print. The name of the case?
Sanai v. Sanai. A mere coincidence of names? Not hardly.
The petition, signed by Mr. Sanai, cites the same cases and
makes the same arguments as his article — including the
4 See Barapind v. Enomoto, 400 F.3d 740, 751 fn. 8 (9th Cir. 2005)(en banc)
-28-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 29 of 143
M30

reference to “Catch-22.”
Kozinski Strikes Back, supra.
14.

Judge Kozinski placed case-related documents on his personal

website, www.alex.kozinski.com, and had the web version of his article
link to the .pdf file of the selection of these documents on his website.
Subsequently, Judge Kozinski’s wife revealed that Judge Kozinski’s
actions was motivated not just be the Sanai litigation, but also by the
exceptionally rare removal for misconduct of a well-connected Los
Angeles County Superior Court Judge from a completely separate case,
Sanai u. Saltz.5

15.

I filed a judicial misconduct complaint against Judge Kozinski in

October of 2005. The order concerning the complaint was issued on
December 19, 2006, more than 14 months later.6 It terminated the
complaint on the grounds (a) that corrective action had been taken as to
Judge Kozinski’s publication in the Recorder, and (b) there was no
evidence of any website controlled by Judge Kozinski which held such

5 See Letter from Judge Kozinski’s wife, Marci Tiffany,
patterico.com/2008/06/16/alex-kozinskis-wife-speaks-out.
6 In Re Complaint of Judicial Misconduct (Kozinski), No. 05-89098 (2006)
-29-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 30 of 143
M31

materials.

16.

A key fact in the complaint was that Judge Kozinski had scanned

in documents from the record of the case, and linked the documents to
the on-line versions of his article at the website “law.com”. Various .pdf
scans were placed on alex.kozinski.com.7

17.

The Recorder and law.com site makes its web-based articles

available for a period of one year, then erases them. Accordingly, the
Kozinski article and the link to the .pdf files he had published are no
longer accessible on the site.

18.

Judge Schroeder wrote that her limited inquiry “found no posting

7 However, though the evidence of Judge Kozinski’s publication of case-related
materials is no longer on the law.com site, it was available on the well-known blog
How Appealing, which is financed by the law.com site but run separately by
Howard Bashman. Amazingly enough, after almost twenty years, the online
version of the article captured by Mr. Bashman is still found at
http://pda-appellateblog.blogspot.com/2005 09 01 pda-appellateblog archive.htm
1. The on-line version of the article has a link, “read the pdf’. This link points to
the link /alex.kozinski.com/judge.thibodeau.pdf. The site alex.kozinski.com itself
has been rendered inaccessible; the “How Appealing” link is a proxy server
snapshot that is holding an image of the original link.
-30-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 31 of 143
M32

of complainant’s case-related information on any website maintained by
the judge”, a finding she could only have made without fear of
immediate contradiction after the article was erased on the law.com
site. She was not aware, however, that Bashman would continue the
host a copy of the on-line version, including its link to Judge Kozinski’s
website, to this day. See footnote 7, infra.

19.

Judge Schroeder’s delay of more than one year caused the loss of

the evidence about contents of the .pdf Kozinski put on the internet, but
not the link itself, thanks to Mr. Bashman. As the chief circuit judge at
the time, Judge Schroeder was charged under the Judicial Discipline
Rules then in effect with evaluating a complaint and dismissing it or
finding it is moot and concluding the proceeding pursuant to Section
352(b) of Title 28, or appointing a special committee to investigate the
charges pursuant to Section 353 thereof. In particular Section 352(a) of
Title 28 of the United States Code states that the “chief shall
expeditiously review any complaint....”

-31 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 32 of 143
M33

20.

Judge Schroeder made the explicit factual finding of “no posting of

complainant’s case-related information on any website maintained by
the judge.” This finding of fact is contrary to the truth. The online
version of Judge Kozinski’s article on the Recorder’s website, “law.com”
included a link to the site alex.kozinski.com The link was active when
Complainant filed the complaint, and at least a month thereafter.
Judge Schroeder’s delay resulted in the elimination of that article from
the law.com site proper, but not from the related but
separately-managed “How Appealing” site.

21.

Schroeder and the appellate members of the Judicial Council at

the time were aware that Kozinski had shifted his pornography viewing
to his server, and was using this pornography for his continued hazing
and sexual harassment of his clerks. Judge Schroeder took these
actions to give Kozinski time to take his website off-line and scrub the
contents. Schroeder was aware from he communications with Kozinski
about my complaint that he needed time for most of the evidence to
disappear, which she willingly gave him.

- 32 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 33 of 143
M34

22.

I filed a petition to review Judge Schroeder’s order, which was

denied by the Judicial Council with its form order.

23.

At some time near the issuance of Judge Schroeder’s order in

2006, Judge Kozinski took down the website alex.kozinski.com.
Sometime in 2007, Judge Kozinski concluded that it was safe to
reactivate the alex.kozinski.com website, which he needed in order to
resume watching pornography in his chambers and to force his clerks to
watch it. He therefore brought the site back on-line and began
distributing links to the portion of the site which includes his articles,
including a .pdf scan of the paper version of the “Kozinski Strikes Back”
article. (The paper version differs from the on-line version in one
important respect—the online version included a hyperlink to case
materials posted by Judge Kozinski on
alex.kozinski.com/judgethibodeau, which materials have either been
moved or removed, while the paper version obviously had no such link).

-33 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 34 of 143
M35

24.

I filed a second judicial misconduct complaint in November of 2007

regarding Judge Kozinski’s redistribution of “Kozinski Strikes Back”.
Judge Kozinski assigned the matter to Judge Schroeder, who, true to
form, sat on it.

25.

The more I thought about the treatment of Judge Kozinski’s

alex.kozinski.com site, the more puzzled I became. Why did Judge
Schroeder pretend the site did not exist? Why did Judge Kozinski take
the site down, then put it back up?

26.

On the night before Christmas Eve, after putting my children to

sleep with tales of the excitement of the next day, I decided to find out
what Judge Kozinski might be distributing via alex.kozinski.com
website, so he entered “alex.kozinski.com” into the Google search
engine.

27.

I had found the reason Judge Kozinski and the Ninth Circuit

Judicial Council refused to acknowledge the existence of the

-34-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 35 of 143
M36

alex.kozinski.com site, I passed the information to John Roemer of the
Daily Journal. His editors killed the story, but Terry Carter of the ABA
Journal began working on it. When I read the article about Judge
Kozinski presiding over the Ira Isaacs obscenity trial, I tipped the Los
Angeles Times. The Los Angeles Times reporter Scott Glover
independently accessed the site and apparently found files and
documents that had been placed in the directory after I had done his
downloading and thus saw documents that Complainant never saw.
Judge Kozinski recused himself from the Ira Isaacs trial, leading to an
ongoing battle over whether double jeopardy applied.

28.

When the Los Angelest Times broke the story, Kozinski filed a

misconduct complaint against himself. Justice Roberts issues an order
transferring that complaint, and any future complaints releated to the
same events, to the Third Circuit.

29.

I filed a complaint with the Ninth Circuit, but because I had

alleged additional facts pointing out what Judge Kozinski did with the

-35 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 36 of 143
M37

pornography—distributing in his chambers—the Judicial Council
violated Justice Roberts’ order and stayed my complaints by order of
August 10, 2008 signed by Circuit Judges Thompson, Thomas and
McKeown. For unknown reasons Judges Graber and Berzon did not
participate, but they did not recuse either.

30.

As we now know, the eventual opinion concerning Kozinski was a

complete whitewash. Even while Kozinski was under investigation he
was using his website to distribute pornography, he was utilizing it to
terrorize his clerk Heidi Bond. See
http://www.courtneymilan.com/metoo/kozinski.html. Even though
Kozinski’s behavior was an open secret, the only witnesses called by the
Third Circuit was Kozinski himself. My submission to the investigative
committee explaining how to find the access Kozinski made via his
chambers computers was ignored, and the Committee never spoke to
me.

31.

But once Kozinski had been “cleared” the Judicial Council began

-36-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 37 of 143
M38

its campaign of retaliation. First it assigned investigation of my
complaint to Kozinski’s best friend on the Court, Stephen Reinhardt. It
then then censured me and, through Cathy Catterson, began a
campaign of written and verbal pressure to disbar me.

32.

The initial entreaties to the bar were rejected, but the Bar’s

then-new Chief Trial Counsel, Jayne Kim, decided to go forward (she
was later forced to resign after she and her mentor at the bar had a
falling out.).

33.

The orders dismissing all but one of the charges are attached as

Exhibits 8 and 9. As set forth therein, the State Bar Court judge wrote
that:

%

In this count the State Bar alleges that between
October 2008 and September 2010,
Respondent “filed and maintained formal judicial
complaints with the Ninth Circuit Judicial
Council against approximately 19 federal judges, when
such complaint were frivolous and made
for improper reasons . . . . “ It alleges that the filing of
these complaints constituted acts of moral
turpitude.

-37-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 38 of 143
M39

In his motion, Respondent argues that the evidence
received by this court is insufficient to
establish clear and convincing evidence to support this
count.
The State Bar did not put in evidence the complaints
actually filed by Respondent against
the federal judges. In response to this court’s inquiry, it
was informed by the State Bar that it was
unable to do so due to the Ninth Circuit’s refusal to
provide those complaints to the State Bar.
Being unable even to read the complaints filed by
Respondent, this court cannot conclude
that any of those complaints were filed frivolously or
constituted an act of moral turpitude. To the
extent that this court is aware of the content of one of
those complaints, the record shows that it
was apparently justified and resulted in a formal
apology by the judge and a self-administered
recusal by him from the pending matter involving
Respondent.
Exhibit 8 at 4.
34.

In a subsequent order dismissing more charges, the State Bar

Court judge wrote as follows:
In 2010, a complaint was made to the State Bar by the
Judicial Council of the Ninth Circuit regarding Respondent’s
purportedly frivolous complaints to it about a number of
federal judges. This complaint by the Judicial Council of the
Ninth Circuit subsequently formed the basis for Count 6 of
the pending NDC. When the complaint was received, the
State Bar opened case No. 10-0-09221 (the TO case) and
contacted Respondent about the matter. Then, after learning
-38-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 39 of 143
M40

that the Judicial Council of the Ninth Circuit would not
release to the State Bar the actual complaints filed by
Respondent against the federal judges, the State Bar decided
to issue a warning letter to Respondent in November 2011,
and closed the case.7 (Ex. 1040.) That decision was explained,
both orally and in writing, by the State Bar to Cathy
Catterson, a representative of the Judicial Council of the
Ninth Circuit, on November 8, 2011. (Ex. 1041). Thereafter,
she complained of the State Bar’s decision in a letter, dated
January 19, 2012,
directed to the then Acting Chief Trial Counsel of the State
Bar.
7 The State Bar had previously notified the Judicial Council
of the Ninth Circuit in May 2011 that it would be difficult to
pursue any complaint that Respondent’s complaints against
various federal appellate justices were frivolous without
having access to the actual underlying
complaints. As stated by the State Bar at that time: “As you
may be aware, to prevail in State Bar disciplinary
proceedings, our office must prove by clear and convincing
evidence that an attorney committed willful misconduct.
Although the Judicial Council’s order of September 30 2010,
will certainly be a useful piece of evidence to establish that
Mr. Sanai engaged in misconduct by filing frivolous
misconduct complaints, it would be insufficient standing
alone to prove by clear and convincing evidence that Mr.
Sanai engaged in misconduct warranting discipline,
especially since the order does not include any specific
findings of fact but rather includes only the conclusion that
Mr. Sanai abused the misconduct complaint procedure.” (Ex.
1039, p. 2.)
8Given the State Bar’s inability to provide this court with a
copy of the actual complaints filed by Respondent against the
federal judges, this court - as accurately predicted by the
-39-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 40 of 143
M41

State Bar in May 2011 -eventually dismissed that count at
trial due to the State Bar’s failure to provide clear
and convincing evidence that those complaints were
frivolous. The evidence was not sufficient even to enable this
court to identify all of the judges against whom complaints
had been filed.
35.

The last charge will require me to issue subpoenas to

Kozinski, Catterson, and the Judicial Council. One of my defense
theories focuses on the documented link between Kozinski’s
retaliatory conduct and Sanai v. Saltz, which was first revealed in
a post by Kozinski’s then-wife, Marcie Tiffany. Another rests on
the prosecutorial misconduct of bringing the charge urged by the
Judicial Council when the Office of Chief Trial Counsel predicted
it would fail without evidence from the Judicial Council. The trial
is set for February of 2020. The trial counsel stipulated last
month on the record that the charges that were dismissed will not
be subject of an appeal. Accordingly, the dismissals are final.
Based on the finality, and the need to obtain the Ninth Circuit’s
records in the misconduct proceedings, I will be filing a lawsuit in
the Northern District of California against the Judicial Council,
Judge Kozinski, Ms. Catterson and others for injunctive relief,
declaratory relief, and as against Kozinski and Catterson,
damages. In particular, I will be requesting public release of all
records regarding misconduct complaints against Kozinski and the
efforts of the Judicial Council to have me disbarred.

36.

The meritoriousness of my misconduct complaints was
-40-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 41 of 143
M42

confirmed a decade after I discovered Kozinski’s pornography
when a Washington Post national security reporter, having heard
rumours about Judge Kozinski, contacted me and others and
published a blockbuster pair of articles showing that Kozinski had
been openly sexually harassing his clerks and third parties for
years, with this pornography-laded server exposed by Sanai 13
years previously a major tool. This exposure had four major
consequences.

37.

Judge Kozinski’s former clerk and daughter in law, Leslie

Hakala, was the subject of direct retaliation by Kozinski after he
resigned through Cicuit Judge Reinhardt and Ikuta. Ms. Hakala
was married to Judge Kozinski’s eldest son Yale, and she was a
long-time employee of the SEC in Los Angeles. Approximately
four years ago she obtained a coveted partnership at K&L Gates;
approximately three years ago her marriage fell apart, and she
filed for divorce from Yale Kozinski. The divorce was extremely
bitter, as Ms. Hakala was the breadwinner. When the
Washington Post articles came out last November, her counsel
sought to subpoena Judge Kozinski to obtain information about
his treatment of Ms. Hakala in the context of the legal battles.
The younger Kozinski then acceded to Ms. Hakala’s demands and
the divorce was settled. After Hakala played the #metoo card and
the divorce was finalized, several judges with personal
relationship with attorneys at K&L Gates, including Judge

-41 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 42 of 143
M43

Kozinski’s close friend, the late Stephen Reinhardt, and Kozinski’s
former clerk Sanda, Ikuta, independently told K&L Gates
partners that Ms. Hakala’s continued presence at the firm would
injure its representation of its clients in federal court. Ms. Hakala
was then fired.

38.

Third, the federal courts assembled a working group that

proposed changes to the federal ethics and judicial misconduct
proceeding rules. Though these rules were heavily criticized,
including by the undersigned counsel and Mr. Mecham, they were
passed.

39.

Disqualication of the following judges is required because

they have been publicly identified as friends of Judge Kozinski or
were his clerks: Schroder, O’Scannlain, McKeown, Paez, Fletcher,
Bybee, Bea, Ikuta and Watford.
40.

Disqualification of the following Circuit Judges is required as

they served on the Judicial Council from 1999 to date, and were
aware (or a reasonably person would conclude they were aware) of
Judge Kozinski’s pornography issues, and later, sexual
harassment, and either did nothing or actively refused to
authorize investigations. Thomas, Wallace, Schroeder, Canby,
Kleinfeld, Tashima, Graber, McKeown, Fletcher, Fisher, Gould
Paez, Rawlinson, Clifton, Bybee, Callahan, M. D. Smith, N.R.

-42 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 43 of 143
M44

Smith, Murguia, and Christen.

41.

Disqualification of the following judges is required because

according to the Court’s website they had chambers in Pasadena
and had been informed (or a reasonable person would believe they
had to have been informed) by their clerks of the pornography
distribution that Kozinski engaged in within the Court. Goodwin,
Nelson, Fernandez, Tashima, Wardlaw, Fisher, Paez, Ikuta,
Nguyen and Watford.

42.

Disqualification of the following judges is required because

they were directly involved in retaliation against myself or Leslie
Hakala and in covering up Kozinski’s misconduct after my first
complaint as discussed above: Thomas, Schroeder, McKeown,
Berzon, Tallman, and Rawlinson.

43.

Disqualification of the following judges is required because

they were subjects of my valid judicial misconduct complaints
which were wrongfully dismissed in order to cover up the full
extent of Judge Kozinski’s misconduct. Thomas, Schroeder,
Fernandez, Graber, McKeown, Fletcher, Fisher, Tallman and
Rawlinson.

44.

The following specific grounds for disqualification are as

follows: (a) As to Circuit Judge McKeown, she was the subject of

-43 -

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 44 of 143
M45

direct criticism by myself and Mr. Mecham in the production of the
inadequate working group rule revisions; (a) as to Judge Tallman
because of his personal relationship with myself and my family;
and as to Circuit Judge Nguyen, she was a Los Angeles County
Superior Court judge from 2002 to 2009 during the time period in
which Bennett represented and advised all Superior Judges, and
therefore a reasonable person might doubt her impartiality in
respect of any case where Bennett is a defendant.

45.

The following chart summarizes the reasons for

disqualification:
No.

Circuit
Judge

1.

Sidney R.
Thomas

2.

Alfred T.
Goodwin

3.

J. Clifford
Wallace

4.

Mary M.
Schroeder

5.

Jerome
Farris

Friend
and/or
Clerk of
Kozinski

I

On
Judicial
Council
from
1999 to
date

Participated | Subject of
in Retaliation i Misconduct
or Cover-up | Complaint

Chambers
in
Pasadena
with
Kozinski

i

X

7.

X

X

X

X

X

X
:
f

!
X

Dorothy W.
Nelson
William C.
Canby, Jr.

X

X

i

6.

Other
Reasons

i

X

IJ

i

-44-

J!

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 45 of 143
M46

No.

Circuit
Judge

8.

Diarmuid F.
O’Scannlain

9.

Edward
Leavy

10.

Stephen S.
Trott

11.

Ferdinand F.
Fernandez

12.

Andrew J.
Kleinfeld

|
l

Michael Daly
Hawkins

14.

A. Wallace
Tashima

15.

Barry G.
Silverman

Participated
in Retaliation
or Cover-up

Chambers
in
Pasadena
with
Kozinski

Subject of
Misconduct
Complaint

Other
Reasons

X

X

X

X
____ j.

-r
I

..
13.

On
Judicial
Council
from
1999 to
date

Friend
and/or
Clerk of
Kozinski

i

"1i
r

Y

18.

X

X

......
M. Margaret
McKeown

17.

i

i

i

Susan P.
Graber

16.

x

X

X

i

X

i

X

X

X

I

Kim McLane :
Wardlaw i

I!

X
i

i

William A.
Fletcher

19.
I
l

l
i
!
i

X

21.!

X

X
f

Fisher
Ronald M.
Gould

i

I

20. j Raymond C.
»

X

X

I

t

X
i

X

I
!

i

i

l
i

I

45 -

X

i

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 46 of 143
M47

Circuit
Judge

No.

22. |
i

Richard A.
Paez

i

Friend
and/or
Clerk of
Kozinski

On
Judicial
Council
from
1999 to
date

Chambers
in
Pasadena
with
Kozinski

X

X

X

Subject of
Misconduct
Complaint

Participated
in Retaliation
or Cover-up

Other
Reasons

Js

-I

23. j
l

Marsha S.
Berzon

X

j
i

X

X

X

X

i

X

X

!
!

Jr
24

Richard C
Tallman

25.

Johnnie B.
Rawlinson

I

X

i

i
i

?

i

X

Richard R.
Clifton

26

X

i
I
i

i
27

X

Jay S.
Bybee

X

1

i

-!
28

X

Consuelo M
Callahan

29
li

Carlos T.
Bea

i

Milan D
Smith. Jr.

30

j.

T~

I

X

X

!
S

-!-■

31. |

32.X |
i
!
!
33.X

34.X i
!
35. ;
I

s

-sI

L

Sandra S
Ikuta
N. Randy
Smith

i
'

X

X

i

X

5
i

V

Mary H.
Murguia
Morgan
Christen
Jacqueline
H. Nguyen

S

s

!

X

!

{

:

1'

i
t

!
;

i
!
i
\

f

i
f

J

X

..J.

!
|

i

i

X

?

s

X

4-

;

!

I

'

i

s

X

s
I

46

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 47 of 143
M48

1

No.

Circuit
Judge

Friend
and/or
Clerk of
Kozinski

Paul J.
Watford

X

t

L
36.
i
37. |

38.

On
Judicial
Council
from
1999 to
date

Chambers
in
Pasadena
with
Kozinski

Participated
in Retaliation
or Cover-up

Subject of
Misconduct
Complaint

Other
Reasons

X

Andrew D.
Hurwitz

John B.
Owens
l

!
39. !
i
!
40.
i

Michelle T.
Friedland
? (unknown
if related to
Defendant
Bennett)

Mark J.
Bennett

t

41. |
!

|

Ryan D.
Nelson

±

42.

Eric D. Miller
J.

43. j
j
_

|

j

Bridgets,
Bade
______^__ _

\

44. I Daniel Bressl

i

I declare, under penalty of perjury of the law of the United States that
the foregoing statements of fact are true and correct.
Dated as of October 9, 2019 in Beverly Hills, California
/s/ Cyrus Sanai

-47-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 48 of 143
M49

CERTIFICATE OF COMPLIANCE

I certify that the foregoing motion is double-spaced (except
for quotations in excess of 49 words from legal authorities and the
record) and utilizes a proportionately spaced 14-point typeface. The
motion (excluding the Declaration, Exhibits, Cover, and Certificate of
Compliance) comprises a total of 19 pages.
Dated: October 9, 2019

By:/s Cyrus Sanai
Appellant

-48-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 49 of 143
M50

EXHIBITS

-49-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 50 of 143
M51

EXHIBIT 1

\---

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 51 of 143
M52

Office of the Circuit Executive
UNITED STATES COURTS FOR THE NINTH CIRCUIT

95 Seventh StreetGregory B. Walters, Circuit Executive
Post Office Box 193939Phone: (415) 556-6100
San Francisco, CA 94119-3939Fax: (415) 556-6179

to:

Judicial Council
/

from:
date:
re:

Greg Walters, Circuit Executive
April 23, 1998
Internet Access to Pornographic Material

Judge Kozinski’s memo (attached) raises a question about the management of the Internet
Project that requires your attention. In a nutshell, the question before you is whether we should
continue to block access to pornographic sites on the Internet for the Judges and Staff of the
Ninth Circuit.
Background of the Internet Project
At its September 1997 session, the U. S. Judicial Conference approved a judiciaiy-wide policy
regarding access to the Internet from computers connected to the DCN. The policy requires
access to the Internet be provided only through national gateway connections approved by the
Administrative Office pursuant to procedures adopted by the Committee on Automation and
Technology of the USJC. (See IRM bulletin 97-19, attached)
The Office of the Circuit Executive for the Ninth Circuit maintains one of these three national
Internet gateways from the judiciary’s internal data communications network (DCN). The
Administrative Office and the Fifth Circuit maintain the other two gateways. Our office provides
Internet services to approximately 10,000 users in the Eight, Ninth and Tenth circuits.
\

The determination of the location of the gateways was based on considerations of geography as
well as personnel expertise and infrastructure at the sites.
The Internet access project was established for three purposes:
1

1. To provide Internet access to members of the Judiciary,
2. To provide in bound and out-bound Internet e-mail services,

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 52 of 143
M53

Judicial Council
Page 2
April 23, 1998
3. To provide website hosting services for court units and assist in development and
implementation of such sites.
The decision to limit the number of gateways to three was made to preserve the integrity of Data
Communications Network (DCN). The security of the entire judiciary’s network relies on
properly maintained firewalls at the gateways. The fewer access points, the better the security.
Rather than allowing each court unit in the United Stales to provide independent access to the
Internet, the USJC Committee on Automation and Technology determined that all Internet
traffic should flow through one of these three sites thus dramatically reducing the potential for
security intrusions. A firewall is usually a computer and software that sits between an internal
network (the DCN) and the Internet, monitors all traffic and and only allows authorized traffic to
traverse the firewall.
After a thorough review of the available options, the three gateways agreed upon standard
hardware and software configurations. The products that were put in place were Fuewall-1 and
WebSense. Firewall-1 is the most widely used firewall product It offers high-level security
without decreasing the performance of the network. Firewall-1 logs every Internet transaction,
both in-bound and out-bound, for security purposes. The logs are highly detailed, including date,
time, Internet address of user, site accessed, and protocol used.
WebSense is a software product that prevents users on a network from accessing web sites based
The site-denial list is created by selecting predefined categories determined
on an site-denial list,
by WebSense employees, WebSense differs from many filtering products by categorizing
websites based upon an actual visit by an employee. In addition to the filtering capabilities,
WebSense also offers extensive site access reports based on firewall logs.
Currently, the 9th Circuit is the only gateway with both Firewall-1 and WebSense installed and
operational. The 5th Circuit is waiting for a new server before installation of WebSense. The
AO has both installed, but has not implemented WebSense’s blocking feature. They are now
awaiting the outcome of your deliberations.
The Eight and Tenth Circuit’s were contacted and both elected to leave the blocking software
intact pending the results of your review.

Appropriate Usage Policies.
The Policy statement approved by the USJC in September called for each court to establish
responsible usage policy statements. The language of that policy is included m Information
Resources Management Bulletin (1RM 97-19) put out by the Administrative Office. The full
Bulletin is attached. In says in part:

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 53 of 143
M54

Judicial Council
Page 3
April 23, 1998

Experience in the private sector and in other government agencies has revealedfour
principal areas ofconcern associated with uncontrolled access to the Internet for
employees: institutional embarrassment, misperception of authority, lost productivity, and
capacity demand When accessing the Internetfrom a judiciary gateway, users need to
keep in mind several points: they should use discretion and avoid accessing Internet sites
which maybe inappropriate or reflect badly on the judiciary; those not authorized to speak
on behalf of their units or the judiciary should avoid the appearance ofdoing so; users
should exercise judgment in the time spent on the Internet to avoid an unnecessary loss of
productivity or inappropriate stress on capacity.

The Ninth Circuit also requires that Internet usage policies be established by each court unit
executive before access is given to their users. All of the courts within the Ninth Circuit have
provided us with formal procedures with the exception of the Court of Appeals. We have been
bringing their users online with the approval of the Clerk of Court We have not required formal
written policies by the unit executives of the Eight and Tenth circuits.
We developed and circulated a “model” usage policy for the consideration of the courts. Most of
the Court units within the Ninth Circuit adopted this policy or some variant on it. The model
policy follows:
Office ofthe Circuit Executive Model Policy:
"Policyfor the Acceptable Use of the
Public Internet Network"
June 30, 1997

Introduction: .
The following model policyfor acceptable use ofthe public Internet network is
supplied to court units so they may more easily draft a use policy that reflects
local business needs. Prior to any court supplying widespread Internet access to
employees via the Judiciary's Data Communications Network, it is strongly
suggested that they adopt this policy, or a modified version, and make it available
to all staff that will be able to access the Internet.
;

Policy for the Acceptable Use of the Public Internet Network
General Policy

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 54 of 143
M55

Judicial Council
Page 4
April 23, 1998
1 Use of the public Internet network accessed via computer gateways owned, or
operated on the behalf of the United States District Court for the District of/OCX
rthe Court") imposes certain responsibilities and obligations on Court employees
and officials ("Users") and is subject to Court policies and local, state andfederal
laws. Acceptable use always is ethical, reflects honesty, and shows restraint in the
consumption ofshared computing resources. It demonstrates respect for
intellectual property, ownership of information, system security mechanisms, and
individual's right to freedom from harassment and unwarranted annoyance.
an
2. Use of Internet services provided by the Court may be subject to monitoring
for security and/or network management reasons. Users ofthese services are
therefore advised of this potential monitoring and agree to this practice. This
monitoring may include the logging of which users access what Internet resources
and "sites " Users shouldfurther be advised that many external Internet sites also
log who accesses their resources, and may make this information available to third
parties.
3 By participating in the use of Internet systems provided by the Court users
agree to be subject to and abide by this policyfor their use. Willful violation of
the principles and provisions of this policy may result in disciplinary action.
Specific Provisions
1. Users will not utilize the Internet networkfor illegal, unlawful, or unethical
purposes or to support or assist such purposes. Examples ofthis would be the
transmission ofviolent, threatening, defrauding, obscene, or unlawful materials.
will not utilize Internet network equipment for partisan political purposes
2. Users
or commercial gain.
Users will not utilize the Internet systems, e-mail or messaging services to
3.
harass, intimidate or otherwise annoy another person.
4. Users will not utilize the Internet network to disrupt other users, services or
equipment Disruptions include, but are not limited to, distribution of unsolicited
advertising, propagation of computer viruses, and sustained high volume network
traffic which substantially hinders others in their use ofthe network.
5. [Local verbiage Option A]
Users

will not utilize the Internet network for private, recreational,

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 55 of 143
M56

Judicial Council
Page 5
April 23, 1998
non-public purposes.

*

[Local verbiage Option B]
Use of the public Internet system will be treated similarly to "local
telephone calls," and staff will keep the use of the Internet system for
personal or non-public purposes to a minimum. Users should exercise
discretion in such use, keeping in mind that such use is monitored and
traceable to the court and to the individual user.

6. Users will utilize the Internet network to access onlyfdes and data that are their
own, that are publicly available, or to which they have authorized access.
7. Users will take precautions when receivingfiles via the Internet to protect
Court computer systems from computer viruses. Files receivedfrom the Internet
should be scannedfor viruses using court-approved virus scanning software, as
defined by Court policy.
8. Users will refrain from monopolizing systems, overloading networks with
excessive data, or otherwise disrupting the network systemsfor use by others.
Blocking Software.
The Administrative Office has established a policy for their own employees that prohibits any
unofficial use of the Internet. They actively track the Internet activity of all of their employees
and have fired at least two employees for accessing pornographic material. An AO employee
who is on the Internet for official business and inadvertently accesses a pornographic site must
file a form explaining the event According to the AO, many of the executive branch agencies
have adopted this same “tracking" approach.
An alternative to tracking is to “block” access to selected sites. There is a variety of software
packages that accomplis this. Some of them search the web using keywords and automatically
block any site that includes an objectionable word. The WebSense software that was selected by
all three national sites uses a different approach. They have employees who review all new sites
and classify them.
WebSense serves a dual purpose. It provides the capacity to block sites based upon category and
has an add-on product that simplifies report generation from the firewall logs. The categories
that WebSense uses are determined:by a visit by a WebSense employee. This method is much
more effective than other products that use a keyword, or imbedded rating approach.
We are using WebSense to block three categories of sites: pornographic, adult, and

I

‘

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 56 of 143
M57

Judicial Council
Page 6
April 23, 1998
sexuaiity/lifestyles. We implemented the blocking for several reasons:
1. There is no reason that a user, during the normal course of business, needs access to these
sites.
2. Visits by judicial employees to these sites could result in embarrassment to the judiciary.
All visits to websites are logged at the firewall for security purposes, but they are also logged at
the site that is visited. Marketing agencies often use these figures to determine site popularity
and advertising rates. Since every visit to a site by a user from the judiciary results in a
uscourts.gov name resolution in their log, this can cause potential embarrassment for the
judiciary.
3.Potential for sexual harassment claims due to employees "posting" sexually explicit images on
their screen while viewing and/or downloading pictures from these sites. (See attached article)
Judge Kozinski's memo alerted us to an issue of which we were previously unaware: gay,
lesbian and bisexual sites are restricted by our current category restrictions. WebSense has
grouped all gay and lesbian sites into the sexuality/lifestyles category. The "pornographic"
category is only for heterosexual sex according to WebSense. Unfortunately, if we allow the
sexuality/lifestyles category, we will not only allow gay and lesbian bookstores, but also gay and
lesbian sex, bestiality, sado/masochism, fetishes, and more. We have contacted WebSense about
this unusual classification.
In the meantime, we have the ability to allow sites that are inappropriately blocked, When a user
encounters a blocked site that he or she would like access to, he or she can write or call and ask
that the blocking for that site be removed.
Considerations for The Judicial Council.
There are a variety of alternatives for you to consider. At one extreme, we could allow absolute
unfettered access to the Internet for all employees. At the other extreme, we could establish a
complete circuit-wide prohibition against personal use of the Internet similar to the policy in
place for employees of the Administrative Office. There are many alternatives between those
The software is fairly flexible and we are not overly limited by technical
extremes,
considerations.
What follows are five variants for you to consider.

If we
1. No Tracking/No Blocking. Allow complete access to all sites on the Internet.
blocking software at the gateway level, all 10,000 users in the three circuits would
remove our
have full access to all Internet sites regardless of content. The potential for misuse and
embarrassment to the judiciary is high. It should be kept in mind that all Internet traffic would

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 57 of 143
M58

Judicial Council
Page 7
April 23, 1998
still be logged. Keeping a log at the firewall is essential for maintaining the security of the DCN.
The OCE will not scan the logs and look for inappropriate usage. Additionally it should be noted
that all of the commercial sites maintain a log of visitors for their site that can trace the visit back
to the actual machine that was used to access the site. A visit to any site from a computer
coming through this firewall will leave an electronic trail that concludes with...."uscourts.gov”.
1 asked the staff to run a list of the sites that were visited in the month before we put the blocking
software in place. As you can see from this partial listing, there is ample opportunity for
institutional embarrassment.
2
Ix>cal Blocking. Allow complete access through the gateway, but require courts to
purchase their own “mini-firewall* to control users access. CAC District court has implemented
one of these products, BorderManager from Novell, for this purpose. The advantage of this
option is that it is highly flexible and each court unit could tailor their own policies.
Unfortunately, this is very costly software. WebSense costs between $2,500 and $10,000 per
location plus an on-going maintenance amount Each location is defined as each place with an
independent computer network. In this circuit alone we would be required to purchase and
maintain around 50 or 60 copies of the software. This would be an expensive and complex
undertaking that would diminish the security and integrity of the Data Communications Network.
It would cost a minimum of $125,000 to implement this solution in just the Ninth Circuit.
3. Full Access to Some Users. The blocking software that we are using would allow us to
offer complete access to a few users based on IP address or network segment, In other words, we
could provide Judge Kozinski’s chambers with complete access and continue to block others.
This solution is possible if there are only a handful of sites that are given this level of access. If
there were more than a very few of these types of exceptions, it would quickly overwhelm our
staff and the other over local systems staff.
4
District Wide Access. A viable option is to allow each district and the Court of Appeals to
make their own determination as to whether they want to block access to these sites or not.
While it is technically possible to allow tailored access to units smaller than the entire district, it
would be an administrative nightmare to try and manage such a system. In the Ninth Circuit
alone there are 15 districts plus the Court of Appeals. Between the Eight, Ninth and Tenth
circuits there are 33 districts and Three Courts of Appeal. If we were to tailor access at the unit
level, we would be maintaining sixty unique polices in the Ninth Circuit and up to 125 or so
between the three circuits. Exercising this option at anything less than a district wide level is not
feasible with current staff due to the extreme administrative workload. The only way to
successfully implement this policy would be to receive funding from the AO for a dedicated
position.
5. Current Implementation. A final alternative would be to continue blocking access to
pornographic materials for all users as we currently do. In other words we would leave the

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 58 of 143
M59

Judicial Council
Page 8
April 23, 1998
blocking software in tact. If we were to pursue this approach, it would make sense to approach
WebSense to see if they could sever the relationship between the gay and lesbian sites and the
pornographic sites. This is the safest, cheapest alternative.

STAFF RECOMMENDATION
I recommend that you adopt the following policy governing access to the Internet for all
court units within the Ninth:
1. Continue to block access to pornographic sites at the firewall as the default setting.
2. Allow each district (not court unit) and the Court of Appeals to request that the blocking be
turned off for the users under their control.
The advantages of this hybrid approach are several:
Each district could elect to have access blocked at the firewall or to offered unlimited access to
their users.
Each district could elect to purchase and maintain their own software, but wouldn’t be required
to.

This system would be fairly easy to maintain at the circuit level since all decisions would have
to be made at the district-wide level. All of the court units within a district would have the same
policy at the firewall level, either blocking on or blocking off.

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 59 of 143
M60

Office of toe Circuit Executive
UNITED STATES COURTS FOR THE NINTH CIRCUIT
Gregory B. Walters, Circuit Executive
Phone: (415) 556-6100
Fax: (415) 556-6179

95 Seventh Street
Post Office Box 193939
San Francisco, CA 94119-3939

to:

FROM:
DATE:
re:

Hon. Proctor Hug, Chief Judge
Greg Walters, Circuit Executive
Matthew Long, Assistant Circuit Executive for Automation and Technology
April 28, 1998
Adult Site Access by Judicial Employees

. The actual dates of
^
We have finished
the logs analyzed are
from the 8th, 9th, and 10th circuits in the month prior
us a sampling of Internet usage by users
to the installation of WebSense.
We used two methods to try to extract adult site accesses through our firewall. First we used
• ’in/habits of individual users who had visited these sites. This allowed us to augment our
viewing
database and produce more accurate numbers.

deliberately do not resolve, either to save money on name registration or to maintain
anonymity. I believe our figures to be a good estimate, but could be as much as 10-25%
below the actual numbers.
Here are the rounded figures for Internet access through our gateway:
Total web accesses*:
Total sites accessed:
Total adult site accesses:
Total adult sites accessed:
Adult site access percentage:
Adult site percentage:

2,500,000
28,000
90,000
1,100

3.6%
3.9%

* Every time a user clicks on a link on a webpage, it counts as a web access hit. For

V ~

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 60 of 143
M61

Judge Hug
Page 2
April 28, 1998
example if a user visited OT,usatoi®:,fja.> clicked on a story link and then clicked the back
button, our log would show three web accesses and one site accessed (usatoday).
I’ve attached a partial listing of some of the adult sites accessed through om'firewall . The list
contains some very graphic names, but should be a good sample of the types of sites tha were
“d We ha7e not verified that all of these are adult sites; therefore, there may be several on
The full 28-page listing is available if you need it for the council meeting.
the list that are not.
Attach.

\---

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 61 of 143
M62

Adult Sites Accessed through the Ninth Circuit Gateway
February 4 to March 3, 1998
Partial Listing
ladultvideo.com
lporn.com
69oralsex.com
adamsxxx.com
adult7.com
adultad.com
adultcentr al. com
adulthosting.com
algol. cybererotica, com
allteens.com
amateurfresh. com
amateurindex.com
amazon-cum.com
asiannudes.com
assland.com
babe.swedish-erotica.com
babes.sci.kun.nl
bestgirl.com
bigchicks.com
bitemypussy.com
blondes.nudepictures.com
butts-n-sluts, com
cam. digitalerotica. com
canadianschoolgirls.com
comfortablynude. com
etc. sexcenterfolds. com
cubby. shaven-girls, com
cumb erl and. premiemet .net
cyber.playboy.com
cyberteens, www. conxion. com
electrapom.com
erotic-x.com
eroticnet.babenet. com
famousbabes.com
faraway. cybererotica, com
fetishtime.com
foot-fetish.com
freehardcorelive.com
gay.adultclubs.com
gayteenboys.com
girls2die4.com
Page 1

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 62 of 143
M63

girlsinlingerie.com
girltown.com
girlt own. ti err anet. com
gorgeousgirls.com
hardcore.sexmonkey.com
hardcoresex.com
hot-live-sex.com
hotcunt.hotcunt.com
hotporno.com
hotsexlinks.com
hotteen.com
hotteensex.com
karasxxx.com
kristysteenpalace.com
kristysteens.com
lynx2. sexbooth. com
mail.amateurdirectory.com
mail.cum2oasis.com
mail.freebie-sex.com
naked4u.com
nude-celebs.com
nudeadultpics.com
nudeceleboutpost.com
nudeeroticsex.com
nudehollywood.com
nudes.com
one.123adult.com
orientalpussy.com
pg.pornoground. com
phils-porno-parl or. com
pics.callgirls-xxx.com
porndirectory. com
pomdog.mco.net
pomrock.com
pussybabe.com
pussyland.com
pussyteens.com
realhardcore.com
s2.nastyfetish.com
sexdragon.com
sexpictures.com
sexploitation, com
sexscape.com
sexsluts.com
sexwars.com
Page 2

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 63 of 143
M64

sexworlds.com
showgirl.net
sinfulteens.com
sixchicks.com
slutty am ateurs. com
sucksex.com
supermodels.nudepictures.com
superpics.adulthosting.com
technoteen.com
teenbutts.com
teensexworld.com
teensexx.com
teentwat. teentwat. com
teenvirgins.com
time4sex.com
traxxxl.focus.de
ultrafreexxx.com
ultrahardcore.com
universaladultpass.com
vhl.adultlinks.com
vividsex.com
vlad.adultorigin.com
vlad2. absolutexxx. com
voiceofwomen.com
w3 .purehardcore.com
west.sucksex.com
wetfetish.com
wwl voyeurweb.com
www.2adult.com
www.3sex.com
www.4adultsonly.com
www. aahsex. com
www. adult2. com
www.adultbytes.com
www.adultlink.com
www. adultphotos. com
www. adults-online. com
www. adultsights. com
www.adultswap.com
www. advancingwomen. com
www. all-americangirl. com
www. allerotica, com
www.altsex.org
www.amateur-x-pics.com
www.amateur-x.com
Page 3

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 64 of 143
M65

www.amateurexhibitionists.com
www.amateurmagazine.com
www.amateursonline.com
www.amateursonly.com
www. amateur sweb. com
www.analbabes.com
www.asexycafe.com
www.asian-teens.com
www.asianxxxpics.com
www.atomicpussy.com
www.awsomebabes.com
www.axxxess.com
www.babes4free.com
www. bigsextoy s .com
www .bi sexu alb abes. com
www.celebritybabes.com
www. chatgirl s. com
www.clubsex.net
www.cockorama.com
www. cocktailbar. com
www.collegenudes.com
www.cruisingforsex.com
www.cumasyouare.com
www.cumorahcu.com
www.cumpany.com
www.cyberpom.inter.net
www.cyberporndirectory.com
www.dailyxxx.com
www.delicious-pussy.com
www. d ormgirl s. com
www.dreamgirls.com
www.erotica.co.uk
www.eroticpix.inter.net
www. eroticworld. net
www.euroflixxx.com
www.fastporn. com
www.fmegirls.com
www. free-xxx-pictures. com
www.free-xxx-porn.com
www.free-xxxpics.com
www.freegirlsex.com
www.gayhardcore.com
www.girl.co.jp
www.girlies.cz
www.girlsagent.com
Page 4

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 65 of 143
M66

www.girlswithgirls.com
www.groupsexdogs.com
www.hardcoreclub.com
www.hollywoodnudes.com
www.hollywoodteens.com
www. hot4 sex. com
www.hottestwomen.com
www.hotwiredxxx.com
www. hotxxxteens .com
www.imengonude.com
www.intemet-xxxmodels.com
www.intersex.inter.net
www.jessicasteen.com
www.lasvegassex.com
www.lensexpress.com
www.leo-xxx.com
www.littleteen.com
www.maturebabes.com
www.naked-celebs.com
www.nastychatxom
www.nastysex.com
www.net-erotica.com
www.net2sex.com
www.onlyxxx.com
www .playgirlmag. com
www.playsex.com
www porn-king, com
www.pornado.com
www.porndorm.com
www.pornet.com
www.pornexchange.com
www.pornocopia.net
www.pornojapan.com
www.pornotimes. com
www.pornplus.com
www.pornstories.com
www.pornusa.com
www.powerotic.com
www.private.sex.se
www.purehardcore.com
www.pussylink.com
www. pussyvi sion. com
www. realamateur. com
www.realsex.com
www.ripvoyeur.com.hk
Page 5

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 66 of 143
M67

www.schoolgirlz.com
www. sex-crawler, com
www.sex.se
www.sex4ya.com
www.sexcabin.com
www.sexcat.com
■www.sexclubxxx.com
www.sexdv8.com
www.sexe.com
www.sexelsewhere.com
www.sexfiction.com
www.sexfmder.com
www. sexfreebies. com
www.sexgalleries.com
www.sexgalore.com
www.sexhigh.com
www.sexhungryjoes.com
www.sexinabox.com
www.sexinc.com
www.sexlink.net
www.sexodus.com
www.sexplanet.com
www.sexshopper.com
www. sexsounds. com
www.sexsource.com
www.sexswap.com
www.sextv.com
www. sexvote. com
www.sexybloomers.com
www.sexyfriends.com
www. sexyinternet. com
www.sexypics.com
www.sexysin.com
www.sexysites.com
www. showgirl. com
www. smokingpu ssy. com
www. smutcity. com
www.smutland.com
■www.smutpix.inter.net
www.sororitypussy.com
www.spice-girls.co.uk
www.tecumseh.com
www. teen-porn-club. com
www.teenage-tarts.com
www.teenchallenge.com
Page 6

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 67 of 143
M68

www.teenhideout.com
www.teenie-sex.com
www. teennympho. com
www.teenpanties.inter.net
www.teens-n-colors.com
www.teenstar.com
www. teenstories. com
www.teeny.com
www.thesluts.com
www.totallysex.com
www.uk.playboy.com
www.ukhardcore.com
www.ultimatehardcore.com
www.voyeurplay.inter.net
www.voyeurstories.com
www.voyeurweb.com
www.xtremehardcore.com
www.xxx-18.com
www.xxx4u.net
www.xxxcat. com
www.xxxcounter.com
www.xxxman.com
www.xxxreferral .com
www.xxxstories. com
www.xxxstufF.com
www.xxxvisions.com
www.youngerotica.com
www.zoosex.com
wwwl .playboy.com
www2. adultsights. com
www2.amateurfresh.com
www2.playboy.com
www4.playboy.com
www7.hollywoodhardcore.com
www8. girlsofrussia.com
wwwserv. weirdsex. com
xxx-pics.net
xxx.com
xxxad s. adulthosting, com
xxxempire.com
xxxlinkexchange. com
xxxnewspics.com
xxxo.com
xxxvids.com
xxxxxx.com
Page 7

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 68 of 143
M69

EXHIBIT 2

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 69 of 143
M70

October 12, 2007
Judge Ralph K. Winter Jr., Chairman
Judicial Conference Committee on Judicial Conduct and Disability
US Court House, 141 Church Street
New Haven, CT 06510

Dear Judge Winter,
RE: Public Comment on Proposed Rules Governing Judicial Conduct and
Disability Proceedings.
TEST CASE TO ASSESS. IN PART. THE ADEQUACY OF THE
PROPOSED RULES
The following factual case is offered as a possible test of the adequacy of
the proposed new rules. Although the Breyer Committee discussed in
general several instances when Circuit Councils did not deal appropriately
or adequately with complaints filed against a few Federal Judges, it is not
clear if the Committee considered this case. When given the facts which
were publicly known, lawyers at the General Services Administration
(GSA) and the Administrative Office of the United Stated Courts (AO)
and even Chief Justice William H. Rehnquist agreed that at least one
felony probably had been committed by a United States Circuit Judge
acting in concert with a Circuit Executive. The facts were known by the
Circuit Chief Judge, the Circuit Council and indeed by the Judicial
Conference of the United States. Yet, no complaint was filed against the
Judge by the Circuit Chief Judge or by any member of the Circuit Council
or the Judicial Conference. Moreover, although probably outside the
purview of your Committee, to my knowledge, no disciplinary action was
taken against the Circuit Executive by the Circuit Chief Judge or the
Circuit Council, which clearly did have jurisdiction.
It is my strongly held view that this total absence of action is the worst
example of failure by those responsible for disciplining Judges that I
witnessed during my 21 years as AO Director.
Page 1 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 70 of 143
M71

I present this case so that your Committee can determine if disciplinary
action was mandated against the offending Judge under the old Rules and
Statutes. If not, do the new Rules close what is thus a gaping loophole in
the old Rules and mandate disciplinary action, and by whom?

Commendation for Winter and Brever Committees
First let me commend you and your committee for the draft rules that you
have proposed to amend current Judicial Conduct and Disability Rules.
My admiration extends also to the report to the Chief Justice by the
Judicial Conduct and Disability Act Study Committee entitled
“Implementation of the Judicial Conduct and Disability Act of 1980,”
Chaired by Justice Stephen Breyer with 5 Federal Judges also serving.
Taken together, these two reports will do much to maintain and increase
public and Congressional confidence in the Federal Judges as your new
Rules are applied by the Circuit Councils in considering complaints of
misconduct filed against Federal Judges.
As you know, over the years some leaders in Congress and Academe have
suggested that in some instances the Judges on Circuit Councils have not
been willing to discipline appropriately their colleagues when complaints
were filed. Moreover, some Circuit Chief Judges have failed to file
complaints against their colleagues even though the facts apparently
justified such action.
As you know, I served as Director of the Administrative Office of the
United States Courts (AO) for 21 years. Early in my service
Representative Robert Kastenmeyer (D. Wise.) Chaired the House
Judiciary Committee. He believed that Circuit Councils may not have
been carrying out their duties in some instances when complaints were
filed against Federal Judges House hearings were held and although the
Judiciary was urged to improve, no legislative action was taken at that
time. Then about three years prior to my 2006 retirement, major concerns
were expressed by several current Congressional members alleging lack
of objectivity by Circuit Councils in handling some complaints
particularly by Representative James Sensenbrenner (R. Wise.) then
Page 2 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 71 of 143
M72

Chairman of the House Judiciary Committee. Allegations were made that
there was an “old boy network” of Judges who protected and would not
act against their colleagues. He was sharply critical of what he perceived
to be the failure of certain Circuit Councils to deal appropriately or
adequately with complaints against a few Judges. He expressed these
views with a high degree of passion both publicly and in two personal
appearances before the Judicial Conference of the United States. Of
course I had kept Chief Justice William Rehnquist informed of his
criticisms well before he presided over the Conference services meeting
where Sensenbrenner spoke. Then I met with the Chief Justice after the
second Sensenbrenner “lecture” and we agreed that he should visit
Sensenbrenner at his House office, a most unusual thing for any Chief
Justice to do. But the Chief agreed that this issue was sufficiently
important to do so. After talking with Sensenbrenner he told him that he
planned to appoint a special committee of Judges to study the issue, to be
chaired by Justice Stephen Breyer.
At least two very important results came from that process; first, the
Judiciary bought some time because had there been no such actions,
Chairman Sensenbrenner made it very clear that he was going to impose
an Inspector General on the Judiciary to make sure that the Judges
behaved themselves. Second, it has now resulted in the excellent work
product from both the Breyer committee and your important Conference
committee. If adopted, your proposed Rules will increase the confidence
in Judges among Congress, the public, the Bar and the Media.
My comment on the proposed Rules themselves will be confined to
posing a factual situation, which in my view should have been considered
by the Ninth Circuit Council but never was. In my opinion it is still a
dark cloud hanging over the reputation of the Judicial Branch. The
current rules could and should have been applied through a formal
complaint against the Judge involved either by the Chief Circuit Judge or
other Judges. I believe the current rules allow and may require a
complaint by the Chief Judge of the Circuit. However such a complaint
never was forthcoming from her or from any other Judge.

Page 3 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 72 of 143
M73

Factual Case to Test the Proposed New Rules
In 2001, Ninth Circuit Judge Alex Kozinski, in the company of the then
Circuit Executive Greg Walters and perhaps one other Ninth Circuit Judge
illegally (according to GSA’s lawyers and ours) seized and then sabotaged
the vital Judiciary Internet Gateway Security System then located in San
Francisco. As a result thousands of computer hackers throughout the
world were permitted to invade the records of courts, judges and court
staff not only in the Ninth Circuit but also in the Eighth and Tenth Circuit,
which were similarly served by that Gateway. Moreover, skilled hackers
once they broke through the system in San Francisco could penetrate into
every Court in the United States. The National Security Agency (NSA)
expert who consulted with the Judicial Conference Internet and
Technology (IT) Committee said that from a security standpoint this
action by Kozinski was “insane.”
GSA lawyers who are responsible for computer systems policy in the
Federal government said that this action was not only “illegal” but
constituted at least one felony. They along with our own internal lawyers
cited title 18 USC1361. which states that:
“whoever willfully injures or commits any depredation against
any property of the United States, or of any Department or
Agency thereof ... shall be punished by a fine of $1,000 and
depending on the circumstances a prison term of 1 to 10
years.”
Likewise section 1362 states that:
“whoever willfully injures or maliciously destroys any ...
system, or other means of communications, operated or
controlled by the United States ... or willfully or maliciously
interferes in any way with the working or use of any such line,
or system, or willfully or maliciously obstructs, hinders, or
delays the transmission of any communication over any such
line, or system or attempts or conspires to do such an act, shall
be fined under this title or imprisoned not more than 10 years
or both.”
Page 4 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 73 of 143
M74

For your Committee to determine the application to this case of either the
old or your proposed new rules, it is important to know the facts that led
up to this extraordinary unsupportable action by Judge Kozinski and Greg
Walters. During 2000 and 2001 there was a major increase in the use of
Internet Bandwidth by Federal Courts throughout most of the United
States. This greatly elevated the cost and gave rise to the strong suspicion
that the court computer systems were being abused. This was of great
concern to the Judicial Conference Information Technology (IT)
Committee, which had been given considerable responsibility by the
Judicial Conference to monitor the costs and management of judicial
computer systems throughout the country. The Committee, then Chaired
by the late District Judge Ed Nelson, directed my staff at the AO to
monitor internet bandwidth use throughout the country to determine why
there had been such a major increase in bandwidth use. The Committee
also directed that the study must be confined solely to general bandwidth
information. The staff was expressly forbidden to examine either e-mail
or individual computers used by any Judge or court employees anywhere
in the country. This was done to assure privacy.
When this initial bandwidth study was completed, the results were
presented to the IT Committee which learned that by far the greatest
proportion of the bandwidth increase occurred through the illegal
downloading of pornography and some other movies and NAPSTER
music on court computers in Federal courts on Federal time throughout
the United States. In short there was a wholesale violation of the Federal
law and waste of taxpayer funds throughout the country, particularly in 39
courts.
Judges and Court Employee Privacy Fully Protected
It is important to note once again that my staff faithfully followed the
direction of the IT Committee and confined their study solely to internet
bandwidth use. Thus the computers and e-mail of individual court
employees, law clerks and Judges were not examined or studied. The IT
Committee then issued instructions which in most instances, I was asked
to send to the entire court family so that this systematic breaking of
Page 5 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 74 of 143
M75

Federal Law in the Courts would be ended, and the Judiciary avoid
serious embarrassment. But Judge Kozinski chose to comment publicly
to the New York Times, to at least one National news magazine and wrote
a lengthy essay for the Wall Street Journal editorial page on his mistaken
version of the study. By doing so, he created considerable media attention
and public awareness to the Judiciary’s severe problem of illegally using
court computers.
The facts described above are indisputable since Judge Kozinski publicly
admitted his role in illegally seizing the vital Internet security facility
disabling it, and thus opening judicial records up to thousands of
computer hackers throughout the world endangering the security of the
entire Judicial Branch. Not only did he admit his illegal actions but he
also boasted about them in the National press. One National magazine
published his picture with an article in which he recounted his sabotage of
the security system featuring his comment “What is a Judge to do?”
Virtually every other Judge in the United States would have said that what
a Judge is to do is obey Federal law, not waste Federal money and not to
believe apparently that a Federal Judge is above the law just because of
his office. Judge Kozinski was so proud of his sabotage action that he
actually filmed a reenactment and made copies of the tape, one of which
was sent and viewed at a nationwide Judiciary computer staff meeting in
Jacksonville, Florida. On the tape he described triumphantly to all the
many court computer experts assembled from throughout the country
precisely how he seized the computer security facility and disabled it so it
would no longer protect Judge’s records. Present, however, was the great
Chairman of the Judicial Conference IT Committee which had directed
that the bandwidth use study be made. Judge Nelson recognized that the
Kozinski tape was intended in part to be a direct attack on him and his
committee before the professional staff in order to embarrass him and his
fellow committee members. He said he could not understand how Judge
Kozinski could possibly justify his illegal action to destroy the security
system and endanger Judges records and then reenact the crime on film.
For Judge Nelson and for any objective observer it was impossible to
connect the destruction by Kozinski of the security system with a
Committee request to study bandwidth which in no way violated the
privacy of Judges or court staff but did reveal that some employees in
Page 6 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 75 of 143
M76

Federal Courts, at least 39 Courts, were downloading pornography and
some even viewing them in the court facilities on court time. Judge
Nelson believed that the Kozinski action was designed entirely to cover
up this outrageous waste of Federal taxpayer money and equipment in too
many of the courts.
Kozinski even volunteered pubhcly that one of his law clerks had
downloaded pornography in his court. He did not mention the extent to
which he and his other law clerks also downloaded pornographic movies
and NAPSTER music.
Chief Justice Rehnquist was appalled bv the Kozinski Security Sabotage
When Chief Justice William Rehnquist learned of Kozinski’s actions and
then learned that he was boasting in public about his deliberate violation
of Federal law he said “Tell Alex to watch pornography at home and not
download and watch it in the courts.”
Chief Justice Rehnquist was so disturbed by Kozinski’s actions and his
public boasting that he directed the Judicial Conference Executive
Committee immediately “to take firm disciplinary action against all those
involved” including, of course, Kozinski and Walters. He also believed
that the Kozinski/Walters action might have been taken with the tacit or
active endorsement of the Chairman of the Circuit Council, Judge Mary
Schroeder, and perhaps the entire Ninth Circuit Council. Thus the minutes
for the Executive Committee emergency teleconference of May 31, 2001
show that the Chief Justice “concluded something needs to be done that
would get the attention of the Ninth Circuit Council.” He said that “more
needed to be done than a remonstrance and more than a slap on the wrist.”
He directed the Committee and me to determine if the Ninth Circuit
Council Judges and Circuit staff could be cut off completely from the data
communications network (DCN) thus depriving them of their computers
and other automated facilities. Indeed he specifically asked us, “Can we
cut off computers?”
At the time of the Executive Committee meeting, Associate AO Director
Pete Lee was in Alaska attending a gathering of Chief Judges from the
Ninth Circuit Chaired by Circuit Chief Judge Mary Schroeder. He
Page 7 of 16

-/

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 76 of 143
M77

reported on the phone for the Executive Committee and me that she was
“now talking to them” (the Chief Judges) and said “she is afraid that the
record of the extensive downloading of pornography in the courts will be
embarrassing to some of the Judges who are up for Supreme Court or
other appointments.” According to Lee, she also said that she and a
Circuit Executive, Walters, were willing to “put the security system back
up” and make it operational “if we (the Executive Committee members
and the AO) agree not to measure sex explicit movies that are being down
loaded in the courts.” Significantly, there was no talk at the Alaska
meeting according to Lee about fear of reading Judges e-mail which they
knew did not occur. Rather the concern was about possible
embarrassment to Judges caused by reports of pornography downloading
in the Courts.

No Disciplinary Action Taken
Given the gravity of this situation, coupled with the exceptionally strong
views of the Chief Justice, I was truly surprised when a narrow majority
of the Executive Committee refused to recommend or take any
disciplinary action with respect to Kozinski or Walters or the Ninth
Circuit Council. All they agreed to do was to have the Chairman, District
Judge Charles Haden (N.D. West VA) call Chief Judge Schroeder to work
out an agreement to restore that the security system to working condition.
Haden then promised to her that the IT committee would no longer
require the monitoring of bandwidth use by the courts. In short, Judges
Schroeder and Kozinski and Circuit Executive Greg Walters got precisely
what they wanted. There would be no discipline of the offenders.
Moreover, no longer would there be any monitoring of the extent to which
pornographic movies and NAPSTER music were being illegally
downloaded by Federal Courts. Later, the Judicial Conference took what
can only be described as cosmetic action essentially leaving it up to each
individual court to develop a system of its own in the hope that Federal
law is not being violated in that court. The Administrative Office was
directed by the Conference to obtain an annual report on the quality and
adequacy of the plans developed by each court throughout the country to
require legal compliance. Based upon the last report which I say which
was for 1995-96 some courts have no plan at all while other courts have
Page 8 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 77 of 143
M78

inadequate plans. Fortunately, some have good working plans. In short,
even the cosmetic action goals are not being met in too many of the courts
throughout the country. If this sorry state of affairs is once again treated
in the media and considered by Congress, the Judiciary stands to be held
up to ridicule and embarrassment throughout the United States.

Result of the Failure to Discipline
The conclusion reached in this case study is that a Judge and/or a court
administrator can violate Federal law and commit felonies but will not be
disciplined in any way. Likewise, in too many courts, Judges and court
staff appear largely to be free to download pornography and NAPSTER
music if they choose without detection and with no discipline built into
the system of these courts to assure that Federal law is being obeyed.

Chief Justice orders Removal of an Internet Security Gateway from the
Ninth Circuit
To say that Chief Justice Rhenquist was angry about the failure of the
Conference Executive Committee to carry out his direction to discipline
the Ninth Circuit perpetrators coupled with the limited cosmetic action
taken by the Judicial Conference along with the failure of the Ninth
Circuit to consider complaints would be a gross understatement. The
Chief Justice lectured the Executive Committee sternly about their failure
to take appropriate action to discipline Judge Kozinski, Greg Walters and
the Ninth Circuit Council.
As stated, Chief Justice Rehnquist was highly disturbed about what he
perceived to be the complete failure of the Ninth Circuit Council and
Chief Judge Schroeder either to take disciplinary action against Judge
Kozinski and/or on Circuit Executive Greg Walters. However there was
one action that he could take to further express his displeasure and restore
some integrity to the system. He ordered me to remove the Internet
Gateway security system from San Francisco taking it entirely out of the
Ninth Circuit and relocating it in another Circuit. He did this so that
neither Judge Kozinski nor Greg Walters nor the Circuit Council could
Page 9 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 78 of 143
M79

again sabotage Judicial Branch security equipment and thus endanger the
security of the entire Federal Court system. It is now located near Kansas
City, Missouri.
Chief Justice Rehnquist further evidenced his continuing acute displeasure
caused by the failure of the Ninth Circuit Council or the Executive
Committee to take “stem disciplinary action. When Judge Schroeder
recommended appointment to the Conference IT Committee of the other
Circuit Judge who reputedly accompanied Judge Kozinski, he turned it
down flatly. Instead he appointed a District Judge from Idaho whom I
recommended.

Judicial Conference Procedures Ignored bv Kozinski
Sabotaging the security system was not the only avenue available to Judge
Kozinski if he objected to the policy of the Judicial Conference IT
Committee seeking to uncover and forestall possible waste, abuse, and
violation of Federal law through examining bandwidth use throughout the
Judicial Branch. The IT Committee is a creature of the Judicial
Conference and responsible to it. Kozinski could have complained to
Chief Judge Schroeder who is a member of the Conference by right of
office and to the elected District Judge on the Conference from the Ninth
Circuit and to ask for a reconsideration of this policy and if necessary ask
that it be done on an emergency basis. He also could have lodged a
complaint and request for similar action with the Chief Justice who
presides over the Judicial Conference and appoints all Conference
Committee members including the IT Committee. Likewise he could
have gone to Judge Ed Nelson the Chairman of the IT Committee and to
the Committee itself seeking such action. The Ninth Circuit has always
had a representative Judge who serves on that Committee but there is no
record that Kozinski ever complained to that Judge. Thus, instead of
going through the accepted Conference channels, which permit
expeditious action when necessary, he chose to take the law into his own
hands and constitute himself a judicial vigilante. He decided to defy
openly both the Conference Committee and the Conference itself presided
over by the Chief Justice and preceded to violate Federal Criminal law,
which clearly applies to him. Moreover he and Greg Walters violated the
Page 10 of 16

V ■

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 79 of 143
M80

contract made between the Ninth Circuit Executive and the IT Committee
in which the Circuit staff agreed to manage the internet security gateway
in San Francisco in behalf not only the Ninth Circuit but also the Eighth
and Tenth Circuits. Incidentally neither Judge Kozinski nor Judge
Schroeder nor Greg Walters consulted with either of the other two
Circuits before summarily shutting down the system thus endangering all
Judges and court staff in both of those Circuits.

Kolinski “Privacy” Straw Man
Judge Kozinski obviously decided that he could not prevail in the public
relations arena if he tried to justify illegally sabotaging the Judiciary’s
Internet security system in San Francisco solely in order to assure that
Judges and court staff could continue to illegally download pornography
and NAPSTER music. Therefore, he created a fictitious straw man in an
attempt to explain his extraordinary unilateral vigilante action. He falsely
claimed both inside the Judiciary and extensively throughout the public
media that the bandwidth survey mandated by the IT Committee
somehow resulted in Judge’s e-mail being read and their individual
computers monitored. He did this even though Judge Nelson told him
that it wasn’t true! No Judge’s e-mail was read or monitored in any way
nor were their computers monitored. Unfortunately, Kozinski managed to
persuade some uninformed media and indeed some of his fellow Judges
who did not know the facts that he was the great defender of their privacy.
In fact, he was the defender solely of the unfettered ability of all Judges
and court employees to illegally download pornography and view it in
Federal courts, an objective with which no Federal Judge or Congress
would agree.
To my knowledge, the only time individual computers ever were
examined to determine if they were being used for illegal purposes was
carried out by the Ninth Circuit Council itself in 1998, not by the IT
Committee or the AO. The Council discovered that there was a
significant amount of abuse in the Ninth Circuit. But there is no record
that the Circuit Council disciplined the offenders however.

Page 11 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 80 of 143
M81

COMMENT AND QUESTIONS ON THE APPLICATION OF THE
PROPOSED NEW RULES TO THE ABOVE FACTUAL
SITUATION
1. The conduct described above was not known to members of the Bar
or to litigants. It appears therefore from the Committee
commentary on Rule 3 that there are only two ways a “complaint”
could be filed against Judge Kozinski. One would be by a
knowledgeable Federal Judge. The second is that the “complaint”
may be “identified” by the Chief Judge. But in the absence of a
complaint by another Judge, is the Chief Circuit Judge required to
file a complaint? For example, in the above-described situation
Chief Judge Schroeder was fully aware of what Judge Kozinski had
done but neither she nor any informed Judge filed a complaint. The
comment under Rule 3 seems to say that the Chief Judge is not
required to file a complaint but “may” file and “often is expected to
trigger the process” by “identifying a complaint”. Is this a case
when a complaint was “expected” to be filed or where one “must”
be filed by the Chief Judge?
In the test case, it is theoretically possible that a Ninth Circuit staff
member or someone from the AO who were aware of these facts, as
indeed many were, could file a complaint against Judge Kozinski.
However as a practical matter this likely would not work because of
the probable repercussions against such employees. Thus, if the
Circuit Chief who, is aware of such misconduct does not elect to
identify a complaint, this creates an important loophole in the
regulations, which would allow such illegal conduct to go
unchallenged. The proposed rules of the Committee ought to consider
the possibility of making such action mandatory for the Circuit Chief
Judge.
2. If the Circuit Chief Judge is not only aware of possible misconduct
or illegal action by another Judge in the Chief s Circuit and may
have actually approved or ratified the misconduct or illegality in
advance, it is virtually certain that the Chief Judge would not file a
complaint. The new Rules as you have proposed them do not
appear to deal with this very real possibility. You may wish to
Page 12 of 16

\---

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 81 of 143
M82

revise the rules to set up an alternate procedure to make sure that a
complaint is filed in such circumstances.
3. It does not appear from the existing Rules or the proposed new
Rules that there is a statute of limitations that applies to the filing of
a complaint of misconduct against a Federal Judge. If that is the
case and if the statute has not run, a complaint could still be filed
against Judge Kozinski for the illegal action that he took in 2001. Is
the Chief Judge required to file a complaint now under the old
rules?
4. Under the new Rules, if Rule 5(a) governs and the requirements of
Rule 7 and Rule 3(a) too have been met and no complaint has been
filed under Rule 6, a Chief Judge “must identify a complaint” and
by written orders stating the reasons, begin the review provided in
Rule 11. In your Committee’s view, is Judge Schroeder obliged to
file such a complaint? If so, this probably means that she may be
obliged to file one.
5. Rule 29 of your proposed rules provides that the new rules “will
become effective 30 days after promulgation by the Judicial
Conference of the United States.” Thus Judge Schroeder would
have to file a complaint, under the new rules but they may not be in
effect by November 8, 2007 when she must step down as Chief
Judge. If she refuses, who must file a complaint prior to November
8th if anyone?
6. Under current law Judge Alex Kozinski will become the new
Circuit Chief Judge on November 8, 2007 succeeding Judge Mary
Schroeder. If approved, the new rules will be in effect after Judge
Kozinski becomes the Chief Judge. At the time is Chief Judge
Kozinski obliged to issue a complaint against himself? I assume
the answer is no. I further assume, however, that he would be
disqualified under Rule 25. Therefore the new Rules require that
the complaint “must be assigned to the Circuit Judge in regular
active service who is the most senior in date of commission of
those who are not disqualified.” If most or all of the members of
the current Circuit Council were members of the Council when
Page 13 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 82 of 143
M83

Judge Kozinski took his illegal action in 2001, then I assume that
the Rules may require each of those individuals to be disqualified
particularly if in 2001 they approved Kozinski’s illegal action in
advance. However Rule 25(G) provides that notwithstanding any
other provision of these rules to the contrary, a member of the
Judicial Council who is a subject of the complaint may participate
in the disposition thereof if the Judicial Council votes that it is
necessary and appropriate and in the interest of sound Judicial
administration that such subject Judges should be eligible to act.
Does this open the door for Judge Kozinski to participate in the
Committee handling of his complaint or one filed against him even
though he is disqualified as Chief Circuit Judge because he would
be the object of the complaint? That section does appear to open
the door to him to participate and for any other members of the
Council who in 2001 approved his actions in advance, if that
occurred.
7. It is clear that the proposed Rules apply only to Federal Judges.
They do not therefore cover a Circuit Executive such as Greg
Walters who aided and abetted in the committing of a felony
according to the facts and the analysis of various lawyers. There is
no record that the Circuit Chief Judge or anyone else disciplined
him. This clearly is an embarrassment to the Judicial Branch
particularly since Walters currently is working on ‘detail’ for the
Administrative Office, which is supervised and directed by the
Judicial Conference whose policies and rules he openly defied.
This is a notable loophole and your committee may wish to direct
an inquiry to the appropriate Judicial Conference Committee,
probably Judicial Resources, suggesting that this loophole should
be repaired.
Tn summation: As a result of the illegal action taken by Judge
Kozinski, Greg Walters and perhaps one other Ninth Circuit Judge,
coupled with the total failure of the Ninth Circuit Council and the
Judicial Conference even to consider disciplining for Judge Kozinski
under current law and Rules procedures, the Federal Judiciary could be
censured by Congress for permitting its laws to be openly flaunted
with no response by the Judiciary. Also, it could be justifiably
Page 14 of 16

V ~

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 83 of 143
M84

criticized by the media. This is particularly true and doubly serious
because the disabling of the security system obviously took place for
one reason and one reason only namely that Judge Kozinski and his
allies wanted to make it possible for Federal Judges and court staff to
be totally free of detection when or if they download illegal
pornography movies and NAPSTER music on Federal Court
computers, on Federal Court time, in Federal Court buildings using
Federal taxpayer money. Therefore in the interest both of good
government and the reputation of the Judicial Branch the new Rules
should require Circuit Chiefs and Circuit Councils or suitable
alternative Judicial Branch organizations to initiate and consider
complaints in this and similar factual situations. Certainly Chief
Justice Rehnquist strongly believed that the system must require “stem
discipline” in such a situation, discipline that is totally absent thus far
and I agree with him fully.
Summary of Central Questions for Your Committee
• Is it mandatory for the Chief Circuit Judge or any other Judge to
file a complaint against Judge Kozinski under the old Rules? If
not, does your Committee have authority to mandate the filing
and consideration of such a complaint?
• Do the proposed Rules require the Ninth Circuit Chief Judge to
initiate a complaint against Kozinski that is then considered by
the Circuit Council? If not, is it mandatory upon any other
Judicial organization such as your Committee to initiate a
complaint? If not, your Committee may wish to revise the
Proposed Rules to assure that such disciplinary action is taken to
restore integrity to the Rules process while at the same time
avoiding serious embarrassment to the Judicial Branch for its
failure to act.

CC: William R. Burchill Jr., Associate Director and General Council

Page 15 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 84 of 143
M85

Mr. William R. Burchill Jr., Associate Director and General Council
Administrative Office of the US Courts
Thurgood Marshall Federal Judiciary Building
Washington DC 20544

Judge Ralph K. Winter Jr., Chairman
Judicial Conference Committee on Judicial Conduct and Disability
US Court House, 141 Church Street
New Haven, CT 06510

Page 16 of 16

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 85 of 143
M86

EXHIBIT 3

OpinionJoumal - AT

19-55427, 10/09/2019, ID: 1 146(^^/vJ^JgpJ{2J-nj^gmgggg/^grgy^3llis,html?id=95001063
M87

OpinionJoumal
from THE WALL STREET JOURNAL Editorial Page

PRINT WINDOW

CLOSE WINDOW

AT LAW

Privacy on Trial
Big Brother is watching you, your honor.
BY ALEX KOZINSKI
Tuesday, September 4, 2001 12:01 a.m.
An open letter to federal judges:
The U.S. Bureau of Prisons maintains the following sign next to all telephones used by inmates:
"The Bureau of Prisons reserves the authority to monitor conversations on the telephone. Your
use of institutional telephones constitutes consent to this monitoring. . . ."
I'm planning to put signs like these next to the telephones, computers, fax machines and other
equipment used in my chambers because, according to a policy that is up for a vote by the U.S.
Judicial Conference, we may soon start treating the 30,000 employees of the judiciary pretty
much the way we treat prison inmates.

Exaggeration? Not in the least. According to the proposed policy, all judiciary
employees—including judges and their personal staff—must waive all privacy in communications
made using "office equipment," broadly defined to include "personal computers . . . library
resources, telephones, facsimile machines, photocopiers, [office supplies." There is a vague
promise that the policy may be narrowed in the future, but it is the quoted language the Judicial
Conference is being asked to approve on Sept. 11.
Not surprisingly, the proposed policy has raised a public furor. This has so worried the policy's
proponents that Judge Edwin Nelson, chairman of the Judicial Conference's Automation and
Technology Committee, took the unprecedented step of writing to all federal judges to reassure
them that the proposed policy is no big deal. I asked that my response to Judge Nelson be
distributed to federal judges on the same basis as his memo, but my request was rejected. I
must therefore take this avenue for addressing my judicial colleagues on a matter of vital
importance to the judiciary and the public at large.
The policy Judge Nelson seeks to defend as benign and innocuous would radically transform how
the federal courts operate. At the heart of the policy is a warning—very much like that given to
federal prisoners—that every employee must surrender privacy as a condition of using common
office equipment. Like prisoners, judicial employees must acknowledge that, by using this
equipment, their "consent to monitoring and recording is implied with or without cause." Judicial

1 of 3

1/5/08 2:08 PM

OpinionJournai-ATL£$£e: 19-55427, 10/09/2019, ID: 11460l^/v^^p|^nj|)§l,ngggi^7m9/:pi1l^hishtm,?id=9500]063
M88

opinions, memoranda to colleagues, phone calls to your proctologist, faxes to your bank,
e-mails to your law clerks, prescriptions you fill online—you must agree that bureaucrats are
entitled to monitor and record them all.
This is not how the federal judiciary conducts its business. For us, confidentiality is inviolable.
No one else—not even a higher court—has access to internal case communications, drafts or
votes. Like most judges, I had assumed that keeping case deliberations confidential was a
bedrock principle of our judicial system. But under the proposed policy, every federal judge will
have to agree that court communications can be monitored and recorded, if some court
administrator thinks he has a good enough reason for doing so.

e

Another one of our bedrock principles has been trust in our employees. I take pride in saying
that we have the finest work force of any organization in the country; our employees show
loyalty and dedication seldom seen in private enterprise, much less in a government agency. It
is with their help—and only because of their help—that we are able to keep abreast of crushing
caseloads that at times threaten to overwhelm us. But loyalty and dedication wilt in the face of
mistrust. The proposed policy tells our 30,000 dedicated employees that we trust them so little
that we must monitor all their communications just to make sure they are not wasting their
work day cruising the Internet.
How did we get to the point of even considering such a draconian policy? Is there evidence that
judicial employees massively abuse Internet access? Judge Nelson's memo suggests there is, but
if you read the fine print you will see that this is not the case.
Even accepting the dubious worst-case statistics, only about 3% to 7% of Internet traffic is
non-work related. However, the proposed policy acknowledges that employees are entitled to
use their telephone and computer for personal errands during lunchtime and on breaks. Because
lunches and breaks take up considerably more than 3% to 7% of the workday, we're already
coming out ahead. Moreover, after employees were alerted last March that downloading of
certain files put too much strain on the system, bandwidth use dropped dramatically. Our
employees have shown they can be trusted to follow directions.
What, then, prompted this bizarre proposal? The answer has nothing to do with bandwidth or any
of the other technical reasons articulated by Judge Nelson. Rather, the policy became necessary
because Leonidas Ralph Mecham, director of the Administrative Office of the U.S. Courts, was
caught monitoring employee communications, even though the Judicial Conference had never
authorized him to do so. Unbeknownst to the vast majority of judges and judicial employees, Mr.
Mecham secretly started gathering data on employee Internet use. When the Web sites accessed
from a particular computer affronted his sensibilities, Mr. Mecham had his deputy send a letter
suggesting that the employee using that computer be sanctioned, and offering help in
accomplishing this. Dozens of such letters went out, and one can only guess how many judicial
employees lost their jobs or were otherwise sanctioned or humiliated as a consequence.
When judges of our circuit discovered this surreptitious monitoring, we were shocked and
dismayed. We were worried that the practice was of dubious morality and probably illegal. We
asked Mr. Mecham to discontinue the monitoring. Rather than admitting fault and apologizing,
Mr. Mecham dug in his heels. The monitoring continued for most of the country until Mr.
Mecham was ordered to stop by the Judicial Conference Executive Committee.
Hell hath no fury like a bureaucrat unturfed. In a fit of magisterial petulance, Mr. Mecham
demanded that his authority to monitor employee communications be reinstated without delay.
A compliant Automation Committee hastily met in secret session to draft the proposed policy,
pointedly rejecting all input from those who might oppose it. In their hurry to vindicate Mr.
Mecham's unauthorized snooping, the committee short-circuited the normal collegial process of
deliberation and consultation.

2 of 3

1/5/08 2:08 PM

Opinion Journal - at

19-55427, 10/09/2019, ID: 11460^^/v^^pJj^^gfngggj|g/^gIg/pJi43'his .html?id=95001063
M89

Salving Mr. Mecham's bureaucratic ego, and protecting him from the consequences of his
misconduct, is hardly a basis for adopting a policy that treats our employees as if they live in a
gulag. Important principles are at stake here, principles that deserve discussion, deliberation and
informed debate. As Chief Judge James Rosenbaum of Minnesota has stated, "giving employers
a near-Orwellian power to spy and snoop into the lives of their employees, is not tenable." If
we succumb to bureaucratic pressure and adopt the proposed policy, we will betray ourselves,
our employees and all those who look to the federal courts for guidance in adopting policies that
are both lawful and enlightened.

I therefore suggest that all federal judges reading these words—indeed all concerned
citizens—write or call their Judicial Conference representatives and urge them to vote against
the proposed policy. In addition, we must undo the harm we have done to judicial employees
who were victims of Mr. Mecham's secret, and probably illegal, snooping. The Judicial
Conference must pass a resolution that offers these employees an apology and expungement of
their records.
Moreover, we should appoint an independent investigator to determine whether any civil or
criminal violations of the Electronic Communications Privacy Act were committed during the
months when 30,000 judicial employees were subjected to surreptitious monitoring. If we in the
judiciary are not vigilant in acknowledging and correcting mistakes made by those acting on our
behalf, we will surely lose the moral authority to pass judgment on the misconduct of others.
Mr. Kozinski is a judge on the Ninth U.S. Circuit Court of Appeals in California. His unmonitored
e-mail address is kozinski&usc. edu.
Copyright © 2008 Dow Jones & Company, Inc. All Rights Reserved.
PRINT WINDOW

3 of 3

CLOSE WINDOW

1/5/08 2:08 PM

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 89 of 143
M90

EXHIBIT 4

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 90 of 143

CAL LAW

M91

CALIFORNIA'S LEGAL NEWS SOURCE

Select 'Print' in your browser menu to print this document.
©2005 ALM Properties, Inc.
Page printed from: Cal Law
Back to Article

Kozinski Strikes Back
Alex Kozinski
The Recorder
09-23-2005

Last week in this space, Cyrus Sanai took up what was headlined as the "Taking the Kozinski Challenge" by
purporting to show that the Ninth Circuit routinely ignores circuit and Supreme Court precedent in its published
and unpublished opinions. According to Mr. Sanai, Ninth Circuit panels "silently dustbinned" inconvenient opinions,
paid "lip service" to Supreme Court case law, vaulted "somersaults" in creating three lines of authority "none of
which agree with each other," and adopted a rule that has "the 'absolute simplicity' of Joseph Heller's 'Catch-22.'"
Were this criticism justified, it would be an embarrassing illustration of judicial lawlessness. Fortunately, it isn't.
For reasons of his own, Mr. Sanai chose as the centerpiece of his article an arcane area of federal jurisdiction
known as the Rooker-Feldman doctrine. This doctrine holds that district courts may not entertain lawsuits
challenging the validity of state court judgments. Were it otherwise, district courts would effectively become
appellate tribunals for state court decisions — a role reserved to the U.S. Supreme Court.
This much is clear. The closer question is what happens where the state courts conclusively resolve a federal issue
in an interlocutory order. May the losing party challenge that order by bringing a federal action, or must it await
review by writ of certiorari after final judgment? According to Mr. Sanai, we held in H.C. ex rel. Gordon v. Koppel,
203 F.3d 610 (9th Cir. 2000), that "Rooker-Feldman did not apply to ongoing state proceedings."
Not so. H.C. arose out of a state court order transferring temporary custody from mother to father. The mother
then brought a federal lawsuit seeking to enjoin the state judge from enforcing his order. The district court
dismissed on Rooker-Feldman grounds and the mother appealed.
Our opinion considered both Rooker-Feldman and Younger abstention, and affirmed on the basis of Younger. As to
Rooker-Feldman, the opinion did not hold (as Mr. Sanai imagines) that the doctrine never applies to orders
entered in the course of ongoing state litigation. H.C. merely found that, because temporary custody could change
during the course of the litigation, "there is no final state judgment or order to which the Rooker-Feldman doctrine
might relate and we need not reach the question of the doctrine's applicability to this action." Id. at 613 (emphasis
added). H.C. expressly left open whether Rooker-Feldman applies to an interlocutory order that finally resolves the
federal issue: "Nor are we asked to review a final state judgment of an order of an interlocutory nature." Id.
Doe & Associates Law Offices v. Napoiitano, 252 F.3d 1026 (9th Cir. 2001), reached this question. At issue in
Napoiitano was a grand jury subpoena seeking client records from a law firm. The firm unsuccessfully petitioned
the state court to quash the subpoena, then brought a federal lawsuit seeking to enjoin its enforcement. The
district court eventually dismissed on Rooker-Feldman grounds.
Napoiitano thus confronted the question left open in H.C.: Does Rooker-Feldman bar a federal lawsuit challenging a
state-court order that conclusively resolves an issue, even though the litigation continues as to other issues?
Napoiitano held that such a federal lawsuit is barred by Rooker-Feldman. One might disagree, as Mr. Sanai clearly
does, but his claim that Napoiitano "dustbinned" H.C. is unsupported.
Mr. Sanai next claims that Napoiitano was overruled by Exxon Mobil Corp. v. Saudi Basic Industries Corp., 125 S.
Ct. 1517 (2005), yet we stubbornly refused to acknowledge this in Mothershed v. Justices of the Supreme Court,
410 F.3d 602 (9th Cir. 2005). But Exxon Mobil did not address the issue resolved by Napoiitano — whether Rooker-

Feldman applies

Mel'tSoker-

Feldman bars federal lawsuits brought before the state court^%ve adjudicated the federal question.
Mothershed did not rely on Napolitano and so had no reason to decide whether Napolitano was affected by Exxon
Mobil. Rather, Mothershed found Exxon Mobil inapplicable because the state courts in Mothershed had conclusively
resolved the federal issues before the federal lawsuit was brought. Is this the only plausible reading of Exxon
Mobil? Perhaps not — though I believe it's a fair reading. Certainly, however, Mr. Sanai's claim that Mothershed
paid mere "lip service" to Exxon Mobil is seriously overstated. All that can fairly be said about Mothershed is that it
selected one permissible interpretation of a Supreme Court opinion that was not directly on point.
Mr. Sanai's claim that our Rooker-Feldman jurisprudence is in hopeless disarray is especially off the mark because
this is an area where we have been vigilant in maintaining consistency. This is due in no small part to the fact that
our colleague, Judge William Fletcher, is not merely one of the great minds of the federal judiciary, but a federal
courts professor and a recognized authority on Rooker-Feldman. Judge Fletcher can be a bit of a nudge in
prodding us to interpret Rooker-Feldman correctly, and so three years before the Supreme Court decided Exxon
Mobil, our court took en banc Ahmed v. Washington, 276 F.3d 464 (9th Cir. 2001), where a panel had committed
the very error the Supreme Court eventually corrected in Exxon Mobil. Though the parties settled, rendering the
appeal moot, the en banc panel vacated the incorrect panel opinion, keeping our case law out of harm's way when
the Supreme Court unanimously reversed other circuits in Exxon Mobil.

Despite his colorful language, Mr. Sanai's article raises no legitimate question about whether the Ninth Circuit has
been derelict in following circuit or Supreme Court precedent. But the article does raise serious issues of a different
sort. Mr. Sanai's article urges us to "grant en banc rehearing of the next decision, published or unpublished, which
asks the court to resolve the split among H.C., Napolitano and Mothershed." A petition for en banc rehearing
raising this very issue crossed my desk just as Mr. Sanai's article appeared in print. The name of the case? Sanai
v. Sanai. A mere coincidence of names? Not hardly. The petition, signed by Mr. Sanai, cites the same cases and
makes the same arguments as his article — including the reference to "Catch-22."
Mr. Sanai's byline modestly lists him as "an attorney with Buchalter Nemer in Los Angeles." The firm's Web site
identifies him as "a Senior Counsel and English solicitor ... [whose] practice focuses on project finance, corporate
finance and business transactions, with a particular expertise in international finance transactions." The careful
reader would therefore have no cause to doubt that Mr. Sanai is a disinterested observer of this court's RookerFeldman jurisprudence. Nothing alerts the reader to the fact that Mr. Sanai has been trying for years to get the
federal courts to intervene in his family's state-court dispute, an effort referred to by a highly respected district
judge as "an indescribable abuse of the legal process, ... the most abusive and obstructive litigation tactics this
court has ever encountered. ..." Nor would the reader — unless he happened to enter Mr. Sanai's name in the
Westlaw CTA9-ALL database — realize that, as part of the same imbroglio, he and certain members of his family
have hounded a state trial judge off their case (read the PDF'): been held in contempt and sanctioned under 28
U.S.C. §1927 and had their ninth sortie to our court in the same case designated as "frivolous" and "an improper
dilatory tactic" by the district court. A detached observer, Mr. Sanai is not.
By failing to disclose his long-standing, active and abiding interest in the legal issue he discusses in his article, Mr.
Sanai has done the reading public a disservice, cloaking his analysis with a varnish of objectivity. Worse, by
publishing the article while he had a case raising this precise issue, Mr. Sanai used The Recorder to call unfair
attention to his petition for rehearing, to the detriment of opposing parties who limited their advocacy to the briefs.
And, by gratuitously drawing my name repeatedly into the controversy, he has also managed to disqualify me
from participation in his case, skewing the en banc voting process.
Whether our court is diligent in applying circuit law and faithful to Supreme Court precedent are issues that
deserve public attention. Contrary to Mr. Sanai's bold assertion, I have never claimed that intra-circuit conflicts
never arise, and my colleagues and I welcome legitimate efforts to tell us when our circuit law needs mending. It
is important, however, to draw a clear line between case advocacy and objective public debate. This Mr. Sanai has
neglected to do.
Alex Kozinski is a judge on the Ninth Circuit U.S. Court of Appeals.

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 92 of 143
M93

EXHIBIT 5

V^“T Ul

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 93 of 143
M94

JUDICIAL CONFERENCE OF THE UNITED STATES
COMMITTEE ON INFORMATION TECHNOLOGY
Honorable Edwin L Nelson, Chair
Honorable David A. Baker
Honorable Paul J. Barbadoro
Honorable Alice M. Batchelder
Honorable David H. Coar
Honorable Lewis A.. Kaplan
Honorable Robert b. King
Honorable J. Thomas Marten
Honorable Catherine D. Perry
Honorable James Robertson
Honorable Roger G. Strand
Honorable L. t. Senter, Jr.
Honorable Diane W. Sigmund
Honorable Thomas I. Vanaskie

May 10,2002
Honorable Howard Coble
Chairman, Subcommittee on Courts,
the Internet, and Intellectual Property
Committee on the Judiciary
United States House of Representatives
B351A Rayburn House Office Building
Washington, DC 20515
Dear Mr. Chairman:
I understand that on May 2, 2002, the Judiciary Subcommittee on Courts, the
Internet, and Intellectual Property held a business meeting to consider H.R. 4125, the
“Federal Courts Improvement Act.” At the meeting Mr. Berman first offered and then
withdrew an amendment relating to “monitoring” of electronic communications on the
judicial branch’s Data Communications Network (the “DCN”). I am told that
Mr. Berman may again offer his amendment when H.R. 4125 is considered by the full
committee. Those of us who serve on the Judicial Conference Committee on
Information Technology (the “IT Committee”) believe the proposed amendment would
constitute an unwarranted and unneeded intrusion into the internal workings of the Third
Branch and would, in fact, cause substantial harm to the judiciary’s ongoing automation
efforts.
As you are aware, the work of the Judicial Conference of the United States is
supported and facilitated by the work of 24 committees, the members being appointed by
the Chief Justice of the United States who serves as the presiding officer of the Judicial
Conference. The IT Committee, formerly the Committee on Automation and

l-Tv^y

ui

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 94 of 143
M95

Honorable Howard Coble
Page 2
Technology, which I chair, is comprised of 14 judges-one from each of the regional
circuits, one magistrate judge and one bankruptcy judge. The IT Committee is
responsible for providing policy recommendations to the Judicial Conference on its
subject-matter jurisdiction, planning, and oversight of the judiciary’s many automation
programs.
I am told Mr. Berman expressed some concern that on two occasions, in 1998 and
2000, Administrative Office (the “AO”) personnel may have monitored or blocked
Internet communications on the DCN. In 1998, the AO was not involved at all and the
action in 2000 was directed by the IT Committee.
During the early spring of 1998, at the direction of the Ninth Circuit Council, the
Ninth Circuit technical staff installed and activated at the Ninth Circuit Internet gateway
a filtering software system called WebSense, with the goal being to determine access
through that gateway to adult-oriented materials by DCN users in the Ninth Circuit. AO
personnel were not involved.
Findings by Ninth Circuit staff which resulted from the short-term use of
WebSense are revealing. On April 28, 1998, Ninth Circuit technical staff reported to the
then chief judge of that circuit that a local review by staff of that court of logs over a 28day period revealed that users in the three circuits served by that gateway had accessed
approximately 1100 “adult” web sites approximately 90,000 times. Two explanatory
notes may put those figures in better perspective. While 90,000 “adult” site accesses may
seem high, one must remember that every click on a new link, even at one site, will be
recorded as a separate access. On the other hand, 3.6% of total accesses may not seem
particularly high, but if one remembers that “adult” sites tend to be graphics and media
intensive, the actual traffic generated by those accesses was probably higher than 3.6% of
the total traffic, up to 40% to 50% of available bandwidth.
That staffer attached to his memorandum to his chiefjudge a 7 page “partial
listing” of some 300 “adult” sites that had been accessed. An examination of the names
of sites shown on the list suggests that transfers of files to or from many such sites would
likely violate federal law prohibiting the sexual exploitation of children. Some such
names—ones that I can repeat here were: allteens.com; cyberteens.com; hotteen.com;
hotteensex.com; and hollywoodteens.com.
As a result of the findings of the filtering, the Circuit determined to block access
to adult-oriented sites. Placement and removal of WebSense on the Ninth Circuit
Gateway were decisions taken by appropriate authorities in the Ninth Circuit.

i “tkj j

\<JKJ

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 95 of 143
M96

Honorable Howard Coble
Page 3
At its meeting in January 1999, the IT Committee recommended to the full
Judicial Conference, that it authorize the AO to install software at each of the national
gateways to block access to adult-oriented, pornographic Internet web sites. At its
meeting in March 1999, the Judicial Conference declined to accept that recommendation,
believing that such blocking was a matter more appropriately addressed by each court.
Subsequently, the Ninth Circuit stopped blocking.
At its meeting in December 2000, the IT Committee was informed that demand
for bandwidth (capacity) on the DCN for access to the Internet had almost doubled over
the preceding 10 months. Several members of the committee had received anecdotal
complaints and the AO had received numerous specific complaints about slow access to
and responses from the Internet. Concerned that IT resources purchased with tax payer
funds be used appropriately, the IT Committee directed committee staff from the AO to
determine the cause of the increased demand and to report to the committee at its meeting
in June 2001.
Responding to the committee request, in January 2001, AO personnel activated
two filters or “signatures” on the already installed and operating intrusion detection
software at the three national gateways to identify high volume files passing through
those gateways. Experience has taught us that music and movie files tend to be among
the largest on the Internet. One twenty-second video/movie clip may be the equivalent of
sending two thousand pages of typed text. Signatures activated on the intrusion
detection software were intended to detect and log the passage of such large files. The
logging consisted of recording several items of data: (1) the date and time; (2) the IP
address inside the DCN; (3) the IP address outside the DCN; and (4) the name of the file
passing through the gateway. The user inside the DCN could not be identified because
the AO has no way to do that. It can only identify the judiciary facility to which any IP
address has been assigned. The information Captured showed that a substantial portion
of Internet traffic was non-business related and that a few judiciary users were engaged
in extraordinarily high volume downloading of music and movies. Many of the Internet
site and video file names suggested they contained pornography. Others suggested they
might contain depictions of children engaged in sexually explicit conduct, prohibited by
federal law. Finally, many were music files that were most likely copyrighted.
Let me emphasize again that neither the Director of the AO, nor the employees of
the AO, nor the IT Committee members knew then or know today, the identities of any
DCN users who were involved with this downloading. Only local IT staff, operating
under the direction of local judges, have the ability to determine the identity of any user

I

I “TO f

l

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 96 of 143
M97

Honorable Howard Coble
Page 4
of the DCN. Moreover, this so-called “monitoring” captured the content of video and
music files only to extent that the web site and file names suggested such content.
Use of the “offending” intrusion detection signatures was discontinued in early
June 2001 after the Executive Committee of the Ninth Circuit Judicial Council
unilaterally, and without notice to either the Eight or Tenth Circuits, directed its technical
staff to disable all aspects of the intrusion detection system at the Ninth Circuit gateway.
Reasonable people may disagree about the serious level of risk created by this action but
it is clear that the intrusion detection system was, and is, an integral part of the DCN
security apparatus and that simply “turning it off’ exposed DCN users in the Eighth,
Ninth, and Tenth Circuits, and perhaps throughout the entire federal judiciary, to
considerable risks to the security of their electronically stored data and electronic
communications and, indeed, to their privacy interests.
The intrusion detection software was reactivated in a short time, but only without
the music and movie signatures as demanded by the Ninth Circuit Council.
In a special meeting on July 27, 2001, the IT Committee recommended to the
Judicial Conference that it adopt on an interim basis the Internet appropriate use policy
developed by the Federal Chief Information Officers Council of the General Services
Administration. Excluded from that recommendation was a provision of the executive
policy which sought to define and limit privacy interests of executive officers and
employees. In a mail ballot following its shortened meeting of September 11,2001, the
Conference accepted the IT Committee recommendation.
In the interim, the IT Committee has developed controls that allow the AO to
change intrusion detection signatures at the national gateways only in certain specified
circumstances. For example, the AO may respond to emergency situations as they arise
by adding needed security signatures but such signatures may remain in place for no
more than 14 days without the explicit approval of the committee chair or his designee.
The need for this emergency response authority was demonstrated in late October and
early November 2001 when the DCN was hard hit by the NimdaE email virus.
At least four significant factors counsel against the adoption of this amendment:
It represents the sort of micro management of judiciary affairs that would
seriously threaten the independence of the Third Branch and of the many
judges, both Article III and Article I, who serve in that branch.

WJ

I “T\J J

yc/w ui

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 97 of 143
M98

Honorable Howard Coble
Page 5
It would seriously impair the ability of the courts to administer and manage
its wide area network-the foundation on which many of the courts’
information technology programs depend. For example, the courts are
rapidly developing and implementing modem and robust case management
systems that will provide the ability to create and maintain electronic case
files. A new and modem technologically advanced financial accounting
system that will permit the courts to better manage and account for
appropriated funds is being deployed. Both these and other projects
require a technologically advanced and secure wide area network.
Under the present state of the law, the federal judiciary is governed by the
provisions of the Electronic Communications Privacy Act (the “ECPA”).
This amendment would, in my opinion, call into question the status of the
judiciary under the ECPA, while leaving intact provisions of law that allow
other government and private entities to protect their IT infrastructures and
their users. It is unclear to me why the federal courts, with exceptionally
higher interests in the security and integrity of the information that is
created, transmitted, and stored on court systems than many others, should
be afforded less protection than are they.
There is no articulated need for the proposed amendment. Instead, the
Judicial Conference and its Committee on Information Technology are
fully engaged in addressing these issues and have demonstrated that they
are sensitive to the privacy and security needs ofjudges and judiciary
employees. As judges we are quite capable of considering all sides of
virtually any issue, weighing the competing interests, and striking
appropriate balances between them. That is what judges do.
Finally, let me debunk a misconception that seemingly gained acceptance among
some judges last year. There is not now; there has never been; and there are no plans
ever to “monitor” judiciary email. We just last week completed the implementation of
the Lotus Notes email system throughout almost virtually all of the entire federal
judiciary. Judiciary users now have the capability to encrypt any piece of email to any
other judiciary user so it can be read only by the intended recipient. We are investigating
the means by which we can provide similar encryption capabilities for email going to or
coming from the Internet.

i

j

yC/Cf VI

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 98 of. 143
M99

Honorable Howard Coble
Page 6
If you or any members of your committee have any additional concerns or
questions, I will be pleased to answer them, either by phone, mail, encrypted email, or, if
you prefer, in person.
Sincerely,

Edwin Nelson
Chairman, Committee on
Information Technology
cc:

Members of the Judiciary Subcommittee
on Courts, the Internet, and Intellectual Property
Members of the Judicial Conference Committee
on Information Technology

I TkJJ

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 99 of 143
M100

EXHIBIT 6

Case: 19-55427, 10/09/2019. ID: 11460134, DktEntry: 19. Page 100 of 143
M101

This is G o o g i e's cache of http;//alex.kozinski.com/articles/aiticles.bv.ak.list.htm as retrieved on Aug 2, 2007 07:09:15 GMT.
G o o g 1 e's cache is the snapshot that we took of the page as we crawled the web.
The page may have changed since that time. Click here for the current page without highlighting.
This cached page may reference images which are no longer available. Click here for the cached text only.
To link to or bookmark this page, use the following url: http: //www.google.com/search?
q=cache:acjiw4A3mswJ:alex.kozinski.com/articles/articles.by.ak.list.htm+alex+kozinski.com&hl=enSct=clnkScd=lSgl=us
Google is neither affiliated with the authors of this page nor responsible for its content.

These search terms have been highlighted: alex kozinski com

ALEX KOZINSKI
(As of March 30, 2006)

1.

A Market Oriented Revision of the Patent System. 21 UCLA L. Rev. 1042 (1974) and 6 Patent L.
Rev. Ill (1974). rhttp://alex.kozinski.com/articles/Marketoriented_Revision_of_Patent_System.pdf)

2.

That Can of Worms: The Speedy Trial Act. A.B.A. J., July 1976, at 862.
(http://alex. kozinski.com/articles/That_Can_of_Worms.pdfl

3.

Taking it with You Through U.S. Customs. L.A. Lawyer, Oct. 1978, at 43.
(http://alex. kozinski.com/articles/Taking__it_with_You_Through_US_Customs.pdfl

4.

Structure of the United States Legal System, in Practical Guide to Investment in the United States 1
(John I. Forry ed., 1979).
Hi ttp://alex. kozinski. com/articles/Structure_of_theUSLegalSvstem%201 .pdf)

5.

Rules of the Supreme Court of the United States. 94 Harv. L. Rev. 312 (1980) (book review, with
W.H. Allen).
(http://alex. kozinski.com/articles/Rules_of_the_SCOTUS.pdfl

6.

Ten Principles for the New Federal Practice. 31 Fed. Bar News & J. 16 (1984).
(http://alex. kozinski.com/articles/Ten_Principles_for_New_Federal_Practice.pdfl

7.

Litigation with the Federal Government. ALI-A.B.A. CLE Rev., Sept. 21, 1984.
(http ://alex. kozinski.com/articles/Litigation_with_Federal_Govt.pdfl

8.

Taking the Fifth Seriously. Harv. Salient, Oct. 1987, at 6.
(http://alex.kozinski.com/articles/Taking_the_Fifth_Seriously.pdfl

9.

A Tribute to Chief Justice Warren E. Burger. 100 Harv. L. Rev. 975 (1987).
(http://alex.kozinski.com/articles/Tribute_to_Chief_Justice_Warren_Burger.pdfl

10.

Foreword in Economic Liberties and the Judiciary (James A. Dorn & Henry G. Manne eds., George
Mason Press 1987). (http://alex.kozinski.com/articles/Economic_Liberties_and_the_Judiciary.pdfl

11.

It is a Constitution We Are Expounding. 1987 Utah L. Rev. 977 (debate with J.D. Williams).

fhttpV/alex^ozinsiaxl^/ar^c^es^fi^R’JPco^^&timwe^re^expouni^ing.pcl/i f 143
12.

Torts are No Piece of Cake. Wall St. J., Oct. 6, 1988, at A20 (reviewing Peter W. Huber, Liability:
The Legal Revolution and its Consequences (1988)).
('http://alex.kozinski.com/articles/Torts_are_no_piece_of_cake.pdD

13.

Rescuing Contracts from High Weirdness. Wall St. J.. Aug. 3. 1988.
('http://alex.kozinski.com/articles/Rescuing_Contracts_from_HighWeirdness.pdD

14.

Takings. Reason, May 1988, at 78 (book review),
t http://alex.kozinski.com/articles/Takings_Reason.pdfl

15.

Hunt for Laws’ “True” Meaning Subverts Justice. Wall St. J., Jan. 31, 1989, at A14.
lhttp://alex. kozinski.com/articles/Hunt_for_Laws_True_Meaning_Subverts_Justice.pdfl

16.

Commercial Free Speech in the Marketplace of Ideas. 41 Rutgers L. Rev. 719 (1989) (symposium
moderator), ('http://aIex.kozinski.com/articles/Coniinercial_Free_Speech_Marketplace_Ideas.pdD

17.

Life Is Not A Novel. Wall St. J., July 18, 1989, at A12 (reviewing Nathaniel Branden, Judgment
Day: My Years with Ayn Rand (1989)).
Oittp://alex.kozinski.com/articles/Life Is Not_a_Novel.pdfl

18.

What I Ate for Breakfast and Other Mysteries of Judicial Decisionmaking. 43 Cons. Fin. L.Q. Rep.
254 (1989), reprinted in 26 Loy. L.A. L. Rev. 993 (1993).
('http://alex.kozinski.com/articles/What_I_Ate_for_Breakfast.pdD

19.

The Virtues of an Ordered Mind. Legal Times, Nov. 27, 1989, at 50 (reviewing Ruggero J. Aldisert,
Logic for Lawyers: A Guide to Clear Legal Thinking (1989)).
('http://alex.kozinski.com/articles/Virtues_of_an_QrderedMind.pdD

20.

Freedom’s Scents: A Romanian Remembers. Wall St. J., Nov. 28, 1989, at A6.
('http://alex.kozinski.com/articles/FreedomsScents_A_Romanian_Remembers.pdD

21.

Romanians Must Now Build a Society. L.A. Daily J., Jan. 18, 1990, at A14.
rhttp://alex.kozinski.com/articles/Romanians_Must_Now_Build_Society.pdfl

22.

Guide to Nintendo Shopping. Wall St. J., Jan. 31, 1990, at A14.
nittp://alex.kozinski.com/articles/Guide_to_Nintendo_Shopping.pdD

23.

Who’s Afraid of Commercial Speech?. 76 Va. L. Rev. 627 (1990) (with Stuart Banner), reprinted as
When Speech Isn’t Free in Philip Morris Mag., Summer 1991, at 26, in 350 FTC: Watch 8 (Sept. 9,
1991), and in 2 Int’l Health & Dev. 7 (Summer 1991).
(http://alex.kozinski.com/articles/Who's_Afraid_Commercial_Speech.pdD

24.

Trouble in Santa Teresa. N.Y. Times, May 27, 1990, § 7, at 13 (reviewing Sue Grafton, “G” is for
Gumshoe (1990)). lhttp://alex.kozinski.com/articles/Trouble_in_Santa_Teresa.pdD

25.

Of Profligacy. Piracy, and Private Property. 13 Harv. J.L. & Pub. Pol’y. 17 (1990) (debate
introduction). (littp://alex.kozinski.com/articles/Of_Profligacy_Piracy_Private_Property.pdD

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 102 of 143
M103

26.

Through the Open Door: What Is It Like to Be an Immigrant in America?. Wall St. J., July 3, 1990,
at A8. (http://alex.kozinski.com/articles/Through_the_Open_Door.pdD

27.

Trouble in Super Marioland. Wall St. J., July 27, 1990, at A9.
(http://alex.kozinski.com/articles/Trouble_in_Super_Marioland.pdD

28.

Death. Lies & Videotape. Forward, Aug. 24, 1990, at 1, reprinted in A.B.A. J., Jan. 1991, at 71.
(http://alex.kozinski.com/articles/Death_Lies_&_Videotape.pdD

29.

Dicta: Kozinski Learns About Privacy. L.A. Daily J., March 11, 1991.
(http://alex.kozinski.com/articles/Dicta_KozinskiLearns_about_Pri vac.pdf)

30.

Puzznic and Other Video Enigmas. Wall St. J., Mar. 20, 1991, at A18.
(http://alex.kozinski.com/articles/Puzznic_and_Other_Video_Enigmas.pdf)

31.

Tribute to Gideon Kanner. 24 Loy. L.A. L. Rev. 517 (1991).
(http://alex.kozinski.com/articles/Tribute_to_Gideon_Kanner.pdD

32.

My Pizza with Nino. 12 Cardozo L. Rev. 1583 (1991).
(http://alex.kozinski.com/articles/My_Pizza_with_Nino.pdD

33.

Confessions of a Bad Apple. 100 Yale L.J. 1707 (1991).
(http://alex.kozinski.com/articles/Confessions_of_a_bad_apple.pdD

34.

The Dark Lessons of Utopia. 58 U. Chi. L. Rev. 575 (1991), reprinted in The St. Croix Rev., June
1993, at 43, in The Freeman, Feb. 1992, at 58, and in Econ. Educ. Bull., Feb. 1992, at 1.
(http://alex.kozinski.com/articles/The_Dark_Lessons_of_Utopia.pdD

35.

A Drummer Tries to Remember Jim Morrison. Wall St. J., June 14, 1991, at A8 (reviewing John
Densmore, Riders on the Storm (1991)).
(http://alex.kozinski.com/articles/Drummer_Tries_to_Remember_Jim_Morrison.pdD

36.

Romania’s Big Bamboozle. N.Y. Times Book Rev., June 30, 1991, at 16 (reviewing Andrei
Codrescu, The Hole in the Flag (1991)).
(http://alex.kozinski.com/articles/Romanias_Big_Bamboozle.pdD

37.

Thomas Affair: A Valuable Civics Lesson. Wall St. J., Oct. 24, 1991, at A16.
(http://alex.kozinski.com/articles/Thomas_Affair_Valuable_Civics_Lesson.pdD

38.

The Bulwark Brennan Built. Colum. Journalism Rev., Nov./Dec. 1991, at 8 (reviewing Anthony
Lewis, Make No Law: The Sullivan Case and the First Amendment (1991)).
(http://alex.kozinski.com/articles/The_Bulwark_Brennan_Built.pdD

39.

Books for Christmas. 24 The American Spectator 14 (Dec. 1991).
(http://alex.kozinski.com/articles/Books_for_Christmas.pdD

40.

Judging Between Archrivals. Wall St. J., Dec. 24, 1991, at A5.

(h ttp: // a 1 e x ^foz i n s In xo ni /arti c] e s^.fu i

e n 4A?cli n v a^s. p <ff) ^ 3 ^ 6 103 of 143

41.

“What’s the Alternative?”: A Roundtable on the Confirmation Process. A.B.A. J., Jan. 1992, at 41.
fhttp://alex. kozinski.com/articles/Whafs_the_Alternative.pdD

42.

Scholarship of the Absurd: Bob Bork Meets the Bald Soprano. 90 Mich. L. Rev. 1578 (May 1992)
(reviewing Walter Adams and James W. Brock, Antitrust Economics on Trial: A Dialogue on the
New Laissez-Faire (1991)).
('http://alex.kozinski.com/artic1es/Scholarship_of_Absurd_Bob_Bork_Meets_Bald_Soprano.pdD

43.

Foreword in Sexual Flarassment in Employment Law (Barbara Lindemann & David D. Kadue, BNA
1992), reprinted as Locking Women Workers in a Gilded Cage in Legal Times of Washington, May
25, 1992, at 26. fhttp://alex. kozinski.com/articles/Foreword_in_Sexual_Harassment.pdD

44.

The Wrong Stuff. 1992 B.Y.U. L. Rev. 325, reprinted as How You Too Can . . . Lose Your Appeal
Montana Lawyer, Oct. 1997, at 5. ('http://alex.kozinski.com/articles/The_Wrong_Stuff.pdD

45.

Dances mit Forverts. Forward, July 10, 1992, at 1.
('http://alex.kozinski.com/articles/Dances_mit_Forverts.pdD

46.

Administrative Search (TJpdatel. Encyclopedia of the American Constitution (Supp. I 1992), at 8.
(http://alex.kozinski.com/articles/Administrative_Search_Update.pdD

47.

The Calamira Trial. International Ass’n of Jewish Lawyers & Jurists, (Jerusalem Dec. 29, 1992).
fhttp://aIex.kozinski.com/articles/The_Calamira_Trial.pdD

48.

Remarks Concerning Professor Bruff s Proposals. 39 UCLA L. Rev. 1249 (1992).
(http://alex.kozinski.com/articles/Remarks_Conceming_Prof_Bruff.pdD

49.

Color and Caution. The New Republic, Feb. 1, 1993, at 72 (reviewing Andrew Kull, The Colorblind
Constitution (1992)). fhttp://alex.kozinski.com/articles/Color_and_Caution.pdD

50.

The Anti-History and Pre-History of Commercial Speech. 71 Tex. L. Rev. 747 (1993) (with Stuart
Banner). nittp://alex.kozinski.com/articles/Antihistory_and_Prehistory_of_Commercial_Speech.pdD

51.

The View From the Bench. A.B.A. J., May 1993, at 114 (reviewing Ruggero J. Aldisert, Winning
on Appeal: Better Briefs and Oral Argument (1992)).
(http://alex.kozinski.com/articles/The_View_from_the_Bench.pdD

52.

The Nintendo Story. Wall St. J., May 11, 1993, at A12 (reviewing David Sheff, Game Over: How
Nintendo Zapped an American Industry, Captured Your Dollars, and Enslaved Your Children
(1993)). ('http://alex.kozinski.com/articles/The_Nintendo_Storv.pdD

53.

A Penumbra Too Far. 106 Harv. L. Rev. 1639 (1993) (with Eugene Volokh).
('http://alex.kozinski.com/articles/A_Penuinbra_Too_Far.pdD

54.

Sanhedrin II: The Case of Ivan Demianjuk. The New Republic, Sept. 13, 1993, at 209.

DWE"‘*: 19' Pa^e 104 of 143
55.

Interbranch Relations: Hearings Before the Joint Comm, on the Organization of Congress. 103d
Cong., 1st Sess. 279 (1993) (on the proper use of legislative history).
(http://alex. kozinski.com/articles/Interbranch_Relations.pdfi

56.

Lawsuit. Shmawsuit. 103 Yale L.J. 463 (1993) (with Eugene Volokh).
(http://aIex.kozinski.com/articles/Lawsuit_Shmawsuit.pdfi

57.

Trademarks Unplugged. 68 N.Y.U. L. Rev. 960 (1993), reprinted in 84 Trademark Rep. 441 (1994).
(http://aIex.kozinski.com/articles/Trademarks_unplugged.pdfi

58.

Conspiracy. What Conspiracy?. Times Literary Supplement, Nov. 26, 1993, at 11 (reviewing Gerald
Posner, Case Closed (1993)). (http://alex.kozinski.com/articles/Conspiracy_what_Conspiracy.pdf)

59.

Echoes of Tomorrow: The Road to Serfdom Revisited. 23 Sw. U. L. Rev. 429 (1994) (with David
Schizer). ('http://aIex.kozinski.com/articles/Echoes_of_Tomorrow_Serfdom_Revisited.pdf)

60.

Cruising the Information Superhighway. Wall St. J., July 18, 1994, at A8 (reviewing Harley Hahn
and Rick Stout, The Internet Yellow Pages (1994)).
('http://alex.kozinski.com/articles/Cruising_Inforination_Superhighwav.pdf)
Introduction to Law. Economics & Civil Justice xiii (Patrick B. McGuigan ed., Free Congress
Foundation 1994). ('http://alex.kozinski.com/articles/Introduction_to_Law_Econ_CivilJustice.pdf)

61.

62.

Mickey & Me. 11 Univ. of Miami Entertainment & Sports L. Rev. 465 (1994).
("http:// alex. kozinski. com/artl cles/M i ckev_and_M e. pdf)

63.

Round Table Discussion: Science. Environment, and the Law. 21 Ecology L.Q. 343 (1994).
('http://alex.kozinski.com/articles/Roundtable_Science_Environment_Law.pdD

64.

The Case of Punitive Damages v. Democracy. Wall St. J., Jan. 19, 1995, at A18.
(http://aIex.kozinski.com/articles/Case_of_Punitive_Damages.pdfi

65.

Justice Sutherland. One of Us. Nat’l Rev., Feb. 20, 1995, at 64 (reviewing Hadley Arkes, The
Return of George Sutherland: Restoring a Jurisprudence of Natural Rights (1994)).
('http://alex.kozinski.com/articles/Justice_Sutherland_One_of_lJs.pdfi

66.

For an Honest Death Penalty. N.Y. Times, March 8, 1995, at A15 (with Sean Gallagher).
(’http://alex.kozinski.com/articles/For_an_Honest_Death_Penaltv.pdfi

67.

Skiers Beware Riders of the Apocalypse. Wall St. J., March 15, 1995, at A12.
(http://alex.kozinski.com/articles/Skiers_Beware_Riders_Apocalypse.pdfi

68.

Introduction to Volume Nineteen. 19 Harv. J.L. & Pub. Pol’y 1 (1995).
(http://alex.kozinski.com/articles/Introduction_to_Volumel9.pdfi

69.

Don’t Drop the Torah!, in Proceedings of the Sixth Annual Symposium of the Constitutional Law
Resource Center, 1995, at 85, reprinted as When Just Isn’t Right in Farbrengen, Tishrei 5760/1999,

Peb.P^i),1 aPff-14?
at 15, andCrlpnnled5in4p2a7rt um?e9ror^^
(http://alex.kozinski.com/articles/Dont_Drop_the_Torah__Symposium.pdfl
(http://alex.kozinski.com/articles/When_Just_Isnt_Right.pdD
(http://alex.kozinski.com/articles/Don't_Drop_the_Torah_CalLawyer.pdD
70.

Death: The Ultimate Run-On Sentence. 46 Case W. Res. L. Rev. 1 (1995) (with Sean Gallagher).
(http://alex.kozinski.com/articles/Death_Ultimate_Run-on_Sentence.pdD

71.

Plug ‘n’ Pray. Forbes, July 29, 1996, at 84. (http://alex.kozinski.com/articles/Plug_n_Pray.pdD

72.

Diary. Slate, http://slate.com/diary/96-07-19/diary.asp (Jul. 19-Aug. 1, 1996) Jul. 24-Jul. 26, 1996
reprinted in The Slate Diaries (Jodi Kantor, Cyrus Krohn & Judith Shulevitz eds., 2000).
(http://alex.kozinski.com/articles/Diary_Slate.pdD

73.

So You Want to Become a Federal Judge by 35?. Nat’l L.J., Aug. 19, 1996, at
(http://alex.kozinski.com/articles/So_You_Want_to_become_Federal_Judge.pdD
C6.

74.

Defying Death for the Heck of It. Wall St. J., Aug. 30, 1996, at A7 (reviewing Michael Bane, Over
the Edge: A Regular Guy’s Odyssey in Extreme Sports (1996)).
(http://alex.kozinski.com/articles/Defying_Death_Heck_of_It.pdD

75.

Spook of Earl: The Spirit and Specter of the Warren Court, in The Warren Court: A Retrospective
377 (Bernard Schwartz ed., 1996). (http://alex.kozinski.com/articles/Spook_of_Earl.pdD

76.

Foreword in Reel Justice. (Paul Bergman & Michael Asimow, Andrews and McMeel 1996).
(http://alex.kozinski.com/articles/Foreword_in_Reel_Justice.pdD

77.

In Praise of Moot Court—Not!. 97 Colum. L. Rev. 178 (1997) and American Lawyer, Jan./Feb.
1997, at 91. (http://alex.kozinski.com/articles/In_Praise_of_Moot_Court_NOT.pdD

78.

Tinkering With Death. The New Yorker, Feb. 10, 1997, at 48.
(http://alex.kozinski.com/articles/Tinkering_with_Death.pdD

79.

Teetering on the High Wire. 68 U. Colo. L. Rev. 1217 (1997).
(http://alex.kozinski.com/articles/Teetering_on_the_High_Wire.pdD

80.

Keynote Colloquy: Finding Justice in the Internet Dimension. 20 Seattle U. L. Rev. 619 (1997).
(http://alex.kozinski.com/articles/Finding_Justice_in_the_Internet_Dimension.pdD

81.

The Great Dissenter. N.Y. Times Book Rev., July 6, 1997, (reviewing Reason and Passion: Justice
Brennan’s Enduring Influence (E. Joshua Rosenkranz & Bernard Schwartz eds., 1997)).
(http://alex.kozinski.com/articles/The_Great_Dissenter.pdD

82.

Post-Mortem Talks with Jury Enlighten Judge. Nat’l L.J., Sept. 8, 1997, at A21.
(http://alex.kozinski.com/articles/Post_Mortem_Talks_with_Jurv_Enlighten.pdD

83.

Tread Carefully When Approaching the Bench. Nat’l L.J., Oct. 27, 1997, at A19.
(http://alex.kozinski.com/articles/Tread_Carefully_When_Approaching_Bench.pdD

84.

Rending &e

imes^oolc1 lUv0'

Ban?efl !£3Farber and

Suzanna Sherry, Beyond All Reason (1997)).
(http://alex. kozinski.com/articles/Bending_the_Law.pdfl
85.

The Modem View of Capital Punishment. 34 Amer. Crim. L. Rev. 1353 (1997) (debate with
Professor Stephen Bright), reprinted in The Angolite, July/Aug. 1998, at 26.
thttp://alex.kozinski.com/articles/Modem_View_Capital_Punishment.pdf)

86.

Original Mean[der]ings. 49 Stan. L. Rev. 1583 (1997) (reviewing JackN. Rakove, Original
Meanings: Politics and Ideas in the Making of the Constitution (1996)) (with Harry Susman).
('http://alex.kozinski.com/articles/Original_Meanderings.pdD

87.

Brave New World. 30 U.C. Davis L. Rev. 997 (1997).
('http://alex.kozinski.com/articles/Brave_New_World.pdD

88.

The Annotated Alex. Calif. Lawyer, Jan. 1998, at 35.
('http://alex.kozinski.com/articles/The_Annotated_Alex.pdD

89.

How I Stopped Worrying and Learned to Love the Press. 3 Comm. L & Pol’y 163 (1998)
(Symposium on the 50th Anniversary of the Hutchins Commission Report).
('http://alex.kozinski.eom/article.s/Stopped_Worrving_Learned_Love_Press.pdD

90.

The Many Faces of Judicial Independence. 14 Ga. St. U. L. Rev. 861 (1998).
('http://alex.kozinski.com/articles/Manv_Faces_of_Judicial_Independence.pdD

91.

A Dissenting View From the Bench, in Science, Technology, and the Law 51 (New York Academy
of Sciences 1998). ('http://alex.kozinski.com/articles/A_Dissenting_View_from_Bench.pdD

92.

The Breakfast Table. Slate (with Nadine Strossen), available at
http://www.slate.com/Code/Breakfast/Breakfast.asp?show=09/xx/98, where xx = 21 through 25
inclusive. ('http://alex.kozinski.com/articles/Breakfast_Tab1e_Strossen_and_Kozinski.pdf)

93.

Clerkship Politics. 2 Green Bag 2d 57 (1998) (with Fred Bernstein).
nittp://alex.kozinski.com/articles/Clerkship_Politics.pdD

94.

Constitutional Federalism Reborn. 22 Harv. J.L. & Pub. Pol’y 93 (1998).
(http:// alex. kozinski. com/arti cles/Constitutional_F ederalismReborn. pdD

95.

Should Reading Legislative History Be an Impeachable Offense?. 31 Suffolk U. L. Rev. 807
(1998).
(http://alex.kozinski.com/articles/Should_Reading_Legislative_History_Impeachable_Offense.pdf)

96.

Conduct Unbecoming. 108 Yale L.J. 835 (1999) (reviewing Edward Lazarus, Closed Chambers
(1998)). (http://alex.kozinski.com/articles/Conduct_Unbecoming.pdD

97.

An Unfair Attack on a Decent Judgment. Nat’l Post, March 8, 1999, at A18.
(http://alex.kozinski.com/articles/Unfair_Attack_on_Decent_Judgment.pdD

98.

Time and Place (letter to the Editor), Nat’l Post, March 15, 1999, at A19.

19' Pa9e 107 of 143
99.

The Case of the Speluncean Explorers: A Fiftieth Anniversary Symposium. 112 Harv. L. Rev. 1834,
1876 (1999). (http://alex.kozinski.com/articles/Case_of_Speluncean_Explorers.pdfl

100. Keeping Secrets: Religious Duty vs. Professional Obligation. 38 Washburn L.J. 747 (1999) (with
Leslie A. Hakala).
(http://alex. kozinski.com/articles/Keeping_Secrets_Religious_Duty_v_Professional_Obligation.pdfi
101. What’s So Fair About Fair Use?. The 1999 Donald C. Brace Memorial Lecture, 46 J. Copyright
Soc’y 513 (1999) (with Christopher Newman).
(http://alex.kozinski.com/articles/Whats_So_Fair_About_Fair_Use.pdf)
102. Carthage Must Be Destroyed. 12 Fed. Sentencing Rep. 67 (1999).
(http://alex.kozinski.com/articles/Carthage_must_be_Destroyed.pdD
103. The Toyota Principle. 56 Wash. & Lee L. Rev. 923 (Summer 1999).
(http:// alex. kozinski. com/articles/The_T oyota_Principle .pdD
104. When the Written Word and Reality Diverge. Forward, February 14, 2000, at 17.
(http://alex.kozinski.com/articles/When_Written_Word_and_Reality_Diverge.pdD
105. Please Don’t Cite This!. Calif. Lawyer, June 2000, at 43 (with Stephen Reinhardt), reprinted in 18
Appellate Practice Journal 6 (Summer 2000).
(http://alex.kozinski.com/articles/Please_Don't_Cite_This.pdD
106. Who Gives A Hoot About Legal Scholarship?. 37 Houston L. Rev. 295 (2000).
(http://alex.kozinski.com/articles/Who_Gives_A_Hoot_About_Legal_Scholarship.pdD

107. Pull Down The Blinds. N.Y. Times Book Rev., July 2, 2000, at 10 (reviewing Jeffrey Rosen, The
Unwanted Gaze (2000)). (http://alex.kozinski.com/articles/Pull_Down_the_Blinds.pdD
108. They Call It Paper Love. E-Filing Rep., June 2001, at 7.
(http://alex.kozinski.com/articles/They_Call_It_Paper_Love.pdD
109. How I Narrowly Escaped Insanity. 48 UCLA L. Rev. 1293 (2001).
(http://alex.kozinski.com/articles/How_T_Narrowly_Escaped_Insanity.pdD
110. Expert Testimony After Daubert. J. Acct., July 2001, at 59.
(http://alex.kozinski.com/articles/Expert_Testimony_After_Daubert.pdD
111. Privacy on Trial. Wall St. J., Sept. 4, 2001, at A22.
(http://alex.kozinski.com/articles/Privacy_on_Trial.pdD
112. Fooled by Randomness. Wilson Q., Spring 2002, at 117 (book review).
(http://alex.kozinski.com/articles/Fooled_By_Randomness.pdD
113. Gore Wars. 100 Mich. L. Rev. 1742 (2002) (reviewing Bjorn Lomborg, The Skeptical

EnvironmentatisPttealiurhlg (iie^feaf^latePa9e 108 °f 143
(http://alex.kozinski.com/artic1es/Gore_Wars.pclfi
114. Congressional Testimony. Oversight Hearing on Unpublished Judicial Opinions. Before the House
Subcomm. on Courts, the Internet, and Intellectual Property of the House Comm, on the Judiciary.
June 27, 2002. (http://aIex.kozinski.com/articles/Oversight_Hearing_Unpublished_full.pdfi
115. Recapturing Madison’s Constitution: Federalism Without the Blank Check in James Madison and
the Future of Limited Government 13 (John Samples ed., 2002) (with Steven A. Engel).
(http://alex.kozinski.com/articles/Recapturing_Madisons_Constitution.pdfi
116. Pulling the Plug: My Stand Against Electronic Invasions of Workplace Privacy. 2002 U. Ill. J.L.
Tech. & Pol’y 407. (http://alex.kozinski.com/articles/Pulling_the_Plug.pdfi
117. Foreword in Academic Legal Writing: Law Review Articles. Student Notes and Seminar Papers
(Eugene Volokh, Foundation Press 2003).
(http://alex.kozinski.com/articles/Foreword_in_Academic_Legal_Writing.pdfi
118. The Judgment: X-Treme Advocacy Contest Winner. California Lawyer, September 2003, at 31.
(http ://alex. kozinski. com/articles/Xtreme_AdvocacyContestW inner.pdf)
119. Honoring the Court’s Past. 71 Geo. Wash. L. Rev. 529 (2003).
(http://alex.kozinski.com/articles/Honoring_the_Courts_Past.pdfi
120. Foreword in A Criminal Waste of Time (William W. Bedsworth, American Lawyer Media 2003).
(http://alex. kozinski.com/articles/Criminal_Waste_of_Time.pdfi
121. In Opposition to Proposed Federal Rule of Appellate Procedure 32.1. 51(5) The Federal Lawyer 36
(June 2004). (http ://alex. kozinski. com/articles/In_Qpposition_ToProposed_Ru1e.pdfi
122. The Real Issues of Judicial Ethics. 32 Hofstra L. Rev. 1095 (2004), reprinted as The Appearance of
Propriety. Legal Affairs, Jan./Feb. 2005.
('http://alex.kozinski.com/articles/Real_Issues_of_JudicialEthics.pdfi
('http://alex.kozinski.com/articles/The_Appearance_of_Proprietv.pdfi
123. Don’t Split the Ninth Circuit!. Wall St. J., November 10, 2004, at A16 (with Sidney R. Thomas).
(http://alex.kozinski.com/articles/Dont_Split_the_Ninth_Circuit.pdfi
124. The Appeal. 103 Mich. L. Rev. 1391 (2005) (with Alexander Volokh).
(http://alex. kozinski.com/articles/The_Appeal.pdfi
125. Kozinski Strikes Back. San Francisco Recorder, Sept. 23, 2005
(http://alex.kozinski.com/articles/Kozinski_Strikes_Back.pdfi
126. Reply to Buchanan. Cato Unbound, December 9, 2005, available at http://www.catounbound.org/2005/12/09/alex-kozinski/reply-to-buchanan-2/
(http://alex.kozinski.com/articles/Reply_to_Buchanan.pdfi
Call Me a Panglossian. Cato Unbound, December 18, 2005, available at http://www.catounbound.org/2005/12/18/alex-kozinski/call-me-a-panglossian/

19'Pa9e 109 °f 143
Responding to:
James M. Buchanan, Three Amendments: Responsibility. Generality and Natural Liberty. Cato
Unbound, December 5, 2005, available at
http://www.cato-unbound.org/2005/12/05/james-m-buchanan/
three- amendments/
(http://alex.kozinski.com/articles/Three_Amendments.pdfi: and
James M. Buchanan, Response to Comments. Cato Unbound, December 14, 2005, available at
http://www.cato-unbound.org/2005/12/14/james-m-buchanan/response/
/http://alex. kozinski. com/articles/Response_to_Comments.pdfl
127. A Court United: A Statement of a Number of Ninth Circuit Judges. Engage, April 2006, at 63 (with
thirty-two other judges)
(http:// alex. kozinski. com/arti cles/A_Court_United.pdfl

(March 30, 2006)

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 110 of 143
M111

EXHIBIT 7

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 111 ^ex.kozinsktcoWstuff/

Index of /stuff

M112

Index of /stuff
*

a

3
i

a
a
a

Name

Last modified

Parent Directory

09-Dec-2007 23:05

$20

06-Jun-2002 14:40

68k

(MONTY-1.MP3

06-Jun-2002 13:00

108k

(MontvPvthon)Radio.mp3

06-Jun-2002 13:00

108k

lOOmovies.wmv

20—May—2007 16:40

19.0M

lOSixteenTons.mp3

15-NOV-2005 21:16

2.6M

3rdWorldBombScruad .wmv

23-Jul-2005 02:54

1.7M

5iews.gif

30-Apr-2005 16:40

41k

AIRPORT.doc

13-May-2002 23:46

526k

ATM THEFTS.PPS

17-Dec-2006 09:32

558k

ATT-Historv,wmv

15-Mar-2007 18:49

2.6M

Ain tGoin Downl.mp3

31-Jul-2007 18:19

2.6M

Apr 6 RushLimbauqh.wmv

25-Apr-2006 01:57

1.3M

Arkie Quarter. jpg

13-May-2002 23:46

45k

ArnoldBobblehead.bmp

19-Jun-2005 14:44

41k

ArrestedTexasStvle.wmv

07-Nov-2005 00:18

543k

BADDAY S.MPG

06-Jun-2002 13:03

408k

BBCCopsUndies.wmv

30-Sep-2005 07:04

3.5M

BEERTBND.EXE

06-Jun-2002 13:03

252k

BLENDER.EXE

0 6—Jun—2 0 02 13:04

655k

BUSTED.WAV

06-Jun-2002 13:04

1.3M

BadDayAtTheRodeo l.WMV

23-May-2005 00:04

1.7M

BanningJo.wmv

27-Feb-2006 16:14

4.4M

BestWomanDriver.wmv

08-Mar-2007 23:06

2.4M

Bethlehem Steel Resp.■> 17-Dec-2003 00:47

61k

.doc

Size

Description

ijI

a

3
3
3

a
a
a
a

15-Mar-2007 18:38

3.4M

BritishAmbassadorLet.■> 21-Nov-2007 19:18

91k

Brokeback2.jpg

15-Apr-2006 02:22

67k

Bush Blairll.mpeq

27-Feb-2003 21:21

3.8M

CAUGHT.WAV

01-Dec-2003 17:46

1.3M

Bob.MP3

Lft

Ml

1 of 10

12/23/07 7:38 PM

Index of /stuff

a

12

2
2

a
1

B
B

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 112 g 1^,kozinski ,com/stuff/
M113

CHOCOLAT■pps

13-May-2002 23:18

486k

CHOCOL~l.EXE

06-Jun-2002 13:04

798k

COKEGIFT.EXE

06-Jun-2002 13:04

263k

COMPUTERENHANCEMENTS..> 13-May-2002 23:46

211k

COMPUTERENHANCEMENTS.■> 06-Jun-2002 13:05

5.1M

Canadian currency/

06-Apr-2006 21:28

CauqhtOnFilm 21.wmv

25-Apr-2006 01:57

1.1M

CaveOfWeed.pdf

15-Apr-2007 02:21

673k

Christmas Applicatio..> 29-Dec-2002 22:22

45k

&

a

2
2

a
a
2
2

Colo-rectalSurqeon.wav

17-Jun-2003 11:23

271k

CowD.jpg

15-Jan-2004 21:28

80k

D-TOYS-2.EXE

06-Jun-2002 13:05

952k

DISCO.EXE

06-Jun-2002 13:05

192k

DUI-TEST-SCOTTISH.wmv

23—Jan—2005 18:51

901k

DaddvCutTheBiqOne.wav

04-Jan-2006 21:27

282k

Dilbert.PowerPoint■bmp

03-Sep-2006 00:11

855k

Disappointment.wmv

08-Jun-2007 23:51

1.5M

Don't.Eat.Worms.mp3

10-Jan-2007 21:06

2.6M

Don'tTouchMe.mp3

13-May-2002 23:46

3.2M

DoninoPoolFinal.wmv

05-NOV-2006 22:37

1.8M

Douchenzondernattevo■.> 19-Feb-2006 13:04

2.4M

06-Jun-2002 13:06

310k

Elektronik Supersoni..> 01-Jun-2004 18:42

1.3M

ESHEEP.EXE

FART.EXE
Si Far side.jpg

a
a

06—Jun—2002 13:06

604k

13-May-2002 23:46

131k

Father.mp3

17-Dec-2002 17:21

729k

Fire.html.htm

12-Jan-2004 01:18

lk

1^3 Fire.html files/

a
2 of 10

06-Jun-2005 00:19

Flowchartofqettinqso.■> 25-May-2004 21:52

90k

Fridays.wmv

29-Oct-2006 22:05

3.3M

Fucking/

07-NOV-2006 02:28

GaraqeDoorOpener.wmv

28-Oct-2005 22:21

2.1M

Gas Prices.pps

28-Oct-2005 22:05

1.1M

GermanPope.jpg

12-May-2005 20:35

67k

12/23/07 7:38 PM

Index of /stuff

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 113^1^exkozinskicom/stuff/
M114

£3 GirlsEvil.jpg

s
0
SS
0
SI
0

a
a

13-May-2002 23:46

24k

Good Morning America..> 06-Jun-2002 13:08

2.0M

GoodMorningAmerica.avi

24-Oct-2002 17:54

2.0M

GoodMorningAmerica.mov

13-May-2002 23:47

2.0M

GoodMorningAmerica.mpg

06-Jun-2002 13:08

2.0M

GreatestMovieLine■wmv

19-Aug-2005 08:28

1.1M

HALLOWEE.JPG

12-0ct-2002 10:56

42k

HAMPSTER.WAV

06-Jun-2002 13:08

105k

HTTT.KR.WAV

06-Jun-2002 13:08

2.2M

HOLZFELR■MP3

06-Jun-2002 13:09

298k

Haircutformeetings.jpg

12-Dec-2005 00:07

25k

Halliburton.mp3

05-Nov-2004 21:27

224k

01-Dec-2002 23:35

27k

3 Halloween Costume.jpg
Hand Paint/

25-May-2004 21:44

Handrolled.mpg

19-Dec-2004 03:08

2.3M

Hats 1 .doc

0 6—Jun—2 0 02 13:08

22k

HavaNagila■mpg

04-Dec-2002 22:06

1.8M

HawaiiWeather.wvx

16-Dec-2005 01:45

lk

Health.doc

03-May-2005 11:36

22k

HomerLookAlike.jpg

15-Jan-2004 18:33

28k

HorseRace.mp3

04-0ct-2005 21:21

1.1M

How.not.to.kick.mpg

13-May-2002 23:47

2.0M

Howtoputonabra■wmv

10-Nov-2006 14:50

2.1M

SI I knew there was a b..> 15-Dec-2004 11:56

33k

P'

0

a
a
□

IlI
y

a

a
a
□

I veBeentoMooseJaw.wma

30-Dec-2004 21:59

681k

JOHNNY-1.MP3

06-Jun-2002 13:10

3.4M

06-Jun-2002 13:10

562k

27-Feb-2003 21:21

1.7M

JohnnvCash-ABovNamed.■> 06-Jun-2002 13:09

3.4M

Judge So.mp3

01-Apr-2003 15:35

2.6M

Krylaholidav.pps

13-May-2002 23:47

515k

Larry Craig/

ll-Sep-2007 17:22

MONTYP—1■MP3

06—Jun—2002 13:12

3.1M

MasterCard■jpg

13-May-2002 23:47

49k

LJ JUMP.AVI

a
a

3 of 10

JavLeno 1.wmv

12/23/07 7:38 PM

Index of /stuff

a
1

a
a
a

Case: 19-55427,10/09/2019, ID: 11460134, DktEntry: 19, Page 114 ^?iL.kozinski.cWstuff/
M115

MedicalAlertll.doc

25-Jun-2003 01:19

23k

Memo.roma.pdf

03-Jan-2006 13:42

36k

MensRules.pps

19-Nov-2005 22:47

134k

MercuryMotor.pps

28-Feb-2006 20:11

756k

MonkeyJoke.wmv

06-Jan-2004 01:25

1.5M

Monthly Man.wmv

05-Jul-2006 18:49

2.9M

Monty. Python-Lumber ~i ■ ■> 06-Jun-2002 13:11

3.1M

Movie0uiz21.xls

17-NOV-2002 23:50

298k

Muscle Tricks.mpq

10-Apr-2006 19:02

2.7M

NOTMYJOB.GIF

06—Jun—2002 13:12

125k

NYC.exe

13-May-2002 23:47

402k

Netscape Wallpaper.bmp

06-Jun-2002 13:12

157k

Notqood.pps

08-Mar-2006 21:24

2.0M

Notice of Appeal — ..> 03-Aug-2006 21:29

57k

Notmviob. jpg

15-0ct-2002 10:54

54k

PARACHUT.AVI

13-May-2002 23:47

4.2M

PLAYBALL.AVI

06-Jun-2002 13:13

3.0M

ParkingExpertl.wmv

28-Jul-2005 00:03

457k

ParkinqExpert2.mpq

28-JU1-2005 00:03

634k

ParkinqExpert4.mpq

28-Jul-2005 00:03

548k

Playboy's playmates ..> 25-May-2004 21:44

245k

PoolLifeGuard.wmv

09-Jan-2005 04:19

1.1M

Queen and Scots sold.■> 30-Dec-2004 21:58

49k

Radiocallqonewronq l..> 21-May-2003 14:20

633k

M

§
IQ |

a
a
D
a
m

m
m

m

a
m

a
a
a
i

Retainer.Letter.pdf

08-NOV-2006 07:53

47k

S&W342.jpg

15-Jan-2004 18:34

10k

SARS Mask Shortage.jpg

16-Jun-2003 02:20

59k

SNAKE.JPG

13-May-2002 23:47

17k

SNL-DeNiro.wmv

29-Jun-2004 17:10

2.3M

SNL-SuspectedbertDeN.■> 12-Jul-2004 18:54

2.3M

SNOWMAN ■ EXE

06-Jun-2002 13:13

1.4M

STUXMASP.EXE

06-Jun-2002 13:13

231k

[■jJ SWClinton.exe

13-May-2002 23:47

777k

SamGross/

18-May-2005 17:18

a
a
a
a
a
lot,
oiT

4 of 10

12/23/07 7:38 PM

Index of /stuff

1

B
D

1y
0

B
B
B

1

a
2

a
a
a

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 115 fi*p1/fe?ex.fc0linski.c0In/sttl„y
M116

Seat29EC3.pdf

10-Jul-2005 19:14

111k

She's Mine.mp3

13-May-2002 23:47

3.6M

Sheep guy.jpg

01-Dec-2002 23:35

38k

SofitelLoo2.jpg

29-Oct-2005 13:35

924k

Solution to the Mid-..> 13-May-2002 23:19

606k

St.Marteenl.pps

19-Jun-2005 14:39

1.3M

Stress Reliever.exe

13-May-2002 23:47

1.2M

THEORY.GIF

13-May-2002 23:47

22k

TOOTHBRU.JPG

13-May-2002 23:47

14k

Thats My Boy.mpq

21-Jun-2003 01:02

1.4M

TheBi11inqSonq.mp3

25-Dec-2005 17:08

700k

TheMansonq.pps

17-Apr-2007 00:29

535k

The real meaning of .■> 01-Apr-2006 00:11

112k

TheformulaofSex.pps

15-Mar-2007 18:37

72k

Thumbs.db

06—Jun-2002 13:14

84k

Toilet.wmv

14-May-2003 19:00

1.8M

Tom Lehrer - (Hannuk.■> 13-May-2002 23:47

1.7M

Tom Lehrer - (Hannuk..> 06-Jun-2002 13:14

1.7M

TurkishGillette.wmv

17-May-2007 20:15

2.3M

VibratorRecall.mp3

27-Jul-2005 00:09

726k

WHICHBAB.JPG

13-May-2002 23:47

60k

WHIPTH-1.EXE

06-Jun-2002 13:15

698k

Whatdoyousee 1.pps

04-Jan-2006 22:11

140k

Where the sun don t .■> 10-Jan-2007 19:06

4.1M

Why Women Live Longer/

04-Feb-2005 00:46

XMAS.EXE

06-Jun-2002 13:16

688k

XmasKanqaroo.wmv

09-Jan-2006 19:14

5.3M

Youthinkyou reunluck.■> 19-Jun-2005 14:43

32k

ZSSSLOTS.EXE

06—Jun—2002 13:16

181k

a.day.without.iews.wmv

18-May-2006 23:56

6.4M

□

aimhiqhhhf11.mpeg

13-May-2002 23:46

1.5M

0
0

aliensong.mpg

13-May-2002 23:46

3.1M

anqe!2.wmv

01-Sep-2006 01:08

4.8M

aussie.oops.mpq

29-Mar-2006 23:52

3.0M

0

a
0
y

5 of 10

12/23/07 7:38 PM

Index of /stuff

am
m

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 116 Rtftp1/fa?ex.kozinski.com/stuff/
M117

01-Mar-2007 01:14

3.6M

beerbvthepoolbounce...> 06-Apr-2006 21:32

3.7M

bambi.flv

bendinq.jpg

13-May-2002 23:46

39k

m

big jump.mpeg

20-May-2004 22:36

676k

D

borislp.exe

13-May-2002 23:46

287k

bouncy bouncy.wmv

24-NOV-2003 22:29

1.3M

brazilian-hair-cut.pps

09-Jan-2005 04:26

482k

bungeepoo.jpg

13-May-2002 23:46

20k

bush-for-president.jpg

06—Jun—2002 13:04

80k

cameltoe■htm

18-Dec-2003 22:59

18k

cameltoe/

22-Apr-2006 02:53

captain .wmv

15-Jan-2004 01:19

2.5M

charade.jpg

ll-Aug-2005 22:32

90k

a

cheeseshop.mp3

28-Jul-2002 23:52

3.7M

chinesemassproductio..> 15-Mar-2007 16:04

2.6M

lio 1

chocolatebunny.exe

13-May-2002 23:46

798k

Ml

colleqehumor.248334.mov 25-Sep-2005 12:24

15.3M

□

commercials/

17-NOV-2007 23:03

computerdate.jpg

19-Dec-2004 21:58

57k

consent.htm

27-Oct-2006 19:12

6k

consent files/

07-NOV-2006 02:36

crazy.fish.wmv

23-Jan-2006 17:16

2.7M

dancinqbush.exe

13-May-2002 23:46

725k

datingqame.rm

22-Aug-2006 18:17

1.7M

dd.bmp

16-Jun-2003 02:20

1.0M

deaf.ultimate.karako..> 24-Nov-2007 15:06

8.2M

deafkaraoke.wmv

3.2M

m

a
a
a
a
□
a

□

3
Si

a

Cwl didn't start the fire/

a

ll-Sep-2007 17:22

divorce■doc1■pdf

31-Mar-2006 00:30

310k

dl.mpq

06-Jun-2002 13:06

2.6M

O

donkey.mpq

06-Jun-2002 13:06

2.6M

a
a

dumbestdogvoullevers.■> 22-Jan-2006 08:56

lk

m
JiM

e

30-Sep-2005 07:05

131

6 of 10

edwards.pretty.wmv

31-Jul-2007 18:17

4.1M

eggroll.wmv

27-Apr-2006 19:29

1.1M

12/23/07 7:38 PM

<1

Index of /stuff

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 117

fastshooter.wmv

09-Mar-2005 20:55

740k

J4

father.rm

13-May-2002 23:46

382k

1

flying grandma.wmv

01-Jun-2004 18:42

1.2M

freakinbrothers.wmv

lO-Jul-2003 16:21

2.0M

funny-cats-2.wmv

06-Apr-2006 21:31

2.3M

galaxy■swf

ll-Nov-2006 01:26

1.0M

garyhart.mp3

04-Apr-2005 17:02

4.3M

georgewwhathe.wmv

21-Jan-2 0 0 6 19:18

1.8M

gerbil■exe

13-May-2002 23:46

709k

gerbilgeno.exe

13-May-2002 23:46

1.7M

hangonstevens.mp3

05-Jul-2006 18:43

7.7M

harmonic.motion.eml

09-Jan-2004 00:12

106k

harrasment l.wmv

05-Jul-2006 18:45

3.8M

headache-cure-56.wmv

25-May-2004 21:44

657k

helmutportrait.jpg

16-0ct-2003 17:05

21k

honda.commercial.html

06-Sep-2005 22:21

2k

how.offensive.gif

08-Feb-2006 18:01

58k

howmanypeople.gif

12-NOV-2003 00:07

69k

image0011.gif

03-Sep-2007 02:50

69k

isitmanisitwoman.pps

27-Apr-2006 23:20

1.4M

iackwebb.wav

24-Jan-2005 23:09

926k

iaguar.dent.gif

04-0ct-2005 20:22

80k

iapanese.wmv

13-Jun-2004 22:49

1.6M

iavlobi.wmv

17-Nov-2002 23:28

1007k

iesus.mov

04-Jan-2006 22:27

3.5M

iesus.wmv

05-Jul-2006 18:47

2.4M

iewsdontcamp.mp3

21—Jan—2 00 6 18:58

2.3M

ioancrawford.jpg

14-Jan-2004 19:32

7k

ioefish.exe

13-May-2002 23:47

1.1M

iohn.mccain.sings.wmv

05-Jul-2006 18:48

4.4M

jump.avi

13-May-2002 23:19

562k

kerrywins!■jpg

12-Dec-2005 00:08

35k

kooliuggle.gif

12-Dec-2003 23:21

574k

languages.jpg

17-Jun-2003 13:55

196k

i
3

a
B
B

a
a
a
a
3
a
a
a
3
a
a
0

B

a

,kozinski ,com/stuff/

M118

PI

§

a
a
7 of 10

12/23/07 7:38 PM

Index of /stuff

i

a
a
a
a
2

loll
oiT
IQ 1

□
3

a
a

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 118 gpmx.kozinskixom/stuff/
M119

lawver&doq.gif

01-Jun-2004 07:54

8k

lehrer.rtf

06-Jun-2002 13:10

16k

levant ezra060213.rm

19-Feb-2006 14:41

lk

lights,wmv

28-NOV-2005 22:45

4.8M

mars.jpg

17—Jan—2004 12:44

120k

megaflics (IK jpg

06-Jun-2002 13:10

108k

menciaMountain.wmv

15-Apr-2006 01:29

3.5M

mens room.asf

17-May-2003 00:00

810k

mexicanviagra.gif

17-NOV-2002 23:28

65k

monica.jpg

21—May—2003 14:27

15k

moscow.DOC

13-Mar-2005 20:09

95k

mousedart.exe

13-May-2002 23:47

1.1M

music/

18-May-2005 17:18

news report from Ira.■> 18-May-2005 17:22

1.3M

nomorebush,jpg

09-Jan-2004 19:18

39k

not bond.wmv

23-Dec-2005 18:50

4.3M

notre.dame.avi

12-0ct-2006 10:58

4.6M

nutcracker■mpg

ll-0ct-2004 01:53

3.0M

opinionpoll.pps

ll-Mar-2006 00:32

92k

optical.exe

13-May-2002 23:47

22k

optical.pps

13-Mar-2006 23:30

859k

optical/

27-Feb-2006 22:55

orgasm,wav

0 6“Jun—2 0 02 13:12

800k

osama.gif

19-Feb-2006 12:47

106k

passcontrol.wmv

27-Jul-2005 01:44

1.2M

pepper & salt you wo..> 13-May-2002 23:47

33k

PI
LJ

B

a
B
J9

a
3
a
a
a
a
B
a
11

a
8 of 10

pinqpong.wmv

14-Jul-2003 14:32

3.4M

piss diver.wmv

ll-Feb-2006 01:47

390k

pork.jpg

03-Apr-2006 01:27

47k

porrspel.exe

13-May-2002 23:47

223k

profreading.wmv

17-NOV-2007 22:59

6.7M

riddle.jpg

21-May-2005 23:20

17k

rinqmvbell3555.wmv

08-Aug-2005 16:14

1.5M

santa l.wmv

23-Dec-2005 18:49

1.1M

12/23/07 7:38 PM

Index of /stuff

n

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 119 gp1^ex.kozinskixom/stuff/
M120

santafart.mp3

08-May-2003 16:04

2.1M

10 1 sextetris.exe

13-0ct-2002 13:29

1.7M

sfo.mp4

07-NOV-2005 18:23

250k

shark.mpeg

01-Aug-2004 17:57

1.6M

siquemiteta.swf

15-Jan-2004 01:14

41k

sinqinqrabbi.wmv

21-May-2005 09:41

3.2M

slingshot.wmv

ll-Feb-2007 21:26

1.2M

so where did you quv..> 22-Dec-2006 14:26

1.4M

sonicboom.jpg

13-May-2002 23:47

49k

stainqlass.jpq

12-Oct-2002 10:56

136k

sundavdriver.mpe

16-Jun-2003 02:20

6.9M

testicle.interview.wmv

22-Dec-2006 13:46

2.8M

texas.shootout/

17-Feb-2007 21:35

theartoffoolinqmen.pps

ll-Oct-2004 01:57

139k

torreador f.qif

13-May-2002 23:47

61k

tovstorv.jpg

13-May-2002 23:47

40k

truck-art/

04-Jan-2006 23:39

union,wmv

18-Jan-2003 19:46

4.4M

upside.down.wmv

19-Feb-2006 12:25

788k

videodelmese Yoga.wmv

28-Jul-2005 00:01

2.0M

vince cdnnotr11.mp3

06-Jun-2002 13:14

588k

vwqolf85.jpg

13-May-2002 23:47

153k

w zales adl.wmv

05-Jul-2006 18:49

846k

wall-mart-qreeter.gif

27-Jun-2004 20:28

485k

wedding.jpg

0 6-Jun-2 002 13:14

611k

weird al/

31-JU1-2007 18:56

whatsahol.wmv

ll-Jul-2005 23:38

1.4M

whiptheworker.exe

13—May-2 002 23:47

698k

whymomscan tdovoga.wmv

07-Jun-2007 23:02

2.0M

wife joke breaking n..> 16-Dec-2005 01:59

73k

women's % 2 Obathroom.ipq

04-May-2006 00:11

36k

workcvcl.avi

06-Jun-2002 13:16

299k

worlds shortest vaca.■> 13-May-2002 23:47

338k

13-May-2002 23:47

2.1M

f^]

aa
a
a
a
a
a
□

0
□

a
Q
a
a
a
a
n
B
Ml

23

9 of 10

wtc-photo2.gif

12/23/07 7:38 PM

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 120 pJp1;fa?cx,kozinski.com;swff/

Index of /stuff

M121

B
da vale.foreiqn.culture..> 12-Dec-2005 00:32

78.9M

vaser.wmv

30-NOV-2004 15:42

1.4M

yoga/

04-Jan-2006 23:40

vourepitiful.mp3

lO-Nov-2006 15:02

4.5M

06-Jun-2002 13:16

30k

a

SI zzzz.qif

Apache/1.3.37 Server at alex.kozinski.com Port 80

10 of 10

12/23/07 7:38 PM

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 121 of 143
M122

EXHIBIT 8

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 122 of 143
M123

STATE BAR COURT OF CALIFORNIA

FOR CLERK'S USE ONLY:

FILED
FEB -.6

HEARING DEPARTMENT
845 S. Figueroa Street, 3rd Floor
Los Angeles, CA 90017-2515
In the Matter of:

Case Nos:

CYRUS M. SANAI,
Member No. 150387,

2015 yio

STATE BAR COURT* <
CLERK’S OFFICE
LOS ANGELES
10-0-09221,12-0-10457-DFM

ORDERS RE RESPONDENT’S MOTIONS TO
DISMISS

A Member of the State Bar
On October 17, 2014, in anticipation of the conclusion of the State Bar’s case-in-chief
during the trial of this matter, Respondent filed motions to dismiss all nine of the counts currently
pending against him. (Rules Proc. State Bar, rules 5.110 and 5.124(E).)
On October 24, 2014, the State Bar filed an “omnibus” opposition to the motions.
Rule 5.110 provides:
Motion on Failure to Meet Burden of Proof. During a trial, after
(A)
the party with the burden of proof has rested and before the proceeding is
submitted to the Court, the opposing party may make a motion for a
determination that the party with the burden of proof has failed to meet its
burden, or the Court may make the motion itself and give the parties an
opportunity to argue the issue. If the allegations are severable, the Court
may dismiss some but not all of them. The Court must consider and weigh
all the evidence introduced and determine credibility.
Denial of Motion. If the motion is denied, the moving party may
(B)
offer evidence to the same extent as if the motion had not been made.
Grant of Motion. If the motion is granted, the Court’s decision
(Q
must include findings of fact and conclusions of law.
Rule 5.124(E) provides:
(E)
Motion to Dismiss for Failure to State a Disciplinable Offense. A
motion to dismiss for failure of the initial pleading to state a disciplinable
offense may be made at any time before the Court finds culpability.
Having considered the arguments of counsel, the voluminous evidentiary record, and the
allegations of the Notice of Disciplinary Charges in this matter, the court concludes as follows:

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 123 of 143
M124

There is no contention made by Respondent in his motion that the State Bar’s evidence
does not show that he failed to timely report the sanctions that were ordered at that time. Instead,
Respondent argues that this count must be dismissed because “It is OCTC’s burden of proof to
show that the disciplinary proceedings were initiated in a timely fashion.”
For all of the same reasons discussed with regard to Count 2, above, this motion to dismiss
Count 3 is DENIED.
Count 6:

Tn this count the State Bar alleges that between October 2008 and September 2010,
Respondent “filed and maintained formal judicial complaints with the Ninth Circuit Judicial
Council against approximately 19 federal judges, when such complaint were frivolous and made
for improper reasons ... .” It alleges that the filing of these complaints constituted acts of moral
turpitude.
In his motion, Respondent argues that the evidence received by this court is insufficient to
establish clear and convincing evidence to support this count.
The State Bar did not put in evidence the complaints actually filed by Respondent against
the federal judges. In response to this court’s inquiry, it was informed by the State Bar that it was
unable to do so due to the Ninth Circuit’s refusal to provide those complaints to the State Bar.
Being unable even to read the complaints filed by Respondent, this court cannot conclude
that any of those complaints were filed frivolously or constituted an act of moral turpitude. To the
extent that this court is aware of the content of one of those complaints, the record shows that it
was apparently justified and resulted in a formal apology by the judge and a self-administered
recusal by him from the pending matter involving Respondent.
This count is DISMISSED WITH PREJUDICE.
Count 7:

In this count, the State Bar alleges that Respondent failed to timely report a sanctions order
of the U.S. District Court issued, on or about September 6, 2007.
There is no contention made by Respondent in his motion that the State Bar’s evidence
does not show that he failed to timely report the sanctions that were ordered at that time. Instead,
Respondent argues that this count must be dismissed because “It is OCTC’s burden of proof to
show that the disciplinary proceedings were initiated in a timely fashion.” For all of the same
reasons discussed with regard to Count 2, above, that contention is rejected.
Respondent also argues that he had no duty to report the court’s order because it was not an
award of “sanctions” for which reporting is required by Business and Professions Code section
6068, subdivision (o)(3). This court disagrees.
The scope of the reporting obligation under section 6068, subdi vision (o)(3), is not limited
to orders issued under authority of statutes or rules having the precise word “sanction” contained
4

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 124 of 143
M125

therein. Instead, the duty includes order issued pursuant to statutes and rules (and possibly other
sources of authority) which are used for the purpose of punishing bad faith conduct.
This interpretation of the scope of section 6068, subdivision (o)(3), is consistent with the
treatment by the California courts of orders issued under other statutes (see, e.g,, Young v.
Rosenthal (1989) 212 Cal. App, 3d 96,130-138 [order issued under Code of Civil Procedure
section 9072 characterized and treated as “sanction”]), and it is supported hy prior decisions of this
court. (See In the Matter ofRespondent 7 (Review Dept. 1998) 3 Cal. State Bar Ct. Rptr. 862, 866
(interpreting section 6068, subdivision (o)(3), to require report to be made within 30 days after
order issued, even though order is not final and is being appealed].3
The order issued by the trial judge here was issued pursuant to 15 U.S.C. 168In, which
provides in pertinent part: “Upon a finding by the Court that an unsuccessful pleading, motion, or
other paper filed in connection with an action under this section was filed in bad faith or for the
purpose of harassment, the Court shall award to the prevailing party attorney’s fees reasonable in
relation to the work expended in responding to the pleading, motion or other paper.” In that
court’s decision, the court noted that the statute reflected “the legitimate substantive federal
statutory policy of punishing bad faith conduct made in connection with actions under Section
1681.” (Ex. 48, p. 3.) The court then awarded attorneys pursuant to that statute based on its
finding that Respondent’s prosecution of the action had been “malicious” and “in bad faith and
with the purpose of harassment.” (Id. atpp. 3-4.)
Respondent’s motion to dismiss Count 7 is DENIED.
Count 8:
In this count the State Bar alleges that Respondent encouraged the continuance of an action
from a corrupt motive of passion or interest by filing an Abstract of Judgment in the amount of
$143,469,95, with the Los Angeles County Recorder’s Office, when he knew he had no basis to do
so and did so with a corrupt motive of passion or interest and to inflict harm on the defendants in
that proceeding, in willful violation of Business and Professions Code section 6068, subdivision
(g).
The evidence received by this court is sufficient to sustain a finding that Respondent’s
actions in filing the Abstract of Judgment constituted a willful violation of section 6068,
subdivision (g). This conduct by Respondent was an unjustified continuation of his previously
efforts to obtain $137,000 in attorney’s fees. Those actions began with his filing of a
memorandum of costs on April 17, 2006, discussed more fully below, prior to any judgment
having been entered by the court and without having sought any court order awarding him
attorney’s fees. After the court entered and then vacated its order of May 11, 2006, disapproving
2 Similar to 15 U.S.C. 1681n, section 907 of the Code of Civil Procedure provides, “When it
appears to the reviewing court that the appeal was frivolous or taken solely for delay, it may add to
tire costs on appeal such damages as may be just.”
3 “We hold that the purpose of section 6068, subdivision (o)(3) is to inform the State Bar promptly
of events which could warrant disciplinary investigation. Depending on the facts, any such
investigation might not even focus primarily on the sanction itself, but on the conduct preceding or
surrounding a sanctions order.”
5

Case: 19-55427, 10/09/2019; ID: 11460134, DktEntry: 19, Page 125 of 143
M126

and striking that memorandum of costs, the defendants filed a written motion to have the
memorandum of costs stricken, resulting in the court entering an order on July 31, 2006, striking
the memorandum of costs. In that order, the court was explicit in stating that Respondent was not
entitled to any award of attorney’s fees because he had not first sought them through a noticed
motion. (Ex. 22.)
Despite that court’s written order on July 31.2006, Respondent proceeded on October 18,
2006 to secure from the court clerk an abstract of judgment and then file that abstract of judgment
with the Recorder’s Office on October 20, 2006, purporting to show that he held a judgment
against The Irvine Company and the other defendants in the amount of $) 43,469.95 (which was
based almost entirely on his previously-disapproved claimed entitlement to $137,000 of attorney’s
fees). (Ex. 23.) This recorded instrument then created for months an obstacle to those defendants
closing various business transactions while the purported “judgment” remained outstanding and
unsatisfied.
To remove this impediment to their businesses, the defendants were required by
Respondent to file a motion to have the recorded abstract invalidated. The resolution on that
motion was delayed by Respondent’s unsuccessful challenges to the judge and was not heard until
March 2007, at which time the court granted relief from the recorded abstract.
Respondent alleges that the count should be dismissed because the evidence does not
provide clear and convincing evidence of the continuation by him of “an action or proceeding from
any corrupt motive of passion or interest.” More specifically, he argues that a violation of section
6068, subdivision (g), requires “the filing and continuance of a meritless ‘action’, that is to say
‘lawsuit,’ and not the filing a specific document therein which is divorced from the merits of the
action.” (Motion, p. 4.)
This contention lacks merit. Section 6068, subdivision (g), enjoins the “commencement or
the continuance of an action or proceeding from any corrupt motive of passion or interest.” The
use of the disjunctive “or” in that prohibition makes clear that the commencement of an improper
action is not a prerequisite to this court finding a violation of the statute based on subsequent
conduct, resulting from corrupt motive of passion or interest, seeking to continue the action.
Respondent’s motion to dismiss Count 8 is DENIED.
Count 9:

In this count the State Bar alleges, “On or about April 17, 2006, Respondent filed a
Memorandum of Costs in Sanai v. Saltz, et al., Los Angeles County Superior Court case no.
BC235671, listing names of individuals upon an accompanying service list whom Respondent
claimed were agents of process for corporate defendants who had been served when he knew, or
was grossly negligent in not knowing, that such individuals in fact had not been served on behalf
of the corporate defendants, and thereby Respondent committed an act or acts involving moral
turpitude, dishonesty or corruption in willful violation of Business and Professions Code, section
6106.” [sic]
Respondent contends in is motion that the State Bar has failed to present clear and
convincing evidence supporting this count. This court agrees.
6

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 126 of 143
M127

There is no evidence that, when the Memorandum of Costs was fi led on April 17, 2006, it
included a service list “listing names of individuals upon an accompanying service list whom
Respondent claimed were agents of process for corporate defendants who had been served.”
Instead, the evidence is uncontradicted that the proof of service filed by Respondent with the
Memorandum of Costs on April 17, 2006, stated that the memorandum had been addressed and
mailed only to the corporate defendants’ offices, with no designation of any individual at those
offices to which the mail was to be delivered.4
The evidence offered by the State Bar in support of the above allegation relates to a
contention by Respondent’s opposing counsel in 2006 that Respondent, after the Memorandum of
Costs had been filed, had made a notation on the previously-filed service list regarding the identity
of the designated agents of those corporate defendants for service of process. However, it is
undisputed that this notation was made by Respondent with the knowledge and consent of the
court’s clerk, in her presence, and at her request. This clerk was aware that Respondent, a party to
the action, was not (and could not be) the person who had signed the proof of service under penalty
of perjury, and there is no evidence that Respondent was claiming to modify the proof of service or
that the clerk believed that Respondent’s subsequent notation in any way modified the original
proof of service.
The disputed issue at that time was whether the clerk had merely requested that Respondent
write down the identity of the designated agents for service of process or whether she had asked
Respondent to write down the names of the individuals who had actually been served. At an ex
parte hearing on May 11, 2006, this clerk was called to testify regarding that issue. Prior to her
being summoned to testify in 2006, comments by both the presiding judge and opposing counsel
made clear that each had discussed with her the substance of her anticipated testimony. (Ex. 29,
pp. 5-6: cf. p. 11, line 26.)5 During her testimony, her answers were equivocal, including
acknowledging on cross-examination that her memory of the event (which had happened less than
three days before) was poor and that she did not remember exactly the reason she had given
Respondent for asking him to write down the names of the designated agents for service of
process. (Ex. 29, pp, 25-26, 44.)
This same clerk was called as a witness by the State Bar during the trial of this matter.
Although she had been provided with a copy of her prior testimony, and had affirmed its content as
correct for the State Bar in January 2014, when she was called as a witness in this proceeding in
August 2014, she testified that she could not identify Respondent, has no recollection of the
disputed memorandum of costs, and has absolutely no recollection of discussing the matter with

4 This failure to address the letter to individuals authorized to accept service of process on behalf
of the corporation greatly reduces the likelihood that the effort at service will be successful, but is
not necessarily fatal. (See Dill v. Berquist Construction Co, (1994) 24 Cal. App. 4th 1426, 1437
[service is effective, even if the mailing is not addressed to an authorized agent, if it is actually
received by such an agent].)
3 Respondent contends that the clerk’s testimony at that time was improperly influenced by tire
presiding judge for improper reasons, and be seeks in this proceeding to subpoena and question
that judge as an adverse witness in this proceeding regarding his contact with the clerk prior to her
testimony.
7

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 127 of 143
M128

Respondent.6 This purported lack of any memory by the witness was not credible, had the effect
of eliminating any meaningful cross-examination by Respondent, and makes her prior testimony
during the May 11, 2006 ex parte hearing even less convincing.
Also weakening the weight to be given the record of the May 11,2006 hear ing is the fact
that it took place without Respondent having been given proper prior notice. Opposing counsel
had given Respondent only telephonic notice of his intent to make an ex parte application for an
order shortening time for a contemplated written motion seeking to strike the memorandum of
costs. Opposing counsel had previously indicated to Respondent that this attack would be based
on the absence of a judgment entered by the court prior to the filing of the memorandum of costs.
Then, on May 11,2006, when the court heard the ex parte matter, opposing counsel indicated that
he had previously given notice, via a telephone message left on Respondent’s phone, of his intent
to seek on May 11 the actual order striking the memorandum of costs. Although Respondent
objected at the hearing to this lack of notice, the court went forward to issue an order striking the
memorandum of cost, based in part on the clerk’s testimony. The court was then required to
vacate that order on the following day, when Respondent was able to return to court and make a
formal record of a copy of the recorded phone message, which was explicit in stating that the only
stated purpose of the May 11 ex parte appearance was to seek an order shortening time.
Finally, the contention that Respondent was attempting to mislead the court or opposing
counsel into believing that the designated agents for service of process had been served with the
memorandum of costs is belied by Respondent’s having filed and served a declaration, dated May
10,2006, in which he provided the court and opposing counsel with a copy of the original proof of
service; documentation that the memorandum of costs was served only by sending it by certified
mail, addressed only to the corporation and not to any specific individual; and documentation that
the individuals signing for the certified mail at the two corporate offices were both individuals
other than the designated agents for service of process.
The evidence failing to present clear and convincing proof of the act of moral turpitude
alleged in Count 9, that count is DISMISSED WITH PREJUDICE.

IT IS SO ORDERED.

K
Dated: February (j

.,2015

DONALD F. MILES
Judge of the State Bar Court

6 The clerk also denied any memory of her contact with the trial court prior to her testifying in
2006, despite her review of the court’s statement in the transcript that he had talked with her.
8

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 128 of 143
M129

CERTIFICATE OF SERVICE
[Rules Proc. of State Bar; Rule 5.27(B); Code Civ. Proc., § 1013a{4)]
I am a Case Administrator of the State Bar Court of California. I am over the age of eighteen
and not a party to the within proceeding. Pursuant to standard court practice, in the City and
County of Los Angeles, on February 6, 2015,1 deposited a true copy of the following
document(s):
ORDERS RE RESPONDENT’S MOTIONS TO DISMISS
in a sealed envelope for collection and mailing on that date as follows:

m

by first-class mail, with postage thereon fully prepaid, through the United States Postal
Sendee at Los Angeles, California, addressed as follows:
CYRUS M. SANAI
SANAIS
433 N CAMDEN DR STE 600
BEVERLY HILLS, CA 90210
by interoffice mail through a facility regularly maintained by the State Bar of California
addressed as follows:
BROOKE SCHAFER, Enforcement, Los Angeles
KEVIN BUCHER, Enforcement, Los Angeles

I hereby certify that the foregoing is true and correct. Executed in Los Angeles, California, on
February 6,2015.

Tammy Cleaver
Case Administrator
State Bar Court

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 129 of 143
M130

EXHIBIT 9

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 130 of 143
M131

FILED
MAR 20 2015 V(^
STATE BAR COURT
CLERK’S OFFICE
LOS ANGELES

STATE BAR COURT OF CALIFORNIA
HEARING DEPARTMENT - LOS ANGELES

In the Matter of
CYRUS MARK SANAI,
Member No. 150387,

)
)
)
)
)
)

A Member of the State Bar.

)
)
)
)
)
)
)

Case Nos.: 10-0-09221; 12-CM0457-DFM
ORDER GRANTING MOTIONS TO
RECONSIDER DENIAL OF
RESPONDENT’S MOTION TO DISMISS
AND STATE BAR’S MOTION TO
QUASH; DISMISSING COUNTS 1-5 AND
7; GRANTING MOTION TO QUASH
SUBPOENAS RE NINTH CIRCUIT
EMPLOYEES; AND ABATING
RESOLUTION OF COUNT 8 AND
RELATED MOTIONS TO QUASH
PENDING RESOLUTION OF
UNDERLYING CIVIL ACTION

The Notice of Disciplinary Charges (NDC) in these cases was filed by the Office of the
i.
\

Chief Trial Counsel (State Bar) on January 7, 2014. Counts 1-5 arise out of Respondent’s
involvement as a party in litigation filed in the State of Washington; Count 6, which has now
been dismissed by this court, related to complaints filed by Respondent with the Judicial Council
of the Ninth Circuit against various judges of the Ninth Circuit; and Counts 7-9 arise out of
Respondent’s involvement as a party in litigation still pending in the Los Angeles County
Superior Court.1 In those counts, Respondent is charged with misconduct occurring in April and
May 2005 (Count 1), July 2005 (Count 2), March 2005 (Count 3), October 2004 (Count 4),

i

Count 9 has also now been dismissed by this court.

/

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 131 of 143
M132

/

November 2005 (Count 5), October 2008 through September 2010 (Count 6), September 2007
(Count 7), October 2006 (Count 8), and April 2006 (Count 9).
At the conclusion of the State Bar’s case-in-chief against Respondent, Respondent moved
to dismiss all of the nine counts pending against him, contending, inter alia, that the counts are
barred by the five-year rule of limitations set forth in rule 5.21(A) of the Rules of Procedure of
the State Bar of California, which provides: “If a disciplinary proceeding is based solely on a
complainant’s allegations of a violation of the State Bar Act or Rules of Professional Conduct,
the proceeding must begin within five years from the date of the violation.” In turn, the State
Bar defended its decision to file the charges in 2014, well more than five years after the alleged
misconduct, by invoking the provisions of rule 5.21(G), which provides: “The five-year limit
does not apply to disciplinary proceedings that were investigated and initiated by the State Bar
based on information received from an independent source other than a complainant.”
i

In response to Respondent’s motion to dismiss, this court dismissed Counts 6 and 9 based

I
t

on the absence of clear and convincing evidence of the misconduct alleged in those counts.2 The
court, however, denied Respondent’s motion to dismiss the remaining counts based on the fiveyear rule of limitations of rule 5.21(A). The court’s decision to defer resolution of that issue was
!

based on In the Matter of Wolff(Review Dept. 2006) 5 Cal. State Bar Ct. Rptr. 1, which holds
that the respondent has the burden of proving application of the rule of limitations. Since that
burden would suggest that the State Bar had no obligation during its case-in-chief to present
evidence regarding defenses to the apparent application and/or running of the rule of limitations,
but instead presumably could wait to present such evidence until after Respondent had presented
his evidence, this court concluded that resolution of the rule of limitations issue should be
deferred until after the State Bar had the opportunity and burden of presenting any evidence that

2 No request has been made by the State Bar to reconsider those dismissals.

-2-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 132 of 143
M133

the proceedings were “were investigated and initiated by the State Bar based on information
received from an independent source other than a complainant” or that there had been some
tolling of the running of the rule of limitations. Respondent has now filed a motion for
:

reconsideration of this court’s denial of that request for dismissal.
Related to the resolution of this rule of limitations issue is whether the State Bar may
prevent discovery and/or disclosure of evidence regarding the nature and source of the
information the State Bar received and relied on in filing the various counts against Respondent.
Respondent has sought, during both pretrial discovery and trial, to require the State Bar to
produce a substantial number of documents in its files regarding the history of the State Bar’s
receipt and handling of complaints and information regarding the events giving rise to the
remaining counts, and he has subpoenaed as witnesses at trial the two State Bar employees,
attorneys Joseph Carlucci and Brooke Schaeffer, who have been identified as the individuals
most knowledgeable about the reasons for the State Bar’s investigation and initiation of the
pending charges. In response to those efforts by Respondent, the State Bar has refused to
produce the requested documents and witnesses, and it has filed a motion to quash the trial
subpoenas.
On October 16,2014, this court issued an order denying the State Bar’s motion to quash
Respondent’s subpoenas requiring the production of State Bar documents and the appearance as

r

witnesses of attorney Schaeffer.3 In that order this court concluded:
In its motions to quash, the State Bar argues that the requested
documents are confidential and protected attorney work product. It
is well-established that the party asserting such a privilege has the
burden of establishing that privilege. (Fellows v. Superior Court
(1980) 108 Cal.App.3d 55,67; Brown and Weil, Civil Procedure
In that order the court indicated that it was reserving the issue of whether to quash the subpoena
requiring the attendance of Joseph Carlucci as a witness at trial until after the testimony of a
designated State Bar witness regarding the procedural history of the matters was heard
. That
testimony was received on October 21,2014.

-3-

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 133 of 143
M134

Before Trial, ^ 8:192.) In addition, rule 5.65(1) provides that
“When a party withholds information otherwise discoverable under
these rules by claiming that it is privileged or otherwise protected,
the party must make the claim expressly and must describe the
nature of the documents, communications, or things not produced
or disclosed in a manner that, without revealing information itself
privileges, will enable the other party to assess the applicability of
the privilege or protection.”4 The State Bar has done neither. The
motions and their supporting declarations do not contain express
claims of privilege or other protection; nor do they describe the
nature of the documents, communications or things not produced
or disclosed “in a manner that, without revealing information itself
privileged or protected, will enable the other party to assess the
applicability of the privilege or protection.” (Rule 5.65(I)(2).) The
motions do not attempt to provide a privilege log that complies
with rule 5.65(I)(2). The supporting declarations are vague and
general5 and based on “information and belief* about the contents
of the files and the genesis of the investigations. In sum, there is
no factual basis for this court to make a preliminary finding that
any of the documents are protected by the attorney work product
rule.
The State Bar also asserts that all of its files are
confidential pursuant to rule 2301, which states that, except as
otherwise provided by law or the Rules of Procedure, its files and
records are confidential. This broad rule is applicable to the State
Bar’s files prior to its filing of charges against a member.
However, where charges have been filed, due process and the
provisions of the Rules of Procedure, including rule 5.65(1), make
clear that the member is entitled to have access to documents that
are exculpatory. This is especially true where the State Bar has
called one of its own employees to testify regarding its lack of
prior knowledge of certain facts from the member.
The list of documents attached to each subpoena sets forth
items that may shed light on the genesis of the initial and any
subsequent complaints against Respondent; their nature, scope and
resolution, if any; and the timing of those events. These
documents may be relevant in assessing whether any of the
pending charges are time-barred. There is no other way for
Respondent to obtain this information and defend on this basis.
4 Rule 5.65(1) also provides in pertinent part that “Statements of any witness interviewed by the
deputy trial counsel,... are not protected as work product.” [Footnote in original order]
5 For example, “Also, many communications between members of State Bar staff have been
withheld as privileged. To the best of my information and belief, none of these contain
otherwise discoverable witness interviews.” (Bucher declarations, page 6, paragraph 9.)
[Footnote in original order]
-4-

A
/

r

•/

Case: 19-55427, 10/09/2019, ID: 114601.34, Dkt6nf$/19,Page 134 of 143
M135

- -

—■

/

While that order required the State Bar to produce documents on October 20,2014, the
■

State Bar filed a motion for reconsideration of the above order, and compliance was

l%

subsequently stayed by this court pending its receipt of the scheduled State Bar testimony,
resolution of Respondent’s motions to dismiss, and resolution of the State Bar’s motion for
reconsideration.
i

On October 27,2014, Respondent filed an opposition to the motion for reconsideration.

'i

On October 28,2014, the State Bar filed a reply to the opposition. On October 29,2014,

\

Respondent filed a request to strike the State Bar’s reply or, in the alternative, a sur-reply to the
reply.6
On October 21,2014, the State Bar called a State Bar investigator to testify regarding the
history of the complaints and investigations leading up to the filing of the NDC in 2014.
However, this investigator was not assigned to work on these matters until 2011. His only
knowledge of the history of the State Bar’s first awareness of the matters giving rise to the
alleged misconduct being pursued in the pending NDC is based on his review of the State Bar’s
files, including documents that are the subject of the pending subpoenas. Although he was
requested during the morning of his testimony to bring the files he had reviewed to court during
\

his continued testimony that afternoon, he did not do so.
Documents previously provided by the State Bar to Respondent, coupled with the
investigator’s testimony at trial, make clear that the State Bar was made aware in August 2005 of
complaints regarding Respondent’s alleged misconduct in the Washington litigation, when
Respondent’s opposing counsel in that Washington litigation, William Gibb, forwarded
I

information regarding that alleged misconduct to Frederick Bennett (Bennett), court counsel for
the Los Angeles County Superior Court, for the stated purpose of having Bennett report that
6 The court exercises its discretion to receive both the reply and the sur-reply. The request to
strike the reply is denied.
-5-

t

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry:'19, Page’135 of 143

c_

M136

/
/

I

information to the State Bar. Bennett then forwarded that information to the State Bar. In the
course of Bennett’s complaining to the State Bar, he indicated that he was then acting as
“counsel of record for Judge Grimes” - to whom Respondent had apparently written a letter after
Judge Grimes had been removed by the appellate court from presiding further over the matter in
which Respondent was a party. Bennett complained to the State Bar that Respondent’s letter to
his client violated various rules of professional conduct. (See Exs. 60,1045.) Respondent now
argues in this proceeding that Bennett’s real motivation for his complaints to the State Bar was
retaliation for Respondent testifying in opposition to the elevation of Judge Grimes to the
appellate bench.
The information provided to the State Bar by Bennett was initially handled in case No.
05-0-3430 (the ‘05 case). Thereafter, an additional complaint regarding Respondent’s activities
in the Washington litigation was received by the State Bar in April 2006 from an employee of
the Washington State Bar. This individual provided the State Bar with copies of the sanction
orders underlying counts 2, 4, and 5 of the pending NDC as well as information underlying
>

J

counts 1 and 3. (Ex. 64.) The State Bar then opened case No. 06-0-12214 (the ‘06 case) and
contacted Respondent in October 2006 regarding the sanction orders and his other actions in the
Washington proceeding. (Ex. 65.) At that time, Respondent confirmed the prior issuance of the

orders underlying counts 2-5. At some time thereafter, both the ‘OS and ‘06 cases were closed.
The State Bar’s witness during the trial of the instant matter was not able to identify who made
the decision to close the cases or precisely when they were closed.
At some point in 2008, a new case, case No. 08-0-13372 (the ‘08 case), was opened.

1

The State Bar witness testified that this new case was based on the ‘05 case and was opened
;

within a few months after the ‘05 case was closed at the recommendation of the attorney who
had closed the ‘05 case. The witness, however, did not identify who that attorney was. What

-6-

V

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page-136 of 143 * '
M137

/

pted the matter to be re-opened, albeit under a different case number, was not explained.
prom
Respondent w

as then contacted in 2009 about the conduct underlying counts 7 and 9, and the '08

case was then closed. The State Bar’s witness stated that a number of attorneys worked on the
‘08 investigation, but he could not identify the specific individual who had closed the file.
In 2010, a complaint was made to the State Bar by the Judicial Council of the Ninth
Circuit regarding Respondent’s purportedly frivolous complaints to it about a number of federal
judges. This complaint by the Judicial Council of the Ninth Circuit subsequently formed the
basis for Count 6 of the pending NDC. When the complaint was received, the State Bar opened
case No. 10-0-09221 (the ‘10 case) and contacted Respondent about the matter. Then, after
learning that the Judicial Council of the Ninth Circuit would not release to the State Bar the
actual complaints filed by Respondent against the federal judges, the State Bar decided to issue a
warning letter to Respondent in November 2011, and closed the case.7 (Ex. 1040.) That
decision was explained, both orally and in writing, by the State Bar to Cathy Catterson, a
representative of the Judicial Council of the Ninth Circuit, on November 8, 2011. (Ex. 1041).
Thereafter, she complained of the State Bar’s decision in a letter, dated January 19, 2012,
directed to the then Acting Chief Trial Counsel of the State Bar.

i
7 The State Bar had previously notified the Judicial Council of the Ninth Circuit in May 2011
that it would be difficult to pursue any complaint that Respondent’s complaints against various
federal appellate justices were frivolous without having access to the actual underlying
complaints. As stated by the State Bar at that time: “As you may be aware, to prevail in State
Bar disciplinary proceedings, our office must prove by clear and convincing evidence that an
attorney committed willful misconduct. Although the Judicial Council’s order of September 30,
2010, will certainly be a useful piece of evidence to establish that Mr. Sanai engaged in
misconduct by filing frivolous misconduct complaints, it would be insufficient standing alone to
prove by clear and convincing evidence that Mr. Sanai engaged in misconduct warranting
discipline, especially since the order does not include any specific findings of fact but rather
includes only the conclusion that Mr. Sanai abused the misconduct complaint procedure.” (Ex.
1039, p. 2.)

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 137 of 143
M138

/
/

In May 2012, Respondent was notified that the 7 0 case had been re-opened by the State
Bar, resulting in the subsequent filing of count 6 in the pending NDC. (Ex. 1043.) When asked
during cross-examination why the 7 0 case was re-opened at that time, the State Bar’s witness
stated that he did not know. When asked who made the decision to prosecute the re-opened ‘10
case, the witness identified attorney Schaeffer.
All counts in the NDC, other than count 6 [regarding Respondent’s complaints about the
federal judges], are now encompassed within case No. 12-0-10457 (the '12 case). No
explanation was given by the State Bar’s witness at trial regarding why the ‘12 case was opened
other than to say that it was based on information learned while investigating the ‘10 case. The
State Bar’s witness, however, was unable to provide any specifics as to what that information
was or whether there was any information with regard to the Washington matters that was not
already in the State Bar’s files for the earlier cases. The witness also could not identify any
person who had provided information to the State Bar who was not a “complainant.” Finally, no
reason has been given as to why the matter was opened under the new '12 number, rather than by
re-opening the ‘05, ‘06, or '08 case.
The alleged misconduct which forms the basis for the remaining counts took place in
2004 (Count 4), 2005 (Counts 1, 2, 3, and 5), 2006 (Counts 8), and 2007 (Count 7). The NDC in
this matter was filed in 2014. The State Bar had received complaints and documentation
regarding all of the misconduct alleged in those counts well more than five years prior to the
filing of the NDC. Hence, the five-year rule of limitations of rule 5.21(A) has expired for each
of those counts unless that rule is inapplicable or the running of the five-year period was tolled.

s

Given the State Bar’s inability to provide this court with a copy of the actual complaints filed
by Respondent against the federal judges, this court - as accurately predicted by the State Bar in
May 2011- eventually dismissed that count at trial due to the State Bar’s failure to provide clear
and convincing evidence that those complaints were frivolous. The evidence was not sufficient
even to enable this court to identify all of the judges against whom complaints had been filed.
-8-

/

r!

\•

• /

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 138 of 143
M139

f

In the State Bar’s motion seeking reconsideration of this court’s order denying its
motions to quash Respondent’s subpoenas, the State Bar argues that it referred in the original
motions to quash to an earlier privilege log that had previously been provided to this court in
conjunction with the State Bar’s effort to avoid having to disclose documents during discovery.
It argues that this reference relieved it of any obligation to provide that privilege log to this court
in conjunction with its motions to quash. It also contends that the privilege log, not signed or
affirmed as true by any individual, substantiates its claims of privilege. A review of this
i

privilege log reveals that the State Bar has asserted that every disputed document is subject to a
claim of “Attorney Work Product Privilege.”
While this court is inclined to disagree with the State Bar’ s arguments,9 a review of the
privilege log, when combined with the testimony of the State Bar’s prior witness, makes clear
that Respondent is correct that this court should reconsider its prior decision to defer
consideration of the rule 5.21 issue. The testimony of the State Bar’s witness did not show that
any of the remaining counts “were investigated and initiated by the State Bar based on
information received from an independent source other than a complainant.” Instead, that
testimony merely reaffirmed that all of the alleged misconduct, as well as documentation of that
9
As previously explained by this court in its original order, the State Bar, with or without
the privilege log, has generally fallen far short of establishing that the bulk of these documents
are protected by the attorney work product rule. Moreover, even documents protected by that
rule are subject to disclosure on a finding that denial of discovery “will unfairly prejudice the
party seeking discovery in preparing that party’s claim or defense or will result in an injustice.”
(Code Civ. Proc., § 2018.030, subd. (b).) This court finds that such is the case here. That
conclusion is buttressed by the State Bar’s use of its files to provide the basis for the testimony
offered at trial by its own witness, who is the author of some of the disputed documents.
However, the good cause disclosure rule, quoted above, is expressly limited by
subdivision (a) of section 2018.030, which states that “an attorney’s impressions, conclusion,
opinions, or legal research or theories is not discoverable under any circumstances.” In
reviewing the privilege log, the court notes that the State Bar only sought to describe a few of the
documents in dispute as falling within the absolute privilege of subdivision (a). Those
documents are numbered in the privilege log as follows: Documents 11,13,60,61,62,85,99,
115,116,126,127,138,160, 161, 192,212,213,217-247,258, and 259.

-9-

/

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 139 of 143
M140

conduct, had been received by tbe State Bar from complainants well prior to five years before the
filing of the NDC. The witness did not identify any new evidence that the State Bar had received
from any source independent of a complainant at any time prior to five years before the filing of
the NDC.
The privilege log provided by the State Bar makes clear that the State Bar has asserted an
“Attorney Work Product Privilege” against any further disclosure of evidence, including any
I

testimony from the most knowledgeable State Bar employees, regarding the basis for the filing
of the remaining charges against Respondent. Having relied on claims of privilege to avoid such
disclosure, both during discovery and trial, the State Bar cannot now reverse its position and
offer any of such evidence in rebuttal to Respondent’s rule 5.21(A) defense. Accordingly, under
the circumstances of this case, it is not inappropriate for this court to decide the rule of
limitations issue at this time.
This court finds that counts 1 -5 and 7 are barred by the five-year rule of limitations set
forth in rule 5.21(A). The State Bar’s contention that those counts are subject to rule 5.21(G) is

\

unpersuasive and unsupported by the evidence. Further, its contention that the running of the
\

rule of limitations with regard to counts 2-5 and 7 is subject to tolling because of Respondent’s
\

ongoing obligation to report the sanction orders is contrary to both law and fact. Instead, the

evidence is clear and convincing that Respondent reported the sanctions orders to the State Bar
in 2006, when he was contacted at that time by the State Bar about those orders. After he had
done so, the pending cases were then closed. As previously noted, why those matters were
subsequently re-opened in 2012 under a different case number could not be explained by the
State Bar’s witness. There is no evidence that the matters were reopened based on any new
evidence regarding Respondent’s prior failure to timely report the orders.

-10-

|
■

s

(

/

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 140 of 143

/

M141

Because the dismissal of counts 1-5 and 7 makes the disputed production of documents
by the State Bar and the requested testimony of Brooke Schaeffer and Joseph Carlucci irrelevant
to the remaining issues in this matter, their motions to quash are granted. That determination,
however, is without prejudice to Respondent’s ability to renew his request to subpoena such
individuals as witnesses with documents in the event that any of the dismissed counts are
i

reversed on appeal.
On the issue of the alleged tolling of rule 5.21(A), this court reaches a different decision

I;

with regard to Count 8. While the alleged misconduct in that matter occurred in October 2006,
the issue of whether that conduct was inappropriate, is tied to the issue of whether Respondent’s
filing of the Abstract of Judgment was wrongful. It has become clear to this court during the
trial and subsequent discussions with counsel that die Los Angeles litigation is still ongoing and
that there remains the possibility that Respondent’s conduct can and might ultimately be
determined in that matter to have been legally correct. There has been no final determination in
that civil matter in that regard. Under such circumstances, the running of the five-year
limitations period is tolled pursuant to rule 5.21(C)(3).
This court previously notified the parties of its concern that resolution of Count 8 should
;

be abated until the pending Los Angeles litigation has been resolved, and it then provided them
with an opportunity to be heard on that issue. Good cause appearing, this court now orders that
resolution of Count 8 is abated pursuant to rule 5.50(B) until the pending Los Angeles litigation

has been resolved.
In three related matters, motions to quash have been filed on behalf of various individuals
who also received trial subpoenas from Respondent, including Michael Salz; Frederick Bennett,
Leslie Green, Sheri Carter, and Judges Terry Green and Kevin Brazile of the Los Angeles
County Superior Court; and Cathy Catterson and Molly Dwyer of the Ninth Circuit.

-11-

Y

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 141 of 143

«>

M142

//

Michael Salz is Respondent’s opposing attorney in the Los Angeles litigation and has
already appeared as a witness for the State Bar in this matter with regard to Count 8. Respondent
wishes to re-call him as a witness during Respondent’s case-in-chief, which Respondent is
clearly entitled to do. However, Respondent has also served Salz with a subpoena requiring Salz
to produce documents. While Salz argues in his motion to quash that many of the requested
documents are irrelevant to the proceeding, resolution of that motion is best deferred until the
I

\

Los Angeles litigation has been resolved.
A motion to quash was also filed on behalf of Frederick Bennett, Leslie Green, Sheri
Carter, and Judges Terry Green and Kevin Brazile of the Los Angeles County Superior Court.
Frederick Bennett is court counsel for the Los Angeles County Superior Court and, as previously

l

noted, was the individual who complained about Respondent’s misconduct in the Washington
litigation at the request of Respondent’s opposing counsel in that matter. Bennett previously
acted as counsel for Judge Elizabeth Grimes in several private matters involving Respondent,
and Respondent contends that Bennett’s testimony and documents are relevant to showing that
there has been an inappropriate conspiracy between various individuals and judges such that the
decisions of the federal and state courts, offered into evidence by the State Bar in this
proceeding, lack validity or, in the alternative, should not be given the weight normally afforded
such determinations. Because Bennett was the original complainant in 2005 with regard to the

Washington litigation (Counts 1-5), if those counts had not been dismissed, Respondent would
have been entitled to call him as a witness at trial, especially as his contacts with the State Bar

l/

relate to the rule of limitations issue. Those counts, however, have now been dismissed. With
regard to testimony by Bennett and the other witnesses from the Los Angeles County Superior
Court possibly relevant to the remaining Count 8, resolution their motion to quash should also be
deferred until after the Los Angeles litigation is resolved.

-12-

r~

/
/

Case: 19-55427, 10/09/2019, ID: 11460134, DktEntry: 19, Page 142 of 143
M143

Finally, motions to quash have been filed by Cathy Catterson and Molly Dwyer, both
employees of the Ninth Circuit.10 As previously noted, Catterson was in communication with the
State Bar regarding the Ninth Circuit’s complaint that Respondent had filed complaints against
various federal judges (Count 6). Had that count not been dismissed, Catterson’s testimony, and
possibly Dwyer’s, would have been relevant. That count, however, has now been dismissed.
Because the dismissal of that count makes their testimony and production of documents
irrelevant to the issues in this matter, their motions to quash are granted. That determination,
:

however, is without prejudice to Respondent’s ability to renew his request to subpoena such
individuals as witnesses with documents in the event that any of the dismissed counts are
reversed on appeal.
For the reasons stated above, Counts 1-5 and 7 are dismissed with
prejudice. Resolution of the remaining count, Count 8, is abated pending final
resolution of the pending Los Angeles litigation. This abatement extends to the
motions to quash of Michael Salz, Frederick Bennett, Leslie Green, Sheri Carter,

/

and Judges Terry Green and Kevin Brazile.
The motions to quash of Cathy Catterson, Molly Dwyer, Joseph Carlucci
and Brooke Schaeffer are granted, without prejudice to Respondent’s ability to

renew his request to subpoena such individuals as witnesses with documents in
the event that any of the dismissed counts are reversed on appeal.
IT IS SO ORDERED.

Dated: March ^0,2015

J
DONALD F. MILES
Judge of the State Bar Court

10 The court exercises its discretion to receive both the replies and the sur-replies of the parties
regarding these motions. Respondent’s requests to strike the replies are denied.
-13-

r

e 143 of 143

Case: 19-55427, 10/09/2019, ID:

[Rules Proc. of State Bar; Rule 5.27(B); Code Civ. Proc., § 1013a(4)]
I am a Case Administrator of the State Bar Court of' California. I am over the age of eighteen
and not a party to the within proceeding. Pursuant to standard court practice, in the City and
County of Los Angeles, on March 20,2015,1 deposited a true copy of the following
documents):
ORDER GRANTING MOTIONS TO RECONSIDER DENIAL OF
RESPONDENT’S MOTION TO DISMISS AND STATE BARfS MOTION TO
QUASH; DISMISSING COUNTS 1-5 AND 7; GRANTING MOTION TO QUASH
SUBPOENAS RE NINTH CIRCUIT EMPLOYEES; AND ABATING
RESOLUTION OF COUNT 8 AND RELATED MOTIONS TO QUASH PENDING
RESOLUTION OF UNDERLYING CIVIL ACTION
in a sealed envelope for collection and mailing on that date as follows:
El

by first-class mail, with postage thereon fully prepaid, through the United States Postal
Service at Los Angeles, California, addressed as follows:
CYRUS M.SANAI
SANAIS
433 N CAMDEN DR STE 600
BEVERLY HILLS, CA 90210

81

*faci% reBuiar,y main,ained by *

e State Bar of California

I hereby certify that the foregoing is true and correct.
Executed in Los Angeles, Califomia, on
March 20,2015.

Ama

Tammy Cleaver
Case Administrator
State Bar Court
/

N1

APPENDIX N

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 1 of 146
N2

UNITED STATES COURT OF APPEALS
For the Ninth Circuit
No. 19-55429
CYRUS SANAI, an individual
vs.

Plaintiff, and Appellant

JAMES MCDONNELL, an individual: MARK BORENSTEIN, an
individual; and DOES 1 through 10, inclusive,
Defendants;
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
HONORABLE ROBERT GARY KLAUSNER
DISTRICT COURT CASE NO. CV 18-5663-RGK-E

MOTION FOR DISQUALIFICATION AND RECUSAL OF JUDGES
AND DISCLOSURE

Cyrus M. Sanai, SB#150387
SANAI S
433 North Camden Drive
Suite 600
Beverly Hills, California, 90210
Telephone: (310) 717-9840
cyrus@sanaislaw.com

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 2 of 146
N3

MOTION FOR DISQUALIFICATION AND RECUSAL OF
JUDGES AND DISCLOSURE

I.

MOTION
For the reasons set forth below, Appellant Cyrus Sanai (“Sanai”)

hereby files a motion to disqualify the following Circuit Judges: Berzon,
Thomas, Goodwin, Wallace, Schroeder, D. Nelson, Canby, O’Scannlain,
Fernandez, Kleinfield, Tashima, Graber, McKeown, Wardlaw, Fletcher,
Fisher, Gould, Paez, Tallman, Rawlinson, Clifton, Bybee, Callahan,
Bea, M.D. Smith, Jr., Ikuta, N. R. Smith, Murguia, Christen, Nguyen,
and Watford.
This motion also moves that all Circuit Judges, including the
Circuit Judges not named above (Farris, Leavy, Trott, Hawkins,
Silverman, Hurwitz, Owens, Friedland, Bennett, R.D. Nelson, Miller,
Bress, Hunsaker and Bade), and all future circuit judges and any other
€>

judges assigned to make decisions in this case, make the following
disclosures on the record:
1.

Whether or not they are friends of disgraced former Circuit
Judge Alex Kozinski;

€>
-2-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 3 of 146
N4

2.
«

Whether they had any knowledge, direct or indirect, of
Kozinski’s sexual harassment and distribution of pornography
within the Court prior to December 2017;

3.

Whether they have had any contact, direct or indirect with
Kozinski since his resignation or would otherwise consider
himself or herself as his friend;

4.

Whether they in any way participated or supported the efforts to
censure Appellant Sanai, disbar Appellant Sanai, or interfere in
the employment of anyone at the request of Kozinski or Circuit
Judge Reinhardt.

5.

The dates, if any, the judge served on the Judicial Council.

6.

The relationship any judge has with Mark Borenstein, or any
other Defendant, or any past or current member of Division
Eight of the Second Appellate District of the Court of Appeal of

€>

the State of California.

#

-3 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 4 of 146
N5

II.

BACKGROUND TO APPEAL
This appeal, and a related appeal (Sanai v. Staub, 9th Cir. Case

No. 19-55427) involve a question of first impression in the Ninth
Circuit Court of Appeal: where a party provides admissible of evidence
of a past or existing professional or personal relationship between a
federal judge and a party or key witness in the litigation, must the
federal judge disclose the material facts concerning the relationship,
including whether it is still ongoing?
The Sixth and Eleventh Circuit have answered this question in
the affirmative:
We believe instead that litigants (and, of course, their
attorneys) should assume the impartiality of the presiding
judge, rather than pore through the judge’s private affairs
and financial matters. Further, judges have an ethical duty
to “disclose on the record information which the judge
believes the parties or their lawyers might consider
relevant to the question of disqualification.” Porter v.
Singletary, 49 F.3d 1483, 1489 (11th Cir. 1995). . . . [The
judge] possibly did not consider the matter sufficiently
relevant to merit disclosure, but his non-disclosure did not
vest in [the parties] a duty to investigate him.
Am. Textile Mfrs. Inst., Inc. v. Limited, Inc., 190 F.3d 729, 741 (6th Cir.
1999).

Neither the Ninth Circuit nor the United States Supreme Court
-4-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 5 of 146
N6

has ever addressed this issue. This appeal presents this issue, and the
scope of appellate disqualification in the federal courts in the wake of
Williams v. Pennsylvania (2016) 579 U.S.

, 136 S.Ct. 1899, 195

L.Ed.2d 99; Caperton v. A.T. Massey Coal Co. (2009) 556 U.S. 868, 129
S.Ct. 2252, 173 L.Ed.2d 1208.
This case involves the relationship between the district court
judge, R. Gary Klausner and a key witness in this case Frederick
Bennett. Mr. Bennett is key figure in the pleadings. See Docket #41 at
3-7. Mr. Bennett is a defendant in the related case. Bennett
represented Judge Klausner multiple times in Judge Klausner’s prior
job, and it appears Judge Klausner hired Bennett in this position. See
Motion for Recusal, Dock. Nos. 65. Judge Klausner refused to disclose
anything about this relationship. See Dock. No. 65. A motion to recuse
was denied by a different district court judge on the grounds, inter alia,
that insufficient evidence was presented about the relationship. Dock.
No. 68.
The action was dismissed by Judge Klausner based on the
Rooker-Feldman doctrine. In doing so, Judge Klausner rejected the

-5-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 6 of 146
N7

ruling of the judge he replaced and the published precedent of every
Court of Appeals to have ruled on the issue since 2005, and instead cited
unpublished district court cases, a including a decision which pointed
out the rejection of published decision by other courts:
With respect to the Injunctive Orders, they appear to be
non-final, interlocutory orders. In 2001, the Ninth Circuit
held that Rooker-Feldman applies to interlocutory orders.
See Doe & Assocs. Law Offices v. Napolitano, 252 F.3d 1026,
1030 (9th Cir. 2001) (approving of Richardson v. D.C. Ct. of
App., 83 F.3d 1513, 1515 (D.C. Cir. 1996)). In 2005, relying
on Exxon Mobil Corp. v. Saudi Basic Indust. Corp., 544 U.S.
280 (2005), the Ninth Circuit stated that Rooker-Feldman
only applies after state court proceedings have ended, i.e.
"when the state courts finally resolve the issue that the
federal court plaintiff seeks to relitigate in a federal forum. .
. ." Mothershed, 410 F.3d at 607 n.3 (amended opinion).
After 2005, however, the Ninth Circuit in several
unpublished cases cited Doe & Assocs. for the proposition
that Rooker-Feldman applied to interlocutory orders. See,
e.g., Hanson v. Firmat, 272 Fed. Appx. 571, 572 (9th Cir.
2008); Melek v. Kayashima, 262 Fed. Appx. 784, 785 (9th
Cir. 2007); Bugoni v. Thomas, 259 Fed. Appx. 11, 11-12 (9th
Cir. 2007); see also Ismail v. County of Orange, 2012 U.S.
Dist. LEXIS 65793, *25-*26 (C.D. Cal. Mar. 21, 2012); cf.
Marciano, 431 Fed. Appx. at 613 (discussing only
Motjershed).
The Court is not convinced that the parties have
adequately addressed Rooker-Feldman. The parties have
not discussed or even cited Mothershed or Doe & Assocs.
Nevertheless, it is unnecessary to resolve Rooker-Feldman's
application or non-application to Plaintiffs' declaratory
requests concerning the Injunctive Orders.
-6-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 7 of 146
N8

CMLS Management, Inc. v. Fresno County Superior Court, No.
ll-cv-1756-A WI-SKO, 2012 WL 2931407(E.D. Cal. July 18,
2012)at *10.

A timely appeal of the dismissal judgment and orders denying the
motion to vacate the order of dismissal and the motion to vacate the
judgment of dismissal was filed. Docket No. 31.
The same issue of a prior attorney-client relationship between
defendant Bennett and a judge arises in respect of Circuit Judge
Nguyen. She was a judge on the Los Angeles County Superior Court
from 2002 to 2009, when Bennett served as “Court counsel”, frequently
acting as the attorney for individual judges.
This motion for disqualification arises from Justice Nguyen’s
relationship with defendant Bennett and the still ongoing fallout of
disgraced former Chief Judge of the Ninth Circuit Alex Kozinski’s
efforts to turn his chambers into a Pasadena branch of the Pussycat
Theater.

-7-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 8 of 146
N9

II.

THE LONG-RUNNING HISTORY OF JUDICIAL
RETALIATION RELATED TO THE DISCLOSURE OF
CIRCUIT JUDGE KOZINKSI’S USE OF PORNOGRAPHY
AND SEXUAL HARASSMENT
As set forth in the attached declaration and exhibits, public

information would case a reasonable person to believe that all but
twelve of the Circuit Judges in this Court were aware that Circuit
Judge Alex Kozinski distributed pornography for his own pleasure and
as a tool of sexual harassment; protected Kozinski when his behavior
was questioned by L. Ralph Mecham, former head of the United States
Administrative Office of the Courts; actively thwarted investigation of
Judge Kozinski by refusing to follow Chief Justice Roberts’ order to
transfer Sanai’s judicial misconduct complaint against Kozinski and
others relating to this matter to the Third Circuit investigating
committee; assigned the complaints to Kozinski’s best friend on the
Court, the late Judge Reinhardt; and retaliated against Sanai by
censuring him and unsuccessfully seeking his disbarment. See Decl. f Tj2
et seq.

-8-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 9 of 146
N10

III. ANY REASONABLE PERSON WOULD BELIEVE THAT
CROSSING OR OFFENDING AN APPELLATE JUSTICE
WOULD IMPAIR THE IMPARTIALITY OF JUDGE AND
HIS OR HER COLLEAGUES
The efforts to ignite proceedings to disbar Sanai were initially
unsuccessful, but after repeated pressure by Kozinski’s acolyte, Cathy
Catterson, the California State Bar Court held a trial, and Sanai was
exonerated on all but one charge, and that charge is going to trial later
this year. Decl.^|131-5. In particular, after repeatedly urging the State
Bar Court to disbar Sanai, the Judicial Council refused to cooperate
with the prosecution of the charge, and actively fought subpoenas; the
Judicial Council refused to even provide copies of the judicial
misconduct complaint filed by Sanai.
The result was that the charges that Catterson brought were
dismissed in 2015 with a finding that Sanai’s judicial misconduct
complaints, to the extent they could be determined from public records,
were entirely justified and proper. Decl. f33. Last month the Bar’s
trial counsel stipulated it would not file an appeal of the dismissed
charges, thus the Judicial Council’s efforts to disbar Appellant failed on

-9-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 10 of 146
N11

the grounds that the Judicial Council refused to provide any evidence
behind its complaint.
However, the bar proceedings instigated by Catterson at the
direction of the judicial council raised a new issue for Sanai—documents
disclosed by the Bar Trial Counsel revealed that defendant Bennett, on
behalf of then Superior Court Judge Elizabeth Grimes, had filed a secret
bar complaint against Sanai as agent for attorneys in his family
litigation, and in that communication admitted that he was acting on
behalf of Judge Grimes. Bennett, acting as Grimes’ attorney, had
explicitly denied that his formal, unsuccessful bar complaint against
Sanai had been filed on her behalf to the Commission on Judicial
Appointments in 2010, when Sanai opposed her appointment to the
California Court of Appeal.
The meritoriousness of Sanai’s misconduct complaints was
confirmed three years later when a Washington Post national security
reporter, having heard rumours about Judge Kozinski, contacted Sanai
and others and published a blockbuster pair of articles showing that
Kozinski had been openly sexually harassing his clerks and third

- 10-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 11 of 146
N12

parties for years, with this pornography-laded server exposed by Sanai
13 years previously a major tool. M. Zapotosky, Prominent appeals
court Judge Alex Kozinski accused of sexual misconduct,” The
Washington Post, Dec. 8, 2017. This exposure had four major
consequences.
First, Judge Kozinski resigned in disgrace, and moved back to
being an attorney practicing in California.
Second, Judge Kozinski’s former clerk and daughter in law, Leslie
Hakala, was the subject of direct retaliation by Kozinski after he
resigned through Cicuit Judge Reinhardt and Ikuta. Decl. 137. Ms.
Hakala was married to Judge Kozinski’s eldest son Yale, and she was a
long-time employee of the SEC in Los Angeles. Approximately four
years ago she obtained a coveted partnership at K&L Gates;
approximately three years ago her marriage fell apart, and she filed for
divorce from Yale Kozinski. The divorce was extremely bitter, as Ms.
Hakala was the breadwinner. When the Washington Post articles came
out last November, her counsel sought to subpoena Judge Kozinski to
obtain information about his treatment of Ms. Hakala in the context of

- 11 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 12 of 146
N13

the legal battles. The younger Kozinski then acceded to Ms. Hakala’s
demands and the divorce was settled. After Hakala played the #metoo
card and the divorce was finalized, several judges with personal
relationship with attorneys at K&L Gates, including Judge Kozinski’s
close friend, the late Stephen Reinhardt, and Kozinski’s former clerk
Sandra Ikuta, independently told K&L Gates partners that Ms.
Hakala’s continued presence at the firm would injure its representation
of its clients in federal court. Ms. Hakala was then fired. Decl. ^|37.
Third, the federal courts assembled a working group that proposed
changes to the federal ethics and judicial misconduct proceeding rules.
Though these rules were heavily criticized, including by Sanai and Mr.
Mecham, they were passed. Decl. Tj38.
Fourth, inspired by the working group, research attorneys within
the California Court of Appeal issues an internal petition to take similar
steps within the California Court of Appeal. See Carter Stoddard,
“Petition Sparked Johnson Investigation” Daily Journal, August 13,
2019 at 1. When Second Appellate District Judge Elwood Lui inquired
whether this petition was directed at a particular person, the lawyer

- 12 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 13 of 146
N14

organizing the petition identified an incident in 2012 where Justice
Johnson’s research attorney found evidence that someone had been
using her office for sex on the weekends. “Judges Get Whatever They
Want, Atty Tells Misconduct Panel”, law360.com, August 12, 2019
(quoting research attorney Katherine Wohn). Justice Lui then made
further inquiries, and heard direct testimony of sexual harassment from
a California Highway Patrol officer. Justice Lui sent an email setting
out his finding to the entire Appellate Court by accident, which email
was then leaked to the Daily Journal. This unleashed a torrent of
reports about Johnson.
All of the women who had suffered from Justice Johnson’s
behavior kept quiet because they were afraid of judicial retaliation.
The In Re Johnson case demonstrates that virtually no one believed
that the Commission on Judicial Performance could police the
misconduct of appellate justices. The entire world has learned that
attorneys working in the Second Appellate District, California Highway
Patrol officers working to protect the judges, attorneys working outside
the Court, and even the Justices themselves believe that there is a

- 13 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 14 of 146
N15

culture and practice of judicial retaliation for crossing or offending a
justice as to which there is no protection and no remedy by any
institution in California, including this Commission. This has been
attested to in testimony documented in two legal journals, law360.com
and the Daily Journal. See, e.g. Carter Stoddard, “Women describe fear
of retaliation by state justice” Daily Journal, August 7, 2019 at 1
(describing fear of judicial retaliation); Carter Stoddard, “Women
lawyers, clerks say justice made crude remarks ” Daily Journal, August
6, 2019 at 1 (“I was concerned about retaliation”—Roberta Burnette,
sole practitioner); Carter Stoddard, “CHP officer says justice
propositioned her repeatedly”, Daily Journal, August 14, 2019 at 1 (“I
didn’t want the retaliation”—Tatiana Sauquillo, CHP officer); ; Carter
Stoddard, “Justice paints complicated relationship with colleague”,
Daily Journal, August 8, 2019 at 1 (“Several women testified they didn’t
speak up about this behavior because of fear of retaliation or blow-back
from the legal community”). These facts would cause any reasonable
person to believe that the Ninth Circuit would treat whistle-blowers
any differently.

- 14-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 15 of 146
N16

IV.

JUDICIAL DISQUALIFICATION LAW
Judicial disqualification of circuit judges is determined on a

statutory and due process standards. The statutory standard, Title 28
U.S.C. 455 provides in relevant part:
"(a) Any justice, judge, or magistrate of the United
States shall disqualify himself in any proceeding
in which his impartiality might reasonably be
questioned.
Scienter is not an element of a violation of 455(a).
The judge's lack of knowledge of a disqualifying
circumstance may bear on the question of remedy,
but it does not eliminate the risk that "his
impartiality might reasonably be questioned" by
other persons. To read 455(a) to provide that the
judge must know of the disqualifying facts,
requires not simply ignoring the language of the
provision - which makes no mention of knowledge
- but further requires concluding that the
language in subsection (b)(4) - which expressly
provides that the judge must know of his or her
interest - is extraneous. A careful reading of the
respective subsections makes clear that Congress
intended to require knowledge under subsection
(b)(4) and not to require knowledge under
subsection (a).
Liljeberg v. Health Sues. Acq. Corp., 486 U.S. 847, 858-9 (1988)
The due process standard is whether an observor, knowing the
publicly available facts, would find that there is a dangerous risk of an

- 15 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 16 of 146
N17

absence of impartiality. Williams, supra; Caperton, supra . Under
Williams, disqualification in an appellate court is infectious; one
disqualified judge or justice who sits on the court requires
disqualification. There is no requirement that disqualification be
proved by admissible evidence. See, e.g. Caperton (relying on hearsay
records).
The facts of both the Kozinski case and Johnson case show that
any reasonable person would doubt the impartiality of an appellate
tribunal where the litigant or lawyer has offended a member of the
tribunal by validly accused a member of misconduct.
The record in this Court’s handling of Sanai’s complaints against
Kozinski show direct retaliation—Sanai was censured for, inter alia,
validly accusing members of the Ninth Circuit Judicial Council of
covering up for Kozinski due to their desire to keep his sexual
harassment out of the press. The fact that the Judicial Council
demanded that a bar proceeding be held against Sanai, but refused to
show the entirely accurate accusations in his misconduct complaint,

- 16-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 17 of 146
N18

demonstrated that the censure order and subsequent efforts before the
Bar was frivolous, harassing conduct.
Most of the victims and witnesses to Judge Kozinski’s conduct
kept quiet until after he was exposed; many still fear retaliation by his
friends on the Ninth Circuit and the Judicial Council. See M.
Zapatosky, “Nine more women say judge subjected them to
inappropriate behavior, including four who say he touched or kissed
them,” The Washington Post, December 15, 2017 (“Many of Kozinski's
accusers have talked only on the condition that their names and other
identifying information not be published, out of fear that he might
retaliate against them or the institutions for which they work.”) Even
after Kozinski resigned they decline to come forward and with good
reason. Kozinski, through his friends on the Court such as Circuit
Judges Ikuta, Bea, Schroeder and McKeown, still has the power to
destroy people’s careers, as he demonstrated with his former
daughter-in-law. See Decl 137.

V.

ANALYSIS OF DISQUALIFICATION
Disqualification of the following judges is required because
- 17-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 18 of 146
N19

they have been publicly identified as friends of Judge Kozinski or
were his clerks: Schroder, O’Scannlain, McKeown, Paez, Fletcher,
Bybee, Bea, Ikuta and Watford. Decl. ^39.
Disqualification of the following Circuit Judges is required as
they served on the Judicial Council from 1999 to date, and were
aware (or a reasonable person would conclude they were aware) of
Judge Kozinski’s pornography issues, and later, sexual
harassment, and either did nothing or actively refused to
authorize investigations. Thomas, Berzon, Wallace, Schroeder,
Canby, Kleinfeld, Tashima, Graber, McKeown, Fletcher, Fisher,
Gould Paez, Rawlinson, Clifton, Bybee, Callahan, M. D. Smith,
N.R. Smith, Murguia, and Christen. Decl.140.
Disqualification of the following judges is required because
they had chambers in Pasadena and had been informed (or a
reasonable person would believe they had to have been informed)
by their clerks of the pornography distribution that Kozinski
engaged in within the Court. Goodwin, Nelson, Fernandez,
Tashima, Wardlaw, Fisher, Paez, Ikuta, Nguyen and Watford.

- 18-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 19 of 146
N20

Decl.^41.
Disqualification of the following judges is required because
they were directly involved in retaliation against myself or Leslie
Hakala and in covering up Kozinski’s misconduct after my first
judicial misconduct complaint. Thomas, Schroeder, Berzon, Gould,
McKeown, Tallman, and Rawlinson. Decl.\42.
Disqualification of the following judges is required because
they were subjects of valid judicial misconduct complaints which
were wrongfully dismissed in order to cover up the full extent of
Judge Kozinski’s misconduct. Thomas, Berzon, Schroeder,
Fernandez, Graber, McKeown, Fletcher, Fisher, Tallman and
Rawlinson. Decl.T|43.
The following sui generis grounds for disqualification are as
follows: As to Circuit Judge McKeown, she was the subject of
direct criticism by myself and Mr. Mecham in the production of the
inadequate working group rule revisions. Judge Tallman because
of his personal relationship with myself and my family. Decl.t44.
As discussed above, Judge Nguyen served on the Los Angeles

- 19-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 20 of 146
N21

County Superior Court and had some kind of professional and
possibly personal relationship with Defendant Bennett. A chart is
attached at the end of the declaration to assist in figuring out the
specific reasons for disqualification.
V.

DISCLOSURE IS REQUIRED FOR THOSE CIRCUIT
JUDGES FOR WHICH DISQUALIFICATION IS NOT
REQUESTED.
Sanai has not identified reasons to disqualify Circuit Judges

Farris, Leavey, Trott, Hawkins, Silverman, Owens, Friedland, R.D.
Nelson, Miller, Bade, Bress, Hunsaker or Bennett; however, Circuit
Judge Bennett must disclose if he is related to Frederick Bennett.
Even if a judge agrees to recuse, disclosure is still required, both in the
public interest and for purposes of correctly identifying the proper
subjects for subpoenas should discovery be necessary down the line.
Other circuit have recognized a duty to disclose on the record
information which the parties or lawyers might consider relevant to the
question of judicial disqualification.
We believe instead that litigants (and, of course, their
attorneys) should assume the impartiality of the presiding
judge, rather than pore through the judge’s private affairs
and financial matters. Further, judges have an ethical duty
-20-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 21 of 146
N22

to “disclose on the record information which the judge
believes the parties or their lawyers might consider
relevant to the question of disqualification.” Porter v.
Singletary, 49 F.3d 1483, 1489 (11th Cir. 1995). . . . [The
judge] possibly did not consider the matter sufficiently
relevant to merit disclosure, but his non-disclosure did not
vest in [the parties] a duty to investigate him.
Am. Textile Mfrs. Inst., Inc. v. Limited, Inc., 190 F.3d 729, 741 (6th Cir.
1999).
The obligation to uncover conflicts and disclose them is on the
jurist. Ceats, Inc. v. Continental Airlines, Inc., 755 F.3d 1356 (Fed. Cir.
2014) (magistrate judge has duty to disclose relationship with law firm
under obligations analogous to 28 U.S. §455). This includes an
obligation to disclose matters in the public record. Listecki v. Official
Comm, of Unsecured Creditors, 780 F.3d 731, 750-1 (7th Cir. 2015).
VI.

CONCLUSION.
The circuit judges should either recuse or provide the disclosures

requested in Section I above. There are no grounds for refusing to do so,
and the Respondents have not in their recently filed briefs articulated
any arguments that the Ninth Circuit law is or should be different.
motions.

Dated: December 2, 2019,
By:/s Cyrus Sanai
Appellant
-21 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 22 of 146
N23

DECLARATION OF CYRUS SANAI

1.

I am an attorney admitted in California and to this Court. I am

the Appellant in this lawsuit. The following matters are from personal
knowledge or are made based on information disclosed to me by persons
with personal knowledge, including L. Ralph Mecham and federal court
clerks and employees who have spoken to me.
2.

The Ninth Circuit was aware as early as 1998 that it had a

significant and ever growing problem involving employees of the federal
judiciary using government-owned computers to download pornography.
A true and correct copy of G. Walters, Memorandum of Circuit
Executive, April 23, 1998, is attached hereto as Exhibit 1. The heaviest
user of pornography for browsing purposes was Circuit Judge Alex
Kozinski. When the United States Administrative Office of the Courts,
and the former circuit executive Greg Walters, proposed firewalls and
blocking software, Kozinski opposed it. The Judicial Conference took
responsibility for this program and implemented a monitoring system
that showed significant and increasing downloading of music and video

-22-

Case: 19-55429,12/02/2019, ID: 11516652, DktEntry: 19, Page 23 of 146
N24

files, some of which the late Judge Edwin Nelson believed included child
pornography.
3.

In 2001, the monitoring system was disabled unilaterally in San

Francisco. Who did this is a matter of dispute. L. Ralph Mecham told
me, and publicly accused Judge Kozinski, of taking this action
personally and suggests that this constituted criminal activity. A true
and correct copy of his accusation is attached hereto as Exhibit 2. The
late Judge Nelson ascribed it to the Ninth Circuit’s executive committee
acting unilaterally. Recently Judge Sidney Thomas claimed in an
article that the entire Ninth Circuit Judicial Council unanimously
approved the action. Whatever the case, it appears clear that Judge
Kozinski was the moving force behind this action. While I had no
personal knowledge of the circumstances behind the disabling of this
software, Mr. Mecham’s direct knowledge of this issue suggests that he
is telling the truth. Even if the Ninth Circuit’s Judicial Council or
Executive Committee did approve what Judge Kozinski did, it is
undisputed that the 11th Circuit and 10th Circuit had no idea this was
being done; more important, if the motivation of the action was to allow

-23 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 24 of 146
N25

de facto unfettered access to pornography by crippling the monitoring
system, then the action was wrongful no matter how many judges
approved it.
4.

Kozinski was losing the war, and directly attacked Mecham in

print in the Wall Street Journal. See A. Kozinski, Privacy on Trial,
Wall Street Journal, September 21, 2001, a true and correct copy of
which is attached hereto as Exhibit 3. In that article, Judge Kozinski
represented to the world the following:
The policy Judge Nelson seeks to defend as benign
and innocuous would radically transform how the federal
courts operate. At the heart of the policy is a warning-very
much like that given to federal prisoners-that every
employee must surrender privacy as a condition of using
common office equipment. Like prisoners, judicial
employees must acknowledge that, by using this
equipment, their “consent to monitoring and recording is
implied with or without cause.” Judicial opinions,
memoranda to colleagues, phone calls to your proctologist,
faxes to your bank, e-mails to your law clerks, prescriptions
you fill online-you must agree that bureaucrats are entitled
to monitor and record them all.
This is not how the federal judiciary conducts its
business. For us, confidentiality is inviolable. No one
else-not even a higher court-has access to internal case
communications, drafts or votes. Like most judges, I had
assumed that keeping case deliberations confidential was a
bedrock principle of our judicial system. But under the
proposed policy, every federal judge will have to agree that
-24-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 25 of 146
N26

court communications can be monitored and recorded, if
some court administrator thinks he has a good enough
reason for doing so.
Another one of our bedrock principles has been trust
in our employees. I take pride in saying that we have the
finest work force of any organization in the country; our
employees show loyalty and dedication seldom seen in
private enterprise, much less in a government agency. It is
with their help-and only because of their help-that we are
able to keep abreast of crushing caseloads that at times
threaten to overwhelm us. But loyalty and dedication wilt
in the face of mistrust. The proposed policy tells our 30,000
dedicated employees that we trust them so little that we
must monitor all their communications just to make sure
they are not wasting their work day cruising the Internet.
How did we get to the point of even considering such a
draconian policy? Is there evidence that judicial employees
massively abuse Internet access? Judge Nelson’s memo
suggests there is, but if you read the fine print you will see
that this is not the case.
Even accepting the dubious worst-case statistics, only
about 3% to 7% of Internet traffic is non-work related.

5.

Kozinski’s statements were misleading, and the Judicial Council

knew it. The problem that the Ninth Ciruit was facing was not
pornography viewed by employees on their own, it was Kozinski’s own
bizarre sexual fetishes. However, none of the Judicial Council at the
time stepped forward to correct Judge Kozinksi’s false statements.
6.

While Kozinski succeeded in keeping open access to pornography,

-25 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 26 of 146
N27

he soon realized that there was no way to stop internal tracking of his
access to porngraphy. Kozinski utilized pornography for three purposes.
First, his sexual titillation. Second, he enjoyed using it as a tool to
harass women. Third it was a way of testing women’s limits to his
sexual approaches.
7.

From at least 1998, the Ninth Circuit Judicial Council was aware,

from information provided to it by Greg Walters, that Kozinski was the
heaviest user of pornography. In addition, his close friends on the
bench, in particular Judges Reinhardt and Ikuta, were aware of it and
had watched it with him. All of Judge Kozinski’s clerks had been made
to watch the pornography, and Kozinski had invited, or in some cases,
as a “joke”, compelled other clerks from other chambers in Pasadena to
watch pornography. All of the Circuit Judges who had chambers in
Pasadena were aware from being informed by their clerks of Judge
Kozinksi’s behavior in this regard. In addition, beginning in that time
period, professors at elite law schools began receiving feedback from
clerks and externs about Kozinski’s predilections.
8.

After 2001, Judge Kozinski, realizing that his pornography

-26-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 27 of 146
N28

viewing would be easily tracked by system administrators, decided on a
new mechanism for viewing and distributing pornography. He set up a
home server and placed his favorite, curated pornography and other
materials on it, along with his public writings and other material he
wanted to distribute outside the Court email system. This server, set
up around 2002, made it impossible for the internet service monitoring
system to determine what it was that Kozinski was accessing on his
site, since all that would be reported would be accesses to Kozinski’s
website.
9.

In 2005 I submitted an opinion piece to The Recorder of San

Francisco concerning the ongoing controversy over citation of
unpublished opinions.1 I addressed a matter of great public interest
that was about to be decided by the Judicial Conference, then-proposed
(and now adopted) Federal Rule of Appellate Procedure 32.1. Judge
Kozinski s testimony to Congress on this subject was cited by me as
representing the view of those opposing citation of unpublished
opinions, and Howard Bashman’s commentary was quoted as
representative of the side favoring citation. I also urged the Court to

-27 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 28 of 146
N29

grant more rehearings en banc to settle perceived or actual conflicts in
Ninth Circuit authority, starting with the conflicts surrounding the
Court’s Rooker-Feldman precedent.
10.

It was while researching Judge Kozinski’s views on the subject of

citation of unpublished appellate dispositions that I first came across
alex.kozinski.com, specifically the directory alex.kozinski.com/articles/.
There were numerous links discoverable by Google to articles in this
directory, some of which had clearly been supplied by Judge Kozinski
himself.
11.

Four days after my article was published, the Judicial Conference

decided the issue in favor of permitting citations. Judge Kozinski was
quoted condemning this move by the Judicial Conference, and
expressing his hope that the Supreme Court would reject it.2

12.

Two days later, Judge Kozinski published his response to my

article in The Recorder? Judge Kozinski laid out a response to the

1 C. Sanai, Taking the Kozinski Challenge, The Recorder, September 16, 2005
2 Tony Mauro, Cites to Unpublished Opinions Ok’d, Legal Times, September 21,
2005
3 Alex Kozinski, Kozinski Strikes Back, The Recorder, September 23, 2005, a true
and correct copy of which is attached as Exhibit 4.
-28-

. Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 29 of 146
N30

arguments in the pending petition and a novel analysis of the Ninth
Circuit’s past precedent concerning the Rooker-Feldman doctrine..
Judge Kozinski’s article did not address the primary subject of my
article, which is the citation policy of the Ninth Circuit. It ignored
mydiscussion of the debate between the majority and dissent over what
constitutes binding precedent in the Ninth Circuit.4 Instead, Judge
Kozinski focused the first part of his article solely on refuting my
contentions that there is a severe conflict in the Ninth Circuit’s
authority concerning the Rooker-Feldman doctrine. He began the
second part of his article as follows:

Despite his colorful language, Mr. Sanai’s article raises no
legitimate question about whether the Ninth Circuit has
been derelict in following circuit or Supreme Court
precedent. But the article does raise serious issues of a
different sort. Mr. Sanai’s article urges us to “grant en banc
rehearing of the next decision, published or unpublished,
which asks the court to resolve the split among H.C.,
Napolitano and Mothershed.” A petition for en banc
rehearing raising this very issue crossed my desk just as Mr.
Sanai’s article appeared in print. The name of the case?
Sanai v. Sanai. A mere coincidence of names? Not hardly.
The petition, signed by Mr. Sanai, cites the same cases and
makes the same arguments as his article — including the
4 See Barapind v. Enomoto, 400 F.3d 740, 751 fn. 8 (9th Cir. 2005)(en banc)
-29-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 30 of 146
N31

reference to “Catch-22.”
Kozinski Strikes Back, supra.
13.

Judge Kozinski placed case-related documents on his personal

website, www.alex.kozinski.com, and had the web version of his article
link to the .pdf file of the selection of these documents on his website.
Subsequently, Judge Kozinski’s wife revealed that Judge Kozinski’s
actions was motivated not just be the Sanai litigation, but also by the
exceptionally rare removal for misconduct of a well-connected Los
Angeles County Superior Court Judge from a completely separate case,
Sanai v. Saltz.5

14.

I filed a judicial misconduct complaint against Judge Kozinski in

October of 2005. The order concerning the complaint was issued on
December 19, 2006, more than 14 months later.6 It terminated the
complaint on the grounds (a) that corrective action had been taken as to
Judge Kozinski’s publication in the Recorder, and (b) there was no
evidence of any website controlled by Judge Kozinski which held such

5 See Letter from Judge Kozinski’s wife, Marci Tiffany,
patterico.com/2008/06/16/alex-kozinskis-wife-speaks-out.
6 In Re Complaint ofJudicial Misconduct (Kozinski), No. 05-89098 (2006)
-30-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 31 of 146
N32

materials.

15.

A key fact in the complaint was that Judge Kozinski had scanned

in documents from the record of the case, and linked the documents to
the on-line versions of his article at the website “law.com”. Various .pdf
scans were placed on alex.kozinski.com.7

16.

The Recorder and law.com site makes its web-based articles

available for a period of one year, then erases them. Accordingly, the
Kozinski article and the link to the .pdf files he had published are no
longer accessible on the site. Judge Schroeder wrote that her limited
inquiry “found no posting of complainant’s case-related information on
any website maintained by the judge”, a finding she could only have
made without fear of immediate contradiction after the article was

7 However, though the evidence of Judge Kozinski’s publication of case-related
materials is no longer on the law.com site, it still available on the well-known blog
How Appealing, which is financed by the law.com site but run separately by
Howard Bashman. The online version of the article is found at
http://pda-appellateblog.blogspot.com/2005 09 01 pda-appellateblog archive.htm
1. The on-line version of the article has a link, “read the pdf’. This link points to
the link /alex.kozinski.com/judge.thibodeau.pdf. The site alex.kozinski.com itself
has been rendered inaccessible; the “How Appealing” link is a proxy server
-31 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 32 of 146
N33

erased on the law.com site.

17.

Judge Schroeder’s delay of more than one year caused the loss of

this evidence. As the chief circuit judge at the time, Judge Schroeder
was charged under the Judicial Discipline Rules then in effect with
evaluating a complaint and dismissing it or finding it is moot and
concluding the proceeding pursuant to Section 352(b) of Title 28, or
appointing a special committee to investigate the charges pursuant to
Section 353 thereof. In particular Section 352(a) of Title 28 of the
United States Code states that the “chief shall expeditiously review any
complaint....”

18.

Judge Schroeder made the explicit factual finding of “no posting of

complainant’s case-related information on any website maintained by
the judge.” This finding of fact is contrary to the truth. The online
version of Judge Kozinski’s article on the Recorder’s website, “law.com”
included a link to the site alex.kozinski.com The link was active when
Complainant filed the complaint, and at least a month thereafter.
snapshot that is holding an image of the original link.
-32-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 33 of 146
N34

Judge Schroeder’s delay resulted in the elimination of that article from
the law.com site proper, but not from the related but
separately-managed “How Appealing” site.

19.

Schroeder and the appellate members of the Judicial Council at

the time were aware that Kozinski had shifted his pornography viewing
to his server.

20.

Judge Schroeder took these actions to give Kozinski time to take

his website off-line and scrub the contents. Schroeder was aware from
he communications with Kozinski about my complaint that he needed
time for most of the evidence to disappear, which she willingly gave
him.

21.

I filed a petition to review Judge Schroeder’s order, which was

denied by the Judicial Council with its form order.

22.

At some time near the issuance of Judge Schroeder’s order in

-33 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 34 of 146
N35

2006, Judge Kozinski took down the website alex.kozinski.com.
Sometime in 2007, Judge Kozinski concluded that it was safe to
reactivate the alex.kozinski.com website.

23.

Judge Kozinski therefore brought the site back on-line and began

distributing links to the portion of the site which includes his articles,
including a .pdf scan of the paper version of the “Kozinski Strikes Back”
article. (The paper version differs from the on-line version in one
important respect—the online version included a hyperlink to case
materials posted by Judge Kozinski on
alex.kozinski.com/judgethibodeau, which materials have either been
moved or removed, while the paper version obviously had no such link).

24.

I filed a second judicial misconduct complaint in November of 2007

regarding Judge Kozinski’s redistribution of “Kozinski Strikes Back”.
Judge Kozinski assigned the matter to Judge Schroeder, who, true to
form, sat on it.

-34-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 35 of 146
N36

25.

The more I thought about the treatment of Judge Kozinski’s

alex.kozinski.com site, the more puzzled I became. Why did Judge
Schroeder pretend the site did not exist? Why did Judge Kozinski take
the site down, then put it back up?

26.

On the night before Christmas Eve, after putting my children to

sleep with tales of the excitement of the next day, I decided to find out
what Judge Kozinski might be distributing via alex.kozinski.com
website, so he entered “alex.kozinski.com” into the Google search
engine.

27.

I had found the reason Judge Kozinski and the Ninth Circuit

Judicial Council refused to acknowledge the existence of the
alex.kozinski.com site, I passed the information to John Roemer of the
Daily Journal. His editors killed the story, but Terry Carter of the ABA
Journal began working on it. When I read the article about Judge
Kozinski presiding over the Ira Isaacs obscenity trial, I tipped the Los
Angeles Times. The Los Angeles Times reporter Scott Glover

-35 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 36 of 146
N37

independently accessed the site and apparently found files and
documents that had been placed in the directory after I had done his
downloading and thus saw documents that Complainant never saw.
Judge Kozinski recused himself from the Ira Isaacs trial, leading to an
ongoing battle over whether double jeopardy applied.

28.

When the Los Angelest Times broke the story, Kozinski filed a

misconduct complaint against himself. Justice Roberts issues an order
transferring that complaint, and any future complaints releated to the
same events, to the Third Circuit.

29.

I filed a complaint with the Ninth Circuit, but because I had

alleged additional facts pointing out what Judge Kozinski did with the
pornography—distributing in his chambers—the Judicial Council
violated Justice Roberts’ order and stayed my complaints by order of
August 10, 2008 signed by Circuit Judges Thompson, Thomas and
McKeown. For unknown reasons Judges Graber and Berzon did not
participate, but they did not recuse either.

-36-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 38 of 146
N39

32.

The initial entreaties to the bar were rejected, but the Bar’s

then-new Chief Trial Counsel, Jayne Kim, decided to go forward (she
was later forced to resign after she and her mentor at the bar had a
falling out.).

33.

The orders dismissing all but one of the charges are attached as

Exhibits 8 and 9. As set forth therein, the State Bar Court judge wrote

that:
In this count the State Bar alleges that between
October 2008 and September 2010,
Respondent “filed and maintained formal judicial
complaints with the Ninth Circuit Judicial
Council against approximately 19 federal judges, when
such complaint were frivolous and made
for improper reasons . . . . “ It alleges that the filing of
these complaints constituted acts of moral
turpitude.
In his motion, Respondent argues that the evidence
received by this court is insufficient to
establish clear and convincing evidence to support this
count.
The State Bar did not put in evidence the complaints
actually filed by Respondent against
the federal judges. In response to this court’s inquiry, it
was informed by the State Bar that it was
unable to do so due to the Ninth Circuit’s refusal to
-38-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 39 of 146
N40

provide those complaints to the State Bar.
Being unable even to read the complaints filed by
Respondent, this court cannot conclude
that any ofthose complaints were filed frivolously or
constituted an act of moral turpitude. To the
extent that this court is aware of the content of one of
those complaints, the record shows that it
was apparently justified and resulted in a formal
apology by the judge and a self-administered
recusal by him from the pending matter involving
Respondent.
Exhibit 8 at 4.

34.

In a subsequent order dismissing more charges, the State Bar

Court judge wrote as follows:
In 2010, a complaint was made to the State Bar by the
Judicial Council of the Ninth Circuit regarding Respondent’s
purportedly frivolous complaints to it about a number of
federal judges. This complaint by the Judicial Council of the
Ninth Circuit subsequently formed the basis for Count 6 of
the pending NDC. When the complaint was received, the
State Bar opened case No. 10-0-09221 (the TO case) and
contacted Respondent about the matter. Then, after learning
that the Judicial Council of the Ninth Circuit would not
release to the State Bar the actual complaints filed by
Respondent against the federal judges, the State Bar decided
to issue a warning letter to Respondent in November 2011,
and closed the case.7 (Ex. 1040.) That decision was explained,
both orally and in writing, by the State Bar to Cathy
Catterson, a representative of the Judicial Council ofthe
Ninth Circuit, on November 8, 2011. (Ex. 1041). Thereafter,
she complained of the State Bar’s decision in a letter, dated
January 19, 2012,
-39-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 40 of 146
N41

directed to the then Acting Chief Trial Counsel of the State
Bar.
7 The State Bar had previously notified the Judicial Council
of the Ninth Circuit in May 2011 that it would be difficult to
pursue any complaint that Respondent’s complaints against
various federal appellate justices were frivolous without
having access to the actual underlying
complaints. As stated by the State Bar at that time: “As you
may be aware, to prevail in State Bar disciplinary
proceedings, our office must prove by clear and convincing
evidence that an attorney committed willful misconduct.
Although the Judicial Council’s order of September 30 2010,
will certainly be a useful piece of evidence to establish that
Mr. Sanai engaged in misconduct by filing frivolous
misconduct complaints, it would be insufficient standing
alone to prove by clear and convincing evidence that Mr.
Sanai engaged in misconduct warranting discipline,
especially smce the order does not mclude any specific
fmdings of fact but rather includes only the conclusion that
Mr. Sanai abused the misconduct complaint procedure.” (Ex.
1039, p. 2.)
8Given the State Bar’s inability to provide this court with a
copy of the actual complaints filed by Respondent against the
federal judges, this court - as accurately predicted by the
State Bar in May 2011 -eventually dismissed that count at
trial due to the State Bar’s failure to provide clear
and convincing evidence that those complaints were
frivolous. The evidence was not sufficient even to enable this
court to identify all of the judges against whom complaints
had been filed.
35.

The last charge will require me to issue subponeas to

Kozinski, Catterson, and the Judicial Council. One of my defense
-40-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 41 of 146
N42

theories focuses on the documented link between Kozinski’s
retaliatory conduct and Sanai v. Saltz, which was first revealed in
a post by Kozinski’s then-wife, Marcie Tiffany. Another rests on
the prosecutorial misconduct of bringing the charge urged by the
Judicial Council when the Office of Chief Trial Counsel predicted
it would fail without evidence from the Judicial Council. The trial
is set for Februarhy of 2020. The trial counsel stipulated last
month on the record that the charges that were dismissed will not
be subject of an appeal. Accordingly, the dismissals are final.
Based on the finality, and the need to obtain the Ninth Circuit’s
records in the misconduct proceedings, I will be filing a lawsuit in
the Northern District of California against the Judicial Council,
Judge Kozinski, Ms. Catterson and others for injunctive relief,
declaratory relief, and as against Kozinski and Catterson,
damages.

36.

The meritoriousness of my misconduct complaints was

confirmed a decade aftere I discovered Kozinski’s pornography

-41 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 42 of 146
N43

when a Washington Post national security reporter, having heard
rumours about Judge Kozinski, contacted me and others and
published a blockbuster pair of articles showing that Kozinski had
been openly sexually harassming his clerks and third parties for
years, with this pornography-laded server exposed by Sanai 13
years previously a major tool. This exposure had four major
consequences.

37.

Judge Kozinski’s former clerk and daughter in law, Leslie

Hakala, was the subject of direct retaliation by Kozinski after he
resigned through Cicuit Judge Reinhardt and Ikuta. Ms. Hakala
was married to Judge Kozinski’s eldest son Yale, and she was a
long-time employee of the SEC in Los Angeles. Approximately
four years ago she obtained a coveted partnership at K&L Gates;
approximately three years ago her marriage fell apart, and she
filed for divorce from Yale Kozinski. The divorce was extremely
?

bitter, as Ms. Hakala was the breadwinner. When the
Washington Post articles came out last November, her counsel

-42 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 43 of 146
N44

sought to subpoena Judge Kozinski to obtain information about
his treatment of Ms. Hakala in the context of the legal battles.
The younger Kozinski then acceded to Ms. Hakala’s demands and
the divorce was settled. After Hakala played the #metoo card and
the divorce was finalized, several judges with personal
relationship with attorneys at K&L Gates, including Judge
Kozinski’s close friend, the late Stephen Reinhardt, and Kozinski’s

m

former clerk Sandra Ikuta, independently told K&L Gates
partners that Ms. Hakala’s continued presence at the firm would
injure its representation of its clients in federal court. Ms. Hakala
was then fired.

38.

Third, the federal courts assembled a working group that

proposed changes to the federal ethics and judicial misconduct
proceeding rules. Though these rules were heavily criticized,
including by the undersigned counsel and Mr. Mecham, they were
passed.

-43 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 44 of 146
N45

39.

Disqualification of the following judges is required because

they have been publicly identified as friends of Judge Kozinski or
were his clerks: Schroder, O’Scannlain, McKeown, Paez, Fletcher,
Bybee, Bea, Ikuta and Watford.

40.

Disqualification of the following Circuit Judges is required as

they served on the Judicial Council from 1999 to date, and were
aware (or a reasonably person would conclude they were aware) of
Judge Kozinski’s pornography issues, and later, sexual
harassment, and either did nothing or actively refused to
authorize investigations. Thomas, Wallace, Schroeder, Canby,
Kleinfeld, Tashima, Graber, McKeown, Fletcher, Fisher, Gould
Paez, Rawlinson, Clifton, Bybee, Callahan, M. D. Smith, N.R.
Smith, Murguia, and Christen. Some of all of these judges will be
defendants in the lawsuit I will be filing discussed in paragraph
35, supra.

41.

Disqualification of the following judges is required because

-44-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 45 of 146
N46

according to the Court’s website they had chambers in Pasadena
and had been informed (or a reasonable person would believe they
had to have been informed) by their clerks of the pornography
distribution that Kozinski engaged in within the Court. Goodwin,
Nelson, Fernandez, Tashima, Wardlaw, Fisher, Paez, Ikuta,
>

Nguyen and Watford.

42.

Disqualification of the following judges is required because

they were directly involved in retaliation against myself or Leslie
Hakala and in covering up Kozinski’s misconduct after my first
complaint as discussed above: Thomas, Schroeder, McKeown,
Gould, Berzon, Tallman, and Rawlinson.

43.

Disqualification of the following judges is required because

they were subjects of my valid judicial misconduct complaints
which were wrongfully dismissed in order to cover up the full
extent of Judge Kozinski’s misconduct. Thomas, Schroeder,
Fernandez, Graber, McKeown, Fletcher, Fisher, Tallman and

-45 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 46 of 146
N47

Rawlinson.

44.

The following specific grounds for disqualification are as

follows: (a) As to Circuit Judge McKeown, she was the subject of
direct criticism by myself and Mr. Mecham in the production of the
inadequate working group rule revisions; (b) as to Judge Tallman
because of his personal relationship with myself and my family;
and (c) as to Circuit Judge Nugyen, she was a Los Angeles County
Superior Court judge from 2002 to 2009 during the time period in
which Bennett represented and advised all Superior Judges, and
therefore a reasonable person might doubt her impartiality in
respect of any case where Bennett is a witness.

45.

The following chart summarizes the reasons for

disqualification:

-46-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 47 of 146
N48

No.

Circuit
Judge

Sidney R.
Thomas

1.
2.

Alfred T.
Goodwin

3.

J. Clifford
Wallace

j

j
i

Friend
and/or
Clerk of
Kozinski

On
Judicial
Council
from
1999 to
date

Chambers
in
Pasadena
with
Kozinski

X

Participated
in Retaliation
or Cover-up

Subject of
Misconduct
Complaint

X

X

Other
Reasons

i

X
!
!

1

S

X

i

!

4. j
I

Mary M.
Schroeder

j
j

5. j
|

Jerome
Farris

'

6. !

Dorothy W.
Nelson

7. I
j
!
I

X

X

X

\

X

I
i

1

X
i

William C.
Canby, Jr.

X

X

8. | Diarmuid F.
j O’Scannlain
1

9. |
!

Edward
Leavy

j

10. ! Stephen S.
Trott

|

{

11.1 Ferdinand F.
: Fernandez

f

12. '

j

!

:
I
i

Andrew J.
Kleinfeld

13. j Michael Daly
Flawkins
;
......
14. ; A. Wallace
Tashima
!
15.
s

!
!

X
I

X

____1.

i
S

X
!

j
i

i

i

!
i
!

i

X

X

i

i

I

;
i

Barry G.
Silverman

-47-

!
!
i

i

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 48 of 146
N49

!

No.

Circuit
Judge

16.

Susan P.
Graber

Friend
and/or
Clerk of
Kozinski

On
Judicial
Council
from
1999 to
date

Chambers
in
Pasadena
with
Kozinski

Participated
in Retaliation
or Cover-up

Subject of i
Misconduct
Complaint

Other
Reasons

T

17.
j

| M. Margaret
! McKeown

X

X

20. | Raymond C.
I
Fisher
Ronald M.
Gould

22.

Richard A.
Paez

23. !

Marsha S.

i

I

i

X

X

William A.
Fletcher

21.

X

X

X

18. | Kim McLane
Wardlaw
19. !
j

j

X

X

X

X

X

X

X

X

X
j

X

X

X

X

X

X

!
S

Berzon

f

l

|
i

24. |
I

Richard C.
Tallman

25. I
i

Johnnie B.
Rawlinson

X

26.

Richard R.
Clifton

X

!
!
:

27. |

X

X

X

!
|

|
JayS.
Bybee

X

Carlos T.
Bea

X

l

X

28. | Consuelo M.
I Callahan
29. j

X

i

!
|
l

X

i

I

.1.
X

i

!

-48-

!

!

J

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 49 of 146
N50

Friend
and/or
Clerk of
Kozinski

On
Judicial
Council
from
1999 to
date

No.

Circuit
Judge

30.

Milan D.
Smith, Jr.

31.

Sandra S.
Ikuta

32.X

N. Randy
Smith

X

I 33.X

Mary H.
Murguia

X

j 34.X j

Morgan
Christen

X

t

!
j
j

35. j
j

i

36. |

Chambers
in
Pasadena
with
Kozinski

Participated
Subject of
in Retaliation ] Misconduct
or Cover-up j Complaint

Other
Reasons

X

X

Jacqueline
H. Nguyen

X

X

X

X
4__

Paul J.
Watford

X

X
!

j.

j
I

37. j
!

Andrew D.
Hurwitz

—r,~
John B.
38.
Owens
39. ;
i
i

j

!
40. )

!

Michelle T.
Friedland

i

Mark J.
Bennett

i

i
41.

?
!
j (unknown
j if related to j
j Bennett) j
I

Ryan D.
Nelson

;

i‘

42.
j
!

43. ]
.

i

Eric D. Miller
i

Bridget S.
Bade

-49-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 50 of 146
N51

T

No.

Circuit
Judge

44.

Daniel Bress

45

Danielle
Hunsaker

Friend
and/or
Clerk of
Kozinski

On
Judicial
Council
from
1999 to
date

Chambers
in
Pasadena
with
Kozinski

Participated
in Retaliation
or Cover-up

Subject of
Misconduct
Complaint

Other
Reasons

I declare, under penalty of perjury of the law of the United States that
the foregoing statements of fact are true and correct.
Dated as of December 2, 2019 in Beverly Hills, California

Is/ Cyrus Sanai

-50-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 51 of 146
N52

CERTIFICATE OF COMPLIANCE

I certify that the foregoing motion is double-spaced (except
for quotations in excess of 49 words from legal authorities and the
record) and utilizes a proportionately spaced 14-point typeface. The
motion (excluding the Declaration, Exhibits, Cover, and Certificate of
Compliance) comprises a total of 20 pages.
Dated: December 2, 2019

By:/s Cyrus Sanai
Appellant

- 51 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 52 of 146
N53

EXHIBITS

- 52 -

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 53 of 146
N54

EXHIBIT 1

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 54 of 146
N55

Office of the Circuit Executive
UNITED STATES COURTS FOR THE NINTH CIRCUIT

95 Seventh StreetGregory B. Walters, Circuit Executive
Post Office Box 193939Phone: (415) 556-6100
San Francisco, CA 94119-3939Fax: (415) 556-6179

to:

Judicial Council
/

from:
date:
re:

Greg Walters, Circuit Executive
April 23, 1998
Internet Access to Pornographic Material

Judge Kozinski’s memo (attached) raises a question about the management of the Internet
Project that requires your attention. In a nutshell, the question before you is whether we should
continue to block access to pornographic sites on the Internet for the Judges and Staff of the
Ninth Circuit.
Background of the Internet Protect
At its September 1997 session, the U. S. Judicial Conference approved a judiciary-wide policy
regarding access to the Internet from computers connected to the DCN. The policy requires
access to the Internet be provided only through national gateway connections approved by the
Administrative Office pursuant to procedures adopted by the Committee on Automation and
Technology of the USJC. (See IRM bulletin 97-19, attached)
The Office of the Circuit Executive for the Ninth Circuit maintains one of these three national
Internet gateways from the judiciary's internal data communications network (DCN). The
Administrative Office and the Fifth Circuit maintain the other two gateways. Our office provides
Internet services to approximately 10,000 users in the Eight, Ninth and Tenth circuits.
\

The determination of the location of the gateways was based on considerations of geography as
well as personnel expertise and infrastructure at the sites.
The Internet access project was established for three purposes:
t

1. To provide Internet access to members of the Judiciary,
2. To provide in-bound and out-bound Internet e-mail services,

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 55 of 146
N56

Judicial Council
Page 2
April 23, 1998
3. To provide website hosting services for court units and assist in development and
implementation of such sites.
The decision to limit the number of gateways to three was made to preserve the integrity of Data
Communications Network (DCN). The security of the entire judiciary’s network relies on
properly maintained firewalls at the gateways. The fewer access points, the better the security.
Rather than allowing each court unit in the United Stales to provide independent access to the
Internet, the USJC Committee on Automation and Technology determined that all Internet
traffic should flow through one of these three sites thus dramatically reducing the potential for
security intrusions. A firewall is usually a computer and software that sits between an internal
network (the DCN) and the Internet, monitors all traffic and and only allows authorized traffic to
traverse the firewall.
After a thorough review of the available options, the three gateways agreed upon standard
hardware and software configurations. The products that were put in place were Firewall-1 and
WebSense. Firewall-1 is the most widely used firewall product It offers high-level security
without decreasing the performance of the network- Firewall-1 logs every Internet transaction,
both in-bound and out-bound, for security purposes. The logs are highly detailed, including date,
time, Internet address of user, site accessed, and protocol used.
WebSense is a software product that prevents users on a network from accessing web sites based
on an site-denial list. The site-denial list is created by selecting predefined categories determined
by WebSense employees. WebSense differs from many filtering products by categorizing
websites based upon an actual visit by an employee. In addition to the filtering capabilities,
WebSense also offers extensive site access reports based on firewall logs.
Currently, the 9th Circuit is the only gateway with both FirewaU-1 and WebSense mstalledand
operational. The 5th Circuit is waiting for a new server before installation of WebSense. The
AO has both installed, but has not implemented WebSense’s blocking feature. They are now
awaiting the outcome of your deliberations.
The Eight and Tenth Circuit’s were contacted and both elected to leave the blocking software
intact pending the results of your review.

Appropriate Usage Policies.
The Policy statement approved by the USJC in September called for each court to establish
responsible usage policy statements. The language of that policy is included m Information
Resources Management Bulletin (1RM 97-19) put out by the Administrative Office. The hill
Bulletin is attached. In says in part:

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 56 of 146
N57

'Judicial Council
Page 3
April 23,1998
Experience in the private sector and in other government agencies has revealedfour
principal areas ofconcern associated with uncontrolled access to the Internet for
employees: institutional embarrassment, misperception of authority, lost productivity, and
capacity demand When accessing the Internetfrom a judiciary gateway, users need to
keep in mind several points: they should use discretion and avoid accessing Internet sites
which maybe inappropriate or reflect badly on the judiciary; those not authorized to speak
on behalf oftheir units or the judiciary should avoid the appearance ofdoing so; users
should exercise judgment in the time spent on the Internet to avoid an unnecessary loss of
productivity or inappropriate stress on capacity.

The Ninth Circuit also requires that Internet usage policies be established by each court unit
executive before access is given to their users. All of the courts within the Ninth Circuit have
provided us with formal procedures with the exception of the Court of Appeals, We have been
bringing their users online with the approval of the Clerk of Court. We have not required formal
written policies by the unit executives of the Eight and Tenth circuits.
We developed and circulated a “model” usage policy for the consideration of the courts. Most of
the Court units within the Ninth Circuit adopted this policy or some variant on it. The model
policy follows:
Office ofthe Circuit Executive Model Policy:
"Policyfor the Acceptable Use of the
Public Internet Network"
June 30, 1997

Introduction: .
The following model policyfor acceptable use ofthe public Internet network is
supplied to court units so they may more easily draft a use policy that reflects
local business needs. Prior to any court supplying widespread Internet access to
employees via the Judiciary's Data Communications Network, it is strongly
suggested that they adopt this policy, or a modified version, and make it available
to all staffthat will be able to access the Internet.
Policy for the Acceptable Use Of the Public Internet Network
General Policy

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 57 of 146
N58

Judicial Council
Page 4
April 23, 1998
Use of the public Internet network accessed via computer gateways owned, or
operated on the behalf of the United States District Court for the District ofXXX
("the Court") imposes certain responsibilities and obligations on Court employees
and officials ("Users") and is subject to Court policies and local, state andfederal
laws. Acceptable use always is ethical, reflects honesty, and shows restraint in the
consumption ofshared computing resources. It demonstrates respect for
intellectual property, ownership of information, system security mechanisms, and
individual's right to freedom from harassment and unwarranted annoyance.
an

1.

2. Use of Internet services provided by the Court may be subject to monitoring
for security and/or network management reasons. Users ofthese services are
therefore advised of this potential monitoring and agree to this practice. This
monitoring may include the logging of which users access what Internet resources
"Users shouldfurther be advised that many external Internet sites also
and "sites,
their resources, and may make this information available to third
log who accesses
parties.
3 By participating in the use of Internet systems provided by the Court users
agree to be subject to and abide by this policyfor their use. Willful violation of
the principles and provisions of this policy may result in disciplinary action.
Specific Provisions
1. Users will not utilize the Internet networkfor illegal, unlawful, or unethical
purposes or to support or assist such purposes. Examples ofthis would be the
transmission ofviolent, threatening, defrauding, obscene, or unlawful materia s.
will not utilize Internet network equipment for partisan political purposes
2. Users
or commercial gain.
3. Users will not utilize the Internet systems, e-mail or messaging services to
harass, intimidate or otherwise annoy another person.
4 Users will not utilize the Internet network to disrupt other users, services or
equipment. Disruptions include, but are not limited to, distribution of unsolicited
advertising, propagation of computer viruses, and sustained high vo urn e network
traffic which substantially hinders others in their use ofthe network.
5. [Local verbiage Option A]
Users will not utilize the Internet network for private, recreational,

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 58 of 146
N59

Judicial Council
Page 5
April 23, 1998
non-public purposes.
[Local verbiage Option B]
Use of the public Internet system will be treated similarly to "local
telephone calls," and staff will keep the use of the Internet system for
personal or non-public purposes to a minimum. Users should exercise
discretion in such use, keeping in mind that such use is monitored and
traceable to the court and to the individual user.

6. Users will utilize the Internet network to access onlyfdes and data that are their
own, that are publicly available, or to which they have authorized access.
7. Users will take precautions when receiving files via the Internet to protect
Court computer systemsfrom computer viruses. Files receivedfrom the Internet
should be scannedfor viruses using court-approved virus scanning software, as
defined by Court policy.
8. Users will refrain from monopolizing systems, overloading networks with
excessive data, or otherwise disrupting the network systems for use by others.
Blocking Software.
The Administrative Office has established a policy for their own employees that prohibits any
unofficial use of the Internet They actively track the Internet activity of all of their employees
and have fired at least two employees for accessing pornographic material. An AO employee
who is on the Internet for official business and inadvertently accesses a pornographic site must
file a form explaining the event According to the AO, many of the executive branch agencies
have adopted this same “tracking” approach.
An alternative to tracking is to “block” access to selected sites. There is a variety of software
packages that accomplis this. Some of them search the web using keywords and automatically
block any site that includes an objectionable word. The WebSense software that was selected by
all three national sites uses a different approach. They have employees who review all new sites
and classify them.
WebSense serves a dual purpose. It provides the capacity to block sites based upon category and
has an add-on product that simplifies report generation from the firewall logs. The categories
that WebSense uses are determined: by a visit by a WebSense employee. This method is much
more effective than other products that use a keyword, or imbedded rating approach.
We are using WebSense to block three categories of sites: pornographic, adult, and

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 59 of 146
N60

Judicial Council
Page 6
April 23, 1998
sexuality/lifestyles. We implemented the blocking for several reasons:
1. There is no reason that a user, during the normal course of business, needs access to these
sites.
2. Visits by judicial employees to these sites could result in embarrassment to the judiciary.
All visits to websites are logged at the firewall for security purposes, but they are also logged at
the site that is visited. Marketing agencies often use these figures to determine site popularity
and advertising rates. Since every visit to a site by a user from the judiciary results in
' a
uscourts.gov name resolution in their log, this can cause potential embarrassment for the
judiciary.
3 .Potential for sexual harassment claims due to employees "posting" sexually explicit images on
their screen while viewing and/or downloading pictures from these sites. (See attached article)
Judge Kozinski's memo alerted us to an issue of which we were previously unaware: gay,
lesbian and bisexual sites are restricted by our current category restrictions. WebSense has
grouped all gay and lesbian sites into the sexuality/lifestyles category. The "pornographic"
category is only for heterosexual sex according to WebSense. Unfortunately, if we allow the
sexuality/lifestyles category, we will not only allow gay and lesbian bookstores, but also gay and
lesbian sex, bestiality, sado/masochism, fetishes, and more. We have contacted WebSense about
this unusual classification.
In the meantime, we have the ability to allow sites that are inappropriately blocked. When a user
encounters a blocked site that he or she would like access to, he or she can write or call and ask
that the blocking for that site be removed.
Considerations for The Judicial Council.
There are a variety of alternatives for you to consider. At one extreme, we could allow absolute
unfettered access to the Internet for all employees. At the other extreme, we could establish a
complete circuit-wide prohibition against personal use of the Internet similar to the policy in
place for employees of the Administrative Office. There are many alternatives between those
The software is fairly flexible and we are not overly limited by technical
extremes,
considerations.
What follows are five variants for you to consider.

If we
1. No Trnckinp/No Blocking. Allow complete access to all sites on the Internet.
the
three
circuits
would
remove our blocking software at the gateway level, all 10,000 users m
have full access to all Internet sites regardless of content. The potential for misuse and
embarrassment to the judiciary is high. It should be kept in mind that all Internet traffic would

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 60 of 146
N61

Judicial Council
Page 7
April 23, 1998
still be logged. Keeping a log at the firewall is essential for maintaining the security of the DCN.
The OCE will not scan the logs and look for inappropriate usage. Additionally it should be noted
that all of the commercial sites maintain a log of visitors for their site that can trace the visit back
to the actual machine that was used to access the site. A visit to any site from a computer
coming through this firewall will leave an electronic trail that concludes with.... uscourts.gov .
1 asked the staff to ran a list of the sites that were visited in the month before we put the blocking
software in place. As you can see from this partial listing, there is ample opportunity for
institutional embarrassment.
2
Incal Blocking. Allow complete access through the gateway, but require courts to
purchase their own “mini-firewall" to control users access. CAC District court has implemented
one of these products, BorderManager from Novell, for this purpose. The advantage of this
option is that it is highly flexible and each court unit could tailor their own policies.
Unfortunately, this is very costly software. WebSense costs between $2,500 and $10,000 per
location plus an on-going maintenance amount Each location is defined as each place with an
independent computer network. In this circuit alone we would be required to purchase and
maintain around 50 or 60 copies of the software. This would be an expensive and complex
undertaking that would diminish the security and integrity of the Data Communications Network.
It would cost a minimum of $125,000 to implement this solution in just the Ninth Circuit.
3. Full Access to Some Users. The blocking software that we are using would allow us to
offer complete access to a few users based on IP address or network segment In other words, we
could provide Judge Kozinski’s chambers with complete access and continue to block others.
This solution is possible if there are only a handful of sites that are given this level of access. If
there were more than a very few of these types of exceptions, it would quickly overwhelm our
staff and the other over local systems staff.
4
District Wide Access. A viable option is to allow each district and the Court of Appeals to
make their own determination as to whether they want to block access to these sites or not.
While it is technically possible to allow tailored access to units smaller than the entire district, it
would be an administrative nightmare to try and manage such a system. In the Ninth Circuit
alone there are 15 districts plus the Court of Appeals. Between the Eight, Ninth and Tenth
circuits there are 33 districts and Three Courts of Appeal. If we were to tailor access at the unit
level, we would be maintaining sixty unique polices in the Ninth Circuit and up to 125 or so
between the three circuits. Exercising this option at anything less than a district wide level is not
feasible with current staff due to the extreme administrative workload. The only way to
successfully implement this policy would be to receive funding from the AO for a dedicated
position.
■
5. Current Implementation. A final alternative would be to continue blocking access to
pornographic materials for all users as we currently do. In other words we would leave the

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 61 of 146
N62

Judicial Council
Page 8
April 23, 1998
blocking software in tact. If we were to pursue this approach, it would make sense to approach
WebSense to see if they could sever the relationship between the gay and lesbian sites and the
pornographic sites. This is the safest, cheapest alternative.

STAFF RECOMMENDATION
I recommend that you adopt the following policy governing access to the Internet for all
court units within the Ninth:
1. Continue to block access to pornographic sites at the firewall as the default setting.
2. Allow each district (not court unit) and the Court of Appeals to request that the blocking be
turned off for the users under their control.
The advantages of this hybrid approach are several.
Each district could elect to have access blocked at the firewall or to offered unlimited access to
their users.
Each district could elect to purchase and maintain their own software, but wouldn’t be required
to.

This system would be fairly easy to maintain at the circuit level since all decisions would have
to be made at the district-wide level. All of the court units within a district would have the same
policy at the firewall level, either blocking on or blocking off.

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 62 of 146
N63

Office of the Circuit Executive
UNITED STATES COURTS FOR THE NINTH CIRCUIT
Gregory B. Walters, Circuit Executive
Phone: (415) 556-6100
Fax: (415) 556-6179

95 Seventh Street
Post Office Box 193939
San Francisco, CA 94119-3939

to:

Hon. Proctor Hug, Chief Judge
Greg Walters, Circuit Executive

from:

Matthew Long, Assistant Circuit Executive for Automation and Technology

DATE:

April 28, 1998

re:

Adult Site Access by Judicial Employees

We have finished processing the firewall logs for the month of February. The actual dates of
from February 4 to March 3, 1998. This twenty-eight day period gives
the logs analyzed are
from the 8th, 9th, and 10th circuits in the month prior
us a sampling of Internet usage by users
to the installation of WebSense.
We used two methods to try to extract adult site accesses through our firewall. First we used
adult-oriented themes to locate domain names that corresponded to sex
a keyword search on
sites, e.g. sex, porn, adult, etc. Once we compiled a large list of names, we traced the
viewing habits of individual users who had visited these sites, This allowed us to augment our
database and produce more accurate numbers.

site would be listed in the log as 207.204.211,25 instead of ywwm.et.ia. Many adult sues
deliberately do not resolve, either to save money on name registration or to mamlam
anonymity. I believe our figures to be a good estimate, but could be as much as 10-25%
below the actual numbers.
Here are the rounded figures for Internet access through our gateway:
Total web accesses*:
Total sites accessed:
Total adult site accesses:
Total adult sites accessed:
Adult site access percentage:
Adult site percentage:

2,500,000
28,000
90,000
1,100
3.6%
3.9%

* Every time a user clicks on a link on a webpage, it counts as a web access hit. For

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 63 of 146
N64

Judge Hug
Page 2
April 28, 1998
example, if a user visited
clicked on a story link and then clicked the back
button, our log would show three web accesses and one site accessed (usatoday).
I’ve attached a partial listing of some of the adult sites accessed through our firewall. The list
contains some very graphic names, but should be a good sample of the types of sites that were
accessed We haw not verified that all of these are adult sites; therefore, there may be several on
the list that are not. The full 28-page listing is available if you need ,t for the council meeting.
Attach.

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 64 of 146
N65

Adult Sites Accessed through the Ninth Circuit Gateway
February 4 to March 3, 1998
Partial Listing
ladultvideo.com
lporn.com
69oralsex.com
adamsxxx.com
adult7.com
adultad.com
adultcentral.com
adulthosting.com
algol. cybererotica, com
allteens.com
amateurfr esh. com
amateurindex.com
amazon-cum.com
asiannudes.com
assland.com
babe, swedish-erotica.com
babes.sci.kun.nl
bestgirl.com
bigchicks.com
bitemypussy.com
blondes.nudepictures.com
butts-n-sluts, com
cam. digitalerotica. com
canadianschoolgirls.com
comfortablynude. com
ctc.sexcenterfolds.com
cubby.shaven-girls.com
cumberland.premiernet.net
cyber.playboy.com
cyberteens.www.conxion.com
electrapom.com
erotic-x.com
eroticnet.babenet.com
famousbabes.com
faraway. cybererotica, com
fetishtime.com
foot-fetish.com
freehardcorelive.com
gay. adult club s. com
gayteenboys. com
girls2die4.com
Page 1

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 65 of 146
N66

girlsinlingerie.com
girltown.com
girltown.tierranet.com
gorgeousgirls.com
hardcore, sexmonkey. com
hardcoresex.com
hot-live-sex.com
hotcunt.hotcunt.com
hotporno.com
hotsexlinks.com
hotteen.com
hotteensex.com
karasxxx.com
kristysteenpalace.com
kristysteens.com
lynx2.sexbooth.com
mail.amateurdirectory.com
mail.cum2oasis.com
mail.freebie-sex.com
naked4u.com
nude-celebs.com
nudeadultpics.com
nudeceleboutpost.com
nudeeroticsex.com
nudehollywood.com
nudes.com
one.123adult.com
orientalpussy.com
pg. pornoground. com
phils-porno-parlor. com
pics.callgirls-xxx.com
porndirectory. com
pomdog.mco.net
pomrock.com
pussybabe.com
pussyland.com
pussyteens.com
realhardcore.com
s2.nastyfetish.com
sexdragon.com
sexpictures.com
sexploitation.com
sexscape.com
sexsluts.com
sexwars.com
Page 2

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 66 of 146
N67

sexworlds.com
showgirl.net
sinflilteens.com
sixchicks.com
sluttyamateurs.com
sucksex.com
supermodels.nudepictures.com
superpics. adulthosting, com
technoteen.com
teenbutts.com
teensexworld.com
teensexx.com
teentwat.teentwat.com
teenvirgins.com
time4sex.com
traxxxl.focus.de
ultrafreexxx.com
ultrahardcore.com
universaladultpass.com
vhl.adultlinks.com
vividsex.com
vl ad. adultorigin. com
vlad2. absolutexxx. com
voiceofwomen. com
w3 purehardcore.com
west.sucksex.com
wetfetish.com
wwl voyeurweb.com
www.2adult.com
www.3sex.com
www.4adultsonly.com
www. aahsex. com
www.adult2.com
www. adultbytes. com
www.adultlink.com
www. adultphotos. com
www. adults-online. com
www.adultsights.com
www.adultswap.com
www.advancingwomen.com
www. all-americangirl. com
www.allerotica.com
www.altsex.org
www. amateur-x-pics. com
www.amateur-x.com
Page 3

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 67 of 146
N68

www.amateurexhibitionists.com
www.amateurmagazine.com
www.amateursonline.com
www.amateursonly.com
www. amateursweb. com
www.analbabes.com
www.asexycafe.com
www.asian-teens.com
www.asianxxxpics.com
www.atomicpussy.com
www.awsomebabes.com
Www.axxxess.com
www.babes4free.com
www. bigsextoy s. com
www.bisexualbabes.com
www.celebritybabes.com
www.chatgirls.com
www.clubsex.net
www.cockorama.com
www.cocktailbar.com
www.collegenudes.com
www.cruisingforsex.com
www. cumasy ou ar e. com
www.cumorahcu.com
www.cumpany.com
www.cyberpom.inter.net
www.cyberporndirectory.com
www.dailyxxx.com
www.delicious-pussy.com
www.dormgirIs.com
www.dreamgirls.com
www.erotica.co.uk
www.eroticpix.inter.net
www.eroticworld.net
www.euroflixxx.com
www.fastporn. com
www.fmegirls.com
www.free-xxx-pictures.com
www.free-xxx-porn.com
www.ffee-xxxpics.com
www.freegirlsex.com
www.gayhardcore.com
www.girl.co.jp
www.girlies.cz
www. girlsagent. com
Page 4

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 68 of 146
N69
www. girl swithgirls. com
www.groupsexdogs.com
www. hard coreclub. com
'www.hollywoodnudes.com
www.hollywoodteens.com
www.hot4sex.com
www. hottestwomen. com
www.hotwiredxxx. com
www.hotxxxteens.com
www .imengonude. com
www.intemet-xxxmodels.com
www.intersex.inter.net
www.jessicasteen.com
www.lasvegassex.com
www lensexpress. com
www.leo-xxx.com
www.littleteen.com
www.maturebabes.coni
www.naked-celebs.com
www.nastychatxom
www.nastysex.com
www.net-erotica.com
www.net2sex.com
www.onlyxxx.com
www. playgirlmag. com
Avww.playsex.com
www.porn-king.com
www.pomado.com
www.porndorm.com
www.pornet.com
AVAVW.pornexchange.com
Avww.pornocopia.net
Avww.pornojapan.com
AVAVw.pornotimes.com
Avww.pornplus.com
Avww.pornstories.com
AVAvw.pornusa.com
AVAVW.powerotic.com
Avww.private.sex.se
AVAvw.purehardcore.com
Avvvw.pussylink.com
AVAVw.pussyvision.com
Avww.realamateur.com
Avww.realsex.com
Awvw.ripvoyeur.com.hk
Page 5

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 69 of 146
N70

'www.schoolgirlz.com
www. sex-crawler, com
www.sex.se
www.sex4ya.com
www.sexcabin.com
www.sexcat.com
www.sexclubxxx.com
www.sexdv8.com
www.sexe.com
www.sexelsewhere.com
www.sexfiction.com
www.sexfmder.com
www. sexfreebies. com
www. sexgalleries. com
www.sexgalore.com
www.sexhigh.com
www.sexhungryjoes.com
www.sexinabox.com
www.sexiric.com
www.sexlink.net
www.sexodus.com
www. sexplanet. com
www. sexshopper. com
www.sexsounds.com
www.sexsource.com
www.sexswap.com
www.sextv.com
www.sexvote.com
www.sexybloomers.com
www. sexyfriends. com
www.sexyinternet.com
www.sexypics.com
www.sexysin.com
www.sexysites.com
www. showgirl. com
www. smokingpussy. com
www. smutcity. com
www. smutland. com
www.smutpix.inter.net
www.sororitypussy.com
www.spice-girls.co.uk
www.tecumseh.com
www.teen-porn-club.com
www. teenage-tarts, com
www.teenchallenge.com
Page 6

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 70 of 146
N71

www.teenhideout.com
www.teenie-sex.com
www. teennympho. com
www.teenpanties.inter.net
www.teens-n-colors.com
www.teenstar.com
www.teenstories. com
www.teeny.com
www.thesluts.com
www.totallysex.com
www.uk.playboy.com
www.ukhardcore.com
www. ultimatehardcore. com
www.voyeurplay.inter.net
www.voyeurstories.com
www.voyeurweb.com
www.xtremehardcore.com
www .xxx-18. com
www.xxx4u.net
www.xxxcat. com
www.xxxcounter.com
www.xxxman.com
www.xxxreferr al .com
www.xxxstories.com
www.xxxstufF.com
www.xxxvisions.com
www.youngerotica.com
www.zoosex.com
wwwl .playboy.com
www2. adultsights. com
www2.amateurfresh.com
www2.playboy.com
www4.playboy.com
www7.hollywoodhardcore.com
www8.girlsofrussia.com
wwwserv.weirdsex.com
xxx-pics.net
xxx.com
xxxads.adulthosting.com
xxxempire.com
xxxlinkexchange. com
xxxnewspics.com
xxxo.com
xxxvids.com
xxxxxx.com
Page 7

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 71 of 146
>

N72

\

EXHIBIT 2

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 72 of 146
N73

October 12, 2007
Judge Ralph K. Winter Jr., Chairman
Judicial Conference Committee on Judicial Conduct and Disability
US Court House, 141 Church Street
New Haven, CT 06510

Dear Judge Winter,
RE: Public Comment on Proposed Rules Governing Judicial Conduct and
Disability Proceedings.
TEST CASE TO ASSESS. IN PART. THE ADEQUACY OF THE
PROPOSED RULES
The following factual case is offered as a possible test of the adequacy of
the proposed new rules. Although the Breyer Committee discussed in
general several instances when Circuit Councils did not deal appropriately
or adequately with complaints filed against a few Federal Judges, it is not
clear if the Committee considered this case. When given the facts which
were publicly known, lawyers at the General Services Administration
(GSA) and the Administrative Office of the United Stated Courts (AO)
and even Chief Justice William H. Rehnquist agreed that at least one
felony probably had been committed by a United States Circuit Judge
acting in concert with a Circuit Executive. The facts were known by the
Circuit Chief Judge, the Circuit Council and indeed by the Judicial
Conference of the United States. Yet, no complaint was filed against the
Judge by the Circuit Chief Judge or by any member of the Circuit Council
or the Judicial Conference. Moreover, although probably outside the
purview of your Committee, to my knowledge, no disciplinary action was
taken against the Circuit Executive by the Circuit Chief Judge or the
Circuit Council, which clearly did have jurisdiction.
It is my strongly held view that this total absence of action is the worst
example of failure by those responsible for disciplining Judges that I
witnessed during my 21 years as AO Director.
Page 1 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 73 of 146
N74

I present this case so that your Committee can determine if disciplinary
action was mandated against the offending Judge under the old Rules and
Statutes. If not, do the new Rules close what is thus a gaping loophole in
the old Rules and mandate disciplinary action, and by whom?

Commendation for Winter and Brever Committees
First let me commend you and your committee for the draft rules that you
have proposed to amend current Judicial Conduct and Disability Rules.
My admiration extends also to the report to the Chief Justice by the
Judicial Conduct and Disability Act Study Committee entitled
“Implementation of the Judicial Conduct and Disability Act of 1980,”
Chaired by Justice Stephen Breyer with 5 Federal Judges also serving.
Taken together, these two reports will do much to maintain and increase
public and Congressional confidence in the Federal Judges as your new
Rules are applied by the Circuit Councils in considering complaints of
misconduct filed against Federal Judges.
As you know, over the years some leaders in Congress and Academe have
suggested that in some instances the Judges on Circuit Councils have not
been willing to discipline appropriately their colleagues when complaints
were filed. Moreover, some Circuit Chief Judges have failed to file
complaints against their colleagues even though the facts apparently
justified such action.
As you know, I served as Director of the Administrative Office of the
United States Courts (AO) for 21 years. Early in my service
Representative Robert Kastenmeyer (D. Wise.) Chaired the House
Judiciary Committee. He believed that Circuit Councils may not have
been carrying out their duties in some instances when complaints were
filed against Federal Judges House hearings were held and although the
Judiciary was urged to improve, no legislative action was taken at that
time. Then about three years prior to my 2006 retirement, major concerns
were expressed by several current Congressional members alleging lack
of objectivity by Circuit Councils in handling some complaints
particularly by Representative James Sensenbrenner (R. Wise.) then
Page 2 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 74 of 146
N75

Chairman of the House Judiciary Committee. Allegations were made that
there was an “old boy network” of Judges who protected and would not
act against their colleagues. He was sharply critical of what he perceived
to be the failure of certain Circuit Councils to deal appropriately or
adequately with complaints against a few Judges. He expressed these
views with a high degree of passion both publicly and in two personal
appearances before the Judicial Conference of the United States. Of
course I had kept Chief Justice William Rehnquist informed of his
criticisms well before he presided over the Conference services meeting
where Sensenbrenner spoke. Then I met with the Chief Justice after the
second Sensenbrenner “lecture” and we agreed that he should visit
Sensenbrenner at his House office, a most unusual thing for any Chief
Justice to do. But the Chief agreed that this issue was sufficiently
important to do so. After talking with Sensenbrenner he told him that he
planned to appoint a special committee of Judges to study the issue, to be
chaired by Justice Stephen Breyer.
At least two very important results came from that process; first, the
Judiciary bought some time because had there been no such actions,
Chairman Sensenbrenner made it very clear that he was going to impose
an Inspector General on the Judiciary to make sure that the Judges
behaved themselves. Second, it has now resulted in the excellent work
product from both the Breyer committee and your important Conference
committee. If adopted, your proposed Rules will increase the confidence
in Judges among Congress, the public, the Bar and the Media.
My comment on the proposed Rules themselves will be confined to
posing a factual situation, which in my view should have been considered
by the Ninth Circuit Council but never was. In my opinion it is still a
dark cloud hanging over the reputation of the Judicial Branch. The
current rules could and should have been applied through a formal
complaint against the Judge involved either by the Chief Circuit Judge or
other Judges. I believe the current rules allow and may require a
complaint by the Chief Judge of the Circuit. However such a complaint
never was forthcoming from her or from any other Judge.

Page 3 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 75 of 146
N76

Factual Case to Test the Proposed New Rules
In 2001, Ninth Circuit Judge Alex Kozinski, in the company of the then
Circuit Executive Greg Walters and perhaps one other Ninth Circuit Judge
illegally (according to GSA’s lawyers and ours) seized and then sabotaged
the vital Judiciary Internet Gateway Security System then located in San
Francisco. As a result thousands of computer hackers throughout the
world were permitted to invade the records of courts, judges and court
staff not only in the Ninth Circuit but also in the Eighth and Tenth Circuit,
which were similarly served by that Gateway. Moreover, skilled hackers
once they broke through the system in San Francisco could penetrate into
every Court in the United States. The National Security Agency (NSA)
expert who consulted with the Judicial Conference Internet and
Technology (IT) Committee said that from a security standpoint this
action by Kozinski was “insane.”
GSA lawyers who are responsible for computer systems policy in the
Federal government said that this action was not only “illegal” but
constituted at least one felony. They along with our own internal lawyers
cited title 18 USC136L which states that:
“whoever willfully injures or commits any depredation against
any property of the United States, or of any Department or
Agency thereof ... shall be punished by a fine of $1,000 and
depending on the circumstances a prison term of 1 to 10
years.”
Likewise section 1362 states that:
“whoever willfully injures or maliciously destroys any ...
system, or other means of communications, operated or
controlled by the United States ... or willfully or maliciously
interferes in any way with the working or use of any such line,
or system, or willfully or maliciously obstructs, hinders, or
delays the transmission of any communication over any such
line, or system or attempts or conspires to do such an act, shall
be fined under this title or imprisoned not more than 10 years
or both.”
Page 4 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 76 of 146
N77

For your Committee to determine the application to this case of either the
old or your proposed new rules, it is important to know the facts that led
up to this extraordinary unsupportable action by Judge Kozinski and Greg
Walters. During 2000 and 2001 there was a major increase in the use of
Internet Bandwidth by Federal Courts throughout most of the United
States. This greatly elevated the cost and gave rise to the strong suspicion
that the court computer systems were being abused. This was of great
concern to the Judicial Conference Information Technology (IT)
Committee, which had been given considerable responsibility by the
Judicial Conference to monitor the costs and management of judicial
computer systems throughout the country. The Committee, then Chaired
by the late District Judge Ed Nelson, directed my staff at the AO to
monitor internet bandwidth use throughout the country to determine why
there had been such a major increase in bandwidth use. The Committee
also directed that the study must be confined solely to general bandwidth
information. The staff was expressly forbidden to examine either e-mail
or individual computers used by any Judge or court employees anywhere
in the country. This was done to assure privacy.
When this initial bandwidth study was completed, the results were
presented to the IT Committee which learned that by far the greatest
proportion of the bandwidth increase occurred through the illegal
downloading of pornography and some other movies and NAPSTER
music on court computers in Federal courts on Federal time throughout
the United States. In short there was a wholesale violation of the Federal
law and waste of taxpayer funds throughout the country, particularly in 39
courts.
Judges and Court Employee Privacy Fully Protected
It is important to note once again that my staff faithfully followed the
direction of the IT Committee and confined their study solely to internet
bandwidth use. Thus the computers and e-mail of individual court
employees, law clerks and Judges were not examined or studied. The IT
Committee then issued instructions which in most instances, I was asked
to send to the entire court family so that this systematic breaking of
Page 5 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 77 of 146
N78

Federal Law in the Courts would be ended, and the Judiciary avoid
serious embarrassment. But Judge Kozinski chose to comment publicly
to the New York Times, to at least one National news magazine and wrote
a lengthy essay for the Wall Street Journal editorial page on his mistaken
version of the study. By doing so, he created considerable media attention
and public awareness to the Judiciary’s severe problem of illegally using
court computers.
The facts described above are indisputable since Judge Kozinski publicly
admitted his role in illegally seizing the vital Internet security facility
disabling it, and thus opening judicial records up to thousands of
computer hackers throughout the world endangering the security of the
entire Judicial Branch. Not only did he admit his illegal actions but he
also boasted about them in the National press. One National magazine
published his picture with an article in which he recounted his sabotage of
the security system featuring his comment “What is a Judge to do?”
Virtually every other Judge in the United States would have said that what
a Judge is to do is obey Federal law, not waste Federal money and not to
believe apparently that a Federal Judge is above the law just because of
his office. Judge Kozinski was so proud of his sabotage action that he
actually filmed a reenactment and made copies of the tape, one of which
was sent and viewed at a nationwide Judiciary computer staff meeting in
Jacksonville, Florida. On the tape he described triumphantly to all the
many court computer experts assembled from throughout the country
precisely how he seized the computer security facility and disabled it so it
would no longer protect Judge’s records. Present, however, was the great
Chairman of the Judicial Conference IT Committee which had directed
that the bandwidth use study be made. Judge Nelson recognized that the
Kozinski tape was intended in part to be a direct attack on him and his
committee before the professional staff in order to embarrass him and his
fellow committee members. He said he could not understand how Judge
Kozinski could possibly justify his illegal action to destroy the security
system and endanger Judges records and then reenact the crime on film.
For Judge Nelson and for any objective observer it was impossible to
connect the destruction by Kozinski of the security system with a
Committee request to study bandwidth which in no way violated the
privacy of Judges or court staff but did reveal that some employees in
Page 6 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 78 of 146
N79

Federal Courts, at least 39 Courts, were downloading pornography and
some even viewing them in the court facilities on court time. Judge
Nelson believed that the Kozinski action was designed entirely to cover
up this outrageous waste of Federal taxpayer money and equipment in too
many of the courts.
Kozinski even volunteered publicly that one of his law clerks had
downloaded pornography in his court. He did not mention the extent to
which he and his other law clerks also downloaded pornographic movies
and NAPSTER music.

Chief Justice Rehnquist was appalled bv the Kozinski Security Sabotage
When Chief Justice William Rehnquist learned of Kozinski’s actions and
then learned that he was boasting in public about his deliberate violation
of Federal law he said “Tell Alex to watch pornography at home and not
download and watch it in the courts.”
Chief Justice Rehnquist was so disturbed by Kozinski’s actions and his
public boasting that he directed the Judicial Conference Executive
Committee immediately “to take firm disciplinary action against all those
involved” including, of course, Kozinski and Walters. He also believed
that the Kozinski/Walters action might have been taken with the tacit or
active endorsement of the Chairman of the Circuit Council, Judge Mary
Schroeder, and perhaps the entire Ninth Circuit Council. Thus the minutes
for the Executive Committee emergency teleconference of May 31, 2001
show that the Chief Justice “concluded something needs to be done that
would get the attention of the Ninth Circuit Council.” He said that “more
needed to be done than a remonstrance and more than a slap on the wrist.”
He directed the Committee and me to determine if the Ninth Circuit
Council Judges and Circuit staff could be cut off completely from the data
communications network (DCN) thus depriving them of their computers
and other automated facilities. Indeed he specifically asked us, “Can we
cut off computers?”
At the time of the Executive Committee meeting, Associate AO Director
Pete Lee was in Alaska attending a gathering of Chief Judges from the
Ninth Circuit Chaired by Circuit Chief Judge Mary Schroeder. He
Page 7 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 79 of 146
N80

reported on the phone for the Executive Committee and me that she was
“now talking to them” (the Chief Judges) and said “she is afraid that the
record of the extensive downloading of pornography in the courts will be
embarrassing to some of the Judges who are up for Supreme Court or
other appointments.” According to Lee, she also said that she and a
Circuit Executive, Walters, were willing to “put the security system back
up” and make it operational “if we (the Executive Committee members
and the AO) agree not to measure sex explicit movies that are being down
loaded in the courts.” Significantly, there was no talk at the Alaska
meeting according to Lee about fear of reading Judges e-mail which they
knew did not occur. Rather the concern was about possible
embarrassment to Judges caused by reports of pornography downloading
in the Courts.

No Disciplinary Action Taken
Given the gravity of this situation, coupled with the exceptionally strong
views of the Chief Justice, I was truly surprised when a narrow majority
of the Executive Committee refused to recommend or take any
disciplinary action with respect to Kozinski or Walters or the Ninth
Circuit Council. All they agreed to do was to have the Chairman, District
Judge Charles Haden (N.D. West VA) call Chief Judge Schroeder to work
out an agreement to restore that the security system to working condition.
Haden then promised to her that the IT committee would no longer
require the monitoring of bandwidth use by the courts. In short, Judges
Schroeder and Kozinski and Circuit Executive Greg Walters got precisely
what they wanted. There would be no discipline of the offenders.
Moreover, no longer would there be any monitoring of the extent to which
pornographic movies and NAPSTER music were being illegally
downloaded by Federal Courts. Later, the Judicial Conference took what
can only be described as cosmetic action essentially leaving it up to each
individual court to develop a system of its own in the hope that Federal
law is not being violated in that court. The Administrative Office was
directed by the Conference to obtain an annual report on the quality and
adequacy of the plans developed by each court throughout the country to
require legal compliance. Based upon the last report which I say which
was for 1995-96 some courts have no plan at all while other courts have
Page 8 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 80 of 146
N81

inadequate plans. Fortunately, some have good working plans. In short,
even the cosmetic action goals are not being met in too many of the courts
throughout, the country. If this sorry state of affairs is once again treated
in the media and considered by Congress, the Judiciary stands to be held
up to ridicule and embarrassment throughout the United States.

Result of the Failure to Discipline
The conclusion reached in this case study is that a Judge and/or a court
administrator can violate Federal law and commit felonies but will not be
disciplined in any way. Likewise, in too many courts, Judges and court
staff appear largely to be free to download pornography and NAPSTER
music if they choose without detection and with no discipline built into
the system of these courts to assure that Federal law is being obeyed.

Chief Justice orders Removal of an Internet Security Gateway from the
Ninth Circuit
To say that Chief Justice Rhenquist was angry about the failure of the
Conference Executive Committee to carry out his direction to discipline
the Ninth Circuit perpetrators coupled with the limited cosmetic action
taken by the Judicial Conference along with the failure of the Ninth
Circuit to consider complaints would be a gross understatement. The
Chief Justice lectured the Executive Committee sternly about their failure
to take appropriate action to discipline Judge Kozinski, Greg Walters and
the Ninth Circuit Council.
As stated, Chief Justice Rehnquist was highly disturbed about what he
perceived to be the complete failure of the Ninth Circuit Council and
Chief Judge Schroeder either to take disciplinary action against Judge
Kozinski and/or on Circuit Executive Greg Walters. However there was
one action that he could take to further express his displeasure and restore
some integrity to the system. He ordered me to remove the Internet
Gateway security system from San Francisco taking it entirely out of the
Ninth Circuit and relocating it in another Circuit. He did this so that
neither Judge Kozinski nor Greg Walters nor the Circuit Council could
Page 9 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 81 of 146
N82

again sabotage Judicial Branch security equipment and thus endanger the
security of the entire Federal Court system. It is now located near Kansas
City, Missouri.
Chief Justice Rehnquist further evidenced his continuing acute displeasure
caused by the failure of the Ninth Circuit Council or the Executive
Committee to take “stem disciplinary action. When Judge Schroeder
recommended appointment to the Conference IT Committee of the other
Circuit Judge who reputedly accompanied Judge Kozinski, he turned it
down flatly. Instead he appointed a District Judge from Idaho whom I
recommended.

Judicial Conference Procedures Ignored by Kozinski
Sabotaging the security system was not the only avenue available to Judge
Kozinski if he objected to the policy of the Judicial Conference IT
Committee seeking to uncover and forestall possible waste, abuse, and
violation of Federal law through examining bandwidth use throughout the
Judicial Branch. The IT Committee is a creature of the Judicial
Conference and responsible to it. Kozinski could have complained to
Chief Judge Schroeder who is a member of the Conference by right of
office and to the elected District Judge on the Conference from the Ninth
Circuit and to ask for a reconsideration of this policy and if necessary ask
that it be done on an emergency basis. He also could have lodged a
complaint and request for similar action with the Chief Justice who
presides over the Judicial Conference and appoints all Conference
Committee members including the IT Committee. Likewise he could
have gone to Judge Ed Nelson the Chairman of the IT Committee and to
the Committee itself seeking such action. The Ninth Circuit has always
had a representative Judge who serves on that Committee but there is no
record that Kozinski ever complained to that Judge. Thus, instead of
going through the accepted Conference channels, which permit
expeditious action when necessary, he chose to take the law into his own
hands and constitute himself a judicial vigilante. He decided to defy
openly both the Conference Committee and the Conference itself presided
over by the Chief Justice and preceded to violate Federal Criminal law,
which clearly applies to him. Moreover he and Greg Walters violated the
Page 10 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 82 of 146
N83

contract made between the Ninth Circuit Executive and the IT Committee
in which the Circuit staff agreed to manage the internet security gateway
in San Francisco in behalf not only the Ninth Circuit but also the Eighth
and Tenth Circuits. Incidentally neither Judge Kozinski nor Judge
Schroeder nor Greg Walters consulted with either of the other two
Circuits before summarily shutting down the system thus endangering all
Judges and court staff in both of those Circuits.

Kozinski “Privacy” Straw Man
Judge Kozinski obviously decided that he could not prevail in the public
relations arena if he tried to justify illegally sabotaging the Judiciary’s
Internet security system in San Francisco solely in order to assure that
Judges and court staff could continue to illegally download pornography
and NAPSTER music. Therefore, he created a fictitious straw man in an
attempt to explain his extraordinary unilateral vigilante action. He falsely
claimed both inside the Judiciary and extensively throughout the public
media that the bandwidth survey mandated by the IT Committee
somehow resulted in Judge’s e-mail being read and their individual
computers monitored. He did this even though Judge Nelson told him
that it wasn’t true! No Judge’s e-mail was read or monitored in any way
nor were their computers monitored. Unfortunately, Kozinski managed to
persuade some uninformed media and indeed some of his fellow Judges
who did not know the facts that he was the great defender of their privacy.
In fact, he was the defender solely of the unfettered ability of all Judges
and court employees to illegally download pornography and view it in
Federal courts, an objective with which no Federal Judge or Congress
would agree.
To my knowledge, the only time individual computers ever were
examined to determine if they were being used for illegal purposes was
carried out by the Ninth Circuit Council itself in 1998, not by the IT
Committee or the AO. The Council discovered that there was a
significant amount of abuse in the Ninth Circuit. But there is no record
that the Circuit Council disciplined the offenders however.

Page 11 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 83 of 146
N84

COMMENT AND QUESTIONS ON THE APPLICATION OF THE
PROPOSED NEW RULES TO THE ABOVE FACTUAL
SITUATION
1. The conduct described above was not known to members of the Bar
or to litigants. It appears therefore from the Committee
commentary on Rule 3 that there are only two ways a “complaint”
could be filed against Judge Kozinski. One would be by a
knowledgeable Federal Judge. The second is that the “complaint”
may be “identified” by the Chief Judge. But in the absence of a
complaint by another Judge, is the Chief Circuit Judge required to
file a complaint? For example, in the above-described situation
Chief Judge Schroeder was fully aware of what Judge Kozinski had
done but neither she nor any informed Judge filed a complaint. The
comment under Rule 3 seems to say that the Chief Judge is not
required to file a complaint but “may” file and “often is expected to
trigger the process” by “identifying a complaint”. Is this a case
when a complaint was “expected” to be filed or where one “must”
be filed by the Chief Judge?
In the test case, it is theoretically possible that a Ninth Circuit staff
member or someone from the AO who were aware of these facts, as
indeed many were, could file a complaint against Judge Kozinski.
However as a practical matter this likely would not work because of
the probable repercussions against such employees. Thus, if the
Circuit Chief who, is aware of such misconduct does not elect to
identify a complaint, this creates an important loophole in the
regulations, which would allow such illegal conduct to go
unchallenged. The proposed rules of the Committee ought to consider
the possibility of making such action mandatory for the Circuit Chief
Judge.
2. If the Circuit Chief Judge is not only aware of possible misconduct
or illegal action by another Judge in the Chiefs Circuit and may
have actually approved or ratified the misconduct or illegality in
advance, it is virtually certain that the Chief Judge would not file a
complaint. The new Rules as you have proposed them do not
appear to deal with this very real possibility. You may wish to
Page 12 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 84 of 146
N85

revise the rules to set up an alternate procedure to make sure that a
complaint is filed in such circumstances.
3. It does not appear from the existing Rules or the proposed new
Rules that there is a statute of limitations that applies to the filing of
a complaint of misconduct against a Federal Judge. If that is the
case and if the statute has not run, a complaint could still be filed
against Judge Kozinski for the illegal action that he took in 2001. Is
the Chief Judge required to file a complaint now under the old
rules?
4. Under the new Rules, if Rule 5(a) governs and the requirements of
Rule 7 and Rule 3(a) too have been met and no complaint has been
filed under Rule 6, a Chief Judge “must identify a complaint” and
by written orders stating the reasons, begin the review provided in
Rule 11. In your Committee’s view, is Judge Schroeder obliged to
file such a complaint? If so, this probably means that she may be
obliged to file one.
5. Rule 29 of your proposed rules provides that the new rules “will
become effective 30 days after promulgation by the Judicial
Conference of the United States.” Thus Judge Schroeder would
have to file a complaint, under the new rules but they may not be in
effect by November 8, 2007 when she must step down as Chief
Judge. If she refuses, who must file a complaint prior to November
8th if anyone?
6. Under current law Judge Alex Kozinski will become the new
Circuit Chief Judge on November 8, 2007 succeeding Judge Mary
Schroeder. If approved, the new rules will be in effect after Judge
Kozinski becomes the Chief Judge. At the time is Chief Judge
Kozinski obliged to issue a complaint against himself? I assume
the answer is no. I further assume, however, that he would be
disqualified under Rule 25. Therefore the new Rules require that
the complaint “must be assigned to the Circuit Judge in regular
active service who is the most senior in date of commission of
those who are not disqualified.” If most or all of the members of
the current Circuit Council were members of the Council when
Page 13 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 85 of 146
N86

Judge Kozinski took his illegal action in 2001, then I assume that
the Rules may require each of those individuals to be disqualified
particularly if in 2001 they approved Kozinski’s illegal action in
advance. However Rule 25(G) provides that notwithstanding any
other provision of these rules to the contrary, a member of the
Judicial Council who is a subject of the complaint may participate
in the disposition thereof if the Judicial Council votes that it is
necessary and appropriate and in the interest of sound Judicial
administration that such subject Judges should be eligible to act.
Does this open the door for Judge Kozinski to participate in the
Committee handling of his complaint or one filed against him even
though he is disqualified as Chief Circuit Judge because he would
be the object of the complaint? That section does appear to open
the door to him to participate and for any other members of the
Council who in 2001 approved his actions in advance, if that
occurred.
7. It is clear that the proposed Rules apply only to Federal Judges.
They do not therefore cover a Circuit Executive such as Greg
Walters who aided and abetted in the committing of a felony
according to the facts and the analysis of various lawyers. There is
no record that the Circuit Chief Judge or anyone else disciplined
him. This clearly is an embarrassment to the Judicial Branch
particularly since Walters currently is working on ‘detail’ for the
Administrative Office, which is supervised and directed by the
Judicial Conference whose policies and rules he openly defied.
This is a notable loophole and your committee may wish to direct
an inquiry to the appropriate Judicial Conference Committee,
probably Judicial Resources, suggesting that this loophole should
be repaired.
Tn summation: As a result of the illegal action taken by Judge
Kozinski, Greg Walters and perhaps one other Ninth Circuit Judge,
coupled with the total failure of the Ninth Circuit Council and the
Judicial Conference even to consider disciplining for Judge Kozinski
under current law and Rules procedures, the Federal Judiciary could be
censured by Congress for permitting its laws to be openly flaunted
with no response by the Judiciary. Also, it could be justifiably
Page 14 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 86 of 146
N87

criticized by the media. This is particularly true and doubly serious
because the disabling of the security system obviously took place for
one reason and one reason only namely that Judge Kozinski and his
allies wanted to make it possible for Federal Judges and court staff to
be totally free of detection when or if they download illegal
pornography movies and NAPSTER music on Federal Court
computers, on Federal Court time, in Federal Court buildings using
Federal taxpayer money. Therefore in the interest both of good
government and the reputation of the Judicial Branch the new Rules
should require Circuit Chiefs and Circuit Councils or suitable
alternative Judicial Branch organizations to initiate and consider
complaints in this and similar factual situations. Certainly Chief
Justice Rehnquist strongly believed that the system must require “stem
discipline” in such a situation, discipline that is totally absent thus far
and I agree with him fully.
■Summary of Central Questions for Your Committee
• Is it mandatory for the Chief Circuit Judge or any other Judge to
file a complaint against Judge Kozinski under the old Rules? If
not, does your Committee have authority to mandate the filing
and consideration of such a complaint?
• Do the proposed Rules require the Ninth Circuit Chief Judge to
initiate a complaint against Kozinski that is then considered by
the Circuit Council? If not, is it mandatory upon any other
Judicial organization such as your Committee to initiate a
complaint? If not, your Committee may wish to revise the
Proposed Rules to assure that such disciplinary action is taken to
restore integrity to the Rules process while at the same time
avoiding serious embarrassment to the Judicial Branch for its
failure to act.

CC: William R. Burchill Jr., Associate Director and General Council

Page 15 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 87 of 146
N88

Mr. William R. Burchill Jr., Associate Director and General Council
Administrative Office of the US Courts
Thurgood Marshall Federal Judiciary Building
Washington DC 20544

Judge Ralph K. Winter Jr., Chairman
Judicial Conference Committee on Judicial Conduct and Disability
US Court House, 141 Church Street
New Haven, CT 06510

Page 16 of 16

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 88 of 146
N89

EXHIBIT 3

OpinionJoumal - AT

19-55429, 12/02/2019, ID: 11516^g^/vRK|^pSn^njl>3nnSS3@/^^iQfp^^liis.htm]?id=95001063
N90

PRINT WINDOW

CLOSE WINDOW

AT LAW

Privacy on Trial
Big Brother is watching you, your honor.
BY ALEX KOZINSKI
Tuesday, September 4, 2001 12:01 a.m.
An open letter to federal judges:
The U.S. Bureau of Prisons maintains the following sign next to all telephones used by inmates:
"The Bureau of Prisons reserves the authority to monitor conversations on the telephone. Your
use of institutional telephones constitutes consent to this monitoring. . . ."
I'm planning to put signs like these next to the telephones, computers, fax machines and other
equipment used in my chambers because, according to a policy that is up for a vote by the U.S.
Judicial Conference, we may soon start treating the 30,000 employees of the judiciary pretty
much the way we treat prison inmates.

Exaggeration? Not in the least. According to the proposed policy, all judiciary
employees—including judges and their personal staff—must waive all privacy in communications
made using "office equipment," broadly defined to include "personal computers . . . library
resources, telephones, facsimile machines, photocopiers, [office supplies." There is a vague
promise that the policy may be narrowed in the future, but it is the quoted language the Judicial
Conference is being asked to approve on Sept. 11.
Not surprisingly, the proposed policy has raised a public furor. This has so worried the policy's
proponents that Judge Edwin Nelson, chairman of the Judicial Conference's Automation and
Technology Committee, took the unprecedented step of writing to all federal judges to reassure
them that the proposed policy is no big deal. I asked that my response to Judge Nelson be
distributed to federal judges on the same basis as his memo, but my request was rejected. I
must therefore take this avenue for addressing my judicial colleagues on a matter of vital
importance to the judiciary and the public at large.
The policy Judge Nelson seeks to defend as benign and innocuous would radically transform how
the federal courts operate. At the heart of the policy is a warning—very much like that given to
federal prisoners—that every employee must surrender privacy as a condition of using common
office equipment. Like prisoners, judicial employees must acknowledge that, by using this
equipment, their "consent to monitoring and recording is implied with or without cause." Judicial

1 of 3

1/5/08 2:08 PM

OpinionJoumal-ATL^e: 19-55429, 12/02/2019, ID: 1151^/^^^Ba^/Sfli^pi^hiS.htnil?id=9500l063
N91

opinions, memoranda to colleagues, phone calls to your proctologist, faxes to your bank,
e-mails to your law clerks, prescriptions you fill online—you must agree that bureaucrats are
entitled to monitor and record them all.
This is not how the federal judiciary conducts its business. For us, confidentiality is inviolable.
No one else—not even a higher court—has access to internal case communications, drafts or
votes. Like most judges, I had assumed that keeping case deliberations confidential was a
bedrock principle of our judicial system. But under the proposed policy, every federal judge will
have to agree that court communications can be monitored and recorded, if some court
administrator thinks he has a good enough reason for doing so.
Another one of our bedrock principles has been trust in our employees. I take pride in saying
that we have the finest work force of any organization in the country; our employees show
loyalty and dedication seldom seen in private enterprise, much less in a government agency. It
is with their help—and only because of their help—that we are able to keep abreast of crushing
caseloads that at times threaten to overwhelm us. But loyalty and dedication wilt in the face of
mistrust. The proposed policy tells our 30,000 dedicated employees that we trust them so little
that we must monitor all their communications just to make sure they are not wasting their
work day cruising the Internet.
How did we get to the point of even considering such a draconian policy? Is there evidence that
judicial employees massively abuse Internet access? Judge Nelson's memo suggests there is, but
if you read the fine print you will see that this is not the case.
Even accepting the dubious worst-case statistics, only about 3% to 7% of Internet traffic is
non-work related. However, the proposed policy acknowledges that employees are entitled to
use their telephone and computer for personal errands during lunchtime and on breaks. Because
lunches and breaks take up considerably more than 3% to 7% of the workday, we're already
coming out ahead. Moreover, after employees were alerted last March that downloading of
certain files put too much strain on the system, bandwidth use dropped dramatically. Our
employees have shown they can be trusted to follow directions.
What, then, prompted this bizarre proposal? The answer has nothing to do with bandwidth or any
of the other technical reasons articulated by Judge Nelson. Rather, the policy became necessary
because Leonidas Ralph Mecham, director of the Administrative Office of the U.S. Courts, was
caught monitoring employee communications, even though the Judicial Conference had never
authorized him to do so. Unbeknownst to the vast majority of judges and judicial employees, Mr.
Mecham secretly started gathering data on employee Internet use. When the Web sites accessed
from a particular computer affronted his sensibilities, Mr. Mecham had his deputy send a letter
suggesting that the employee using that computer be sanctioned, and offering help in
accomplishing this. Dozens of such letters went out, and one can only guess how many judicial
employees lost their jobs or were otherwise sanctioned or humiliated as a consequence.
When judges of our circuit discovered this surreptitious monitoring, we were shocked and
dismayed. We were worried that the practice was of dubious morality and probably illegal. We
asked Mr. Mecham to discontinue the monitoring. Rather than admitting fault and apologizing,
Mr. Mecham dug in his heels. The monitoring continued for most of the country until Mr.
Mecham was ordered to stop by the Judicial Conference Executive Committee.
Hell hath no fury like a bureaucrat unturfed. In a fit of magisterial petulance, Mr. Mecham
demanded that his authority to monitor employee communications be reinstated without delay.
A compliant Automation Committee hastily met in secret session to draft the proposed policy,
pointedly rejecting all input from those who might oppose it. In their hurry to vindicate Mr.
Mecham's unauthorized snooping, the committee short-circuited the normal collegial process of
deliberation and consultation.

2 of 3

1/5/08 2:08 PM

OpinionJournal - AT

19-55429, 12/02/2019, ID: 11 51

,html?id=95001063

N92

Salving Mr. Mecham's bureaucratic ego, and protecting him from the consequences of his
misconduct, is hardly a basis for adopting a policy that treats our employees as if they live in a
gulag. Important principles are at stake here, principles that deserve discussion, deliberation and
informed debate. As Chief Judge James Rosenbaum of Minnesota has stated, "giving employers
a near-Orwellian power to spy and snoop into the lives of their employees, is not tenable." If
we succumb to bureaucratic pressure and adopt the proposed policy, we will betray ourselves,
our employees and all those who look to the federal courts for guidance in adopting policies that
are both lawful and enlightened.

I therefore suggest that all federal judges reading these words—indeed all concerned
citizens—write or call their Judicial Conference representatives and urge them to vote against
the proposed policy. In addition, we must undo the harm we have done to judicial employees
who were victims of Mr. Mecham's secret, and probably illegal, snooping. The Judicial
Conference must pass a resolution that offers these employees an apology and expungement of
their records.
Moreover, we should appoint an independent investigator to determine whether any civil or
criminal violations of the Electronic Communications Privacy Act were committed during the
months when 30,000 judicial employees were subjected to surreptitious monitoring. If we in the
judiciary are not vigilant in acknowledging and correcting mistakes made by those acting on our
behalf, we will surely lose the moral authority to pass judgment on the misconduct of others.
Mr. Kozinski is a judge on the Ninth U.S. Circuit Court of Appeals in California. His unmonitored
e-mail address is kozinski&usc. edu.
Copyright © 2008 Dow Jones & Company, Inc. All Rights Reserved.
PRINT WINDOW

3 of 3

CLOSE WINDOW

1/5/08 2:08 PM

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 92 of 146
N93

EXHIBIT 4

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 93 of 146

CAL LAW

N94

CAUFPRNIA'S LEGAL MEWS SOURCE

Select 'Print' in your browser menu to print this document.
©2005 ALM Properties, Inc.
Page printed from: Cal Law
Back to Article

Kozinski Strikes Back
Alex Kozinski
The Recorder
09-23-2005

Last week in this space, Cyrus Sanai took up what was headlined as the "Taking the Kozinski Challenge" by
purporting to show that the Ninth Circuit routinely ignores circuit and Supreme Court precedent in its published
and unpublished opinions. According to Mr. Sanai, Ninth Circuit panels "silently dustbinned" inconvenient opinions,
paid "lip service" to Supreme Court case law, vaulted "somersaults" in creating three lines of authority "none of
which agree with each other," and adopted a rule that has "the 'absolute simplicity' of Joseph Heller's 'Catch-22.'"
Were this criticism justified, it would be an embarrassing illustration of judicial lawlessness. Fortunately, it isn't.
For reasons of his own, Mr. Sanai chose as the centerpiece of his article an arcane area of federal jurisdiction
known as the Rooker-Feldman doctrine. This doctrine holds that district courts may not entertain lawsuits
challenging the validity of state court judgments. Were it otherwise, district courts would effectively become
appellate tribunals for state court decisions — a role reserved to the U.S. Supreme Court.
This much is clear. The closer question is what happens where the state courts conclusively resolve a federal issue
in an interlocutory order. May the losing party challenge that order by bringing a federal action, or must it await
review by writ of certiorari after final judgment? According to Mr. Sanai, we held in H.C. ex rel. Gordon v. Koppel,
203 F.3d 610 (9th Cir. 2000), that "Rooker-Feldman did not apply to ongoing state proceedings."
Not so. H.C. arose out of a state court order transferring temporary custody from mother to father. The mother
then brought a federal lawsuit seeking to enjoin the state judge from enforcing his order. The district court
dismissed on Rooker-Feldman grounds and the mother appealed.
Our opinion considered both Rooker-Feldman and Younger abstention, and affirmed on the basis of Younger. As to
Rooker-Feldman, the opinion did not hold (as Mr. Sanai imagines) that the doctrine never applies to orders
entered in the course of ongoing state litigation. H.C. merely found that, because temporary custody could change
during the course of the litigation, "there is no final state judgment or order to which the Rooker-Feldman doctrine
might relate and we need not reach the question of the doctrine's applicability to this action." Id. at 613 (emphasis
added). H.C. expressly left open whether Rooker-Feldman applies to an interlocutory order that finally resolves the
federal issue: "Nor are we asked to review a final state judgment of an order of an interlocutory nature." Id.
Doe & Associates Law Offices v. Napolitano, 252 F.3d 1026 (9th Cir. 2001), reached this question. At issue in
Napolitano was a grand jury subpoena seeking client records from a law firm. The firm unsuccessfully petitioned
the state court to quash the subpoena, then brought a federal lawsuit seeking to enjoin its enforcement. The
district court eventually dismissed on Rooker-Feldman grounds.
Napolitano thus confronted the question left open in H.C.: Does Rooker-Feldman bar a federal lawsuit challenging a
state-court order that conclusively resolves an issue, even though the litigation continues as to other issues?
Napolitano held that such a federal lawsuit is barred by Rooker-Feldman. One might disagree, as Mr. Sanai clearly
does, but his claim that Napolitano "dustbinned" H.C. is unsupported.
Mr. Sanai next claims that Napolitano was overruled by Exxon Mobil Corp. v. Saudi Basic Industries Corp., 125 S.
Ct. 1517 (2005), yet we stubbornly refused to acknowledge this in Mothershed v. Justices of the Supreme Court,
410 F.3d 602 (9th Cir. 2005). But Exxon Mobil did not address the issue resolved by Napolitano — whether Rooker-

Feldman applies

JiQerl.^llJ^cfekiPrWIr

^fU^el^oker-

Feldman bars federal lawsuits brought before the state court^ave adjudicated the federal question.
Mothershed did not rely on Napolitano and so had no reason to decide whether Napolitano was affected by Exxon
Mobil. Rather, Mothershed found Exxon Mobil inapplicable because the state courts in Mothershed had conclusively
resolved the federal issues before the federal lawsuit was brought. Is this the only plausible reading of Exxon
Mobil? Perhaps not — though I believe it's a fair reading. Certainly, however, Mr. Sanai's claim that Mothershed
paid mere "lip service" to Exxon Mobil is seriously overstated. All that can fairly be said about Mothershed is that it
selected one permissible interpretation of a Supreme Court opinion that was not directly on point.
Mr. Sanai's claim that our Rooker-Feldman jurisprudence is in hopeless disarray is especially off the mark because
this is an area where we have been vigilant in maintaining consistency. This is due in no small part to the fact that
our colleague, Judge William Fletcher, is not merely one of the great minds of the federal judiciary, but a federal
courts professor and a recognized authority on Rooker-Feldman. Judge Fletcher can be a bit of a nudge in
prodding us to interpret Rooker-Feldman correctly, and so three years before the Supreme Court decided Exxon
Mobil, our court took en banc Ahmed v. Washington, 276 F.3d 464 (9th Cir. 2001), where a panel had committed
the very error the Supreme Court eventually corrected in Exxon Mobil. Though the parties settled, rendering the
appeal moot, the en banc panel vacated the incorrect panel opinion, keeping our case law out of harm's way when
the Supreme Court unanimously reversed other circuits in Exxon Mobil.

Despite his colorful language, Mr. Sanai's article raises no legitimate question about whether the Ninth Circuit has
been derelict in following circuit or Supreme Court precedent. But the article does raise serious issues of a different
sort. Mr. Sanai's article urges us to "grant en banc rehearing of the next decision, published or unpublished, which
asks the court to resolve the split among H.C., Napolitano and Mothershed." A petition for en banc rehearing
raising this very issue crossed my desk just as Mr. Sanai's article appeared in print. The name of the case? Sanai
v. Sanai. A mere coincidence of names? Not hardly. The petition, signed by Mr. Sanai, cites the same cases and
makes the same arguments as his article — including the reference to "Catch-22."
Mr. Sanai's byline modestly lists him as "an attorney with Buchalter Nemer in Los Angeles." The firm's Web site
identifies him as "a Senior Counsel and English solicitor ... [whose] practice focuses on project finance, corporate
finance and business transactions, with a particular expertise in international finance transactions." The careful
reader would therefore have no cause to doubt that Mr. Sanai is a disinterested observer of this court's RookerFeldman jurisprudence. Nothing alerts the reader to the fact that Mr. Sanai has been trying for years to get the
federal courts to intervene in his family's state-court dispute, an effort referred to by a highly respected district
judge as "an indescribable abuse of the legal process, ... the most abusive and obstructive litigation tactics this
court has ever encountered. ..." Nor would the reader — unless he happened to enter Mr. Sanai's name in the
Westlaw CTA9-ALL database — realize that, as part of the same imbroglio, he and certain members of his family
have hounded a state trial judge off their case (read the PDF): been held in contempt and sanctioned under 28
U.S.C. §1927 and had their ninth sortie to our court in the same case designated as "frivolous" and "an improper
dilatory tactic" by the district court. A detached observer, Mr. Sanai is not.
By failing to disclose his long-standing, active and abiding interest in the legal issue he discusses in his article, Mr.
Sanai has done the reading public a disservice, cloaking his analysis with a varnish of objectivity. Worse, by
publishing the article while he had a case raising this precise issue, Mr. Sanai used The Recorder to call unfair
attention to his petition for rehearing, to the detriment of opposing parties who limited their advocacy to the briefs.
And, by gratuitously drawing my name repeatedly into the controversy, he has also managed to disqualify me
from participation in his case, skewing the en banc voting process.
Whether our court is diligent in applying circuit law and faithful to Supreme Court precedent are issues that
deserve public attention. Contrary to Mr. Sanai's bold assertion, I have never claimed that intra-circuit conflicts
never arise, and my colleagues and I welcome legitimate efforts to tell us when our circuit law needs mending. It
is important, however, to draw a clear line between case advocacy and objective public debate. This Mr. Sanai has
neglected to do.
Alex Kozinski is a judge on the Ninth Circuit U.S. Court of Appeals.

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 95 of 146
N96

EXHIBIT 5

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 96 of 146
N97

JUDICIAL CONFERENCE OF THE UNITED STATES
COMMITTEE ON INFORMATION TECHNOLOGY
Honorable Edwin L. Nelson, Chair
Honorable David A. Baker
Honorable Paul J. Barbadoro
Honorable Alice M. Batchelder
Honorable David H. Coar
Honorable Lewis A.. Kaplan
Honorable Robert b. King
Honorable J. Thomas Marten
Honorable Catherine D. Perry
Honorable James Robertson
Honorable Roger G. Strand
Honorable L. T. Senter, Jr.
Honorable Diane w. Sigmund
Honorable Thomas I. Vanaskie

May 10, 2002
Honorable Howard Coble
Chairman, Subcommittee on Courts,
the Internet, and Intellectual Property
Committee on the Judiciary
United States House of Representatives
B351A Rayburn House Office Building
Washington, DC 20515
Dear Mr. Chairman:
I understand that on May 2, 2002, the Judiciary Subcommittee on Courts, the
Internet, and Intellectual Property held a business meeting to consider H.R. 4125, the
“Federal Courts Improvement Act.” At the meeting Mr. Berman first offered and then
withdrew an amendment relating to “monitoring” of electronic communications on the
judicial branch’s Data Communications Network (the “DCN”). I am told that
Mr. Berman may again offer his amendment when H.R. 4125 is considered by the full
committee. Those of us who serve on the Judicial Conference Committee on
Information Technology (the “IT Committee”) believe the proposed amendment would
constitute an unwarranted and unneeded intrusion into the internal workings of the Third
Branch and would, in fact, cause substantial harm to the judiciary’s ongoing automation
efforts.
As you are aware, the work of the Judicial Conference of the United States is
supported and facilitated by the work of 24 committees, the members being appointed by
the Chief Justice of the United States who serves as the presiding officer of the Judicial
Conference. The IT Committee, formerly the Committee on Automation and

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 97 of 146
N98

Honorable Howard Coble
Page 2
Technology, which I chair, is comprised of 14 judges-one from each of the regional
circuits, one magistrate judge and one bankruptcy judge. The IT Committee is
responsible for providing policy recommendations to the Judicial Conference on its
subject-matter jurisdiction, planning, and oversight of the judiciary’s many automation
programs.
I am told Mr. Berman expressed some concern that on two occasions, in 1998 and
2000, Administrative Office (the “AO”) personnel may have monitored or blocked
Internet communications on the DCN. In 1998, the AO was not involved at all and the
action in 2000 was directed by the IT Committee.
During the early spring of 1998, at the direction of the Ninth Circuit Council, the
Ninth Circuit technical staff installed and activated at the Ninth Circuit Internet gateway
a filtering software system called WebSense, with the goal being to determine access
through that gateway to adult-oriented materials by DCN users in the Ninth Circuit. AO
personnel were not involved.
Findings by Ninth Circuit staff which resulted from the short-term use of
WebSense are revealing. On April 28, 1998, Ninth Circuit technical staff reported to the
then chiefjudge of that circuit that a local review by staff of that court of logs over a 28day period revealed that users in the three circuits served by that gateway had accessed
approximately 1100 “adult” web sites approximately 90,000 times. Two explanatory
notes may put those figures in better perspective. While 90,000 “adult” site accesses may
seem high, one must remember that every click on a new link, even at one site, will be
recorded as a separate access. On the other hand, 3.6% of total accesses may not seem
particularly high, but if one remembers that “adult” sites tend to be graphics and media
intensive, the actual traffic generated by those accesses was probably higher than 3.6% of
the total traffic, up to 40% to 50% of available bandwidth.
That staffer attached to his memorandum to his chiefjudge a 7 page “partial
listing” of some 300 “adult” sites that had been accessed. An examination of the names
of sites shown on the list suggests that transfers of files to or from many such sites would
likely violate federal law prohibiting the sexual exploitation of children. Some such
names—ones that I can repeat here were: allteens.com; cyberteens.com; hotteen.com;
hotteensex.com; and hollywoodteens.com.
As a result of the findings of the filtering, the Circuit determined to block access
to adult-oriented sites. Placement and removal of WebSense on the Ninth Circuit
Gateway were decisions taken by appropriate authorities in the Ninth Circuit.

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 98 of 146
N99

Honorable Howard Coble
Page 3
At its meeting in January 1999, the IT Committee recommended to the full
Judicial Conference, that it authorize the AO to install software at each of the national
gateways to block access to adult-oriented, pornographic Internet web sites. At its
meeting in March 1999, the Judicial Conference declined to accept that recommendation,
believing that such blocking was a matter more appropriately addressed by each court.
Subsequently, the Ninth Circuit stopped blocking.
At its meeting in December 2000, the IT Committee was informed that demand
for bandwidth (capacity) on the DCN for access to the Internet had almost doubled over
the preceding 10 months. Several members of the committee had received anecdotal
complaints and the AO had received numerous specific complaints about slow access to
and responses from the Internet. Concerned that IT resources purchased with tax payer
funds be used appropriately, the IT Committee directed committee staff from the AO to
determine the cause of the increased demand and to report to the committee at its meeting
in June 2001.
Responding to the committee request, in January 2001, AO personnel activated
two filters or “signatures” on the already installed and operating intrusion detection
software at the three national gateways to identify high volume files passing through
those gateways. Experience has taught us that music and movie files tend to be among
the largest on the Internet. One twenty-second video/movie clip may be the equivalent of
sending two thousand pages of typed text. Signatures activated on the intrusion
detection software were intended to detect and log the passage of such large files. The
logging consisted of recording several items of data: (1) the date and time; (2) the IP
address inside the DCN; (3) the IP address outside the DCN; and (4) the name of the file
passing through the gateway. The user inside the DCN could not be identified because
the AO has no way to do that. It can only identify the judiciary facility to which any IP
address has been assigned. The information captured showed that a substantial portion
of Internet traffic was non-business related and that a few judiciary users were engaged
in extraordinarily high volume downloading of music and movies. Many of the Internet
site and video file names suggested they contained pornography. Others suggested they
might contain depictions of children engaged in sexually explicit conduct, prohibited by
federal law. Finally, many were music files that were most likely copyrighted.
Let me emphasize again that neither the Director of the AO, nor the employees of
the AO, nor the IT Committee members knew then or know today, the identities of any
DCN users who were involved with this downloading. Only local IT staff, operating
under the direction of local judges, have the ability to determine the identity of any user

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 99 of 146
N100

Honorable Howard Coble
Page 4
of the DCN. Moreover, this so-called “monitoring” captured the content of video and
music files only to extent that the web site and file names suggested such content.
Use of the “offending” intrusion detection signatures was discontinued in early
June 2001 after the Executive Committee of the Ninth Circuit Judicial Council
unilaterally, and without notice to either the Eight or Tenth Circuits, directed its technical
staff to disable all aspects of the intrusion detection system at the Ninth Circuit gateway.
Reasonable people may disagree about the serious level of risk created by this action but
it is clear that the intrusion detection system was, and is, an integral part of the DCN
security apparatus and that simply “turning it off’ exposed DCN users in the Eighth,
Ninth, and Tenth Circuits, and perhaps throughout the entire federal judiciary, to
considerable risks to the security of their electronically stored data and electronic
communications and, indeed, to their privacy interests.
The intrusion detection software was reactivated in a short time, but only without
the music and movie signatures as demanded by the Ninth Circuit Council.
In a special meeting on July 27, 2001, the IT Committee recommended to the
Judicial Conference that it adopt on an interim basis the Internet appropriate use policy
developed by the Federal Chief Information Officers Council of the General Services
Administration. Excluded from that recommendation was a provision of the executive
policy which sought to define and limit privacy interests of executive officers and
employees. In a mail ballot following its shortened meeting of September 11,2001, the
Conference accepted the IT Committee recommendation.
In the interim, the IT Committee has developed controls that allow the AO to
change intrusion detection signatures at the national gateways only in certain specified
circumstances. For example, the AO may respond to emergency situations as they arise
by adding needed security signatures but such signatures may remain in place for no
more than 14 days without the explicit approval of the committee chair or his designee.
The need for this emergency response authority was demonstrated in late October and
early November 2001 when the DCN was hard hit by the NimdaE email virus.
At least four significant factors counsel against the adoption of this amendment:
It represents the sort of micro management of judiciary affairs that would
seriously threaten the independence of the Third Branch and of the many
judges, both Article III and Article I, who serve in that branch.

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 100 of 146
N101

Honorable Howard Coble
Page 5
It would seriously impair the ability of the courts to administer and manage
its wide area network-the foundation on which many of the courts’
information technology programs depend. For example, the courts are
rapidly developing and implementing modem and robust case management
systems that will provide the ability to create and maintain electronic case
files. A new and modem technologically advanced financial accounting
system that will permit the courts to better manage and account for
appropriated funds is being deployed. Both these and other projects
require a technologically advanced and secure wide area network.
Under the present state of the law, the federal judiciary is governed by the
provisions of the Electronic Communications Privacy Act (the “ECPA”).
This amendment would, in my opinion, call into question the status of the
judiciary under the ECPA, while leaving intact provisions of law that allow
other government and private entities to protect their IT infrastructures and
their users. It is unclear to me why the federal courts, with exceptionally
higher interests in the security and integrity of the information that is
created, transmitted, and stored on court systems than many others, should
be afforded less protection than are they.
There is no articulated need for the proposed amendment. Instead, the
Judicial Conference and its Committee on Information Technology are
fully engaged in addressing these issues and have demonstrated that they
are sensitive to the privacy and security needs of judges and judiciary
employees. As judges we are quite capable of considering all sides of
virtually any issue, weighing the competing interests, and striking
appropriate balances between them. That is what judges do.
Finally, let me debunk a misconception that seemingly gained acceptance among
some judges last year. There is not now; there has never been; and there are no plans
ever to “monitor” judiciary email. We just last week completed the implementation of
the Lotus Notes email system throughout almost virtually all of the entire federal
judiciary. Judiciary users now have the capability to encrypt any piece of email to any
other judiciary user so it can be read only by the intended recipient. We are investigating
the means by which we can provide similar encryption capabilities for email going to or
coming from the Internet.

Case: 19-55429, 12/02/2019, ID:. 11516652, DktEntry: T9, Page 101 of 146
N102

Honorable Howard Coble
Page 6
If you or any members of your committee have any additional concerns or
questions, I will be pleased to answer them, either by phone, mail, encrypted email, or, if
you prefer, in person.
Sincerely,

Edwin Nelson
Chairman, Committee on
Information Technology
cc:

Members of the Judiciary Subcommittee
on Courts, the Internet, and Intellectual Property
Members of the Judicial Conference Committee
on Information Technology

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 102 of 146
N103

EXHIBIT 6

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19. Page 103 of 146
N104

This is G o o g 1 e's cache of http://alex.k02inski.com/articles/articles.bv.ak.list.htm as retrieved on Aug 2, 2007 07:09:15 GMT.
G 0 0 g 1 e's cache is the snapshot that we took of the page as we crawled the web.
The page may have changed since that time. Click here for the current page without highlighting.
This cached page may reference images which are no longer available. Click here for the cached text only.
To link to or bookmark this page, use the following url: http: //www. google. com/search?
q=cache:acjiw4A3mswJ:alex.kozinski.com/articles/articles.by.ak.list.htm+alex+kozinski.cornshl=en&ct=clnk&cd=l&gl=us
Google is neither affiliated with the authors of this page nor responsible for its content.

These search terms have been highlighted: alex kozinski com

ALEX KOZINSKI
(As of March 30, 2006)

1.

A Market Oriented Revision of the Patent System. 21 UCLA L. Rev. 1042 (1974) and 6 Patent L.
Rev. Ill (1974). f http:// alex. kozinski .com/articles/Marketoriented_Revision_of_Patent_Svstem.pdf)

2.

That Can of Worms: The Speedy Trial Act. A.B.A. J., July 1976, at 862.
(http://alex. kozinski.com/articles/That_Can_o f_Worms.pdf)

3.

Taking it with You Through U.S. Customs. L.A. Lawyer, Oct. 1978, at 43.
(http://alex.kozinski.com/articles/Taking_it_with_You_Tlirough_US_Customs.pdU

4.

Structure of the United States Legal System, in Practical Guide to Investment in the United States 1
(John I. Forry ed., 1979).
('http://alex.kozinski.com/articles/Structure_of_the_US_LegalSvstem%201 .pdf)

5.

Rules of the Supreme Court of the United States. 94 Harv. L. Rev. 312 (1980) (book review, with
W.H. Allen).
(http://alex.kozinski.com/articles/Rules_of_the_SCOTUS.pdD

6.

Ten Principles for the New Federal Practice. 31 Fed. Bar News & J. 16 (1984).
(http://alex.kozinski.com/articles/Ten_Principles__for_New_Federal_Practice.pdf)

7.

Litigation with the Federal Government. ALI-A.B.A. CLE Rev., Sept. 21, 1984.
(http://aIex.kozinski.com/articles/Litigation_with_Federal_Govt.pdf)

8.

Taking the Fifth Seriously. Harv. Salient, Oct. 1987, at 6.
(http://alex.kozinski.com/articles/Taking_the_Fifth_Seriously.pdf)

9.

A Tribute to Chief Justice Warren E. Burger. 100 Harv. L. Rev. 975 (1987).
(http://alex.kozinski.com/articles/Tribute_to_Chief_Justice_Warren_Burger.pdf)

10.

Foreword in Economic Liberties and the Judiciary (James A. Dorn & Henry G. Manne eds., George
Mason Press 1987). (http://alex.kozinski.com/articles/Economic_Liberties_and_the_Judiciarv.pdD

11.

It is a Constitution We Are Expounding. 1987 Utah L. Rev. 977 (debate with J.D. Williams).

1S'

rnttpy/alp^^ozinsiu^lmrarffclis^1.9.

3 Sm f 146

12.

Torts are No Piece of Cake. Wall St. J., Oct. 6, 1988, at A20 (reviewing Peter W. Huber, Liability:
The Legal Revolution and its Consequences (1988)).
('http://alex.kozinski.com/articles/Torts_are_no_piece_of_cake.pdD

13.

Rescuing Contracts from High Weirdness. Wall St, J.. Aug. 3, 1988.
('http://alex.kozinski.com/articles/Rescuing_Contracts_from_High_Weirdness.pdf)

14.

Takings. Reason, May 1988, at 78 (book review).
('http://alex.kozinski.com/articles/Takings_Reason.pdf)

15.

Hunt for Laws’ “True” Meaning Subverts Justice. Wall St. J., Jan. 31, 1989, at A14.
Hittp://alex. kozinski.com/articles/Hunt_for_Laws_True_Meaning_Subverts_Justice.pdD

16.

Commercial Free Speech in the Marketplace of Ideas. 41 Rutgers L. Rev. 719 (1989) (symposium
moderator). ('http://alex.kozinski.com/articles/Commercial_Free_Speech_Marketplace_Ideas.pdf)

17.

Life Is Not A Novel. Wall St. J., July 18, 1989, at A12 (reviewing Nathaniel Branden, Judgment
Day: My Years with Ayn Rand (1989)).
('http://alex.kozinski.com/articles/Life Is Not_a_Novel.pdf)

18.

What I Ate for Breakfast and Other Mysteries of Judicial Decisionmaking. 43 Cons. Fin. L.Q. Rep.
254 (1989), reprinted in 26 Loy. L.A. L. Rev. 993 (1993).
('http://alex.kozinski.com/articles/What_J_Ate_for_Breakfast.pdD

19.

The Virtues of an Ordered Mind. Legal Times, Nov. 27, 1989, at 50 (reviewing Ruggero J. Aldisert,
Logic for Lawyers: A Guide to Clear Legal Thinking (1989)).
(ft ttp://alex. kozinski.com/articles/Virtues_of_an_Ordered_Mind.pdf)

20.

Freedom’s Scents: A Romanian Remembers. Wall St. J., Nov. 28, 1989, at A6.
('http://alex.kozinski.com/articles/Freedoms_Scents_A_Romanian_Remembers.pdD

21.

Romanians Must Now Build a Society. L.A. Daily J., Jan. 18, 1990, at A14.
thttp://alex.kozinski.com/articles/Romanians_Must_Now_Build_Society.pdD

22.

Guide to Nintendo Shopping. Wall St. J., Jan. 31, 1990, at A14.
(Jittp://alex.kozinski.com/articles/Guide_to_Nintendo_Shopping.pdO

23.

Who’s Afraid of Commercial Speech?. 76 Va. L. Rev. 627 (1990) (with Stuart Banner), reprinted as
When Speech Isn’t Free in Philip Morris Mag., Summer 1991, at 26, in 350 FTC: Watch 8 (Sept. 9,
1991), and in 2 Int’l Health & Dev. 7 (Summer 1991).
(http:// alex.kozinski.com/articles/Who's_Afraid_Commercial_Speech.pdD

24.

Trouble in Santa Teresa. N.Y. Times, May 27, 1990, § 7, at 13 (reviewing Sue Grafton, “G” is for
Gumshoe (1990)). Hittp://aIex.kozinski.com/articles/Trouble_in_Santa_Teresa.pdD

25.

Of Profligacy. Piracy, and Private Property. 13 Harv. J.L. & Pub. Pol’y. 17 (1990) (debate
introduction). ('http://alex.kozinski.com/articles/Of_Proifigacy_Piracv_Private_Propeitv.pdD

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 105 of 146
N106

26.

Through the Open Door: What Is It Like to Be an Immigrant in America?. Wall St. J., July 3, 1990,
at A8. fhttp://alex.kozinski.com/articles/Through_the_Qpen_Door.pdf)

27.

Trouble in Super Marioland. Wall St. J., July 27, 1990, at A9.
nittp://alex.kozinski.com/articles/Trouble_in_Super_Marioland.pdD

28.

Death. Lies & Videotape. Forward, Aug. 24, 1990, at 1, reprinted in A.B.A. J., Jan. 1991, at 71.
fhttp://alex.kozinski.com/articles/Death_Lies_&_Videotape.pdf)

29.

Dicta: Kozinski Learns About Privacy. L.A. Daily J., March 11, 1991.
f http://alex.kozinski.com/articles/Dicta_Kozinski_Learns_about_Privac.pdf)

30.

Puzznic and Other Video Enigmas. Wall St. J., Mar. 20, 1991, at A18.
fhttp:// alex.kozinski.com/articles/Puzznic_and_Qther_Video_Enigmas.pdD

31.

Tribute to Gideon Kanner. 24 Loy. L.A. L. Rev. 517 (1991).
fhttp://alex. kozinski. com/articles/Tributeto_G ideon_Kanner.pdf)

32.

Mv Pizza with Nino. 12 Cardozo L. Rev. 1583 (1991).
f http://alex.kozinski.com/articles/Mv_Piz.za_with_Nino.pdf)

33.

Confessions of a Bad Apple. 100 Yale L.J. 1707 (1991).
('http://alex.kozinski.com/articles/Confessions_of_a_badapple.pdf)

34.

The Dark Lessons of Utopia. 58 U. Chi. L. Rev. 575 (1991), reprinted in The St. Croix Rev., June
1993, at 43, in The Freeman, Feb. 1992, at 58, and in Econ. Educ. Bull., Feb. 1992, at 1.
('http://alex.kozinski.com/articles/The_Dark_Lessons_of_Utopia.pdf)

35.

A Drummer Tries to Remember Jim Morrison. Wall St. J., June 14, 1991, at A8 (reviewing John
Densmore, Riders on the Storm (1991)).
('http://alex.kozinski.com/articles/Drummer_Tries_to_Remember_Jim_Morrison.pdf)

36.

Romania’s Big Bamboozle. N.Y. Times Book Rev., June 30, 1991, at 16 (reviewing Andrei
Codrescu, The Hole in the Flag (1991)).
('http://alex.kozinski.com/articles/Romanias_Big_Bamboozle.pdt')

37.

Thomas Affair: A Valuable Civics Lesson. Wall St. J., Oct. 24, 1991, at A16.
nittp://alex. kozinski.com/articles/Thomas_Affair_Valuable_Civics_Lesson.pdD

38.

The Bulwark Brennan Built. Colum. Journalism Rev., Nov./Dec. 1991, at 8 (reviewing Anthony
Lewis, Make No Law: The Sullivan Case and the First Amendment (1991)).
fhttp://alex. kozinski.com/articles/The_Bulwark_Brennan_Built.pdD

39.

Books for Christmas. 24 The American Spectator 14 (Dec. 1991).
fhttp://alex.kozinski.com/articles/Books_for_Christmas.pdD

40.

Judging Between Archrivals. Wall St. J., Dec. 24, 1991, at A5.

rh„n//al£^^^

106 of 146

41.

“What’s the Alternative?”: A Roundtable on the Confirmation Process. A.B.A. J., Jan. 1992, at 41.
('http://alex. kozinski.com/articles/What's_the_Alternative.pdf)

42.

Scholarship of the Absurd: Bob Bork Meets the Bald Soprano. 90 Mich. L. Rev. 1578 (May 1992)
(reviewing Walter Adams and James W. Brock, Antitrust Economics on Trial: A Dialogue on the
New Laissez-Faire (1991)).
('http://alex.kozinski.com/articles/Scholarship_of_Absurd_Bob_Bork_Meets_Bald_Soprano.pdD

43.

Foreword in Sexual Harassment in Employment Law (Barbara Lindemann & David D. Kadue, BNA
1992), reprinted as Locking Women Workers in a Gilded Cage in Legal Times of Washington, May
25, 1992, at 26. ('http://alex.kozinski.com/articles/Foreword_in_Sexual_Harassment.pdD

44.

The Wrong Stuff. 1992 B.Y.U. L. Rev. 325, reprinted as How You Too Can . . . Lose Your Appeal.
Montana Lawyer, Oct. 1997, at 5. (http://alex.kozinski.com/articles/The_Wrong_Stuff.pdD

45.

Dances mit Forverts. Forward, July 10, 1992, at 1.
('http://alex.kozinski.com/articles/Dances_mit_Forverts.pdD

46.

Administrative Search /Update). Encyclopedia of the American Constitution (Supp. I 1992), at 8.
('http://alex.kozinski.com/articles/Adininistrative_Search_Update.pdD

47.

The Calamira Trial. International Ass’n of Jewish Lawyers & Jurists, (Jerusalem Dec. 29, 1992).
thttp://alex. kozinski.com/articles/The_Calamira_Trial.pdD

48.

Remarks Concerning Professor Bruff s Proposals. 39 UCLA L. Rev. 1249 (1992).
thttp://alex.kozinski.com/articles/Remarks_Conceming_Prof_Bruff.pdD

49.

Color and Caution. The New Republic, Feb. 1, 1993, at 72 (reviewing Andrew Kull, The Colorblind
Constitution (1992)). ('http://alex.kozinski.com/articles/Color_and_Caution.pdD

50.

The Anti-History and Pre-History of Commercial Speech. 71 Tex. L. Rev. 747 (1993) (with Stuart
Banner). ('http://alex.kozinski.com/articles/Antihistorv and_Prehistorv_of_Commercial_Speech.pdD

51.

The View From the Bench. A.B.A. J., May 1993, at 114 (reviewing Ruggero J. Aldisert, Winning
on Appeal: Better Briefs and Oral Argument (1992)).
fhttp://alex.kozinski.com/articles/The_View_from_the_Bench.pdU

52.

The Nintendo Story. Wall St. J., May 11, 1993, at A12 (reviewing David Sheff, Game Over: How
Nintendo Zapped an American Industry, Captured Your Dollars, and Enslaved Your Children
(1993)). fhttp://alex.kozinski.com/articles/The_Nintendo_Story.pdD

53.

A Penumbra Too Far. 106 Harv. L. Rev. 1639 (1993) (with Eugene Volokh).
('http://alex.kozinski.com/articles/A_Penumbra_Too_Far.pdD

54.

Sanhedrin II: The Case of Ivan Demjanjuk. The New Republic, Sept. 13, 1993, at 209.

DktE"^ 19' PaSe 107 °f 146
55.

Interbranch Relations: Hearings Before the Joint Comm, on the Organization of Congress. 103d
Cong., 1st Sess. 279 (1993) (on the proper use of legislative history).
('http://alex.kozinski.com/articles/lnterbranch_Relations.pdD

56.

Lawsuit. Shmawsuit. 103 Yale L.J. 463 (1993) (with Eugene Volokh).
thttp://alex.kozinski.com/articles/Lawsuit_Shmawsuit.pdf)

57.

Trademarks Unplugged. 68 N.Y.U. L. Rev. 960 (1993), reprinted in 84 Trademark Rep. 441 (1994).
thttpf/alex.kozinski.com/articles/Trademarks_unplugged.pdD

58.

Conspiracy. What Conspiracy?. Times Literary Supplement, Nov. 26, 1993, at 11 (reviewing Gerald
Posner, Case Closed (1993)). /http://alex.kozinski.com/articles/Conspiracv_what_Conspiracv.pdf)

59.

Echoes of Tomorrow: The Road to Serfdom Revisited. 23 Sw. U. L. Rev. 429 (1994) (with David
Schizer). f http://alex.kozinski.com/articles/Echoes_of_Tomorrow_Serfdom_Revisited.pdD

60.

Cruising the Information Superhighway. Wall St. J., July 18, 1994, at A8 (reviewing Harley Hahn
and Rick Stout, The Internet Yellow Pages (1994)).
('http://alex.kozinski.com/articles/Cruising_Information_Superhighwav.pdU
Introduction to Law. Economics & Civil Justice xiii (Patrick B. McGuigan ed., Free Congress
Foundation 1994). fhttp://alex.kozinski.com/articles/Introduction_to_Law_Econ_Civi1Justice.pdfi

61.

62.

Mickey & Me. 11 Univ. of Miami Entertainment & Sports L. Rev. 465 (1994).
('http://alex.kozinski.com/articles/Mickev_and_Me.pdD

63.

Round Table Discussion: Science. Environment, and the Law. 21 Ecology L.Q. 343 (1994).
thttp://alex. kozinski.com/articles/Roundtable_Science_Environment_Law.pdfi

64.

The Case of Punitive Damages v. Democracy. Wall St. J., Jan. 19, 1995, at A18.
('http://alex.kozinski.com/articles/Case_ofPunitive_Damages.pdf)

65.

Justice Sutherland. One of Us. Nat’l Rev., Feb. 20, 1995, at 64 (reviewing Hadley Arkes, The
Return of George Sutherland: Restoring a Jurisprudence of Natural Rights (1994)).
('http://alex.kozinski.com/articles/Justice_Sutherland_One_of_Us.pdD

66.

For an Honest Death Penalty. N.Y. Times, March 8, 1995, at A15 (with Sean Gallagher).
('http://alex.kozinski.com/articles/For_an_Honest_Death_Penaltv.pdfl

67.

Skiers Beware Riders of the Apocalypse. Wall St. J., March 15, 1995, at A12.
thttp://alex.kozinski.com/aiticles/Skiers_Beware_Riders_Apocalypse.pdD

68.

Introduction to Volume Nineteen. 19 Harv. J.L. & Pub. Pol’y 1 (1995).
(http:// alex. kozinski. com/articles/Introduction_to_Volume 19.pdD

69.

Don’t Drop the Torah!, in Proceedings of the Sixth Annual Symposium of the Constitutional Law
Resource Center, 1995, at 85, reprinted as When Just Isn’t Right in Farbrengen, Tishrei 5760/1999,

at 15, and5lpnnled‘m4pirt um?^orig^ha?:ti?leMcu^afif.4!lwyl^: /ebf$5l^),1 a( ff-116
(http://alex.kozinski.com/articles/Dont_Dropthe_Torah_Svmposium.pdD
(http://alex.kozinski.com/articles/When_Just_Isnt_Right.pdD
(http://aIex.kozinski.com/articles/Don,t_Drop_the_Torah_CalLawyer.pdf)
70.

Death: The Ultimate Run-On Sentence. 46 Case W. Res. L. Rev. 1 (1995) (with Sean Gallagher).
(http://alex.kozinski.com/articles/Death_Ultimate_Run-on_Sentence.pdD

71.

Plug ‘n’ Pray. Forbes, July 29, 1996, at 84. Hittp://alex.kozinski.com/articles/Plug_n_Prav.pdf)

72.

Diary. Slate, http://slate.com/diary/96-07-19/diary.asp (Jul. 19-Aug. 1, 1996) Jul. 24-Jul. 26, 1996
reprinted in The Slate Diaries (Jodi Kantor, Cyrus Krohn & Judith Shulevitz eds., 2000).
(http://alex.kozinski.com/articles/DiarvSlate.pdf)

73.

So You Want to Become a Federal Judge bv 35?. Nat’l L.J., Aug. 19, 1996, at
(http://alex.kozinski.com/articles/So_You_Want_to_become_Federal_Judge.pdD
C6.

74.

Defying Death for the Heck of It. Wall St. J., Aug. 30, 1996, at A7 (reviewing Michael Bane, Over
the Edge: A Regular Guy’s Odyssey in Extreme Sports (1996)).
(http://alex.kozinski.com/articles/Defying_Death_FIeck_of_It.pdD

75.

Spook of Earl: The Spirit and Specter of the Warren Court, in The Warren Court: A Retrospective
377 (Bernard Schwartz ed., 1996). (http://alex.kozinski.com/articles/Spook_of_Earl.pdD

76.

Foreword in Reel Justice. (Paul Bergman & Michael Asimow, Andrews and McMeel 1996).
(http://alex.kozinski.com/articles/Foreword_in_Reel_Justice.pdD

77.

In Praise of Moot Court—Not!. 97 Colum. L. Rev. 178 (1997) and American Lawyer, Jan./Feb.
1997, at 91. (http://alex.kozinski.com/articles/ln_Praise_of_Moot_Court_NQT.pdD

78.

Tinkering With Death. The New Yorker, Feb. 10, 1997, at 48.
(http://alex.kozinski.com/articles/Tinkering_with Death.pdD

79.

Teetering on the High Wire. 68 U. Colo. L. Rev. 1217 (1997).
(http://alex.kozinski.com/articles/Teetering_on_the_High_Wire.pdD

80.

Keynote Colloquy: Finding Justice in the Internet Dimension. 20 Seattle U. L. Rev. 619 (1997).
(http://alex.kozinski.com/articles/Finding_Justice_in_the_Internet_Dimension.pdD

81.

The Great Dissenter. N.Y. Times Book Rev., July 6, 1997, (reviewing Reason and Passion: Justice
Brennan’s Enduring Influence (E. Joshua Rosenkranz & Bernard Schwartz eds., 1997)).
(http://alex.kozinski.com/articles/The_Great_Dissenter.pdD

82.

Post-Mortem Talks with Jury Enlighten Judge. Nat’l L.J., Sept. 8, 1997, at A21.
(http://alex.kozinski.com/articles/Post_Mortem_Talks_with_Jury_Enlighten.pdD

83.

Tread Carefully When Approaching the Bench. Nat’l L.J., Oct. 27, 1997, at A19.
(http://alex.kozinski.com/articles/Tread_Carefully_When_Approaching_Bench.pdD

84.

Rending t9e^w?T?.¥.^lmes^oot1 fc’ev?I Al^^^sB^S^reviewfl! HanPeVi.^arber and
Suzanna Sherry, Beyond All Reason (1997)).
(http://alex.kozinski.com/articles/Bending_the_Law.pdf)

85.

The Modem View of Capital Punishment. 34 Amer. Crim. L. Rev. 1353 (1997) (debate with
Professor Stephen Bright), reprinted in The Angolite, July/Aug. 1998, at 26.
(http://alex. kozinski.com/articles/Modem_View_Capital_Punishment.pdf)

86.

Original Mean[der]ings. 49 Stan. L. Rev. 1583 (1997) (reviewing JackN. Rakove, Original
Meanings: Politics and Ideas in the Making of the Constitution (1996)) (with Harry Susman).
(http://alex.kozinski.com/articles/Origina1_Meanderings.pdD

87.

Brave New World. 30 U.C. Davis L. Rev. 997 (1997).
(http://alex.kozinski.com/articles/Brave_New_World.pdD

88.

The Annotated Alex. Calif. Lawyer, Jan. 1998, at 35.
(http://alex.kozinskj.com/articles/The_Annotated_Alex.pdD

89.

How I Stopped Worrying and Learned to Love the Press. 3 Comm. L & Pol’y 163 (1998)
(Symposium on the 50th Anniversary of the Hutchins Commission Report).
(http://alex.kozinski.com/articles/Stopped_Worrying_Learned_Love_Press.pdD

90.

The Many Faces of Judicial Independence. 14 Ga. St. U. L. Rev. 861 (1998).
(http://alex.kozinski.com/articles/Many_Faces_of_Judicial_Independence.pdD

91.

A Dissenting View From the Bench, in Science, Technology, and the Law 51 (New York Academy
of Sciences 1998). (http://alex.kozinski.com/articles/A_Dissenting_View_from_Bench.pdD

92.

The Breakfast Table. Slate (with Nadine Strossen), available at
http://www.slate.com/Code/Breakfast/Breakfast.asp?show=09/xx/98, where xx = 21 through 25
inclusive. (http://alex.kozinski.com/articles/Breakfast_Table_Strossen_and_Kozinski.pdD

93.

Clerkship Politics. 2 Green Bag 2d 57 (1998) (with Fred Bernstein).
(http://alex.kozinski.com/articles/Clerkship_Politics.pdD

94.

Constitutional Federalism Reborn. 22 Harv. J.L. & Pub. Pol’y 93 (1998).
(http://alex.kozinski.com/articles/Constitutional_Federalism_Reborn.pdD

95.

Should Reading Legislative History Be an Impeachable Offense?. 31 Suffolk U. L. Rev. 807
(1998).
(http://alex.kozinski.com/articles/Should_Reading_Legislative_History_Impeachable_Offense.pdD

96.

Conduct Unbecoming. 108 Yale L.J. 835 (1999) (reviewing Edward Lazarus, Closed Chambers
(1998)). (http://alex.kozinski.com/articles/Conduct_Unbecoming.pdD

97.

An Unfair Attack on a Decent Judgment. Nat’l Post, March 8, 1999, at A18.
(http://alex.kozinski.com/articles/Unfair_Attack_on_Decent_Judgment.pdD

98.

Time and Place (letter to the Editor), Nat’l Post, March 15, 1999, at A19.

: 19, Page 110 of 146

99.

The Case of the Speluncean Explorers: A Fiftieth Anniversary Symposium. 112 Harv. L. Rev. 1834,
1876 (1999). (http://alex.kozinski.com/articles/Case_of_Speluncean_Explorers.pdfl

100. Keeping Secrets: Religious Duty vs. Professional Obligation. 38 Washburn L.J. 747 (1999) (with
Leslie A. Hakala).
(http://alex.kozinski.com/articles/Keeping_Secrets_Religious_Duty_v_Professional_Obligation.pdfl
101. What’s So Fair About Fair Use?. The 1999 Donald C. Brace Memorial Lecture, 46 J. Copyright
Soc’y 513 (1999) (with Christopher Newman).
(http://alex.kozinski.com/articles/Whats_So_Fair_About_Fair_Use.pdD
102. Carthage Must Be Destroyed. 12 Fed. Sentencing Rep. 67 (1999).
(http://alex.kozinski.com/articles/Carthage_must_be_Destroyed.pdD
103. The Toyota Principle. 56 Wash. & Lee L. Rev. 923 (Summer 1999).
(http://aIex.kozinski.com/artlcles/The_Toyota_Principle.pdD
104. When the Written Word and Reality Diverge. Forward, February 14, 2000, at 17.
(http://aIex.kozinski.com/articles/When_Written_Word_and_Reality_Diverge.pdD
105. Please Don’t Cite This!. Calif. Lawyer, June 2000, at 43 (with Stephen Reinhardt), reprinted in 18
Appellate Practice Journal 6 (Summer 2000).
(http://alex.kozinski.com/articles/Please_Don't_Cite_This.pdD
106. Who Gives A Hoot About Legal Scholarship?. 37 Houston L. Rev. 295 (2000).
(http://alex.kozinski.com/articles/Who_Gives_A_Hoot_About_Legal_Scholarship.pdD

107. Pull Down The Blinds. N.Y. Times Book Rev., July 2, 2000, at 10 (reviewing Jeffrey Rosen, The
Unwanted Gaze (2000)). (http://alex.kozinski.com/articles/Pull_Down_the_Blinds.pdD
108. They Call It Paper Love. E-Filing Rep., June 2001, at 7.
(http://alex.kozinski.com/articles/They_Call_It_Paper_Love.pdD
109. How I Narrowly Escaped Insanity. 48 UCLA L. Rev. 1293 (2001).
(http://alex.kozinski.com/articles/How_l_Narrowly_Escaped_Insanity.pdD
110. Expert Testimony After Daubert. J. Acct., July 2001, at 59.
(http://alex.kozinski.com/articles/Expert_Testimony_After_Daubert.pdD
111. Privacy on Trial. Wall St. J., Sept. 4, 2001, at A22.
(http://alex.kozinski.com/articles/Privacy_on_Trial.pdD
112. Fooled by Randomness. Wilson Q., Spring 2002, at 117 (book review).
(http://alex.kozinski.com/articles/Fooled_By_Randomness.pdD
113. Gore Wars. 100 Mich. L. Rev. 1742 (2002) (reviewing Bjorn Lomborg, The Skeptical

Environmen&fisf^eaiuring

’ijlate o|1i!f^^6r?^,:^,?)W())1

Pa9e 111 °f 146

(http://aIex.kozinski.com/articles/Gore_Wars.pdJ1
114. Congressional Testimony. Oversight Hearing on Unpublished Judicial Opinions. Before the House
Subcomm. on Courts, the Internet, and Intellectual Property of the House Comm, on the Judiciary.
June 27, 2002. (http://alex.kozinski.com/articles/Qversight_Hearing_Unpublished_full.pdfl
115. Recapturing Madison’s Constitution: Federalism Without the Blank Check in James Madison and
the Future of Limited Government 13 (John Samples ed., 2002) (with Steven A. Engel).
(http://alex.kozinski.com/articles/Recapturing_Madisons_Constitution.pdfl
116. Pulling the Plug: My Stand Against Electronic Invasions of Workplace Privacy. 2002 U. Ill. J.L.
Tech. & Pol’y 407. (http://alex.kozinski.com/articles/Pulling_the_Plug.pdf1
117. Foreword in Academic Legal Writing: Law Review Articles. Student Notes and Seminar Papers
(Eugene Volokh, Foundation Press 2003).
(http://alex.kozinski.com/articles/Foreword_in_Academic_Legal_Writing.pdfl
118. The Judgment: X-Treme Advocacy Contest Winner. California Lawyer, September 2003, at 31.
(http://alex.kozinski.com/articles/Xtreme_Advocacy_Contest_Winner.pdf1
119. Honoring the Court’s Past. 71 Geo. Wash. L. Rev. 529 (2003).
(http://alex.kozinski.com/articles/Honoring_the_Courts_Past.pdf1
120. Foreword in A Criminal Waste of Time (William W. Bedsworth, American Lawyer Media 2003).
(http://alex.kozinski.com/articles/Criminal_Waste_of_Time.pdfl
121. In Opposition to Proposed Federal Rule of Appellate Procedure 32.1. 51(5) The Federal Lawyer 36
(June 2004). (http://alex.kozinski.com/articles/In_Opposition_To_Proposed_Rule.pdf)
122. The Real Issues of Judicial Ethics. 32 Hofstra L. Rev. 1095 (2004), reprinted as The Appearance of
Propriety. Legal Affairs, Jan./Feb. 2005.
(http://alex.kozinski.com/articles/Real_Issues_of_JudicialEthics.pdfl
(http://alex.kozinski.com/articles/The_Appearance_of_Propriety.pdfl
123. Don’t Split the Ninth Circuit!. Wall St. J., November 10, 2004, at A16 (with Sidney R. Thomas).
(http://alex.kozinski.com/articles/Dont_Split_the_Ninth_Circuit.pdf1
124. The Appeal. 103 Mich. L. Rev. 1391 (2005) (with Alexander Volokh).
(http://alex.kozinski.com/articles/The_Appeal.pdf1
125. Kozinski Strikes Back. San Francisco Recorder, Sept. 23, 2005
(http://alex.kozinski.com/articles/Kozinski_Strikes_Back.pdfl
126. Reply to Buchanan. Cato Unbound, December 9, 2005, available at http://www.catounbound.org/2005/12/09/alex-kozinski/reply-to-buchanan-2/
(http://alex.kozinski.com/articles/Reply_to_Buchanan.pdD
Call Me a Panglossian. Cato Unbound, December 18, 2005, available at http://www.catounbound.org/2005/12/18/alex-kozinski/call-me-a-panglossian/

19’ Pase 112 of 146

Responding to:
James M. Buchanan, Three Amendments: Responsibility. Generality and Natural Liberty. Cato
Unbound, December 5, 2005, available at
http://www.cato-unbound.org/2005/12/05/james-m-buchanan/
three- amendments/
fhttp://alex. kozinski.com/articles/Three_Amendments.pdf): and
James M. Buchanan, Response to Comments. Cato Unbound, December 14, 2005, available at
http://www.cato-unbound.org/2005/12/14/james-m-buchanan/response/
/http://alex. kozinski.com/articles/Response_to_Comments.pdf)
127. A Court United: A Statement of a Number of Ninth Circuit Judges. Engage, April 2006, at 63 (with
thirty-two other judges)
f http://aIex.kozinski.com/articles/A_Court_United.pdf)

(March 30, 2006)

o
co
</>

CD

CD

cn

coo

4^

NO
CD
NO
O

NO
NO

O

CD

M
i—i

bd

H

D
5 coo
£ oo
coo

COl

NO

o
m
3

CD
■D
DO
CQ
CD
OO
O

OO

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page

Index of /stuff

N115

Index of /stuff

a
a
a
a
a
a
a
a
a
a
a

Last modified

Parent Directory

09-Dec-2007 23:05

$20

06-Jun-2002 14:40

68k

(MONTY-1.MP3

06-Jun-2002 13:00

108k

(MontvPvthon1Radio.mp3

06-Jun-2002 13:00

108k

lOOmovies.wmv

20-May-2007 16:40

19.0M

lOSixteenTons.mp3

15-NOV-2005 21:16

2.6M

3rdWorldBombSquad.wmv

23-Jul-2005 02:54

1.7M

5iews.gif

30-Apr-2005 16:40

41k

AIRPORT.dOC

13-May-2002 23:46

526k

ATM THEFTS.PPS

17-Dec-2006 09:32

558k

ATT-History.wmv

15-Mar-2007 18:49

2.6M

Ain tGoin Downl.mp3

31-Jul-2007 18:19

2.6M

Apr 6 RushLimbauqh.wmv

25-Apr-2006 01:57

1.3M

Arkie Ouarter.jpg

13-May-2002 23:46

45k

ArnoldBobblehead.bmp

19-Jun-2005 14:44

41k

ArrestedTexasStyle.wmv

07-NOV-2005 00:18

543k

BADDAY S.MPG

06-Jun-2002 13:03

408k

BBCCopsUndies.wmv

30-Sep-2005 07:04

3.5M

BEERTEND.EXE

06-Jun-2002 13:03

252k

BLENDER■EXE

06-Jun-2002 13:04

655k

BUSTED.WAV

06-Jun-2002 13:04

1.3M

BadDayAtTheRodeo l.WMV

23-May-2005 00:04

1.7M

BanningJo.wmv

27-Feb-2006 16:14

4.4M

BestWomanDriver.wmv

08-Mar-2007 23:06

2.4M

Bethlehem Steel Resp..> 17-Dec-2003 00:47

61k

.doc

Bob.MP3

Ml

1 of 10

Size

Name

15-Mar-2007 18:38

3.4M

BritishAmbassadorLet.■> 21-Nov-2007 19:18

91k

Brokeback2.jpg

15-Apr-2006 02:22

67k

Bush Blairll.mpeg

27-Feb-2003 21:21

3.8M

CAUGHT.WAV

01-Dec-2003 17:46

1.3M

Description

12/23/07 7:38 PM

Index of /stuff

i

0
1

3
i
i

1
2
/

1

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 115 plpm*.k„2i„ski.com/s,uff/
N116

CHOCOLAT.pps

13-May-2002 23:18

486k

CHOCOL~l.EXE

06-Jun-2002 13:04

798k

COKEGIFT.EXE

0 6“Jun—2002 13:04

263k

COMPUTERENHANCEMENTS.■> 13-May-2002 23:46

211k

COMPUTERENHANCEMENTS..> 06-Jun-2002 13:05

5.1M

Canadian currency/

06-Apr-2006 21:28

CaughtOnFilm 21.wmv

25-Apr-2006 01:57

1.1M

CaveOfWeed.pdf

15-Apr-2007 02:21

673k

Christmas Applicatio..> 29-Dec-2002 22:22

45k

Colo-rectalSurqeon.wav

17-Jun-2003 11:23

271k

CowD.jpg

15-Jan-2004 21:28

80k

D-TOYS-2.EXE

06-Jun-2002 13:05

952k

DISCO.EXE

06-Jun-2002 13:05

192k

DUI-TEST-SCOTTISH.wmv

23-Jan-2005 18:51

901k

DaddyCutTheBiqOne.wav

04-Jan-2006 21:27

282k

Dilbert.PowerPoint■bmp

03-Sep-2006 00:11

855k

Disappointment.wmv

08—Jun—2007 23:51

1.5M

Don't.Eat.Worms.mp3

10-Jan—2 00 7 21:06

2.6M

Don'tTouchMe.mp3

13-May-2002 23:46

3.2M

DoninoPoolFinal.wmv

05-Nov-2006 22:37

1.8M

Douchenzondernattevo..> 19-Feb-2006 13:04

2.4M

06-Jun-2002 13:06

310k

Elektronik Supersoni..> 01-Jun-2004 18:42

1.3M

FART■EXE

06—Jun—2002 13:06

604k

Far side.jpg

13-May-2002 23:46

131k

Father.mp3

17-Dec-2002 17:21

729k

Fire.html■htm

12-Jan-2004 01:18

lk

Fire.html files/

06-Jun-2005 00:19

/

aa
0
0

a
3

a
a

i

2 of 10

ESHEEP.EXE

Flowchartofqettinqso.■> 25-May-2004 21:52

90k

Fridays.wmv

29-Oct-2006 22:05

3.3M

Fucking/

07-Nov-2006 02:28

GarageDoorOpener.wmv

28-Oct-2005 22:21

2.1M

Gas Prices.pps

28-Oct-2005 22:05

1.1M

GermanPope■jpg

12-May-2005 20:35

67k

12/23/07 7:38 PM

Index of /stuff

s

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 116 jj£ 1^ex kozinski xom/stuff/
N117

13-May-2002 23:46

24k

Good Morning America..> 06-Jun-2002 13:08

2.0M

GirlsEvil.jpg

0

0

m

GoodMorningAmerica.avi

24-Oct-2002 17:54

2.0M

m

GoodMorningAmerica.mov

13-May-2002 23:47

2.0M

GoodMorningAmerica.mpg

06-Jun-2002 13:08

2.0M

GreatestMovieLine.wmv

19-Aug-2005 08:28

1.1M

HALLOWEE.JPG

12-0ct-2002 10:56

42k

HAMPSTER.WAV

0 6—Jun—2 0 02 13:08

105k

HTTT.ER.WAV

06-Jun-2002 13:08

2.2M

HOLZFELR.MP3

06-Jun-2002 13:09

298k

Haircutformeetings.jpg

12-Dec-2005 00:07

25k

Halliburton.mp3

05-Nov-2004 21:27

224k

Halloween Costume.jpg

01-Dec-2002 23:35

27k

Hand Paint/

25-May-2004 21:44

Handrolled.mpg

19-Dec-2004 03:08

2.3M

Hats 1 .doc

06-Jun-2002 13:08

22k

HavaNagila.mpg

04-Dec-2002 22:06

1.8M

HawaiiWeather.wvx

16-Dec-2005 01:45

lk

Health.doc

03-May-2005 11:36

22k

HomerLookAlike.jpg

15-Jan-2004 18:33

28k

HorseRace.mp3

04-0ct-2005 21:21

1.1M

How.not.to.kick.mpg

13-May-2002 23:47

2.0M

Howtoputonabra■wmv

10-Nov-2006 14:50

2.1M

I knew there was a b..> 15-Dec-2004 11:56

33k

0

m

m

1
O

120
3

/

a
a
s

2
1
0

a
a
J9

3 of 10

I veBeentoMooseJaw.wma

30-Dec-2004 21:59

681k

JOHNNY-1.MP3

06-Jun-2002 13:10

3.4M

JUMP.AVI

06-Jun-2002 13:10

562k

JayLeno l.wmv

27-Feb-2003 21:21

1.7M

JohnnyCash-ABoyNamed.■> 06-Jun-2002 13:09

3.4M

Judge So.mp3

01-Apr-2003 15:35

2.6M

Krylaholidav■pps

13-May-2002 23:47

515k

Larry Craig/

11—Sep—2007 17:22

MONTYP-1.MP3

06-Jun-2002 13:12

3.1M

MasterCard■jpg

13-May-2002 23:47

49k

12/23/07 7:38 PM

Index of /stuff

2
1

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 117 gpM9ex.kozin$ki,om,sl„ff/
N118

MedicalAlertll.doc

25-Jun-2003 01:19

23k

Memo.roma.pdf

03—Jan—2006 13:42

36k

MensRules.pps

19-Nov-2005 22:47

134k

MercuryMotor.pps

28-Feb-2006 20:11

756k

MonkeyJoke.wmv

06—Jan—2004 01:25

1.5M

Monthly Man.wmv

05-JU1-2006 18:49

2.9M

Monty .Python-Lumber~i. ■> 06-Jun-2002 13:11

3.1M

Movie0uiz21.xls

17-Nov-2002 23:50

298k

Muscle Tricks.mpq

10-Apr-2006 19:02

2.7M

NOTMYJOB■GIF

06-Jun-2002 13:12

125k

NYC.exe

13-May-2002 23:47

402k

Netscape Wallpaper.bmp

06-Jun-2002 13:12

157k

Notqood■pps

08-Mar-2006 21:24

2.0M

Notice of Appeal — ..> 03-Aug-2006 21:29

57k

Notmyjob.jpg

15-0ct-2002 10:54

54k

PARACHUT.AVI

13-May-2002 23:47

4.2M

PT .AYBAT J, ■ AVT

0 6—Jun—2 002 13:13

3.0M

ParkinqExpertl.wmv

28-JU1-2005 00:03

457k

ParkinqExpert2.mpq

28-Jul-2005 00:03

634k

y ParkinqExpert4.mpq

28-JU1-2005 00:03

548k

Playboy's playmates .■> 25-May-2004 21:44

245k

PoolLifeGuard.wmv

09-Jan-2005 04:19

1.1M

Queen and Scots sold.■> 30-Dec-2004 21:58

49k

Radiocallqonewronq !■■> 21-May-2003 14:20

633k

Retainer.Letter.pdf

08-NOV-2006 07:53

47k

S&W342.jpg

15-Jan-2004 18:34

10k

SARS Mask Shortaqe.jpg

16-Jun-2003 02:20

59k

SNAKE.JPG

13-May-2002 23:47

17k

SNL-DeNiro.wmv

29-Jun-2004 17:10

2.3M

SNL-SuspectedbertDeN.■> 12-Jul-2004 18:54

2.3M

SNOWMAN.EXE

06-Jun-2002 13:13

1.4M

STUXMASP.EXE

06-Jun-2002 13:13

231k

SWClinton.exe

13-May-2002 23:47

777k

SamGross/

18-May-2005 17:18

a
a
a
a
B
a
a
&

0

1
Gy

a
a
a

a

l

0
y

a

1

a
"~1
a
a
n

%

□
4 of 10

12/23/07 7:38 PM

Index of /stuff

US

s
a
a
a
s

Case: 19-55429,12/02/2019, ID: 11516652, DktEntry: 19, Page 118 fi* mx.kozinski,om/suiff,
N119

Seat29EC3.pdf

10-Jul-2005 19:14

111k

She's Mine.mp3

13-May-2002 23:47

3.6M

Sheep guv.jpg

01-Dec-2002 23:35

38k

SofitelLoo2■jpg

29-Oct-2005 13:35

924k

Solution to the Mid-..> 13-May-2002 23:19

606k

St.Marteenl.pps

19-Jun-2005 14:39

1.3M

Stress Reliever.exe

13-May-2002 23:47

1.2M

THEORY.GIF

13-May-2002 23:47

22k

TOOTHBRU.JPG

13-May-2002 23:47

14k

Thats My Bov.mpq

21-Jun-2003 01:02

1.4M

TheBillinqSonq.mp3

25-Dec-2005 17:08

700k

TheMansonq.pps

17-Apr-2007 00:29

535k

The real meaning of ..> 01-Apr-2006 00:11

112k

TheformulaofSex.pps

15-Mar-2007 18:37

72k

Thumbs.db

06-Jun-2002 13:14

84k

Toilet .winy

14-May-2003 19:00

1.8M

Tom Lehrer - (Hannuk..> 13-May-2002 23:47

1.7M

Tom Lehrer - (Hannuk.■> 06-Jun-2002 13:14

1.7M

TurkishGillette.wmv

17-May-2007 20:15

2.3M

VibratorRecall.mp3

27-Jul-2005 00:09

726k

WHICHBAB.JPG

13-May-2002 23:47

60k

WHIPTH-1.EXE

0 6—Jun—2 002 13:15

698k

Whatdovousee l.pps

04-Jan-2006 22:11

140k

Where the sun don t . ■> 10-Jan-2007 19:06

4.1M

ioL,

oi i
io |

!

ra

a
a
a
3

a
a
a
a
3

a
3

a
a

04-Feb-2005 00:46

XMAS.EXE

06-Jun-2002 13:16

688k

XmasKanqaroo.wmv

09-Jan-2006 19:14

5.3M

Youthinkyou reunluck.■> 19-Jun-2005 14:43

32k

ZSSSLOTS.EXE

0 6—Jun—2 002 13:16

181k

a.day■without.iews.wmv

18-May-2006 23:56

6.4M

3
□

aimhiqhhh r11■mpeg

13-May-2002 23:46

1.5M

y]
PI

aliensonq.mpq

13-May-2002 23:46

3.1M

anqe!2.wmv

01-Sep-2006 01:08

4.8M

aussie.oops.mpq

29-Mar-2006 23:52

3.0M

□PI

5 of 10

Why Women Live Longer/

12/23/07 7:38 PM

Index of /stuff

Case: 19-55429,12/02/2019, ID: 11516652, DktEntry: 19, Page 119 ffltp1;?<L,k„zi„ski.c„Ws,„ff,
N120

01-Mar-2007 01:14

3.6M

da beerbvthepoolbounce...> 06-Apr-2006 21:32

3.7M

bambi.flv

0

1

13-May-2002 23:46

39k

20-May-2004 22:36

676k

borislp.exe

13-May-2002 23:46

287k

bouncy bouncy.wmv

24-NOV-2003 22:29

1.3M

brazilian-hair-cut-.pps

09-Jan-2005 04:26

482k

13-May-2002 23:46

20k

bush-for-president.jpg

06-Jun-2002 13:04

80k

cameltoe.htm

18-Dec-2003 22:59

18k

cameltoe/

22-Apr-2006 02:53

captain .wmv

15-Jan-2004 01:19

2.5M

ll-Aug-2005 22:32

90k

28-Jul-2002 23:52

3.7M

chinesemassproductio..> 15-Mar-2007 16:04

2.6M

13-May-2002 23:46

798k

colleqehumor.248334.mov 25-Sep-2005 12:24

15.3M

bendinq.jpg

da big jump.mpeg
lob

Oil
10 I

1

221 bunqeepoo. ~jpq

31 charade.jpg
cheeseshop.mp3

m
ioli.

1

chocolatebunny.exe

commercials/

17-Nov-2007 23:03

computerdate.jpg

19-Dec-2004 21:58

57k

consent.htm

27-Oct-2006 19:12

6k

CuJ consent files/

07-NOV-2006 02:36

crazy.fish.wmv

2 3-Jan—2 00 6 17:16

2.7M

13-May-2002 23:46

725k

datinqqame.rm

22-Aug-2006 18:17

1.7M

dd.bmp

16-Jun-2003 02:20

1.0M

deaf.ultimate.karako..> 24-Nov-2007 15:06

8.2M

deafkaraoke.wmv

30-Sep-2005 07:05

3.2M

didn't start the fire/

ll-Sep-2007 17:22

divorce.doc1.pdf

31-Mar-2006 00:30

310k

06-Jun-2002 13:06

2.6M

06—Jun—2002 13:06

2.6M

dumbestdoqyoullevers..> 22-Jan-2006 08:56

lk

edwards.pretty.wmv

31-Jul-2007 18:17

4.1M

eqqroll.wmv

27-Apr-2006 19:29

1.1M

IQ 1 dancinqbush.exe

B
B

1
□y

dl.mpq
PI
da donkey.mpq

a

1
6 of 10

12/23/07 7:38 PM

Index of /stuff

i
J3
2

a

3

1

lob.
Dll
10 I
job,
oi 1
10 I

a
a
si
2
1

a
a
a

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 120 ftU/$ex.kozinskUom(sluff,
N121

fastshooter.wmv

09-Mar-2005 20:55

740k

father.rm

13-May-2002 23:46

382k

flying grandma.wmv

01-Jun-2004 18:42

1.2M

freakinbrothers.wmv

10-Jul-2003 16:21

2.0M

funny-cats-2,wmv

06-Apr-2006 21:31

2.3M

galaxy.swf

ll-Nov-2006 01:26

1.0M

garyhart.mp3

04-Apr-2005 17:02

4.3M

georgewwhathe.wmv

21-Jan-2006 19:18

1.8M

gerbil.exe

13-May-2002 23:46

709k

gerbilgeno.exe

13-May-2002 23:46

1.7M

hangonstevens.mp3

05-Jul-2006 18:43

7.7M

harmonic.motion.eml

09-Jan-2004 00:12

106k

harrasment 1.wmv

05-Jul-2006 18:45

3.8M

headache-cure-56.wmv

25-May-2004 21:44

657k

helmutportrait.jpg

16-0ct-2003 17:05

21k

honda.commercial.html

06-Sep-2005 22:21

2k

how.offensive.gif

08-Feb-2006 18:01

58k

howmanypeople.gif

12-NOV-2003 00:07

69k

image0011.gif

03-Sep-2007 02:50

69k

isitmanisitwoman.pps

27-Apr-2006 23:20

1.4M

iackwebb.wav

24-Jan-2005 23:09

926k

iaguar.dent.gif

04-0ct-2005 20:22

80k

iapanese.wmv

13-Jun-2004 22:49

1.6M

iavlobi.wmv

17-NOV-2002 23:28

1007k

iesus.mov

04-Jan-2006 22:27

3.5M

iesus.wmv

05-Jul-2006 18:47

2.4M

iewsdontcamp.mp3

21-Jan-2006 18:58

2.3M

ioancrawford.jpg

14-Jan-2004 19:32

7k

ioefish.exe

13-May-2002 23:47

1.1M

iohn.mccain.sings.wmv

05-Jul-2006 18:48

4.4M

iump.avi

13-May-2002 23:19

562k

kerrvwins!.jpg

12-Dec-2005 00:08

35k

kooliuggle.gif

12-Dec-2003 23:21

574k

languages.jpg

17-Jun-2003 13:55

196k

PI

3

a
7 of 10

12/23/07 7:38 PM

Index of /stuff

§

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 121 (^p1^ex.koaJnski.com/stuff/
N122

lawyer&doq.gif

01-Jun-2004 07:54

8k

lehrer.rtf

06-Jun-2002 13:10

16k

levant e2ra060213.rm

19-Feb-2006 14:41

lk

lights.wmv

28-Nov-2005 22:45

4.8M

17-Jan-2004 12:44

120k

megaflics(1I.jpg

06—Jun—2002 13:10

108k

menciaMountain.wmv

15-Apr-2006 01:29

3.5M

mens room.asf

17-May-2003 00:00

810k

mexicanviagra.gif

17-NOV-2002 23:28

65k

monica.jpg

21-May-2003 14:27

15k

moscow.DOC

13-Mar-2005 20:09

95k

mousedart.exe

13-May-2002 23:47

1.1M

music/

18-May-2005 17:18

21 mars.jpg

i

ioL,

oil
IQ j

news report from Ira..> 18-May-2005 17:22

1.3M

nomorebush.jpg

09-Jan-2004 19:18

39k

not bond.wmv

23-Dec-2005 18:50

4.3M

Sh notre.dame.avi

12-0ct-2006 10:58

4.6M

nutcracker.mpq

ll-Oct-2004 01:53

3.0M

opinionpoll.pps
ioL.
oi l
IQ 1 optical.exe

11—Mar—2 0 0 6 00:32

92k

13-May-2002 23:47

22k

optical.pps

13-Mar-2006 23:30

859k

optical/

27-Feb-2006 22:55

orgasm.wav

06—Jun—2002 13:12

800k

osama.gif

19-Feb-2006 12:47

106k

passcontrol.wmv

27-Jul-2005 01:44

1.2M

pepper & salt you wo.■> 13-May-2002 23:47

33k

i

1

a

a
J

a
a
D

a
a
a
a
8 of 10

pinqpong.wmv

14-Jul-2003 14:32

3.4M

piss diver.wmv

ll-Feb-2006 01:47

390k

pork.jpg

03-Apr-2006 01:27

47k

porrspel.exe

13-May-2002 23:47

223k

profreading.wmv

17-Nov-2007 22:59

6.7M

riddle.jpg

21-May-2005 23:20

17k

rinqmvbell3555.wmv

08-Aug-2005 16:14

1.5M

santa l.wmv

23-Dec-2005 18:49

1.1M

12/23/07 7:38 PM

Index of /stuff

[Sft
IIQ-1

a
a
a
a
a
a
a
a
a
a
a
PI
□

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 122 ^pl^ex.ko.nski.co./stuff/
N123

santafart.mp3

08-May-2003 16:04

2.1M

sextetris.exe

13-0ct-2002 13:29

1.7M

sfo.mp4

07-Nov-2005 18:23

250k

shark.mpeg

01-Aug-2004 17:57

1.6M

siouemlteta.swf

15-Jan-2004 01:14

41k

sinqinqrabbi.wmv

21—May—2005 09:41

3.2M

slingshot.wmv

ll-Feb-2007 21:26

1.2M

so where did you guv.■> 22-Dec-2006 14:26

1.4M

sonicboom.jpg

13-May-2002 23:47

49k

stainqlass.jpg

12-0ct-2002 10:56

136k

sundavdriver.mpe

16-Jun-2003 02:20

6.9M

testicle.interview.wmv

22-Dec-2006 13:46

2.8M

texas.shootout/

17-Feb-2007 21:35

theartoffoolinqmen.pps

ll-Oct-2004 01:57

139k

torreador f.gif

13-May-2002 23:47

61k

tovstorv,jpg

13-May-2002 23:47

40k

truck-art/

04-Jan-2006 23:39

union,wmv

18—Jan—2 0 03 19:46

4.4M

upside.down.wmv

19-Feb-2006 12:25

788k

videodelmese Yoga.wmv

28-JU1-2005 00:01

2.0M

vince cdnnot f11.mp3

0 6—Jun— 2002 13:14

588k

vwqolf85. ~ipq

13-May-2002 23:47

153k

w zales adl.wmv

05-Jul-2006 18:49

846k

wall-mart-greeter.gif

27-Jun-2004 20:28

485k

wedding.jpg

06—Jun—2002 13:14

611k

weird al/

31-Jul-2007 18:56

whatsahol.wmv

ll-Jul-2005 23:38

1.4M

whiptheworker.exe

13-May-2002 23:47

698k

whymomscan tdovoqa.wmv

07-Jun-2007 23:02

2.0M

wife joke breaking n..> 16-Dec-2005 01:59

73k

women's%20bathroom.jpg

04-May-2006 00:11

36k

workcvcl.avi

06-Jun-2002 13:16

299k

worlds shortest vaca..> 13-May-2002 23:47

338k

wtc-photo2.gif

2.1M

p

a
a
ioti

HO

1

B
0
a

a

13-May-2002 23:47

/

9 of 10

12/23/07 7:38 PM

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 123 fiy^cx.kozinski.com/stuff/

Index of /stuff

e9

1

N124

vale.foreign.culture..> 12-Dec-2005 00:32

78.9M
1.4M

vaser.wmv

30-NOV-2004 15:42

yoga/

04-Jan-2006 23:40

vourepitiful.mp3

lO-Nov-2006 15:02

4.5M

06-Jun-2002 13:16

30k

SS zzzz.qif

Apache/1.3.37 Server at alex.kozinski.com Port 80

10 of 10

12/23/07 7:38 PM

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 124 of 146
N125

EXHIBIT 8

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 125 of 146
N126

STATE BAR COURT OF CALIFORNIA

FOR CLERK’S USE ONLY:

FILED
FEB -.6. 2015 $

HEARING DEPARTMENT
845 S. Figueroa Street, 3rd Floor
Los Angeles, CA 90017-2515
Case Nos:

In the Matter of:
CYRUS M. SANAI,
Member No. 150387,

STATE BAR COURT" <
CLERK’S OFFICE
LOS ANGELES
10-0-09221,12-O-10457-DFM

ORDERS RE RESPONDENT’S MOTIONS TO
DISMISS

A Member of the State Bar
On October 17, 2014, in anticipation of the conclusion of the State Bar’s case-in-chief
during the trial of this matter. Respondent filed motions to dismiss all nine of the counts currently
pending against him. (Rules Proc. State Bar, rules 5.110 and 5.124(E).)
On October 24, 2014, the State Bar filed an “omnibus” opposition to the motions.
Rule 5.110 provides:
(A)
Motion on Failure to Meet Burden of Proof. During a trial, after
the party with the burden of proof has rested and before the proceeding is
submitted to the Court, the opposing party may make a motion for a
determination that the party with the burden of proof has failed to meet its
burden, or the Court may make the motion itself and give the parties an
opportunity to argue the issue. If the allegations are severable, the Court
may dismiss some but not all of them. The Court must consider and weigh
all the evidence introduced and determine credibility.
(B)
Denial of Motion, If the motion is denied, the moving party may
offer evidence to the same extent as if the motion had not been made,
(C)
Grant of Motion. If the motion is granted, the Court’ s decision
must include findings of fact and conclusions of law.
Rule 5.124(E) provides:
Motion to Dismiss for Failure to State a Disciplinable Offense. A
(E)
motion to dismiss for failure of the initial pleading to state a disciplinable
offense may be made at any time before the Court finds culpability.
Having considered the arguments of counsel, the voluminous evidentiary record, and the
allegations of the Notice of Disciplinary Charges in this matter, the court concludes as follows:

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 126 of 146
N127

There is no contention made by Respondent in his motion that the State Bar’s evidence
does not show that he failed to timely report the sanctions that were ordered at that time. Instead,
Respondent argues that this count must be dismissed because “It is OCTC’s burden of proof to
show that the disciplinary proceedings were initiated in a timely fashion.”
For all of the same reasons discussed with regard to Count 2, above, this motion to dismiss
Count 3 is DENIED.
Count 6:
In this count the State Bar alleges that between October 2008 and September 2010,
Respondent “filed and maintained formal judicial complaints with the Ninth Circuit Judicial
Council against approximately 19 federal judges, when such complaint were frivolous and made
for improper reasons ... .” It alleges that the filing of these complaints constituted acts of moral
turpitude.
In his motion, Respondent argues that the evidence received by this court is insufficient to
establish clear and convincing evidence to support this count.
The State Bar did not put in evidence the complaints actually filed by Respondent against
the federal judges. In response to tins court’s inquiry, it was informed by the State Bar that it was
unable to do so due to the Ninth Circuit’s refusal to provide those complaints to the State Bar.
Being unable even to read the complaints filed by Respondent, this court cannot conclude
that any of those complaints were filed frivolously or constituted an act of moral turpitude. To the
extent that this court is aware of the content of one of those complaints, the record shows that it
was apparently justified and resulted in a formal apology by the judge and a self-administered
recusal by him from the pending matter involving Respondent.
This count is DISMISSED WITH PREJUDICE.
Count 7:

In this count, the State Bar alleges that Respondent failed to timely report a sanctions order
of the U.S. District Court issued, on or about September 6, 2007.
There is no contention made by Respondent in his motion that the State Bar’s evidence
does not show that he failed to timely report the sanctions that were ordered at that time. Instead,
Respondent argues that this count must be dismissed because “It is OCTC’s burden of proof to
show that the disciplinary proceedings were initiated in a timely fashion.” For all of the same
reasons discussed with regard to Count 2, above, that contention is rejected.
Respondent also argues that he had no duty to report the court’s order because it was not an
award of “sanctions” for which reporting is required by Business and Professions Code section
6068, subdivision (o)(3). This court disagrees.
The scope of the reporting obligation under section 6068, subdivision (o)(3), is not limited
to orders issued under authority of statutes or rules having the precise word “sanction” contained
4

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 127 of 146
N128

therein. Instead, the duty includes order issued pursuant to statutes and rules (and possibly other
sources of authority) which are used for the purpose of punishing bad faith conduct.
This interpretation of the scope of section 6068, subdivision (o)(3), is consistent with the
treatment by the California courts of orders issued under other statutes (see, e.g., Young v.
Rosenthal (1989) 212 Cal. App, 3d 96, 130-138 [order issued under Code of Civil Procedure
section 9072 characterized and treated as “sanction”)), and it is supported by prior decisions of this
court. (See In the Matter ofRespondent 7 (Review Dept. 1998) 3 Cal. State Bar Ct. Rptr. 862, 866
[interpreting section 6068, subdivision (o)(3), to require report to be made within 30 days after
order issued, even though order is not final and is being appealed].3
The order issued by the trial judge here was issued pursuant to 15 U.S.C. 168In, which
provides in pertinent part: “Upon a finding by the Court that an unsuccessful pleading, motion, or
other paper filed in connection with an action under this section was filed in bad faith or for the
purpose of harassment, the Court shall award to the prevailing party attorney’s fees reasonable in
relation to the work expended in responding to the pleading, motion or other paper.” In that
court’s decision, the court noted that the statute reflected “the legitimate substantive federal
statutory policy of punishing bad faith conduct made in connection with actions under Section
1681(Ex. 48, p. 3.) The court then awarded attorneys pursuant to that statute based on its
finding that Respondent’s prosecution of the action had been “malicious” and “in bad faith and
with the purpose of harassment.” (Id. atpp. 3-4.)
Respondent’s motion to dismiss Count 7 is DENIED.
Count 8:
In this count the State Bar al leges that Respondent encouraged the continuance of an action
from a corrupt motive of passion or interest by filing an Abstract of Judgment in the amount of
$143,469.95, with the Los Angeles County Recorder’s Office, when he knew he had no basis to do
so and did so with a corrupt motive of passion or interest and to inflict harm on the defendants in
that proceeding, in willful violation of Business and Professions Code section 6068, subdivision
(g).
The evidence received by this court is sufficient to sustain a finding that Respondent’s
actions in filing the Abstract of Judgment constituted a willful violation of section 6068,
subdivision (g). This conduct by Respondent was an unjustified continuation of his previously
efforts to obtain $137,000 in attorney’s fees. Those actions began with his filing of a
memorandum of costs on April 17, 2006, discussed more fully below, prior to any judgment
having been entered by the court and without having sought any court order awarding him
attorney’s fees. After the court entered and then vacated its order of May 11, 2006, disapproving
2 Similar to 15 U.S.C. 168 In, section 907 of the Code of Civil Procedure provides, “When it
appears to the reviewing court that the appeal was frivolous or taken solely for delay, it may add to
the costs on appeal such damages as may be just.”
3 “We hold that the purpose of section 6068, subdivision (o)(3) is to inform the State Bar promptly
of events which could warrant disci plinary investigation. Depending on the facts, any such
investigation might not even focus primarily on the sanction itself, but on the conduct preceding or
surrounding a sanctions order.”
5

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 128 of 146
N129

and striking that memorandum of costs, the defendants filed a written motion to have the
memorandum of costs stricken, resulting in the court entering an order on July 31, 2006, striking
the memorandum of costs. In that order, the court was explicit in stating that Respondent was not
entitled to any award of attorney’s fees because he had not first sought them through a noticed
motion. (Ex. 22.)
Despite that court’s written order on July 31,2006, Respondent proceeded on October 18,
2006 to secure from the court clerk an abstract of judgment and then file that abstract ofjudgment
with the Recorder’s Office on October 20, 2006, purporting to show that he held a judgment
against The Irvine Company and the other defendants in the amount of $143,469.95 (which was
based almost entirely on his previously-disapproved claimed entitlement to $137,000 of attorney’s
fees). (Ex. 23.) This recorded instrument then created for months an obstacle to those defendants
closing various business transactions while the purported “judgment” remained outstanding and
unsatisfied.
To remove this impediment to their businesses, the defendants were required by
Respondent to file a motion to have the recorded abstract invalidated. The resolution on that
motion was delayed by Respondent’s unsuccessful challenges to the judge and was not heard until
March 2007, at which time the court granted relief from tire recorded abstract .
Respondent alleges that the count should be dismissed because the evidence does not
provide clear and convincing evidence of the continuation by him of “an action or proceeding from
any corrupt motive of passion or interest.” More specifically, he argues that a violation of section
6068, subdivision (g), requires “the filing and continuance of a meritless ‘action’, that is to say
‘lawsuit,’ and not the filing a specific document therein which is divorced from the merits of the
action.” (Motion, p. 4.)
This contention lacks merit. Section 6068, subdivision (g), enjoins the “commencement or
the continuance of an action or proceeding from any corrupt motive of passion or interest.” The
use of the disjunctive “or” in that prohibition makes clear that the commencement of an improper
action is not a prerequisite to this court finding a violation of the statute based on subsequent
conduct, resulting from corrupt motive of passion or interest, seeking to continue the action.
Respondent’s motion to dismiss Count 8 is DENIED.
Count 9:
In this count the State Bar alleges, “On or about April 17, 2006, Respondent filed a
Memorandum of Costs in Sanai v. Saltz. et al., Los Angeles County Superior Court case no.
BC235671, listing names of individuals upon an accompanying service list whom Respondent
claimed were agents of process for corporate defendants who had been served when he knew, or
was grossly negligent in not knowing, that such individuals in fact had not been served on behalf
of the corporate defendants, and thereby Respondent committed an act or acts involving moral
turpitude, dishonesty or corruption in willful violation of Business and Professions Code, section
6106.” [sic]
Respondent contends in is motion that the State Bar has failed to present clear and
convincing evidence supporting this count. This court agrees.
6

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 129 of 146
N130

There is no evidence that, when the Memorandum of Costs was filed on April 17, 2006, it
included a service list “listing names of individuals upon an accompanying service list whom
Respondent claimed were agents of process for corporate defendants who had been served.”
Instead, the evidence is uncontradicted that the proof of service filed by Respondent with the
Memorandum of Costs on April 17, 2006, stated that the memorandum had been addressed and
mailed only to the corporate defendants’ offices, with no designation of any individual at those
offices to which the mail was to be delivered4
The evidence offered by the State Bar in support of the above allegation relates to a
contention by Respondent’s opposing counsel in 2006 that Respondent, after the Memorandum of
Costs had been filed, had made a notation on the previously-filed service list regarding the identity
of the designated agents of those corporate defendants for service of process. However, it is
undisputed that this notation was made by Respondent with the knowledge and consent of the
court’s clerk, in her presence, and at her request. This clerk was aware that Respondent, a party to
the action, was not (and could not be) the person who had signed the proof of service under penalty
of perjury, and there is no evidence that Respondent was claiming to modify the proof of service or
that the clerk believed that Respondent’s subsequent notation in any way modified the original
proof of service.
The disputed issue at that time was whether the clerk had merely requested that Respondent
write down the identity of the designated agents for service of process or whether she had asked
Respondent to write down the names of the individuals who had actually been served. At an ex
parte hearing on May 11, 2006, this clerk was called to testify regarding that issue. Prior to her
being summoned to testify in 2006, comments by both the presiding judge and opposing counsel
made clear that each had discussed with her the substance of her anticipated testimony. (Ex. 29,
pp. 5-6; cf. p. 'll, line 26.)5 During her testimony, her answers were equivocal, including
acknowledging on cross-examination that her memory of the event (which had happened less than
three days before) was poor and that she did not remember exactly the reason she had given
Respondent for asking him to write down the names of the designated agents for service of
process. (Ex. 29, pp. 25-26, 44.)
This same clerk was called as a witness by the State Bar during the trial of this matter.
Although she had been provided with a copy of her prior testimony, and had affirmed its content as
correct for the State Bar in January 2014, when she was called as a witness in this proceeding in
August 2014, she testified that she could not identify Respondent, has no recollection of the
disputed memorandum of costs, and has absolutely no recollection of discussing the matter with

4 This failure to address the letter to individuals authorized to accept service of process on behalf
of the corporation greatly reduces the likelihood that the effort at service will be successful, but is
not necessarily fatal. (See Dill v. Berquist Construction Co. (1994) 24 Cal. App. 4th 3 426, 1437
[service is effecti ve, even if the mailing is not addressed to an authorized agent, if it is actually
received by such an agent].)
3 Respondent contends that the clerk’s testimony at that time was improperly influenced by the
presiding judge for improper reasons, and he seeks in this proceeding to subpoena and question
that judge as an adverse witness in this proceeding regarding his contact with the clerk prior to her
testimony.
7

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 130 of 146
N131

Respondent.6 This purported lack of any memory by the witness was not credible, had the effect
of eliminating any meaningful cross-examination by Respondent, and makes her prior testimony
during the May 11, 2006 ex parte hearing even less convincing.
Also weakening the weight to be given the record of the May 11, 2006 hearing is the fact
that it took place without Respondent having been given proper prior notice. Opposing counsel
had given Respondent only telephonic notice of his intent to make an ex parte application for an
order shortening time for a contemplated written motion seeking to strike the memorandum of
costs. Opposing counsel had previously indicated to Respondent that this attack would be based
on the absence of a judgment entered by the court prior to the filing of the memorandum of costs.
Then, on May 11,2006, when the court heard the ex parte matter, opposing counsel indicated that
he had previously given notice, via a telephone message left on Respondent’s phone, of his intent
to seek on May 11 the actual order striking the memorandum of costs. Although Respondent
objected at the hearing to this lack of notice, the court went forward to issue an order striking the
memorandum of cost, based in part on the clerk’s testimony. The court was then required to
vacate that order on the following day, when Respondent was able to return to court and make a
formal record of a copy of the recorded phone message, which was explicit in stating that the only
stated purpose of the May 11 ex parte appearance was to seek an order shortening time.
Finally, the contention that Respondent was attempting to mislead the court or opposing
counsel into believing that the designated agents for service of process had been served with the
memorandum of costs is belied by Respondent’s having filed and served a declaration, dated May
10, 2006, in which he provided the court and opposing counsel with a copy of the original proof of
service; documentation that the memorandum of costs was served only by sending it by certified
mail, addressed only to the corporation and not to any specific individual; and documentation that
the individuals signing for the certified mail at the two corporate offices were both individuals
other than the designated agents for service of process.
The evidence failing to present clear and convincing proof of the act of moral turpitude
alleged in Count 9, that count is DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
Dated: February (j

,2015

DONALD F. MILES
Judge of the State Bar Court

6 The clerk also denied any memory of her contact with the trial court prior to her testifying in
2006, despite her review of the court’s statement in the transcript that he had talked with her.
8

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 131 of 146
N132

CERTIFICATE OF SERVICE
[Rules Proc. of State Bar; Rule 5,27(B); Code Civ. Proc., § 1013a(4))
I am a Case Administrator of the State Bar Court of California. 1 am over the age of eighteen
and not. a party to the within proceeding. Pursuant to standard court practice, in the City and
County of Los Angeles, on February 6, 2015,1 deposited a true copy of the following
document(s):
ORDERS RE RESPONDENT’S MOTIONS TO DISMISS
in a sealed envelope for collection and mailing oh that date as follows:
by first-class mail, with postage thereon fully prepaid, through the United States Postal
Sendee at Los Angeles, California, addressed as follows:
CYRUS M. SANAI
SANAIS
433 N CAMDEN DR STE 600
BEVERLY HELLS, CA 90210
by interoffice mail through a facility regularly maintained by the State Bar of California
addressed as follows:
BROOKE SCHAFER, Enforcement, Los Angeles
KEVIN BUCHER, Enforcement, Los Angeles
I hereby certify that the foregoing is true and correct. Executed in Los Angeles, California, on
February 6,2015.

Tammy Cleaver
Case Administrator
State Bar Court

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 132 of 146
N133

EXHIBIT 9

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 133 of 146
N134

FILED
MAR 20 201S
STATE BAR COURT
CLERK'S OFFICE
LOS ANGELES

STATE BAR COURT OF CALIFORNIA
HEARING DEPARTMENT- LOS ANGELES

In the Matter of
CYRUS MARK SANAI,
Member No. 150387,
A Member of the State Bar.

)
)
)
)
)
)
)
)
)
)
)
)
)

Case Nos.: 10-0-09221; 12-O-10457-DFM
ORDER GRANTING MOTIONS TO
RECONSIDER DENIAL OF
RESPONDENT’S MOTION TO DISMISS
AND STATE BAR’S MOTION TO
QUASH; DISMISSING COUNTS 1-5 AND
7; GRANTING MOTION TO QUASH
SUBPOENAS RE NINTH CIRCUIT
EMPLOYEES; AND ABATING
RESOLUTION OF COUNT 8 AND
RELATED MOTIONS TO QUASH
PENDING RESOLUTION OF
UNDERLYING CIVIL ACTION

The Notice of Disciplinary Charges (NDC) in these cases was filed by the Office of the
Chief Trial Counsel (State Bar) on January 7,2014. Counts 1-5 arise out of Respondent’s

\

involvement as a party in litigation filed in the State of Washington; Count 6, which has now
been dismissed by this court, related to complaints filed by Respondent with the Judicial Council
of the Ninth Circuit against various judges of the Ninth Circuit; and Counts 7-9 arise out of
Respondent’s involvement as a party in litigation still pending in the Los Angeles County
Superior Court.1 In those counts, Respondent is charged with misconduct occurring in April and
May 2005 (Count 1), July 2005 (Count 2), March 2005 (Count 3), October 2004 (Count 4),

i

Count 9 has also now been dismissed by this court.

/

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 134 of 146
N135

t

/'

November 2005 (Count 5), October 2008 through September 2010 (Count 6), September 2007
(Count 7), October 2006 (Count 8), and April 2006 (Count 9).
At the conclusion of the State Bar’s case-in-chief against Respondent, Respondent moved
to dismiss all of the nine counts pending against him, contending, inter alia, that the counts are
barred by the five-year rule of limitations set forth in rule 5.21(A) of the Rules of Procedure of
the State Bar of California, which provides: “If a disciplinary proceeding is based solely on a
complainant’s allegations of a violation of the State Bar Act or Rules of Professional Conduct,
the proceeding must begin within five years from the date of the violation.” In turn, the State
Bar defended its decision to file the charges in 2014, well more than five years after the alleged
misconduct, by invoking the provisions of rule 5.21(G), which provides: “The five-year limit
does not apply to disciplinary proceedings that were investigated and initiated by the State Bar
based on information received from an independent source other than a complainant.”
In response to Respondent’s motion to dismiss, this court dismissed Counts 6 and 9 based
on the absence of clear and convincing evidence of the misconduct alleged in those counts.2 The
court, however, denied Respondent’s motion to dismiss the remaining counts based on the fiveyear rule of limitations of rule 5.21(A). The court’s decision to defer resolution of that issue was
based on In the Matter of Wolff(Review Dept. 2006) 5 Cal. State Bar Ct. Rptr. 1, which holds
that the respondent has the burden of proving application of the rule of limitations. Since that
burden would suggest that the State Bar had no obligation during its case-in-chief to present
evidence regarding defenses to the apparent application and/or running of the rule of limitations,
but instead presumably could wait to present such evidence until after Respondent had presented
his evidence, this court concluded that resolution of the rule of limitations issue should be
deferred until after the State Bar had the opportunity and burden of presenting any evidence that

2 No request has been made by the State Bar to reconsider those dismissals.

-2-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 135 of 146
N136

the proceedings were “were investigated and initiated by the State Bar based on information

’

received from an independent source other than a complainant” or that there had been some
tolling of the running of the rule of limitations. Respondent has now filed a motion for

I

reconsideration of this court’s denial of that request for dismissal.
Related to the resolution of this rule of limitations issue is whether the State Bar may
prevent discovery and/or disclosure of evidence regarding the nature and source of the
information the State Bar received and relied on in filing the various counts against Respondent.
Respondent has sought, during both pretrial discovery and trial, to require the State Bar to
produce a substantial number of documents in its files regarding the history of the State Bar’s
receipt and handling of complaints and information regarding the events giving rise to the
remaining counts, and he has subpoenaed as witnesses at trial the two State Bar employees,
attorneys Joseph Carlucci and Brooke Schaeffer, who have been identified as the individuals
most knowledgeable about the reasons for the State Bar’s investigation and initiation of the
pending charges. In response to those efforts by Respondent, the State Bar has refused to

"'I

produce the requested documents and witnesses, and it has filed a motion to quash the trial
subpoenas.
On October 16,2014, this court issued an order denying the State Bar’s motion to quash
Respondent’s subpoenas requiring the production of State Bar documents and the appearance as
witnesses of attorney Schaeffer.3 In that order this court concluded:
In its motions to quash, die State Bar argues that the requested
documents are confidential and protected attorney work product. It
is well-established that the party asserting such a privilege has the
burden of establishing that privilege. (Fellows v. Superior Court
(1980) 108 Cal.App.3d 55,67; Brown and Weil, Civil Procedure

3 h tfiat order the court indicated that it was reserving the issue of whether to quash the subpoena
requiting the attendance of Joseph Carlucci as a witness at trial until after the testimony of a
designated State Bar witness regarding the procedural history of the matters was heard
That
testimony was received on October 21,2014.
-3-

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 136 of 146
N137

Before Trial, ^ 8:192.) In addition, rule 5.65(1) provides that
“When a party withholds information otherwise discoverable under
these rules by claiming that it is privileged or otherwise protected,
the party must make the claim expressly and must describe the
nature of the documents, communications, or things not produced
or disclosed in a manner that, without revealing information itself
privileges, will enable the other party to assess the applicability of
the privilege or protection.”4 The State Bar has done neither. The
motions and their supporting declarations do not contain express
claims of privilege or other protection; nor do they describe the
nature of the documents, communications or things not produced
or disclosed “in a manner that, without revealing information itself
privileged or protected, will enable the other party to assess the
applicability of the privilege or protection.” (Rule 5.65(I)(2).) The
motions do not attempt to provide a privilege log that complies
with rule 5.65(I)(2). The supporting declarations are vague and
general5 and based on “information and belief’ about the contents
of the files and the genesis of the investigations. In sum, there is
no factual basis for this court to make a preliminary finding that
any of the documents are protected by the attorney work product
rule.
The State Bar also asserts that all of its files are
confidential pursuant to rule 2301, which states that, except as
otherwise provided by law or the Rules of Procedure, its files and
records are confidential. This broad rule is applicable to the State
Bar’s files prior to its filing of charges against a member.
However, where charges have been filed, due process and the
provisions of the Rules of Procedure, including rule 5.65(1), make
clear that the member is entitled to have access to documents that
are exculpatory. This is especially true where the State Bar has
called one of its own employees to testify regarding its lack of
prior knowledge of certain facts from the member.
The list of documents attached to each subpoena sets forth
items that may shed light on the genesis of the initial and any
subsequent complaints against Respondent; their nature, scope and
resolution, if any; and the timing of those events. These
documents may be relevant in assessing whether any of the
pending charges are time-barred. There is no other way for
Respondent to obtain this information and defend on this basis.
4 Rule 5.65(1) also provides in pertinent part that “Statements of any witness interviewed by the
deputy trial counsel,... are not protected as work product.” [Footnote in original order]
5 For example, “Also, many communications between members of State Bar staff have been
withheld as privileged. To the best of my information and belief, none of these contain
otherwise discoverable witness interviews.” (Bucher declarations, page 6, paragraph 9.)
footnote in original order]
-4-

\

r

Case:. 19-55429, J2/02/2019.,ID: 11516652, DktEnlf/19,:Page 137 of 146
N138

/

4

While that order required the State Bar to produce documents on October 20,2014, the

m

State Bar filed a motion for reconsideration of the above order, and compliance was

i

subsequently stayed by this court pending its receipt of the scheduled State Bar testimony,

*

resolution of Respondent’s motions to dismiss, and resolution of the State Bar’s motion for
reconsideration.

<

On October 27,2014, Respondent filed an opposition to the motion for reconsideration.
On October 28,2014, the State Bar filed a reply to the opposition. On October 29,2014,
Respondent filed a request to strike the State Bar’s reply or, in the alternative, a sur-reply to the
reply.6
On October 21,2014, the State Bar called a State Bar investigator to testify regarding the
history of the complaints and investigations leading up to the filing of the NDC in 2014.
However, this investigator was not assigned to work on these matters until 2011. His only
knowledge of the history of the State Bar’s first awareness of the matters giving rise to the
alleged misconduct being pursued in the pending NDC is based on his review of the State Bar’s
files, including documents that are the subject of the pending subpoenas. Although he was

(

requested during the morning of his testimony to bring the files he had reviewed to court during
\

his continued testimony that afternoon, he did not do so.
Documents previously provided by the State Bar to Respondent, coupled with the
investigator’s testimony at trial, make clear that the State Bar was made aware in August 2005 of
complaints regarding Respondent’s alleged misconduct in the Washington litigation, when
Respondent’s opposing counsel in that Washington litigation, William Gibb, forwarded
information regarding that alleged misconduct to Frederick Bennett (Bennett), court counsel for
the Los Angeles County Superior Court, for the stated purpose of having Bennett report that
6 The court exercises its discretion to receive both the reply and the sur-reply. The request to
strike the reply is denied.
-5-

I

\

\

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntryf 19', Page 138 of 146
N139

/

/

information to the State Bar, Bennett then forwarded that information to the State Bar. In the
course of Bennett’ s complaining to the State Bar, he indicated that he was then acting as
“counsel of record for Judge Grimes” - to whom Respondent had apparently written a letter after
Judge Grimes had been removed by the appellate court from presiding further over the matter in

I

t

which Respondent was a party. Bennett complained to the State Bar that Respondent’s letter to
his client violated various rules of professional conduct. (See Exs. 60,1045.) Respondent now
argues in this proceeding that Bennett’s real motivation for his complaints to the State Bar was
l

f

retaliation for Respondent testifying in opposition to the elevation of Judge Grimes to the
appellate bench.
The information provided to the State Bar by Bennett was initially handled in case No.
05-0-3430 (the ‘05 case). Thereafter, an additional complaint regarding Respondent’s activities
in the Washington litigation was received by the State Bar in April 2006 from an employee of
the Washington State Bar. This individual provided the State Bar with copies of the sanction

i

orders underlying counts 2,4, and 5 of the pending NDC as well as information underlying
counts 1 and 3. (Ex. 64.) The State Bar then opened case No. 06-0-12214 (the ‘06 case) and
contacted Respondent in October 2006 regarding the sanction orders and his other actions in the
Washington proceeding. (Ex. 65.) At that time, Respondent confirmed the prior issuance of the

orders underlying counts 2-5. At some time thereafter, both the '05 and ‘06 cases were closed.
The State Bar’s witness during the trial of the instant matter was not able to identify who made
the decision to close the cases or precisely when they were closed.
At some point in 2008, a new case, case No. 08-0-13372 (the '08 case), was opened.
The State Bar witness testified that this new case was based on the '05 case and was opened
within a few months after the ‘05 case was closed at the recommendation of the attorney who
had closed the ‘05 case. The witness, however, did not identify who that attorney was. What
-6-

1

Case: 19-55429, 12/02/2019, ID: 11516652,. DktEntry: -13, Page-I^of 146
N140

/

prompted the matter to be re-opened, albeit under a different case number, was not explained.
Respondent was then contacted in 2009 about the conduct underlying counts 7 and 9, and the ‘08
case was then closed. The State Bar’s witness stated that a number of attorneys worked on the
‘08 investigation, but he could not identity the specific individual who had closed the file.
In 2010, a complaint was made to the State Bar by the Judicial Council of the Ninth
Circuit regarding Respondent’s purportedly frivolous complaints to it about a number of federal
judges. Hus complaint by the Judicial Council of the Ninth Circuit subsequently formed the
basis for Count 6 of the pending NDC. When the complaint was received, the State Bar opened
case No. 10-0-09221 (the ‘10 case) and contacted Respondent about the matter. Then, after
learning that the Judicial Council of the Ninth Circuit would not release to the State Bar the
actual complaints filed by Respondent against the federal judges, the State Bar decided to issue a
warning letter to Respondent in November 2011, and closed the case.7 (Ex. 1040.) That
decision was explained, both orally and in writing, by the State Bar to Cathy Catterson, a
representative of the Judicial Council of the Ninth Circuit, on November 8, 2011. (Ex. 1041).
i

Thereafter, she complained of the State Bar’s decision in a letter, dated January 19, 2012,
\

directed to the then Acting Chief Trial Counsel of the State Bar.

II
7 The State Bar had previously notified the Judicial Council of the Ninth Circuit in May 2011
that it would be difficult to pursue any complaint that Respondent’s complaints against various
federal appellate justices were frivolous without having access to the actual underlying
complaints. As stated by the State Bar at that time: “As you may be aware, to prevail in State
Bar disciplinary proceedings, our office must prove by clear and convincing evidence that an
attorney committed willful misconduct. Although the Judicial Council’s order of September 30,
2010, will certainly be a useful piece of evidence to establish that Mr. Sanai engaged in
misconduct by filing frivolous misconduct complaints, it would be insufficient standing alone to
prove by clear and convincing evidence that Mr. Sanai engaged in misconduct warranting
discipline, especially since the order does not include any specific findings of fact but rather
includes only the conclusion that Mr. Sanai abused the misconduct complaint procedure.” (Ex.
1039, p. 2.)

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 140 of 146
N141

/
/

In May 2012, Respondent was notified that the ‘10 case had been re-opened by the State
Bar, resulting in the subsequent filing of count 6 in the pending NDC.8 (Ex. 1043.) When asked
during cross-examination why the ‘10 case was re-opened at that time, the State Bar’s witness
stated that he did not know. When asked who made the decision to prosecute the re-opened 7 0
case, the witness identified attorney Schaeffer.
All counts in the NDC, other than count 6 [regarding Respondent ’s complaints about the
federal judges], are now encompassed within case No. 12-0-10457 (the ‘12 case). No
explanation was given by the State Bar’s witness at trial regarding why the ‘12 case was opened
other than to say that it was based on information learned while investigating the ‘10 case. The
State Bar’s witness, however, was unable to provide any specifics as to what that information
was or whether there was any information with regard to the Washington matters that was not
already in the State Bar’s files for the earlier cases. The witness also could not identify any
person who had provided information to the State Bar who was not a “complainant.” Finally, no
reason has been given as to why the matter was opened under the new ‘12 number, rather than by
re-opening the ‘05, ‘06, or ‘08 case.

i

i

The alleged misconduct which forms the basis for the remaining counts took place in

•i

\

2004 (Count 4), 2005 (Counts 1,2, 3, and 5), 2006 (Counts 8), and 2007 (Count 7). The NDC in

this matter was filed in 2014. The State Bar had received complaints and documentation
regarding all of the misconduct alleged in those counts well more than five years prior to the
filing of the NDC. Hence, the five-year rule of limitations of rule 5.21(A) has expired for each
of those counts unless that rule is inapplicable or the running of the five-year period was tolled.

s

Given the State Bar’s inability to provide this court with a copy of the actual complaints filed
by Respondent against the federal judges, this court - as accurately predicted by the State Bar in
May 2011 - eventually dismissed that count at trial due to the State Bar’s failure to provide clear
and convincing evidence that those complaints were frivolous. The evidence was not sufficient
even to enable this court to identify all of the judges against whom complaints had been filed.
-8-

t

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 141 of 146
N142

t

In the State Bar’s motion seeking reconsideration of this court’s order denying its
motions to quash Respondent’s subpoenas, the State Bar argues that it referred in the original
motions to quash to an earlier privilege log that had previously been provided to this court in
conjunction with the State Bar’s effort to avoid having to disclose documents during discovery.
It argues that this reference relieved it of any obligation to provide that privilege log to this court
in conjunction with its motions to quash. It also contends that the privilege log, not signed or
affirmed as true by any individual, substantiates its claims of privilege. A review of this
i

privilege log reveals that the State Bar has asserted that every disputed document is subject to a
claim of “Attorney Work Product Privilege.”
While this court is inclined to disagree with the State Bar’s arguments,9 a review of the
privilege log, when combined with the testimony of the State Bar’s prior witness, makes clear
that Respondent is correct that this court should reconsider its prior decision to defer
consideration of the rule 5.21 issue. The testimony of the State Bar’s witness did not show that
any of the remaining counts “were investigated and initiated by the State Bar based on
information received from an independent source other than a complainant.” Instead, that
testimony merely reaffirmed that all of the alleged misconduct, as well as documentation of that
9
As previously explained by this court in its original order, the State Bar, with or without
the privilege log, has generally fallen far short of establishing that the bulk of these documents
are protected by the attorney work product rule. Moreover, even documents protected by that
rule are subject to disclosure on a finding that denial of discovery “will unfairly prejudice the
party seeking discovery in preparing that party’s claim or defense or will result in an injustice.”
(Code Civ. Proc., § 2018.030, subd. (b).) This court finds that such is the case here. That
conclusion is buttressed by the State Bar’s use of its files to provide the basis for the testimony
offered at trial by its own witness, who is the author of some of the disputed documents.
However, the good cause disclosure rule, quoted above, is expressly limited by
subdivision (a) of section 2018.030, which states that “an attorney’s impressions, conclusion,
opinions, or legal research or theories is not discoverable under any circumstances.” In
reviewing the privilege log, the court notes that the State Bar only sought to describe a few of the
documents in dispute as falling within the absolute privilege of subdivision (a). Those
documents are numbered in the privilege log as follows: Documents 11,13,60,61,62,85,99,
115, 116,126,127,138,160, 161,192,212,213,217-247,258, and 259.

-9-

\
/

/

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 142 of 146
N143

conduct, had been received by the State Bar from complainants well prior to five years before the
filing of the NDC. The witness did not identify any new evidence that the State Bar had received
from any source independent of a complainant at any time prior to five years before the filing of
the NDC.
The privilege log provided by the State Bar makes clear that the State Bar has asserted an
I

i,

“Attorney Work Product Privilege” against any further disclosure of evidence, including any

I

?

t

testimony from the most knowledgeable State Bar employees, regarding the basis for the filing
of the remaining charges against Respondent. Having relied On claims of privilege to avoid such
disclosure, both during discovery and trial, the State Bar cannot now reverse its position and
offer any of such evidence in rebuttal to Respondent’s rule 5121(A) defense. Accordingly, under
the circumstances of this case, it is not inappropriate for this court to decide the rule of
limitations issue at this time.
This court finds that counts 1-5 and 7 are barred by the five-year rule of limitations set
forth in rule 5.21(A). The State Bar’s contention that those counts are subject to rule 5.21(G) is
unpersuasive and unsupported by the evidence. Further, its contention that the running of the
rule of limitations with regard to counts 2-5 and 7 is subject to tolling because of Respondent’s

\

ongoing obligation to report the sanction orders is contrary to both law and fact. Instead, the

evidence is clear and convincing that Respondent reported the sanctions orders to the State Bar
in 2006, when he was contacted at that time by the State Bar about those orders. After he had
done so, the pending cases were then closed. As previously noted, why those matters were
subsequently re-opened in 2012 under a different case number could not be explained by the
State Bar’s witness. There is no evidence that the matters were reopened based on any new
evidence regarding Respondent’s prior failure to timely report the orders.

-10-

//

/

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 143 of 146

/

N144

Because the dismissal of counts 1-5 and 7 makes the disputed production of documents
by the State Bar and the requested testimony of Brooke Schaeffer and Joseph Carlucei irrelevant
to the remaining issues in this matter, their motions to quash are granted. That determination,
however, is without prejudice to Respondent’s ability to renew his request to subpoena such
individuals as witnesses with documents in the event that any of the dismissed counts are
reversed on appeal.
On the issue of the alleged tolling of rule 5.21 (A), this court reaches a different decision

i
'i

with regard to Count 8. While the alleged misconduct in that matter occurred in October 2006,
the issue of whether that conduct was inappropriate is tied to the issue of whether Respondent’s
filing of the Abstract of Judgment was wrongful. It has become clear to this court during the
trial and subsequent discussions with counsel that the Los Angeles litigation is still ongoing and
that there remains the possibility that Respondent’s conduct can and might ultimately be
determined in that matter to have been legally correct. There has been no final determination in
that civil matter in that regard. Under such circumstances, the running of the five-year
limitations period is tolled pursuant to rule 5.21(C)(3).
This court previously notified the parties of its concern that resolution of Count 8 should
/

be abated until the pending Los Angeles litigation has been resolved, and it then provided them
with an opportunity to be heard on that issue. Good cause appearing, this court now orders that
resolution of Count 8 is abated pursuant to rule 5.50(B) until the pending Los Angeles litigation

e

has been resolved.
In three related matters, motions to quash have been filed on behalf of various individuals
who also received trial subpoenas from Respondent, including Michael Salz; Frederick Bennett,
Leslie Green, Sheri Carter, and Judges Terry Green and Kevin Brazile of the Los Angeles
County Superior Court; and Cathy Catterson and Molly Dwyer of the Ninth Circuit.

-11-

\

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 144 of 146
N145

/
/

‘

/

A
Michael Salz is Respondent’s opposing attorney in the Los Angeles litigation and has
already appeared as a witness for the State Bar in this matter with regard to Count 8. Respondent
wishes to re-call him as a witness during Respondent’s case-in-chief, which Respondent is
clearly entitled to do. However, Respondent has also served Salz with a subpoena requiring Salz
to produce documents. While Salz argues in his motion to quash that many of the requested
documents are irrelevant to the proceeding, resolution of that motion is best deferred until the

l

Los Angeles litigation has been resolved.
A motion to quash was also filed on behalf of Frederick Bennett, Leslie Green, Sheri
Carter, and Judges Terry Green and Kevin Brazile of the Los Angeles County Superior Court.
Frederick Bennett is court counsel for the Los Angeles County Superior Court and, as previously
?

noted, was the individual who complained about Respondent’s misconduct in the Washington
litigation at the request of Respondent’s opposing counsel in that matter. Bennett previously
acted as counsel for Judge Elizabeth Grimes in several private matters involving Respondent,
and Respondent contends that Bennett’s testimony and documents are relevant to showing that
there has been an inappropriate conspiracy between various individuals and judges such that the
decisions of the federal and state courts, offered into evidence by the State Bar in this
proceeding, lack validity or, in the alternative, should not be given the weight normally afforded

such determinations. Because Bennett was the original complainant in 2005 with regard to the
Washington litigation (Counts 1-5), if those counts had not been dismissed, Respondent would
have been entitled to call him as a witness at trial, especially as his contacts with the State Bar

J

relate to the rule of limitations issue. Those counts, however, have now been dismissed. With
regard to testimony by Bennett and the other witnesses from the Los Angeles County Superior
Court possibly relevant to the remaining Count 8, resolution their motion to quash should also be
deferred until after the Los Angeles litigation is resolved.

f

/
/

Case: 19-55429, 12/02/2019, ID: 11516652, DktEntry: 19, Page 145 of 146
N146

Finally, motions to quash have been filed by Cathy Catterson and Molly Dwyer, both
employees of the Ninth Circuit.10 As previously noted, Catterson was in communication with the
State Bar regarding the Ninth Circuit’s complaint that Respondent had filed complaints against
various federal judges (Count 6). Had that count not been dismissed, Catterson’s testimony, and
possibly Dwyer’s, would have been relevant. That count, however, has now been dismissed.
Because the dismissal of that count makes their testimony and production of documents

i

irrelevant to the issues in this matter, their motions to quash are granted. That determination,

Ifi

however, is without prejudice to Respondent’s ability to renew his request to subpoena such

i

individuals as witnesses with documents in the event that any of the dismissed counts are
reversed on appeal.
For the reasons stated above, Counts 1 -5 and 7 are dismissed with
prejudice. Resolution of the remaining count, Count 8, is abated pending final
resolution of the pending Los Angeles litigation. This abatement extends to the

1

motions to quash of Michael Salz, Frederick Bennett, Leslie Green, Sheri Carter,

!

and Judges Terry Green and Kevin Brazile.
The motions to quash of Cathy Catterson, Molly Dwyer, Joseph Carlucci
and Brooke Schaeffer are granted, without prejudice to Respondent’s ability to

i

renew his request to subpoena such individuals as witnesses with documents in

the event that any of the dismissed counts are reversed on appeal.
IT IS SO ORDERED.

Dated: March ^0,2015

J
DONALD F. MILES
Judge of the State Bar Court

The court exercises its discretion to receive both the replies and the sur-replies of the parties
regarding these motions. Respondent’s requests to strike the replies are denied.
-13T

Case: 19-55429, 12/02/2019, ID: y5^5^

e 146 of 146

[Rules Proc. of State Bar; Rule 5.27(B); Code Civ. Ptoc., § I013a(4)]
1 am a Case Administrator of the State Bar Court of California. I am over the age of eighteen
and not a party to the within proceeding. Pursuant to standard court practice, til the City and
County of Los Angeles, on March 20,2015,1 deposited a true copy of the following
documents):
ORDER GRANTING MOTIONS TO RECONSIDER DENIAL OF
RESPONDENT’S MOTION TO DISMISS AND STATE BARfS MOTION TO
QUASH; DISMISSING COUNTS 1-5 AND 7; GRANTING MOTION TO QUASH
SUBPOENAS RE NINTH CIRCUIT EMPLOYEES; AND ABATING
RESOLUTION OF COUNT 8 AND RELATED MOTIONS TO QUASH PENDING
RESOLUTION OF UNDERLYING CIVIL ACTION
in a sealed envelope for collection and mailing on that date as follows:
by first-class mail, with postage thereon Hilly prepaid, through the United States Postal
Service at Los Angeles, California, addressed as follows:
CYRUS M. SANAI
SANAIS
433 N CAMDEN DR STE 600
BEVERLY HILLS, CA 90210

^

adteS^arMtel?0"8’1 “ faCili‘y regU,arIy maintained by Stete B" of California
SCHAFER, Enforcement, Los Angeles
KEVIN BUCHER, Enforcement, Los Angeles
th' *"**>« is

l

t
/-

-<* correct. Executed in Los Angeles, California, on

Tammy Cleaver
Case Administrator
State Bar Court

01

APPENDIX 0

Case: 19-55429, 05/27/2020, ID: 11703263, DktEntry: 47-3, Page 1 of 58
02

UNITED STATES COURT OF APPEALS
For the Ninth Circuit
No. 19-55429
CYRUS SANAI, an individual
vs.

Plaintiff, and Appellant

MARK BORENSTEIN, an individual, and DOES 1 through 10,
inclusive,
Defendants-Appellees;

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
HONORABLE ROBERT GARY KLAUSNER
DISTRICT COURT CASE NO. CV 18-5663-RGK-E

REQUEST FOR JUDICIAL NOTICE
Cyrus M. Sanai, SB#150387
SANAIS
433 North Camden Drive
Suite 600
Beverly Hills, California, 90210
Telephone: (310) 717-9840
cyrus@sanaislaw.com

Case: 19-55429, 05/27/2020, ID: 11703263, DktEntry: 47-3, Page 2 of 58
03

REQUEST FOR JUDICIAL NOTICE

Appellant Cyrus Sanai hereby requests judicial notice of the
complaint, attached hereto as the Exhibit, filed in the Northern District
of California, in the case of Sanai v. Kozinski, docket number
19-CV-08162-YGR.
Appellant request judicial notice of the filing of the complaint, but
not the truth of any allegations therein, under Fed. R. Evid. 201. This
request is in support of the Petition for Rehearing and Rehearing en
banc filed herewith.
May 27, 2020.

SANAI S

By:/s Cyrus Sanai
Appellant

Case: 19-55429, 05/27/2020, ID: 11703263, DktEntry: 47-3, Page 3 of 58
04

CERTIFICATE OF COMPLIANCE

I certify that the foregoing notice is double spaced (except for
quotations in excess of 49 words from legal authorities and the record)
and utilizes a proportionately spaced 14-point typeface. The motion
(excluding the Declaration, Cover, and Certificate of Compliance)
comprises a total of one page excluding the cover amd attachment.
Dated: May 27, 2020
By:/s Cyrus Sanai
Appellant

-3 -

Case: 19-55429, 05/27/2020, ID: 11703263, DktEntry: 47-3, Page 4 of 58
05

DECLARATION OF CYRUS SANAI

1.

I am an attorney admitted in California and to this Court. I am

the Appellant in this lawsuit. The following matters are from personal
knowledge.
2.

I filed a lawsuit in the Northern District of California, Sanai v.

Kozinski, 19-cv-08162-YGR, a true and correct copy of which is attached
hereto as the Exhibit.
I declare, under penalty of perjury of the law of the United States that
the foregoing statements of fact are true and correct.
Dated this May 27, 2020 in Beverly Hills, California
s/ Cyrus Sanai

Case: 19-55429, 05/27/2020, ID: 11703263, DktEntry: 47-3, Page 5 of 58
06

EXHIBIT
COMPLAINT IN SANAIV.
KOZINSKI

Case^sa^yQffi2®K02aidiIi)n4rtflD3a9IfecIMEkfl/3?94pageagefSaf 58
07

4

Cyrus M. Sanai, SB# 150387
SANAIS
433 North Camden Drive
Suite 600
Beverly Hills, California, 90210
Telephone: (310)717-9840
cyrus@sanaislaw.com

5

Pro Se

l
2
3

6
7
8

UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF
CALIFORNIA

9
10
li
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

Case No.:

CYRUS SANAI, an individual,
vs.

Plaintiff,

COMPLAINT FOR:

ALEX KOZINSKI, in his personal
capacity; CATHY CATTERSON, in her
personal capacity; THE JUDICIAL
COUNCIL OF THE NINTH CIRCUIT,
an administrative agency of the United
States; MOLLY DWYER, in her
official capacity; SIDNEY THOMAS,
in his official and personal capacities;
PROCTOR HUG JR., in his personal
capacity; M. MARGARET
M CKEOWN, in her personal capacity;
RONALD M. GOULD, in his personal
capacity; JOHNNIE B. RAWLINS ON,
in ner personal capacity; AUDREY B.
COLLINS, in her personal capacity;
IRMA E. GONZAXEZ, in her personal
capacity; ROGER L. HUNT, in his
personal capacity; TERRY J. HATTER
JR., in his personal capacity; ROBERT
H. WHALEY, in his personal capacity;
THE JUDICIAL COUNCIL OF
CALIFORNIA, an administrative
agency of the State of California; and
DOES 1-10, individuals and entities
whose identities and capacities are
unknown;

(1) INJUNCTIVE RELIEF FOR
VIOLATION OF CONSTITUTIONAL
RIGHTS ;
(2) MANDAMUS;
(3) DECLARATORY JUDGMENT;
(4) ABUSE OF PROCESS (FEDERAL
(5) MALICIOUS PROSECUTION
(FEDERAL LAW);
(6) WRONGFUL USE OF
ADMINISTRATIVE PROCEEDINGS
(CALIFORNIA LAW):
(7) BIVENS CLAIM FOR DAMAGES
(8) RELIEF UNDER CALIFORNIA
PUBLIC RECORDS ACT;
(9) INJUNCTIVE RELIEF TO
REMEDY FUTURE VIOLATION OF
CONSTITUTIONAL RIGHTS.
JURY DEMAND

Defendants.

27
28
-l-

COMPLAINT

Casea^-35^-8yOffi!2^02)^cliIDn§rtF(D33SfecDt2Bre^94Page^ef^af 58
08

1
2
3

Plaintiff Cyrus Sanai hereby alleges as follows:

4

JURISDICTION

5
6

1.

This Court has jurisdiction pursuant to 28 USC §1331,28 USC §1361,

7

and 28 USC §1367. Venue is proper in this district because the Judicial Council of

8

the Ninth Circuit and the Judicial Council of the State of California are

9

headquartered in this District, in the City of San Francisco, and certain of the

10

individual Defendants have their places of work in this District, in the City of San

11

Francisco.

12
13

THE PARTIES

14
15

2.

Plaintiff, CYRUS SANAI ("Sanai"), is an attorney admitted to practice

16

in California and various federal courts who resides in the County of Los Angeles,

17

State of California.

18

3.

Defendant, ALEX KOZINSKI (“Kozinski ”), is a former Judge of the

19

Ninth Circuit Court of Appeals until December, 2017, when he resigned while

20

judicial misconduct charges were pending against him. He is sued in his personal

21

capacities for actions taken when he was ostensibly recused from any matters

22

involving Sanai, and not for any judicial act. Kozinski is currently a California

23

attorney practicing before the Ninth Circuit Court of Appeals.

24

4.

Defendant, CATHY CATTERSON (“Catterson”), was appointed as the

25

clerk of the Ninth Circuit Court of Appeals and Circuit Executive of the Ninth

26

Circuit. She was removed from her position as Circuit Executive after Kozinski

27

ceased to be Chief Judge. She is a resident in the Northern District. She is sued in

28
-2-

COMPLAINT

Caseatft-3Slffi8yaffl2Bffi02ajdIihi4rtFiD3a6IfecDl!aBte/3®4Page3Gefffi®f 58
09

1
2

her personal capacity, for actions taken under color of her position as Circuit
Executive, but which were outside her duties as either Clerk or Circuit Executive.

3

5.

Defendant, the JUDICIAL COUNCIL OF THE NINTH CIRCUIT

4

(“the JC”) is an administrative agency of the United States that oversees the

5

operation of federal courts within the Ninth Circuit. Its headquarters are in San

6

Francisco, within the Northern District. To the extent that injunctive and

7

declaratory relief against the JC requires an individual defendant, Defendant

8

SIDNEY THOMAS (“Thomas”), the current Chairman of the JC, is sued in his

9

official capacity to obtain injunctive and declaratory relief.

10

6.

Defendants, Thomas, M. MARGARET MCKEOWN (“McKeown”),

11

RONALD M. GOULD (“Gould”), and JOHNNIE B. RAWLINSON (“Rawlinson”)

12

are judges of the Ninth Circuit Court of Appeals. Defendant PROCTOR HUG, JR.

13

is a former judge of the Ninth Circuit Court of Appeals. They are sued in their

14

PERSONAL CAPACITIES, in respect of actions taken as members of the JC, an

15

administrative agency of the United States in regards to a matter that had been

16

ordered transferred to the Judicial Council of the Third Circuit, but for which it

17

refused to transfer. For this and other reasons all actions for which liability is

18

sought to be imposed hereunder was outside the jurisdiction of the JC and these

19

defendants. They are not sued for any actions taken as a judge or for any judicial

20

act.

21

7.

Defendant, AUDREY B. COLLINS (“Collins”), is a former judge of

22

the United States District Court for the Southern District of California, and was at

23

the relevant time, 2009-2010, a member of defendant the JC. She is sued in her

24

PERSONAL CAPACITY, in respect of actions taken as member of an

25

administrative agency of the United States in regard to a matter that had been

26

ordered transferred to the Judicial Council of the Third Circuit, but for which it

27

refused to transfer. Accordingly, all actions for which liability is sought to be

28
-3-

COMPLAINT

Casea^-35Ke-8vQ®2^O£0)diEJn§rtF(D33efeicCa3Qe^94Paggg(lgef$Sf 58
010

1
2

imposed hereunder was outside the jurisdiction of the JC and Collins. She is not
sued for any actions taken as a district court judge or for any judicial act.

3

8.

IRMA E. GONZALEZ (“Gonzalez”); ROGER L. HUNT (“Hunt”),

4

TERRY J. HATTER, JR. (“Hatter”) and ROBERT H. WHALEY (“Whaley”) are

5

United States District Court judges. Together with McKeown, Gould, Rawlinson,

6

and Thomas they are the identified as the “Current JC Judges” The Current JC

7

Judges and Hug and Collins are the “2010 JC Defendants.” They are sued in their

8

PERSONAL CAPACITIES, in respect of actions taken as members of the JC, an

9

administrative agency of the United States, in regard to a matter that had been

10

ordered transferred to the Judicial Council of the Third Circuit, but for which it

11

refused to transfer. For this and other reasons all actions for which liability is

12

sought to be imposed hereunder was outside the jurisdiction of the JC and the 2010

13

JC Defendants. They are not sued for any actions taken as a judge or for any

14

judicial act.

15

9.

Defendant, MOLLY DWYER, (“the Clerk”), is sued in her official

16

capacity as Clerk of the Ninth Circuit Court of Appeals. The only relief requested

17

of her is the public release of documents in her control.

18

10.

Defendant, the JUDICIAL COUNCIL OF CALIFORNIA, is an

19

administrative agency of the State of California. Its headquarters are in San

20

Francisco, CA. It is sued in its official capacity under the California Public Record

21

Act.

22

11.

Defendants, DOES 1-10, are individuals in the state or federal judiciary

23

and who possess documents necessary and/or useful for Sanai to employ in his

24

defense or knowledge required to be obtained by testimony, and/or who are proxies

25

or catspaws for Kozinski.

26
27
28
-4-

COMPLAINT

CasCdfe®49a;\Deffira20aDodQnrM>fa32g8efl)ftIElbe3it»7F^^ag®fIfi33f 58
011

1

INTRODUCTION

2
3

12.

For more than two decades, former Chief Judge of the Ninth Circuit

4

Kozinski sexually harassed and hazed his clerks, colleagues and third parties within

5

his judicial chambers, the courthouses, and in public view. A significant minority of

6

the district court judges and the federal circuit court judges in the Ninth Circuit

7

knew this while it was ongoing, including all of the judges who served on the Ninth

8

Circuit Judicial Council from 1998 to 2017, and all of the circuit court judges with

9

chambers in Pasadena. See, e.g. J. Donohue, “I Was a Federal Judge. My Former

10

Colleagues Must Stop Attending Federalist Society Events,” Slate.com, November

11

12, 2019 (“A distinct minority of judges behaving outside the norms with the silent

12
13
14

15
16
17
18
19
20
21
22
23
24

acquiescence of the judiciary is reminiscent of the recent judicial sexual harassment
scandal. Then, as here, some judges were aware of a minority of colleagues in their
midst engaged in offending conduct—yet said and did nothing. Because of their
silence, sexual harassers harmed more victims, and the judiciary’s reputation was
stained when the scandal finally exploded.”) One of Kozinski’s most potent tools
for sexual harassment was pornographic videos he streamed directly from
pornographic websites on the Internet, and when that proved too risky, from a server
he set up in his home and which he accessed with his computers in his chambers.
13.

From no later than 1998 the members of the JC had become aware of

Kozinski’s improper use of the Internet and Kozinski’s abuse of his clerks.
However, rather than rein Kozinski in, at every step of the way the JC sought both
the enable his access to pornography while concealing its knowledge of what
Kozinski was using it for. By 2001 the issue had burst out in the open, thanks to
Kozinski’s shutting down a firewall blocking Internet access, and his picking a

25

public fight with L. Ralph Mecham (“Mecham”), then the head of the
26

Administrative Office of the United States Courts. The matter even spilled into a
27

Congressional hearing.
28
-5-

COMPLAINT

Cas0Cdfe£ffi40St;\D0ffira2OaDoffinlferaa32BBefl)WElbe35a:917F^^a0©fl933f 58
012

1

14.

Kozinski won the battle over unfettered access to pornography, in that

2

the Judicial Conference agreed to stop tracking the identity of the large video files

3

that were downloaded over the Ninth Circuit’s Internet system, but Kozinski came

4

to understand that there was no way to conceal or block system administrators from

5

accessing his history of the pornography sites he visited from the Ninth Circuit’s

6

internal network. Around 2002, Kozinski set up a server at his home on which he

7

placed his carefully curated pornography that he accessed via his computer in his

8

chambers. At this point, the primary purpose of accessing the pom was to haze and

9

sexually harass his female clerks. In 2005 Sanai discovered a different misuse by

10

Kozinski of this server, and filed a judicial misconduct complaint against Kozinski.

11

A year later, Judge Kozinski’s predecessor as Chief Judge, Marie Schroeder, issued

12

an order dismissing the complaint based on the fake finding of fact that Kozinski

13

apologized for his misconduct; she also found that there was no evidence of the

14

existence of this server or the documents on it.

15

the reason for Schroeder’s denial of its existence was, as Schroeder and the

16

members of the JC knew, that Kozinski was using it to stream pornography into his

17

chambers, and the JC (on which Kozinski served) intended to enable this conduct.

18

15.

Sanai eventually discovered that

Realizing that the JC would never take action, Sanai blew the whistle

19

on Kozinski through the Los Angeles Times. Even though a pending misconduct

20

complaint filed by Sanai addressed the existence of the server, Kozinski filed a

21

misconduct complaint against himself. However, in a surprise move, Justice

22

Roberts ordered that the complaint, and any other complaint covering the same

23

subject matter, be transferred to the Third Circuit Judicial Council. The JC refused

24

to transfer the pending complaint because it stated it was unrelated, but then stayed

25

it because it found that it was in fact related to the transferred complaint.

26

16.

Both Sanai and Mecham filed misconduct complaints against Kozinski

27

for his pornographic misconduct. The Third Circuit stated that the complaints had

28

to be filed with the JC, and then transferred. When the complaints were filed with
-6-

COMPLAINT

CasCdfe®49a;\O0ffiro2OaDotf)nlfeHfa32B8efl)MEJie35t9t7f^^aB©fia33f 58
013

1

the JC, the JC violated Justice Roberts’ order and refused to transfer Sanai’s

2

complaint because it found, that as to Sanai only, “exceptional circumstances did not

3

exist”, even though it covered the same subject matter as Kozinski’s complaint

4

against himself. Sanai contacted the Supreme Court, and the Clerk stated that

5

Justice Roberts’ order transferred jurisdiction of any complaint involving Judge

6

Kozinski’s pornography to the Third Circuit Judicial Council.

7

17.

Because Sanai was excluded from participating in the Third Circuit

8

proceedings, the result was a whitewash. In particular, based on Kozinski’s

9

testimony under penalty of perjury that he had never shown the contents of his porn

10

server to anyone else, the Third Circuit Judicial Council found “credible” that

11

Kozinski had not shown his pornography collection to any else; in fact, the members

12

of the JC knew this to be false, and Sanai directly alleged otherwise and could have

13

shown how it would be proved. Kozinski’s false testimony constituted criminal

14

perjury and judicial misconduct warranting impeachment and removal. It would also

15

constitute grounds for him to be disbarred as California attorney.

16

18.

With Kozinski and the JC having successfully quashed any

17

investigation into Kozinski’s accessing pornography to torment his clerks, Kozinski

18

and the JC decided to use the full power and force of the prestige of their position to

19

disbar Sanai. Sanai’s misconduct complaints were assigned to Kozinski’s best friend

20

on the Court, and fellow pornography aficionado, Stephen Reinhardt. Judge

21

Reinhardt found that claims against Kozinski were fully disposed of by the Third

22

Circuit, and that the other claims which related to Kozinski’s misconduct were

23

merits related, even though the allegations explicitly demonstrated that they were

24

not. Reinhardt stated that sanctions should be imposed on Sanai for filing a

25

completely truthful and valid misconduct complaint.

26

19.

The 2010 JC Defendants issued a published censure of Sanai as

27

retaliation for filing his valid misconduct complaint and instructed that it be put to

28

the California Bar Association.

-7-

COMPLAINT

CasCdfe£ffi498t\05fl2ro2OaDotfliTtfeHfQB2B8efl)MElbe35a:9i7F^^a9©fl333f 58
014

1
2

20.

Though Kozinski was not supposed to be handling this matter, he took

over prosecution and gave instructions to Catterson. When the Office of Chief Trial

3

Counsel of the California Bar Association (“OCTC”) initially refused to take any

4

public action, Catterson began a campaign of putting personal and legal pressure on

5

it to file charges against Sanai. When the OCTC requested supporting

6

documentation, Catterson explained that none would be provided, not even the

7

misconduct complaints Sanai filed.

8
9

21.

Catterson was informed, in writing, that without evidence or witnesses,

it would be impossible to successfully prosecute Sanai. However, when a new,

10

politically ambitious Chief Trial Counsel, Jayne Kim, was hired, Catterson

11

improperly convinced her to file a complaint based not only the misconduct

12

complaint case, but other ligation in which Kozinski had been interfering with both

13

publicly and behind the scenes.

14

22.

By 2014 the OCTC had created a strategy of bringing claims that were

15

barred by the limitation rule and the evidence-less claim of the JC to trial. Sanai,

16

defending himself, obtained dismissal of all but one charge when the OCTC rested

17

in 2015. One charge was abated however.

18

23.

Two years later, Kozinski’s sexual harassment misconduct was laid

19

bare by The Washington Post. Even though Kozinski’s sexual misconduct was an

20

open secret in the legal press—in part because Kozinksi sexually harassed comely

21

female legal writers as often as his own clerks—his status as both a named and

22

anonymous source, and gatekeeper for admission to lucrative speaking and

23

networking opportunities, gave him protection from exposure by most legal beat

24

reporters and legal columnists.1 However, the reporter for The Washington Post was

25
26
27
28

l

Three notable exceptions in 2005 were Cynthia Cotts of Bloomberg, Terry Carter
of The ABA Journal, and in the face of repeated roadblocks by his editor, John
Roemer of The Daily Journal. None of them currently hold these jobs. In contrast,
the legal reporters and editors of Slate, The New York Times and Wall Street Journal
-8-

COMPLAINT

CasflCdfe£EB408t\Daffira2Oa>p*DntfeWa32BBefl)a.1Ellie3it9t7F^^a8©fia3Df 58
015

1

on the national security beat and had no relationship with Kozinski, and after

2

interviewing persons with knowledge, including Sanai, he authored two devastating

3

articles that forced Kozinski’s resignation.

4

24.

But even after Kozinski resigned, he still possesses sufficient sway

5

with his friends in the Ninth Circuit to enact retaliation. Most notably, after

6

Kozinski resigned, through the machination of Circuit Judges Ikuta and Reinhardt,

7

he got his former daughter-in-law Leslie Hakala fired from her partnership position

- 8
9

at K&L Gates in retaliation for her legal tactics in divorcing Kozinski’s son, Yale
Kozinski, as she sought information about Kozinski’s sexual harassment history.

10

Kozinski continues to wield power in the legal press thanks to his still vibrant

11

relationships as an anonymous and background source for many reporters. Though

12

all of the Current JC Judges and 2010 JC Defendants know that Kozinski committed

13

perjury before the Third Circuit Judicial Council, they have refused to take any

14

action to have discipline imposed on Kozinski as an attorney.

15

25.

Kozinski’s role as a litigator is a threat to due process. Kozinski is

16

impervious to any kind of restriction or restraint in the Ninth Circuit Court of

17

Appeals or the District Courts. He has the power to contact judges ex parte and to

18

violate other rules and restrictions with impunity, because the JC and Court of

19

Appeals has demonstrated it will not rein him in. Indeed, Kozinski can prevent any

20

kind of punishment or discipline by threatening, directly or by implication, to reveal

21

past Ninth Circuit judicial misconduct, including, most notably, the enablement by

22

the 2010 JC Defendants of his sexual harassment. Kozinski’s position as a lawyer

23

who has a permanent judicial indulgence granting him impunity is a direct threat to

24

the integrity of any legal proceedings in which he formally or informally

25

participates. Who is going to stop him from calling his former clerk, Circuit Judge

26
27
28

were completely captured by Kozinski due to his acting as a source and his
arrangement for speaking opportunities for reporters at high-profile legal functions.
-9-

COMPLAINT

Caseat©-95^-8v0ffi!2^02](^diIi)n§rtF(D33S[fecC)iaElre^94Pagg3gfeofS®f 58
016

1
2
3

Sandra Ikuta, about a case? After decades of protecting Kozinski from his
misconduct, will Judge Schroeder report him to the bar for secretly asking her to
grant some discretionary relief for one of his clients? The answers are “No one” and

4

“No.” These risks are exacerbated by the fact that the Ninth Circuit, unlike every

5

other Circuit to have considered the issue, does not recognize or enforce an

6

obligation on judges to disclose past or existing relationships with the parties in a

7

case, their lawyers, law firms, or witnesses who will or have provided testimony or

8

declarations.

9
10

26.

Sanai has filed this lawsuit to obtain the following redress:

A.

Vacatur of the censure order imposed against him by the Judicial

11

Council, and its replacement with declaratory findings of fact setting out, with

12

specificity, Judge Kozinski’s sexual misconduct; identification of the person who

13

enabled it and their roles and responsibilities; and full disclosure of how the JC

14

quashed objections and complaints against Kozinski and retaliated against Sanai,

15

Mecham and others;

16
17
18

B.

disclosure of all documents relating to Sanai and the litigation

addressed in his misconduct complaints, and Sanai in general;

c.

an award of damages in favor of Sanai as against Kozinski, Catterson

19

and the 2010 JC Defendants who acted outside their jurisdiction by imposing

20

censure on Sanai, barring him from filing misconduct complaint in this matter, and

21

seeking his disbarment while refusing to provide any evidence or testimony in

22

support thereof;

23

D.

24
25
26

Injunctive relief permanently enjoining the JC from imposing any

sanctions for filing of misconduct complaints on any person;
E.

Injunctive relief barring the Current JC Defendants and Collins from

participating in any legal proceeding in which Sanai is a party, attorney or witness;

27
28
-10-

COMPLAINT

Caseata-3SaS8vaffl2BffiOE0idIihidrtFID3a0ffiicDlflBie/J94PageageofSSf58
017

1
2
3
4

F.

A declaratory judgment that there is probable cause to find that

Kozinski committed perjury and referral the Ninth Circuit and California Bar
Association to impose discipline, up to and including disbarment;
G.

An injunction ordering the JC to promulgate effective rules and

5

procedures requiring judges in the Ninth Circuit to fully disclose past and current

6

relationships between the judges in which the case is proceeding and lawyers, law

7

firms, identified witnesses, and parties in the case as and when disclosed to the

8

judge; and

9

H.

Relief under the California Public Records Act and the United States

10

and California Constitutions to obtain documents from the Judicial Council of

li

California.

12
13
14

15

COMMON ALLEGATIONS
The JC and Judicial Misconduct

27.

The JC is a federal administrative agency. One of its responsibilities is

16

to administrate the Judicial Conduct and Disability Act of 1980, 28 U.S.C. §§351-

17

364 in the territory of the Ninth Circuit (the “JCDA”), under the quasi-appellate

18

jurisdiction of the Judicial Conference of the United States. The JCDA was created

19

as a supplement and aid for the power to remove judges established by the

20

Constitution in Congress. Just as Congress’ power of impeachment is outside the

21

domain of due process, the JCDA created a system of investigation and judicial

22

wrist-slapping that has no connection to due process. It is fundamentally

23

inquisitorial and does not resemble “ordinary litigation”.
First, the need for finality has less relevance to the present
circumstances than it does to litigation generally. In ordinary
litigation, there is not only a strong interest in reaching a correct
conclusion, but also an interest in achieving finality so that the parties
may obtain repose and their dispute be finally settled. The need for
finality arises both from the nature of an adversary system, which
requires parties to pursue their own claims as they see fit, and from

24
25
26
27
28

-ll-

COMPLAINT

Cas€^t^95^-8vQ®2?5^02®icliI»ri4rtF!D33S®;cDt2f3re^94Pagea^ofBSf58
018

l
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

the negative consequences of allowing a dispute to continue after a
decision has been rendered in an initial, full adjudication. Parties to
litigation are thus generally not allowed to revive fully adjudicated
claims by serially advancing new legal theories not raised in earlier
proceedings but involving the same underlying transactions.
By contrast, misconduct proceedings under the Judicial
Conduct and Disability Act are adversarial only to the extent that they
may be initiated by complaint and usually allow interested parties
some opportunity to present their respective view of the events in
question. Fundamentally, however, misconduct proceedings are
inquisitorial and administrative. Chief circuit judges need not
passively await the filing of complaints and then referee a contest
between a complainant and a judge, bounded by the four comers of
the complaint. Instead, chief circuit judges may "identify" and review
complaints themselves. See 28 U.S.C. §§ 351 (a)-(b), 352(a). In
addition, a complainant who has initiated a complaint does not
have the full rights accorded a party to litigation. See 28 U.S.C. §
358(b). Indeed, the Act provides no mechanism for a complainant
to withdraw a complaint. Thus, the Illustrative Rules ’’treat [ ] the
complaint proceeding, once begun, as a matter of public business
rather than as the property of the complainant. The complainant
is denied the unrestricted power to terminate the proceeding by
withdrawing the complaint.” Commentaiy to Illustrative Rule 19.
Furthermore, Illustrative Rule 10(a) allows special committees, on
which chief judges sit ex officio, the right to "expand the scope of the
investigation to encompass" misconduct that is "beyond the scope of
the complaint."
The inquisitorial nature of a misconduct proceeding is the
direct result of the Act’s adoption of a self-regulatory system in
recognition of the need to maintain judicial independence, as
opposed to a system in which misconduct complaints are
adjudicated by an external tribunal. Under this self-regulatory
regime, the responsibility of chief judges, special committees,
judicial councils, and the Judicial Conference, must be to
vindicate the process rather than adjudicate the rights of parties.
Moreover, there cannot be public confidence in a self-regulatory
misconduct procedure that, after the discovery of new evidence or a
failure to investigate properly or completely serious allegations of
misconduct, allows misconduct to go unremedied in the name of
preserving the "finality" of an earlier, perhaps misfired, proceeding.
-12-

COMPLAINT

Case^9a^yaffl2BffiO20»cUi>n4rtFfl)3a6[fecDiaBr8/J94PagedgfecJfSaf 58
019

l
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

In re Manuel Real 517 F.3d 563, 567-68 (2008 Judicial Conf. of U.S.)(bold
emphasis added).
28.

Under this system, there is no separate investigation, no independent

prosecution, and no impartial tribunal. The investigation, prosecution and
adjudication are all combined. The JCDA was created to move the first line of
judicial misconduct investigations and response from the House of Representatives
to the judiciary itself. However, the implementation of this legislation by most of
the Circuits has evolved into a mechanism for covering up and enabling judicial
misconduct. This evolution arose in part from three features in the statute. Section
28 U.S.C. §352(b)(l) authorizes dismissal of a complaint if it “directly related to the
merits of a decision or procedural ruling.” This was interpreted to mean that the
handling of a misconduct complaint itself could never be judicial misconduct, even
though the JCDA is not a court. The second feature is that Congress implemented a
requirement of confidentiality (though not privilege) that means complaints and
orders dismissing them are stripped of any content allowing identification of the
relevant judges. 28 U.S.C. §360. The third feature is that the Act allows dismissals
for guilty judges if they apologize and promise to do better, often without public
identification. Thus in one recent case, a Kansas District Court Judge who engaged
in years of sexual harassing conduct and spumed his duties to appear in court
sessions was let off with a warning, instead of being referred to the House for
impeachment and removal, while the specific details of his misconduct have been
kept secret from the public and Congress.
29.

The federal courts have arrogated a new power. The JCDA’s statutory

language does not grant the Judicial Councils any power to impose sanctions or
penalties on non-judges or complainants. Indeed, the JCDA identifies the kinds of
disposition and actions a Judicial Council may take, and none of them include
punishing whistleblowers. See 28 U.S.C. §§352, 354. Section 358 authorizes
judicial councils to adopt “rules for the conduct of proceedings” under the Act. In
-13-

COMPLAINT

Caseata-9SKffi8yQffi2BffiO2aidIDn4rtflD3a9BicCMBie/3®4pageagleofS0f 58
020

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

1986, a special committee of the chief judges of the courts of appeals formulated
Illustrative Rules Governing Complaints of Judicial Conduct and Disability for
circuit councils to consider adopting, which were revised in 2000. These rules do no
provide for the imposition of sanctions or punishment on a complainant either.
The Ninth Circuit’s own local rules also do not provide for censure, punishment, or
retaliation against a complainant. Thus there is no legal basis of any kind to take
these actions, yet the JC does so as a means of retaliation.

30.

The JC was the most zealous of all the Judicial Councils in utilizing the

JCDA to enable judicial misconduct. It limited the number of pages of misconduct
complaints, then dismissed most for failure to plead specific facts. When judicial
misconduct was made public, misconduct complaints were pre-emptively filed by
members of the JC and sham investigations held. A sterling example of this
involved Nevada District Court James Mahan. In 2006 the Los Angeles Times
published an expose of the Nevada court system, which included detailed allegations
that Judge Mahan repeatedly appointed George Swartz, a business partner and
political supporter, to lucrative positions as a receiver. Defendant Hatter filed a
misconduct complaint against Mahan, and Mahan was cleared by the JC. The JC
resolved the complaint, in the face of detailed allegations of wrongdoing, with the
following: “Based on the investigation and report of the special committee, the
Judicial Council concludes that many of the alleged personal connections were not
of the nature or extent alleged. The Judicial Council further concludes the
connection that did exist did not reasonably call into question the district judge’s
impartiality or ability to preside over the federal cases at issue....”
31.

The policy of the JC from the 1990’s onward, under the Chief

Judgeships of Defendant Hug, Judge Mary Schroeder, Defendant Kozinski, and
Defendant Thomas, was to utilize the JCDA system to protect Article III judges
from misconduct complaints and if public questions arose, to issue orders clearing

28
-14-

COMPLAINT

Caseat^-35^-SyQ®2^0£a!diIi)n^rtf!D3a:6feicDt2Elre/^94Pagg^c2(5Sf58
021

1
2

them without conducting meaningful or good faith investigation.

32.

This practice was, however, exposed by Kozinski. Manuel Real, a

3

United States District Court judge who was appointed by Lyndon Johnson and only

4

died last summer, realized during his service as Chief Judge of the Southern District

5
6
7
8
9
10
11
12
13
14
15

of California that the JCDA system, combined with ordinary judicial immunity,
insulated him from any repercussions from deciding cases according to his own
private sense of right and wrong. Real began openly flouting both the law and Ninth
Circuit resolutions of litigation, and as Chief Judge began transferring cases to
himself that he wanted to be involved in. Even after Real lost the formal power to
transfer cases to himself as Chief Judge, he used his power to deem cases “related”
to effectuate transfer, and then decide the cases as he saw fit.

33.

At some point in the 1990’s Kozinski was personally offended by

Real’s repeated judicial thumbing of his nose at the Court of Appeals, and he began
a campaign behind the scenes to force Real’s retirement or removal.

34.

Kozinski got his opportunity in In re Canter, 299 F.3d 1150 (9th Cir.

16

2002), where Real took control over the bankruptcy proceeding of a white collar

17

felon whose probation he personally supervised to impose a permanent automatic

18

stay on removing her from her home.

19
20
21

35.

A judicial misconduct complaint was filed against Real, and as usual it

was dismissed by Schroeder based on “corrective action”. In what can only be
called a rhetorical and logical masterwork, Kozinski demolished the conclusions of

22

his colleagues Chief Circuit Judge Schroeder, Circuit Judges Alarcon, Kleinfeld,

23

William Fletcher and Defendant McKeown, who along with four district court

24

judges ruled that that the complaint against Judge Real should be dismissed. Judge

25

Kozinski wrote the following prescient analysis:

26
27
28

2 See In Re Complaint ofJudicial Misconduct (Real), 425 F.3d 1179 (9th Cir.
2005).
-15-

COMPLAINT

Cas©at§-35^-8v9®2^02^dilIhidrtF(D33€fescDfc2Elre^94Pagi^sc2 S»f 58
022

l
2
3

4
5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

Passing judgment on our colleagues is a grave responsibility entrusted
to us only recently. In the late 1970s, Congress became concerned that
Article III judges were, effectively, beyond discipline because the
impeachment process is so cumbersome that it's seldom used. See 126
Cong. Rec. S28091 (daily ed. Sept. 30, 1980) (statement of Sen.
DeConcini). At the same time, Congress was aware of the adverse
effects on judicial independence if federal judges could be disciplined
by another branch of government using means short of impeachment.
See S.Rep. No. 96-362, at 6 (1979), reprinted in 1980 U.S.C.C.A.N.
4315, 4320. The compromise reached was to authorize federal judges
to discipline each other. See 126 Cong. Rec. S28091. We are unique
among American judges in that we have no public members — lawyers
or lay people — on our disciplinary boards. See American Judicature
Society, Appendix C: Commission Membership, at
http://www.ajs.org/ethics/pdfs/Commission%20membership.pdf
(revised Aug. 2003) (listing disciplinary procedures for all state
judges). Rather, judicial discipline is the responsibility of the circuit
judicial councils — bodies comprised entirely of Article III judges. See
Judicial Councils Reform and Judicial Conduct and Disability Act of
1980, Pub.L. No. 96-458, 94 Stat. 2035 (1980).
Disciplining our colleagues is a delicate and uncomfortable task, not
merely because those accused of misconduct are often men and women
we know and admire. It is also uncomfortable because we tend to
empathize with the accused, whose conduct might not be all that
different from what we have done — or been tempted to do — in a
moment of weakness or thoughtlessness. And, of course, there is the
nettlesome prospect of having to confront judges we've condemned
when we see them at a judicial conference, committee meeting, judicial
education program or some such event.

21
22
23

24
25
26
27
28

Pleasant or not, it's a responsibility we accept when we become
members of the Judicial Council, and we must discharge it fully and
fairly, without favor or rancor. If we don't live up to this responsibility,
we may find that Congress — which does keep an eye on these matters,
see, e.g., Operations of Fed. Judicial Misconduct Statutes: Hearing
Before the Subcomm. on Courts, the Internet, and Intellectual Prop, of
the House Comm, on the Judiciary, 107th Cong. (2001); Report of the
Nat'l Comm'n on Judicial Discipline and Removal (1993) — will have
given the job to somebody else, materially weakening the independence
of the federal judiciary.
-16-

COMPLAINT

Caseata-35a$-8vQffi!2^02ffi(di[i)ndrt7(D33SfecDfc2Elifl^94Pagiagfec22Sf 58
023

l
2

In re Complaint ofJudicial Misconduct (Real), 425 F.3d 1179, 1183 (9th Cir.
2005)(Kozinski, C.J., dissenting).

3

36.

By writing a brutally incisive dissent to the efforts of Judge Schroeder

4

and eight other members of the JC to “see no evil” in regards to Judge Real,

5

Kozinski broke the code of silence that ensured that judicial misconduct and

6

corruption went unpunished in the Ninth Circuit. Judge Kozinski’s dissent forced

7

Schroeder to reopen the investigation, and Judge Real was found guilty. He took the

8

matter to the Judicial Conference. To address Judge Real’s misconduct, the Judicial

9

Conference crafted a new rule that persistent rejection of judicial precedent was

10

misconduct, but then found that Judge Real was not YET guilty of that. See In re

11

Manuel Real, 517 F.3d 563, 567-68 (2008 Judicial Conf. ofU.S.)

12

37.

The investigation of Judge Real was the sole exception to the JC’s

13

policy of using the judicial misconduct mechanism to enable and facilitate judicial

14

misconduct, rather than quash it—and it only acted because Kozinski forced it to do

15

SO.

16
17

18

Alex Kozinski and Pornography in Court

38.

The Ninth Circuit was aware no later than 1998 that it had a significant

19

and ever growing problem involving employees of the federal judiciary using

20

government-owned computers to download pornography. The heaviest user of

21

pornography for browsing purposes was Kozinski. Kozinski utilized pornography

22

for three purposes. First, his sexual titillation. Second, he enjoyed using it as a tool

23

to harass women. Third it was a way of testing women’s limits to his sexual

24

approaches. When Mecham and the former Ninth Circuit executive Greg Walters

25

proposed firewalls and tracking and blocking software, Kozinski opposed it. The

26

Judicial Conference took responsibility for this program and implemented a

27

monitoring system that showed significant and increasing downloading of music and

28
-17-

COMPLAINT

Caseata-95ffi2-SvffiE2?5^02®](cliIi)Ti6rtF!D33efeicDfc2Elre^94Pag§^c2$Sf58
024

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

video files, some of which the late Judge Edwin Nelson believed included child
pornography. The system also identified to system administrators the streaming or
downloading of large files. Judge Kozinski’s computers in his chambers were
identified as downloading or viewing pornography.
39.

In 2001, the monitoring system and firewall was disabled unilaterally in

San Francisco. Who did this is a matter of dispute. Mecham publicly accused
Judge Kozinski of taking this action personally and suggests that this constituted
criminal activity. The late Judge Nelson ascribed it to the Ninth Circuit’s executive
committee acting unilaterally. Defendant Thomas claimed that the entire JC
unanimously approved the action. Whatever the case, Kozinski was the moving
force behind this action, and his motivation was to continue to obtain access to
pornography in his chambers. It is undisputed that the 11th Circuit and 10th Circuit,
which shared the firewall, had no idea this was being done; more important, if the
motivation of the action was to allow de facto unfettered access to pornography by
crippling the monitoring system, then the action was wrongful no matter how many
judges approved it.
40.

This action triggered infighting that gained the attention of Congress

and a Congressional hearing. Kozinski was losing the war, and directly attacked
Mecham in print in the Wall Street Journal. See A. Kozinski, Privacy on Trial, Wall
Street Journal, September 21, 2001. In that article, Judge Kozinski represented to
the world the following:
The policy Judge Nelson seeks to defend as benign and
innocuous would radically transform how the federal courts operate.
At the heart of the policy is a warning-very much like that given to
federal prisoners-that every employee must surrender privacy as a
condition of using common office equipment. Like prisoners, judicial
employees must acknowledge that, by using this equipment, their
“consent to monitoring and recording is implied with or without
cause.” Judicial opinions, memoranda to colleagues, phone calls to
your proctologist, faxes to your bank, e-mails to your law clerks,

28
-18-

COMPLAINT

Caseata-3S0S8yaffl2BffiO2aicMi)ndrtF!D3aSfecCMBfl/J94page^0ca«®f 58
025

l
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

prescriptions you fill online-you must agree that bureaucrats are
entitled to monitor and record them all.
This is not how the federal judiciary conducts its business. For
us, confidentiality is inviolable. No one else-not even a higher courthas access to internal case communications, drafts or votes. Like
most judges, I had assumed that keeping case deliberations
confidential was a bedrock principle of our judicial system. But under
the proposed policy, every federal judge will have to agree that court
communications can be monitored and recorded, if some court
administrator thinks he has a good enough reason for doing so.
Another one of our bedrock principles has been trust in our
employees. I take pride in saying that we have the finest work force
of any organization in the country; our employees show loyalty and
dedication seldom seen in private enterprise, much less in a
government agency. It is with their help-and only because of their
help-that we are able to keep abreast of crushing caseloads that at
times threaten to overwhelm us. But loyalty and dedication wilt in the
face of mistrust. The proposed policy tells our 30,000 dedicated
employees that we trust them so little that we must monitor all their
communications just to make sure they are not wasting their work day
cruising the Internet.
How did we get to the point of even considering such a
draconian policy? Is there evidence that judicial employees massively
abuse Internet access? Judge Nelson’s memo suggests there is, but if
you read the fine print you will see that this is not the case.
Even accepting the dubious worst-case statistics, only about 3%
to 7% of Internet traffic is non-work related.

19
20
21

41.

Kozinski’s published statements were misleading, and the members of

22

the JC in 2001 knew it. The Judicial Conference only identified and surveilled large

23

files, which were almost entirely video files. The problem that the Ninth Circuit

24

was facing was not pornography viewed by employees on their own, it was

25

Kozinski’s own bizarre sexual fetishes. However, none of the members of the JC at

26

the time stepped forward to correct Judge Kozinski’s false statements.

27
28

42.

The members of the JC who were appellate judges from 1998 onwards

were also aware that Kozinski was accessing the pornography as part of his hazing
-19-

COMPLAINT

Caseat^35^-8yQ®2^02a!clili)ndrtfr(D33eifecDt2Br6^94Pagiditec2SBf58
026

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

and sexual harassment of clerks. Some of the judges were forwarded the material
by Kozinski, but most heard of it second hand, through their clerks, who either
witnessed it directly or heard gossip from other clerks. In particular, Defendant
Thomas heard regular comments on this topic from staff.
43.

Kozinski succeeded in keeping open access to pornography, and the

Judicial Conference agreed to stop its review of large video files he downloaded or
streamed. However, as part of this settlement of the dispute, Kozinski was informed
that there was no way to stop internal tracking of his access to pornography
websites, even if the files themselves were not identified. Kozinski was in
particular worried that Greg Walters, the Circuit Executive who had been following
the instructions of Mecham and the Administrative Office of the Courts, would
formally blow the whistle on both his consumption of pornography and
mistreatment of court personnel.
44.

From at least 1998, the JC was aware, from information provided by

monitoring, that Kozinski was the heaviest user of pornography based on
identification of “high-volume files”, e.g. porn videos, downloaded by Kozinski. In

17

addition, his close friends on the bench, in particular Judges Reinhardt and Ikuta,

18

were aware of it and had watched it with him. Virtually all of Judge Kozinski’s

19

clerks had been made to watch pornography, and Kozinski had invited, or in some

20

cases, as a “joke”, compelled, other clerks from other chambers in Pasadena to

21

watch pornography. All of the Circuit Judges who had chambers in Pasadena were

22

aware from being informed by their clerks of Judge Kozinski’s behavior in this

23

regard by 2007. In addition, beginning in that time period, professors at elite law

24
25
26
27

schools began receiving feedback from clerks and externs about Kozinski’s
predilections.
45.

After 2001, Judge Kozinski, realizing that his access to pornography

websites would be tracked by system administrators, decided on a new mechanism

28
-20-

COMPLAINT

Caseata-35^-0vQ®2^O2)(2idili)Ti4rtF!D33BfeicCaaElre^94Pag§^ecaSSf 58
027

1
2
3
4
5

6
1

8
9
10
li
12
13
14
15
16
17
18
19
20
21
22
23
24
25

for viewing and distributing pornography. He set up a home server and placed his
favorite, curated pornography and other materials on it, along with his public
writings and other material he wanted to distribute outside the Court email system.
This server, set up around 2002, made it impossible for the Court’s internet service
monitoring system to determine what it was that Kozinski was accessing, since all
that would be reported would be accesses to Kozinski’s website and server, and the
Administrative Office of the Courts was barred from looking at the contents of the
videos streamed or downloaded by Kozinski.

46.

In 2005 Sanai submitted an opinion piece to The Recorder of San

Francisco concerning the ongoing controversy over citation of unpublished
opinions.3 He addressed a matter of great public interest that was about to be
decided by the Judicial Conference, then-proposed (and now adopted) Federal Rule
of Appellate Procedure 32.1. Kozinski’s testimony to Congress on this subject was
cited by Sanai as representing the view of those opposing citation of unpublished
opinions, and Howard Bashman’s commentary was quoted as representative of the
side favoring citation. Sanai also urged the Court to grant more rehearings en banc
to settle perceived or actual conflicts in Ninth Circuit authority, starting with the
conflicts surrounding the Court’s Rooker-Feldman precedent.

47.

It was while researching Kozinski’s views on the subject of citation of

unpublished appellate dispositions that Sanai first came across alex.kozinski.com,
specifically the directory alex.kozinski.com/articles/. There were numerous links
discoverable by Google to articles in this directory, some of which had clearly been
supplied by Judge Kozinski himself.

48.

Four days after Sanai’s article was published, the Judicial Conference

decided the issue in favor of permitting citations. Judge Kozinski was quoted

26
27

3 C. Sanai, Taking the Kozinski Challenge, The Recorder, September 16, 2005
28
-21-

COMPLAINT

Casea^a-SSBSayCffl2l5ffi02aidilDn4f»F(D3aefticCMBie/J94Page^c215af 58
028

1
2
3

4
5
6
7
8

9
10
11
12
13
14

condemning this move by the Judicial Conference, and expressing his hope that the
Supreme Court would reject it.4
49.

Two days later, Judge Kozinski published his response to Sanai’s

article in The Recorder.5 Judge Kozinski laid out a response to the arguments in the
pending petition and a novel analysis of the Ninth Circuit’s past precedent
concerning the Rooker-Feldman doctrine.

50.

Kozinski’s article did not address the primary subject of Sanai’s

article, which is the citation policy of the Ninth Circuit. It ignored Sanai’s
discussion of the debate between the majority and dissent over what constitutes
binding precedent in the Ninth Circuit.6 Kozinski focused the first part of his article
solely on trying to rebut Sanai’s contentions that there is a severe conflict in the
Ninth Circuit’s authority concerning the Rooker-Feldman doctrine^ a fact so obvious
that District Court judges have commented on it.7 He began the second part of his
article as follows:

15
16
17
18
19
20
21
22
23
24
25
26
27
28

4 Tony Mauro, Cites to Unpublished Opinions Ok’d, Legal Times, September 21,
2005
5 Alex Kozinski, Kozinski Strikes Back, The Recorder, September 23, 2005.
6 See Barapind v. Enomoto, 400 F.3d 740, 751 fn. 8 (9th Cir. 2005)(en banc).
7 The specific legal issue that was addressed in Taking the Kozinski
Challenge was whether the Ninth Circuit was following its own precedent
that the Rooker-Feldman doctrine does not apply to non-final interlocutory
orders challenged while the case was in litigation in state court. Sanai stated
that the Court was not following its own precedent; Kozinski contended that
Sanai was not telling the truth. Kozinski’s contentions were completely
dishonest, as discussed in a subsequent order by a Ninth Circuit District
Court Judge:
With respect to the Injunctive Orders, they appear to be non-final,
interlocutory orders. In 2001, the Ninth Circuit held that RookerFeldman applies to interlocutory orders. See Doe & Assocs. Law
Offices v. Napolitano, 252 F.3d 1026, 1030 (9th Cir. 2001) (approving
of Richardson v. D.C. Ct. ofApp., 83 F.3d 1513, 1515 (D.C. Cir.
-22-

COMPLAINT

Casga^-35^-avG®2^02)^diIi)n4rtF(D33S[fecDt2Elre/^94Pag§^c2Saf 58
029

l
2
3
4
5
6
7
8
9
10
11
12
13

Despite his colorful language, Mr. Sanai’s article raises no
legitimate question about whether the Ninth Circuit has been derelict in
following circuit or Supreme Court precedent. But the article does raise
serious issues of a different sort. Mr. Sanai’s article urges us to “grant
en banc rehearing of the next decision, published or unpublished, which
asks the court to resolve the split among H.C., Napolitano and
Mother shed." A petition for en banc rehearing raising this very issue
crossed my desk just as Mr. Sanai’s article appeared in print. The name
of the case? Sanai v. Sanai. A mere coincidence of names? Not hardly.
The petition, signed by Mr. Sanai, cites the same cases and makes the
same arguments as his article — including the reference to “Catch-22.”
Kozinski Strikes Back, supra.
51.

Judge Kozinski placed case-related documents on his personal website,

www.alex.kozinski.com, and had the web version of his article link to the .pdf file
of the selection of these documents on his website. Subsequently, Judge Kozinski’s
wife revealed that Judge Kozinski’s actions was motivated not just by the litigation

14
15
16
17
18
19
20
21
22
23
24
25
26
27

1996)). In 2005, relying on Exxon Mobil Corp. v. Saudi Basic Indust.
Corp., 544 U.S. 280 (2005), the Ninth Circuit stated that RookerFeldman only applies after state court proceedings have ended, i.e.
"when the state courts finally resolve the issue that the federal court
plaintiff seeks to relitigate in a federal forum. ..." Mothershed, 410
F.3d at 607 n.3 (amended opinion). After 2005, however, the Ninth
Circuit in several unpublished cases cited Doe & Assocs. for the
proposition that Rooker-Feldman applied to interlocutory orders. See,
e.g., Hanson v. Firmat, 272 Fed. Appx. 571, 572 (9th Cir. 2008);
Melekv. Kayashima, 262 Fed. Appx. 784, 785 (9th Cir. 2007); Bugoni
v. Thomas, 259 Fed. Appx. 11, 11-12 (9th Cir. 2007); see also Ismail
v. County of Orange, 2012 U.S. Dist. LEXIS 65793, *25-*26 (C.D.
Cal. Mar. 21, 2012); cf. Marciano, 431 Fed. Appx. at 613 (discussing
only Mothershed).
The Court is not convinced that the parties have adequately
addressed Rooker-Feldman. The parties have not discussed or even
cited Mothershed or Doe & Assocs.
CMLS Management, Inc. v. Fresno County Superior Court, No. 1 l-cv-1756-A WISKO, 2012 WL 2931407 (E.D. Cal. July 18, 2012) at *10.

28
-23-

COMPLAINT

Caseat§-S5^e-8yQ®2^02a(diIihidrtF(D33B^cDfc2Elre^94pag§^lec2$®f 58
030

1
2
3
4

Kozinski addressed in the article, but also by Sanai accomplishing the exceptionally
rare removal for misconduct of a well-connected Los Angeles County Superior
Court Judge (and Kozinski friend), Elizabeth Grimes, from a completely separate
case, Sanai v. Saltz. 8

5
6
7
8
9
10

52.

October of 2005. The order concerning the complaint was issued on December 19,
2006, more than 14 months later.9 It terminated the complaint on the grounds (a)
that corrective action had been taken as to Judge Kozinski’s publication in the
Recorder, and (b) there was no evidence of any website controlled by Judge
Kozinski which held such materials.

11
12
13
14

53.

17

A key fact in the complaint was that Judge Kozinski had scanned in

documents from the record of a case not before his Court, and linked the documents
to the on-line versions of his article at the website “law.com”. Various .pdf scans
were placed on alex.kozinski.com.10

15
16

Sanai filed a judicial misconduct complaint against Judge Kozinski in

54.

The Recorder and law.com site made its web-based articles available

for a period of one year, then erases them. Accordingly, the Kozinski article and the
link to the .pdf files he had published are no longer accessible on the site.

18
19
20
21
22
23
24
25
26
27
28

8

See Letter from Judge Kozinski’s wife, Marci Tiffany,
patterico.com/2008/06/16/alex-kozinskis-wife-speaks-out.
9 In Re Complaint ofJudicial Misconduct (Kozinski), No. 05-89098 (2006)
10 Though the evidence of Judge Kozinski’s publication of case-related materials is
no longer on the law.com site, it was available on the well-known blog How
Appealing, which is financed by the law.com site but run separately by Howard
Bashman. Amazingly enough, after almost twenty years, the online version of the
article captured by Mr. Bashman is still found at http://pdaappellateblog.blogspot.com/2005 09 01 pda-appellateblog archive.html. The on­
line version of the article has a link, “read the pdf’. This link points to the link
/alex.kozinski.com/judge.thibodeau.pdf. The site alex.kozinski.com itself has been
rendered inaccessible; the “How Appealing” link is a proxy server snapshot that is
holding an image of the original link.
-24-

COMPLAINT

Casea^a-3SHE8yafflaBffi02fljcWihi4rtFfll3a9fticCflaa6flf94pageafiSBc3(5af 58
031

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

55.

Judge Schroeder wrote that her limited inquiry “found no posting of

complainant’s case-related information on any website maintained by the judge”, a
finding she could only have made without fear of immediate contradiction after the
article was erased on the law.com site. She was not aware, however, that Bashman
would continue the host a copy of the on-line version, including its link to Judge
Kozinski’s website, to this day. See footnote 9, supra.
56.

Schroeder’s delay of more than one year caused the loss of the

evidence about contents of the .pdf that Kozinski put on the internet, but not the link
itself, thanks to Mr. Bashman. As the chief circuit judge at the time, Judge
Schroeder was charged under the Judicial Discipline Rules then in effect with
evaluating a complaint and dismissing it or finding it is moot and concluding the
proceeding pursuant to Section 352(b) of Title 28, or appointing a special committee
to investigate the charges pursuant to Section 353 thereof. In particular Section
352(a) of Title 28 of the JCDA states that the “chief shall expeditiously review any
complaint....” This standard has been determined to mean 60 days from filing.
57.

Schroeder made the explicit factual finding of “no posting of

complainant’s case-related information on any website maintained by the judge.”
This finding of fact is contrary to the truth. The online version of Judge Kozinski’s
article on the Recorder’s website, “law.com” included a link to the site
alex.kozinski.com The link was active when Sanai filed the complaint, and at least
a month thereafter. Schroeder’s delay resulted in the elimination of that article from
the law.com site proper, but not from the related but separately-managed “How
Appealing” site.
58.

Schroeder and the appellate members of the JC at the time were aware

that Kozinski had shifted his pornography viewing to his server, and was using this
pornography for his continued hazing and sexual harassment of his clerks. Judge
Schroeder took these actions to give Kozinski time to take his website off-line and

28
-25-

COMPLAINT

Cas©a^3a^yafflttBffiO20jdilDndrtF(D3aQIfecCftaBifl/J94page^c3SSf 58
032

1
2
3

scrub the contents. Schroeder was aware from her communications with Kozinski
about Sanai’s complaint that Kozinski needed time for most of the evidence to
disappear, which she willingly gave him.

4
5
6
7
8

9
10
11
12
13
14

59.

denied by the JC with its form order. Sometime in 2007, Judge Kozinski concluded
that it was safe to reactivate the alex.kozinski.com website, which he needed in
order to resume watching pornography in his chambers and to force his clerks to
watch it. He therefore brought the site back on-line and began distributing links to
the portion of the site which includes his articles, including a .pdf scan of the paper
version of the “Kozinski Strikes Back” article. (The paper version differs from the
on-line version in one important respect—the online version included a hyperlink to
case materials posted by Judge Kozinski on alex.kozinski.com/judgethibodeau,
which materials have either been moved or removed, while the paper version
obviously had no such link).

15
16
17
18
19
20

21
22

60.

25
26
27

Sanai filed a second judicial misconduct complaint in November of

2007 regarding Judge Kozinski’s redistribution of “Kozinski Strikes Back”. Judge
Kozinski, now Chief Judge, assigned the matter to Judge Schroeder, who, true to
form, sat on it. Kozinski also fired Greg Walters and appointed Catterson, a
Kozinski acolyte, as Circuit Executive in retaliation for Walters’ efforts to halt
pornography in the Ninth Circuit and to ensure that there was no administrator
independent of Kozinski who would act to stop his sexual harassment of clerks and
other persons.

23

24

Sanai filed a petition to review Judge Schroeder’s order, which was

61.

The more Sanai thought about the treatment of Kozinski’s

alex.kozinski.com site, the more puzzled he became. Why did Judge Schroeder
pretend the site did not exist? Why did Kozinski take the site down, then put it back
up?

On the night before Christmas Eve, after putting his children to sleep with

tales of the excitement of the next day, Sanai decided to find out what Kozinski

28
-26-

COMPLAINT

Casea^-SSKffi8yOS2BffiO2aidIihi4rtFID3a6lfecDWa0/J94pageagfec32Sf 58
033

1
2
3
4

might be distributing via alex.kozinski.com website, so he entered
“alex.kozinski.com” into the Google search engine.

62.

Sanai found the reason Judge Kozinski and the JC refused to

acknowledge the existence of the alex.kozinski.com site: reams of pornography that

5

Kozinski was distributing. Sanai passed the information to John Roemer of The

6

Daily Journal. His editors killed the story, but Terry Carter of The ABA Journal

7
8
9
10
11
12
13
14
15
16
17

began working on it. At this time, Kozinski had muscled his way into presiding
over the trial of Ira Isaacs, a distributor of the “Two Girls One Cup” scatological
video. Around mid-October 2007, video-sharing sites including YouTube were
flooded with videos of the reactions of first-time viewers of the video. See, e.g.,
Agger, Michael (January 31, 2008). "2 Girls 1 Cup 0 Shame". Slate.com. Kozinski
obtained great pleasure from harassing his own clerks by forcing them to watch
pornography, so to him, “Two Girls One Cup” was the “Citizen Kane” of the
Internet.

Kozinski knew that if he presided over the Ira Isaacs trial, he would have

an excuse to force his own clerks to watch “Two Girls One Cup” with the pretext of
asking them whether they found it obscene. When Sanai read the article about
Judge Kozinski presiding over the trial, he tipped of the Los Angeles Times. Los

18

Angeles Times reporter Scott Glover independently accessed the site and apparently

19

found files and documents that had been placed in the directory after Sanai had

20
21
22
23
24
25
26
27

done his downloading and thus saw documents that Sanai never saw. Kozinski
recused himself from the Ira Isaacs trial.

63.

When the Los Angeles Times broke the story, Kozinski filed a

misconduct complaint against himself. Justice Roberts issues an order transferring
that complaint, and any future complaints related to the same events, to the Third
Circuit.
64.

Sanai filed a third complaint with the Ninth Circuit, but because Sanai

had alleged additional facts pointing out what Judge Kozinski did with the

28
-27-

COMPLAINT

Caseata-3SfflB8yQffl2Bffi02ajddihi4rtflD3a6fticDlflBrfl/J94Page^c8$af 58
034

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

pornography—distributing it across the internet—the JC violated Justice Roberts’
order and stayed his complaints by order signed, inter alia, by defendants Thomas,
McKeown, Gonzalez, and Hatter.
65.

As the world now knows, the investigation of Kozinski by the Third

Circuit was a complete whitewash, as the only witness interviewed or called was
Kozinski. Kozinski testified that he never showed anyone the pornography on his
server, which was, on its face preposterous—why put it on a server connected to the
Internet with Apache Internet server software installed and operative if not to be
accessed by the Internet? Even while Kozinski was (theoretically) under
investigation he was using his website to distribute pornography in his chambers,
terrorizing his clerk Heidi Bond. See
http://www.courtneymilan.com/metoo/kozinski.html. Though Kozinski’s behavior
was an open secret, the only witness called by the Third Circuit was Kozinski
himself. Sanai’s submission to the investigative committee of the Third Circuit
explaining how to find the access Kozinski made via his chambers computers was
ignored, and the committee never spoke to Sanai.
66.

But once Kozinski had been “cleared” the JC began its campaign of

retaliation. First it assigned investigation of Sanai’s complaint to Kozinski’s best
friend on the Court, Stephen Reinhardt. It then censured Sanai and, through
Catterson, began a campaign of written and verbal pressure to disbar Sanai.
67.

The 2010 JC Defendants issued a published censure of Sanai as

retaliation for filing his valid misconduct complaint and instructed that it be put to

23

the California Bar Association (the “Censure Order”). The JC lacked jurisdiction to

24

issue the Censure Order on two grounds. First, the misconduct complaints had been

25

required by order of Justice Roberts to be transferred to the Third Circuit Judicial

26

Council. Second, Congress never granted any Judicial Council or the Judicial

27

Conference the power to censure or sanction anyone; indeed, had it done so, the

28
-28-

COMPLAINT

Caseafca-S3ffi8yQ®l2BffiO2aicUi)n4rtF(D3a0fticDlflBifl/J94pagea^c8€®f 58
035

1
2

JCDA would be unconstitutional, as it does not afford complainants minimum due
process rights to prove the validity of their complaints.

3

4

68.

Though Kozinski was not supposed to be handling this matter, he took

over prosecution and gave instructions to Catterson. When the OCTC initially

5

refused to take any public action, Catterson began a campaign of putting personal

6

and legal pressure on the OCTC to file charges against Sanai. When the then-Chief

7

Trial Counsel of the OCTC wrote back asking for supporting documentation,

8

Catterson explained that none would be provided, not even the misconduct

9

complaints Sanai filed.

10

69.

Catterson was informed, in writing, that without evidence or witnesses,

li

it would be impossible to successfully prosecute Sanai. However, when a new,

12

politically ambitious Chief Trial Counsel, Jayne Kim, was hired, Catterson

13

convinced her not to hold any independent investigation, as this would have

14

required issuing a subpoena to the JC, reviewing the documents, and discovering

15

that the characterization of the contents of Sanai’s complaints in the Censure Order

16

was false. Because both Catterson and the OCTC knew a charge based solely on the

17

Censure Order would fail, Catterson, on behalf of Kozinski and the 2010 JC

18

Defendants, assembled other meritless charges that had been previously asserted

19

against Sanai years ago and dismissed, relating to ligation in which Kozinski had

20

been interfering in both publicly and behind the scenes.

21

70.

By 2014 the OCTC finalized a strategy of bringing claims that were

22

barred by the limitation rule and the evidence-less claim of the JC to trial.

23

Defending himself, Sanai obtained dismissal of all but one charge. The State Bar

24

Court judge wrote about the charge relating to the reporting of judicial misconduct

25

that:

26
27

In this count the State Bar alleges that between October 2008
and September 2010, Respondent “filed and maintained formal
judicial complaints with the Ninth Circuit Judicial

28
-29-

COMPLAINT

Case^SS^yQffl2«ffiO2fljdDndrtFfl)3aQfticCMQfl^94pageapc8$0f 58
036

l
2
3
4
5
6
7
8
9
10
11
12
13

m

14

Council against approximately 19 federal judges, when such
complaint were frivolous and made for improper reasons . . . . “ It
alleges that the filing of these complaints constituted acts of moral
turpitude.
In his motion, Respondent argues that the evidence received by this
court is insufficient to establish clear and convincing evidence to
support this count.
The State Bar did not put in evidence the complaints actually filed by
Respondent against the federal judges. In response to this court’s
inquiry, it was informed by the State Bar that it was
unable to do so due to the Ninth Circuit’s refusal to provide those
complaints to the State Bar. Being unable even to read the
complaints filed by Respondent, this court cannot conclude
that any of those complaints were filed frivolously or constituted an
act of moral turpitude. To the extent that this court is aware of the
content of one of those complaints, the record shows that it was
apparently justified and resulted in a formal apology by the judge
and a self-administered recusal by him from the pending matter
involving Respondent.

15
16
17

71.

In a subsequent order dismissing more charges, the State Bar Court

judge wrote as follows:

18
19
20
21
22
23
24
25
26
27
28

In 2010, a complaint was made to the State Bar by the Judicial Council
of the Ninth Circuit regarding Respondent’s purportedly frivolous
complaints to it about a number of federal judges. This complaint by
the Judicial Council of the Ninth Circuit subsequently formed the basis
for Count 6 of the pending NDC. When the complaint was received, the
State Bar opened case No. 10-0-09221 (the ‘10 case) and contacted
Respondent about the matter. Then, after learning that the Judicial
Council of the Ninth Circuit would not release to the State Bar the
actual complaints filed by Respondent against the federal judges,
the State Bar decided to issue a warning letter to Respondent in
November 2011, and closed the case.7 (Ex. 1040.) That decision was
explained, both orally and in writing, by the State Bar to Cathy
Catterson, a representative of the Judicial Council of the Ninth
Circuit, on November 8, 2011. (Ex. 1041). Thereafter, she
-30-

COMPLAINT

Case^a-3SHSayQffl2BffiO2)0»dIihidrtFID3aSIfecDlflBe/J94page3gec3®af 58
037

l
2

complained of the State Bar’s decision in a letter, dated January
19, 2012, directed to the then Acting Chief Trial Counsel of the
State Bar.

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

7 The State Bar had previously notified the Judicial Council of the
Ninth Circuit in May 2011 that it would be difficult to pursue any
complaint that Respondent’s complaints against various federal
appellate justices were frivolous without having access to the actual
underlying complaints. As stated by the State Bar at that time: “As you
may be aware, to prevail in State Bar disciplinary proceedings, our
office must prove by clear and convincing evidence that an attorney
committed willful misconduct. Although the Judicial Council’s order of
September 30 2010, will certainly be a useful piece of evidence to
establish that Mr. Sanai engaged in misconduct by filing frivolous
misconduct complaints, it would be insufficient standing alone to prove
by clear and convincing evidence that Mr. Sanai engaged in misconduct
warranting discipline, especially since the order does not include any
specific findings of fact but rather includes only the conclusion that Mr.
Sanai abused the misconduct complaint procedure.” (Ex. 1039, p. 2.)
8

Given the State Bar’s inability to provide this court with a copy of the
actual complaints filed by Respondent against the federal judges, this
court - as accurately predicted by the State Bar in May 2011 —
eventually dismissed that count at trial due to the State Bar’s failure to
provide clear and convincing evidence that those complaints were
frivolous. The evidence was not sufficient even to enable this court to
identify all of the judges against whom complaints had been filed.

19
20

72.

Defending against the last pending charge requires Sanai to issue

21

or enforce subpoenas to Kozinski, Catterson, Dwyer (as Clerk) and the JC.

22

One of Sanai’s defense theories focuses on the documented link between

23

Kozinski’s retaliatory conduct and Sanai v. Saltz, which was first publicly

24

revealed in a post by Kozinski’s then-wife, Marcie Tiffany. Another rests on

25

the prosecutorial misconduct of bringing the charge urged by the JC when the

26

OCTC predicted it would fail without evidence from the JC, and refusing to ,

27

conduct an independent investigation. The trial is set to resume in February

28
-31-

COMPLAINT

Caseata-3SBS8yCGB2Cffi02QiclilDTi4flFID3a9fticDl!aQ6/J94PageaS6c8B®f 58
038

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

of 2020. In September of 2019, OCTC stipulated in on the record that the
charges that were dismissed will not be subject of an appeal. Accordingly,
the dismissals of all but one of the charges are final.
73.

The meritoriousness of Sanai’s misconduct complaints was

confirmed a decade after Sanai discovered Kozinski’s pornography when a
Washington Post national security reporter, having heard rumors about
Kozinski, contacted Sanai and others and published a blockbuster pair of
articles showing that Kozinski had been openly sexually harassing his clerks
and third parties for years, with this pornography-laded server exposed by
Sanai 13 years previously a major tool. This exposure had many
consequences.
74.

Facing a misconduct complaint that was transferred to the

Second Circuit, Judge Kozinski resigned in disgrace, and started practice law
before the Ninth Circuit Court of Appeal, appearing for the first time last
week. His appearance was met with anger and consternation in the legal
community.
75.

Judge Kozinski’s former clerk and daughter in law, Leslie

Hakala, was the subject of direct retaliation by Kozinski after he resigned
through Circuit Judges Reinhardt and Ikuta. Ms. Hakala was married to
Judge Kozinski’s eldest son Yale, and she was a long-time employee of the
SEC in Los Angeles. Approximately four years ago she obtained a coveted
partnership at K&L Gates; approximately three years ago her marriage fell
apart, and she filed for divorce from Yale Kozinski. The divorce was
extremely bitter, as Ms. Hakala was the breadwinner. When The Washington
Post articles came out in December of 2017, her counsel sought to subpoena
Judge Kozinski to obtain information about his treatment of Ms. Hakala in the
context of the legal battles. The younger Kozinski then acceded to Ms.

28
-32-

COMPLAINT

Casea»-SS0S8vaffi2CffiO2QjclilDndrtF!D330fticDlflBre/1f94Page^c38®f 58
039

1
2
3
4
5
6
7
8
9

Hakala’s demands and the divorce was settled. After Hakala played the
#metoo card and the divorce was finalized, several judges with personal
relationship with attorneys at K&L Gates, including Judge Kozinski’s close
friend, the late Stephen Reinhardt, and Kozinski’s former clerk, Circuit Judge
Sandra Ikuta, independently communicated, directly and/or indirectly, to
K&L Gates partners that Ms. Hakala’s continued presence at the firm would
injure its representation of its clients in federal court. Ms. Hakala was then
fired.
76.

In December of 2017 Sanai filed a motion with the JC to vacate the

10

Censure Order based on the revelations regarding Kozinski and rejection of its

11

complaint by the California Bar. The motion has never been addressed, and is

12

technically still pending.

13
14

FIRST COUNT

15

INJUNCTIVE RELIEF FOR VIOLATION OF CONSTITUTIONAL RIGHTS

16

(By Sanai as Against the JC, Dwyer, Kozinski, Catterson and the 2010 JC

17

Defendants)

18
19
20

77.

Sanai hereby incorporates by this reference paragraphs 1 through 76 as

if set forth in full.
78.

The imposition of the Censure Order; the refusal to provide any

21

relevant documents to Sanai after a subpoena was issued; and the prosecution of a

22

bar complaint while withholding evidence violated Sanai’s right to due process

23

under the law.

24

79.

The Censure Order was unconstitutional, because the JCDA does not

25

give the JC jurisdiction to issue such orders, and the JCDA does not give

26

complainants due process rights to prove their complaints or even an independent,

27

impartial tribunal with notice of evidence used against a complainant. Indeed, after

28

filing a complaint, the evidence uncovered by any investigation is kept secret. Now
COMPLAINT

Case^3SHSE8yaffl2effiO2ajddi)n§rtFID3a0fticDl!aae/J94Page38lBc8S®f 58
040

1
2
3
4
5

m

that the disposition of Sanai’s complaint was proven to be erroneous—as Sanai’s
accusations of intentional distribution of pornography by Kozinski have been shown
to be true—Sanai still has no right to have the Censure Order vacated under the JC’s
own practices and procedures.
80.

The JC and Catterson’s filing of a state bar complaint while

6

withholding evidence and refusing to testify was a violation of Sanai’s right to a fair

7

trial in State Bar Court. Though the State Bar Court dismissed all but one of the

8

charges, Sanai is entitled, as a matter of due process, to disclosure of all documents

9

which refer, relate or pertain to his misconduct complaint, the litigation referenced

10

therein, and all records of efforts by the 2010 JC Defendants, Catterson, and

11

Kozinski to disbar Sanai or otherwise retaliate against him. These documents are

12

necessary for Sanai to mount his defense that the last charge made by the OCTC

13

should be dismissed due to prosecutorial misconduct and because it arose from

14

illegal judicial retaliation, and to ensure that the State Bar proceedings can serve, at

15

least in part, as a name-clearing hearing. The refusal of Catterson and the JC to

16

provide this information was a violation of due process, and indeed obstruction of

17

justice.

18

81.

Sanai was professionally injured by the Censure Order and suffered

19

humiliation, anger and outrage over the unjust imposition of censure and the false

20

characterization of his misconduct complaint. Sanai has lost income from clients

21

discouraged from hiring him as an attorney based on the false statements about his

22

conduct made by the 2010 JC Defendants. Sanai also has a constitutionally-

23

protected interest in his professional reputation that he may seek to redeem by a

24

name-clearing hearing, both in State Bar Court and in via this proceeding.

25

82.

Now that it has been proven to be incorrectly issued, and Sanai

26

prevailed in the bar proceedings on the complaint filed by Catterson on behalf of the

27

2010 JC Defendants, he is entitled to injunctive relief to restore his reputation by a

28

name clearing hearing in this Court and to defend against the last charge in his bar
-34-

COMPLAINT

Cas©a^-35^-8vQ®2?5^02aidiii)n4rtF(D33eifecDt3Elre^94Pagg^scrf(5af 58
041

1
2
3

proceedings. First, after a full evidentiary hearing or trial, a mandatory injunction
should be entered requiring the JC to vacate the Censure Order and in its place
publish the declaratory judgment requested in the Third Count of this Complaint.

4

All Defendants should also be ordered to hand over all documents (including emails

5

and telephonic messages) that:

6

A.

Refer, relate or pertain to Sanai;

7

B.

Refer or relate to any litigation referenced in his misconduct

8
9

complaints filed with JC;

c.

10

Refer relate or pertain to the interactions between Catterson and
OCTC and Catterson and Kozinski;

li

D.

Refer, relate or pertain to Kozinski’s battle over the firewall;

12

E.

Refer, relate or pertain to Kozinski’s treatment of his clerks.

13

83.

The public interest is strongly in favor of granting relief. Victims of

14

Kozinski, academics, and senators all expressed disappointment and anger that the

15

full story of Kozinski’s decades of misconduct would not be exposed and that, after

16

committing serious misconduct, he freely practices before the Ninth Circuit Court of

17

Appeals. While the judicial misconduct process will never expose the true facts

18

regarding Kozinski, the JC, by imposing the Censure Order, has given Sanai

19

standing to reveal by adversarial litigation what the JC sought to conceal. For this

20

reason, should the JC initiate a misconduct proceeding to investigate any of the

21

allegations herein, this Court must enjoin such proceedings until after completion of

22

this lawsuit. Such an injunction is necessary to prevent the judicial misconduct

23

process from being once again used to falsely vindicate the 2010 JC Defendants and

24

other enablers of Kozinski.

25

84.

Because the 2010 JC Defendants acted with malicious intent to injure

26

Sanai in order to protect Kozinski from exposure of how he used pornography to

27

sexually harass his clerks, there is an unconstitutional risk of lack of impartiality if

28

any of the Current JC Judges or Collins is assigned to a case in which Sanai is
-35-

COMPLAINT

Casea^§-3SffiEayCBB2BffiOEajdIi>n4rtFID3a0BicDlflBifl/1®4page^ofS0f 58
042

1
2

counsel or a party. The Court should impose an injunction barring the Current JC
Judges and Collins from participating as a judge or justice in any way in a matter

3

involving Sanai, as party or attorney. It is a certainty that Judge Kozinski will use

4

every resource at his command to fight this lawsuit and retaliate against Sanai.

5

Kozinski’s modus operandi for retaliation in the past has been through proxies, who

6

included the late Stephen Reinhardt (against both Sanai and Hakala) and Catterson.

7

Kozinski must be enjoined from doing so, and be forced to reveal his machinations.

8
9

85.

The Court should also impose an injunction barring the JC from

imposing any kind of sanction or penalty on any judicial misconduct complainant as

10

such sanctions are not authorized under the JCDA or any rules. The JC should also

11

be ordered to promulgate effective rules and procedures requiring judges in the

12

Ninth Circuit to fully disclose past and current relationships between the judges in

13

which the case is proceeding and lawyers, law firms, identified witnesses, and

14

parties in the case as and when disclosed to the judge.

15
16

SECOND COUNT

17

MANDAMUS

18

(By Sanai as Against the JC)

19
20
21
22
23

86.

Sanai hereby incorporates by this reference paragraphs 1 through 76 as

if set forth in full.
87.

The imposition of the Censure Order and the prosecution of the State

Bar complaint was outside the jurisdiction of the JC, in bad faith and irrational.
88.

A district court may issue an order compelling a governmental agency

24

to perform a non-discretionary act, or vacate or correct actions outside of its

25

jurisdiction, by way of mandamus. 28 U.S.C. §1361. A district court also has

26

authority to confine another agency to its proper jurisdiction by way of mandamus

27

under the All Writs Act.

28
-36-

COMPLAINT

Casea^8a®8yOffl2effiO2aicUi)TidrtF!D330lfecDlfla8/1f94pageagfeof20f 58
043

1
2
3

89.

It is clear that the JC lacks jurisdiction to impose any kind of sanction

on complainants. This is because, in addition to the plain language of the JCDA, the
JCDA does not give complainants due process rights to prove their complaints or

4

even an independent, impartial tribunal. Indeed, after filing a complaint, the

5

evidence uncovered by any investigation is kept secret. Now that the disposition of

6

Sanai’s complaint was proven to be erroneous—as Sanai’s accusations of

7

distribution of pornography by Kozinski within the Court have been shown to be

8

true—Sanai the Censure Order should be vacated on the merits and because it is

9

void.

.10

90.

The JC and Catterson’s filing of a bar complaint while withholding

11

evidence and refusing to testify was a violation of Sanai’s right to a fair trial in State

12

Bar Court and outside the jurisdiction of the JC.

13

91.

Sanai was professionally injured by the Censure Order. Now that it has

14

been proven to be incorrectly issued, and Sanai prevailed in the bar proceedings on

15

the complaint filed by Catterson, he is entitled to a judgment of mandamus vacating

16

the Censure Order, and prohibiting the JC from imposing sanctions on any

17

complainants of any kind. Sanai exhausted his administrative remedies by filing a

18

motion to vacate the Censure Order in December of 2017, which the JC refused to

19

act upon.

20
21

THIRD COUNT

22

DECLARATORY JUDGMENT

23

(By Sanai as Against the JC and Kozinski)

24
25
26
27

92.

Sanai hereby incorporates by this reference paragraphs 1 through 76 as

if set forth in full.
93.

Sanai accused Kozinski of distributing pornography for improper

purposes via his server, and various other federal judges of aiding and abetting it.

28
-37-

COMPLAINT

Case^3SHSEayaffl2Bffi02ajcUihi4rtF!D3aSlfecDlflQ8/3®4PagB^feo*Saf 58
044

1

2
3

Sanai continues to accuse the JC of past misconduct, which is now confirmed by a
ruling of an impartial tribunal.
94.

The failure of the JC to police Kozinski resulted in the formation of a

4

working group to provide changes to the rules of judicial conduct and the rules for

5

application of the JCDA. Sanai appeared at the public hearing on behalf of himself

6

and Mecham to explain the fatal flaws in the rules as amended, and there was a

7

blizzard of other comments and criticisms, all of which were ignored.

8
9

95.

One leading presidential candidate, Senator Elizabeth Warren, has

made reform of the judicial misconduct rules a platform of her campaign,

10

identifying the handling of judicial misconduct complaints against Kozinski as

11

examples of governmental misconduct that must be corrected.

12

96.

The investigation against Kozinski terminated when he resigned from

13

the bench. However, the Censure Order against Sanai, which injured him

14

personally, and the efforts to disbar him, are a continuing dispute between Sanai and

15

the JC which can be the subject of declaratory relief. Sanai has a constitutionally-

16

protected right to a name-clearing hearing to vindicate his professional reputation.

17

97.

There is an actual controversy between Sanai, on the one hand, and the

18

JC and Kozinski on the other hand, regarding the facts in his misconduct complaint

19

and the facts that would have been revealed if his complaint had been transferred to

20

the Third Circuit Judicial Council. Sanai is entitled to a declaratory judgment

21

which fully sets out the history of Kozinski’s sexual harassment, the enablement of

22

it by the JC, Catterson, and other members of the Ninth Circuit Court of Appeals

23

and District Court within the Ninth Circuit, and retaliatory conduct by Kozinski, the

24

JC, Catterson and others that was conducted against Mecham, Walter, Sanai, Hakala

25

and others. This declaratory judgment must also state the facts concerning

26

Kozinski’s perjury before the Third Circuit Judicial Council. Sanai is also entitled

27

to a declaratory judgment setting out that the facts alleged in his misconduct

28

complaints are true, or, to the extent they are not accurate, the actual facts. This
-38-

COMPLAINT

Case^a-8affiayaffl2Bffi02ffiiddihidrtFfl)3aeft^DlflQfl/3®4Page^of€®f 58
045

1
2
3
4

declaratory judgment is in the public interest. Once findings of fact setting out the
true and complete history have been made, the JC should be ordered to publish and
publicize the judgment in place of the Censure Order.
98.

Sanai is also entitled to a declaratory judgment that the filing and

5

prosecution of the state bar complaint by the JC, and any administrative decisions of

6

the JC that permit such conduct, are outside the jurisdiction of the JC.

7
8

FOURTH COUNT

9

ABUSE OF PROCESS (FEDERAL COMMON LAW)

10

(By Sanai as Against Kozinski, Catterson and the 2010 JC Defendants)

11

99.

12
13

Sanai hereby incorporates by this reference paragraphs 1 through 76 as

if set forth in full.
100. Kozinski, Catterson and the 2010 JC Defendants utilized the judicial

14

misconduct law to impose injury on Sanai (i) where the actual statute did not grant

15

subject matter jurisdiction to impose sanctions or punishment on a complainant by

16

the administrative agency in question, the JC; (ii) where the JC defendants had a

17

non-discretionary duty to transfer the complaints to the Third Circuit Judicial

18

Council; and (iii) where the misconduct proceedings were utilized to protect

19

Kozinski from inquiry about this use of pornography to sexually harass his clerks,

20

which practices of Kozinski were known to the 2010 JC Defendants. The abuse of

21

process continues to this day because Defendant Thomas refused to process the

22

motion to vacate the Censure Order, which is still in limbo. Their conduct

23

constituted abuse of process under federal common law, which applies because the

24

process in question is federal and thus constituted issues involving the rights and

25

obligations of an agency of the United States.

26

101. The 2010 JC Defendants are not entitled to judicial immunity because

27

the acts they committed did not constitute performance of duties of a judge of any

28

United States District Court or the Ninth Circuit Court of Appeals. “Fundamentally,
-39-

COMPLAINT

Caseafea-33Kffiayaffl2Bffi02ajcUi)n§rtF(D3aQfticDlflBie/1®4pagea(|Sfeof$®f 58
046

1
2
3

however, misconduct proceedings are inquisitorial and administrative.” In re
Manuel Real, supra. Administrative agency personnel are entitled to qualified
immunity from constitutional and federal law claims to the extent that their activities

4

arise from performance of their duties within their jurisdiction, and their conduct

5

does not violate clearly established law.

6

102.

By no later than 2008 it was clearly established law that judicial

7

misconduct proceedings were inquisitorial administrative proceedings that have no

8

justiciable constitutional due process protections. Given that federal judges have no

9

justiciable due process rights to retain their positions, this is constitutional AS TO

10

JUDGES. However, it is and was manifestly unconstitutional to use judicial

11

misconduct proceedings to punish complainants, who have no due process rights

12

such as right to an impartial tribunal, right to see evidence obtained in

13

investigations, or even right to review the evidence used against them.

14

103. In addition, it was clearly established law that the JC had to obey

15

Justice Roberts’ transfer order of the judicial misconduct complaints of Sanai and

16

Mecham; by refusing to do so, the 2010 JC Defendants, Kozinski and Catterson

17

lacked subject matter jurisdiction in respect of Sanai’s complaint.

18

104. Sanai is entitled to monetary damages for emotional injury, lost income

19

and opportunities to obtain income, reputational injury and out-of-pocket expenses

20

arising from the abuse of process by Catterson, Kozinski and the 2010 JD

21

Defendants. The actions of Kozinski, Catterson, and the 2010 JC Defendants were

22

taken maliciously and with the explicit intention of violating Sanai’s constitutional

23

rights, to oppress him, and to make his disbarment a warning to anyone who sought

24

to blow the whistle on Kozinski or other judges in the Ninth Circuit, so imposition

25

on punitive damages on each is merited.

26
27
28
-40-

COMPLAINT

Casea^a-3Sffl8vQffiaBffiO2ajcUDTi4rtF!D3a0lfecDiaB8/J94Pag&seBOfS®f 58
047

1

2

FIFTH COUNT
MALICIOUS PROSECUTION (FEDERAL COMMON LAW)

3

(By Sanai as Against Kozinski, Catterson and the 2010 JC Defendants)

4

105. Sanai hereby incorporates by this reference paragraphs 1 through 76 as

5
6

if set forth in full.
106. The 2010 JC Defendants utilized the judicial misconduct law to impose

7

injury on Sanai where the actual statute did not grant subject matter jurisdiction to

8

impose sanctions or punishment on a complainant by the administrative agency in

9

question, the JC; where the 2010 JC Defendants had a non-discretionary duty to

10

transfer the complaints to the Third Circuit Judicial Council; and where the

11

misconduct proceedings were utilized to protect Kozinski from inquiry about this

12

use of pornography to sexually harass his clerks, which practices of Kozinski were

13

known to the 2010 JC Defendants. Their conduct constituted malicious prosecution

14

under federal common law, which applies because the JCDA is a federal law.

15

107. The 2010 JC Defendants and Kozinski are not entitled to judicial

16

immunity because the acts they committed did not constitute performance of duties

17

of a judge of any United States District Court or the Ninth Circuit Court of Appeals.

18

“Fundamentally, however, misconduct proceedings are inquisitorial and

19

administrative.” In re Manuel Real, supra. Administrative agency personnel are

20

entitled to qualified immunity from claims under the United States constitution or

21

federal law to the extent that their activities arise from performance of their duties

22

within their jurisdiction, and their conduct does not violate clearly established law.

23

108.

By no later than 2008 it was clearly established law that judicial

24

misconduct proceedings were inquisitorial administrative proceedings that, like

25

impeachment and removal by Congress, have no justiciable due process protections.

26

Given that federal judges have no justiciable due process rights to retain their

27

positions, this is constitutional AS TO JUDGES. However, it is and was manifestly

28

unconstitutional to use judicial misconduct proceedings to punish complainants,
-41-

COMPLAINT

Cas©a'fe§-35ffi2-@vCG®2K^0£)Q)dili)n4rtF!D33:6fe;cDt2Bre/^94Pagga|^ot'5Sf 58
048

1
2
3
4

who have no due process rights such as right to an impartial tribunal, right to see
evidence obtained in investigations, or even right to review the evidence used
against them.
109.

In addition, it was clearly established law that the JC had to obey

5

Justice Roberts’ transfer order of the judicial misconduct complaints of Sanai; by

6

refusing to do so, the 2010 JC Defendants lacked subject matter jurisdiction in

7

respect of Sanai’s complaint.

8
9

110. Sanai is entitled to monetary damages for emotional injury, lost income
and opportunities to obtain income, reputational injury and out-of-pocket expenses

10

arising from the abuse of process by Kozinski, Catterson, and the 2010 JD

11

Defendants. The actions of Kozinski, Catterson, and the 2010 JC Defendants were

12

taken maliciously and with the explicit intention of violating Sanai’s constitutional

13

rights, to oppress him, and to make his disbarment a warning to anyone who sought

14

to blow the whistle on Kozinski or other judges in the Ninth Circuit, so imposition

15

on punitive damages on each is merited.

16
17

SIXTH COUNT

18

WRONGFUL USE OF ADMINISTRATIVE PROCEEDINGS

19

(CALIFORNIA LAW)

. 20
21
22

(By Sanai as Against Kozinski, Catterson, and the 2010 JC Defendants)
111. Sanai hereby incorporates by this reference paragraphs 1 through 76 as
if set forth in full.

23

112. Catterson, and the 2010 JC Defendants, along with the participation of

24

Kozinski, wrongfully initiated a California attorney disciplinary proceeding against

25

Sanai. Catterson, the 2010 JC Defendants, and Kozinski were actively involved in

26

bringing and continuing the bar complaint. The OCTC did not conduct an

27

independent investigation of the complaint brought by Catterson on behalf of the

28

2010 JC Defendants and Kozinski acting as the JC. This was because Catterson,
-42-

COMPLAINT

Cas@^351^yQffl2Gffi021Mita4rtFID32GftscDlflBfl/^4Pagesl|^Saf 58
049

1

Kozinski and the 2010 JC Defendants refused to provide any supporting evidence,

2

and convinced the OCTC that it was incumbent on them, if they wished to have

3

productive legal careers, to bring meritless and harassing charges against Sanai.

4

There was no legal barrier to conducting an independent investigation of the

5

charge—all it required was a subpoena of the relevant records of the JC.

6

113. No reasonable person in the position of the 2010 JC Defendants,

7

Catterson and Kozinski would have believed that there were reasonable grounds to

8

bring the proceedings or make the complaint against Sanai. They knew Sanai’s

9

accusations against Kozinski and other judges were true and valid. The 2010 JC

10

Defendants, Catterson and Kozinski were informed that the proceedings would fail

11

unless evidence was provided; but the 2010 JC Defendants, Catterson and Kozinski

12

knew that the judicial misconduct complaint filed by Sanai was meritorious, and

13

given an opportunity Sanai could prove all of his allegations, so they caused the

14

OCTC to eschew any independent investigation. Kozinski, Catterson, and the 2010

15

JC Defendants acted primarily with a purpose other than succeeding on the merits of

16

the complaint; their goal was to retaliate against Sanai for blowing the whistle, and

17

to discourage Kozinski’s many other victims from doing the same.

18

114. The bar proceedings would not have occurred but for the actions of the

19

2010 JC Defendants, Catterson and Kozinski, and thus were a substantial factor in

20

their occurring. Sanai suffered harm because of them.

21

115. California’s statutory litigation privilege and a privilege specific to bar

22

complaints prohibit all liability for making complaints or giving information in

23

judicial, administrative and other official proceedings (including the State Bar)

24

unless the requirements of malicious prosecution are met. See Judicial Council of

25

California, California Civil Jury Instructions, CACI 1500 et. seq. (2017), in

26

particular CACI 1502 and cases cited therein. This is the exceptional situation

27

where the OCTC failed to conduct an independent investigation of the charge to

28

obtain the information necessary to prevail; moreover, the barrier to investigation
-43-

COMPLAINT

Caseata-35^S-8yQ®2^02^di)n^fiF(D33:6feicD13ae^94PagEs(lgleo4SSf58
050

1
2

was the refusal of the complainant to provide the relevant evidence, because such
evidence would have exonerated Sanai. Kozinski and the 2010 JC Defendants are

3

not entitled to judicial immunity because the acts they committed did not constitute

4

performance of judicial duties of a judge of any United States District Court or the

5

Ninth Circuit Court of Appeals. “Fundamentally, however, misconduct proceedings

6

are inquisitorial and administrative.” In re Manuel Real, supra. Administrative

7

agency personnel are entitled to qualified immunity to claims under federal law and

8

the United States Constitution to the extent that their activities arise from

9

performance of their duties within their jurisdiction, and their conduct does not

10

violate clearly established law. This count arises under California law, so qualified

11

immunity does not apply. In addition, the act taken herein, the filing of a complaint

12

with the California Bar Association, is not an act within the administrative

13

jurisdiction of the JC or a matter to which federal law pre-empts state law; anyone

14

can file a bar complaint. Accordingly, there is no immunity, qualified or not, arising

15

under federal law.

16

116.

Even if qualified immunity did apply to state law claims, the immunity

17

does not apply here. It was clearly established law, set out in CACI 1502 and the

18

cases cited therein, that a person may not make a meritless complaint about an

19

attorney to the California bar, then escape liability if the Bar fails to investigate the

20

charge independently. In addition, it was clearly established law that Sanai had the

21

right to compel witnesses and obtain evidence to defend himself in his bar trial.

22

Catterson, on behalf of herself (as Clerk) and Kozinski and the 2010 JC Defendants,

23

refused to comply with Sanai’s trial subpoenas on the grounds, inter alia, that Sanai

24

could not compel the production of records or testimony of Catterson or any judges

25

under FEDERAL law because their testimony is inadmissible. This position was

26

frivolous; federal judges regularly testify in bar hearings in every state. See, e.g.

27

Comm’n for Lawyer Discipline v. Cantu, Tex. Sup. Ct. No. 18-0879 (October 25,

28

2019) (per curiam)(federal judge who was presiding in case from which misconduct
COMPLAINT

Casea^3Sl^vQffl2^02aidIihi4rtFID33SfttfMafl/3®4pageal®sc9ffiaf 58
051

1
2

arose competent to testify). It was also clearly established law that Sanai’s due
process rights override any evidentiary issues or privilege under FEDERAL law,

3

because the relevant law of privilege and evidence were CALIFORNIA law.

4

Moreover, it was clearly established law that by making the complaint, Catterson,

5

Kozinski and the 2010 JC Defendants necessarily waived all claims of

6

confidentiality as to records in their possession and in possession or control of the

7

JC that could exonerate Sanai.

8
9

117. Sanai is entitled to monetary damages for emotional injury, lost income
and opportunities to obtain income, reputational injury and out-of-pocket expenses

10

arising from the abuse of process by Kozinski, Catterson, and the 2010 JC

11

Defendants. The actions of Kozinski, Catterson, and the 2010 JC Defendants were

12

taken maliciously and with the explicit intention of violating Sanai’s constitutional

13

rights, to oppress him, and to make his disbarment a warning to anyone who sought

14

to blow the whistle on Kozinski or other judges in the Ninth Circuit, so imposition

15

on punitive damages on each is merited.

16
17

SEVENTH COUNT

18

BIVENS COMPLAINT FOR DAMAGES

19

(By Sanai as Against Kozinski, Catterson, and the 2010 JC Defendants)

20

118. Sanai hereby incorporates by this reference paragraphs 1 through 76 as

21
22

if set forth in full.
119. A person carrying out executive or administrative functions of the

23

federal government may be sued for damages for violations of constitutional rights

24

under a Bivens claims. In order to assert a new breed of Bivens claim, a party must

25

show the following:

26

A.

Fifth, or Eighth Amendments;

27
28

the plaintiff has a constitutionally protected right under the Fourth,

B.

the defendant, a federal official, violated that right;
-45-

COMPLAINT

Casea^-35^e-gyQ®2^02^diI0n4rtF!D33SfeicDt3!Elte^94Pagga!po5Saf 58
052

1

C.

2

the plaintiff lacks a statutory cause of action, or an available statutory
cause of action does not provide monetary compensation against the

3

defendant;

4

D.

5

no “special factors” suggest that the court should decline to provide the
judicial cause of action and remedy, and

6

E.

7

120. “When a party seeks to assert an implied cause of action under the

no appropriate immunity can be raised by the defendant.

8

Constitution, separation-of-powers principles should be central to the analysis. The

9

question is whether Congress or the courts should decide to authorize a damages

10

suit

ll

(2017). Here, the separation of powers problem does not exist. The determination

12

of judicial or executive liability for violation of constitutional rights is completely a

13

creation of the judiciary; what Congress writes in statutes is ignored. Indeed, when

14

Congress created a remedy for damages of violation of rights under color of state

15

law—42 U.S.C. §1983—the federal courts simply over-rode the clear statutory

16

language and held that judges continued to have immunity from damages! Here,

17

Sanai is demanding that a remedy be created by judges to impose liability on judges

18

acting in an executive or administrative role for taking retaliatory measures against

19

private parties who blow the whistle on judges who are committing unquestionable

20

judicial misconduct. Congress never had reason to create a damages remedy in

21

favor of third parties for the simple reason that the JCDA never authorized the

22

Judicial Councils or Judicial Conference to impose sanctions or penalties on

23

complainants in any way, and neither the model rules nor the rules utilized by the JC

24

have such provisions either. Where an administrative agency grossly and

25

intentionally expands its jurisdiction to areas manifestly outside the statutory subject

26

matter jurisdiction, Congress would never create a damages remedy, since there is

27

no reason it would anticipate such conduct, or be able to craft a statutory remedy

28

that would anticipate the expansion.

Most often it will be Congress....” Ziglar v. Abbasi, 137 S. Ct. 1843, 1848

-46-

COMPLAINT

Casea^SaffiQvQffl2B£e02aidilDTi§rtF!D3aeBicDl!aQfl/3fi4Pagea(gfec®2af 58
053

1

121. Kozinski, Catterson, and the 2010 JC Defendants utilized the judicial

2

misconduct procedures to impose injury on Sanai where the actual statute did not

3

grant subject matter jurisdiction to impose sanctions or punishment on a

4

complainant by the administrative agency in question, the JC; where the 2010 JC

5

Defendants had a non-discretionary duty to transfer the complaints to the Third

6

Circuit Judicial Council that they breached; and where the misconduct proceedings

7

were utilized to protect Kozinski from inquiry about this use of pornography to

8

sexually harass his clerks, which practices of Kozinski were known to Catterson and

9

the 2010 JC Defendants. The imposition of a Censure Order via a process that

10

lacked the basics of fundamental due process violated Sanai’s constitutional rights

11

under the Fifth and Eighth Amendment.

12

122. In this situation a Bivens cause of action, like 42 U.S.C. §1983, is

13

closely analogous to both malicious prosecution and abuse of process. Wyatt v.

14

Cole, 504 U. S. 158, 164(1992).

15

123. Sanai is entitled to monetary damages for emotional injury, lost income

16

and opportunities to obtain income, reputational injury and out-of-pocket expenses

17

arising from the abuse of process by Kozinski, Catterson, and the 2010 JD

18

Defendants. The actions of Kozinski, Catterson, and the 2010 JC Defendants were

19

taken maliciously and with the explicit intention of violating Sanai’s constitutional

20

rights, to oppress him, and to make his disbarment a warning to anyone who sought

21

to blow the whistle on Kozinski or other judges in the Ninth Circuit, so imposition

22

on punitive damages on each is merited.

23
24
25
26
27
28
-47-

COMPLAINT

Caseafca-93lffiayaffl2B£e02aicldi>n4rtFfl)3asaicDlflBi6^94pagea(gfea53Sf 58
054

1
2

EIGHTH COUNT
RELIEF UNDER THE CALIFORNIA PUBLIC RECORDS ACT AND

3

INJUNCTIVE RELIEF TO ENSURE

4

(By Sanai as Against the Judicial Council of California)

5

124. On March 4, 2019, March 20, 2019, and December 3, 2019, Sanai

6

made public record requests regarding administrative records concerning, inter alia,

7

the Judicial Council of California’s letter in 2014 stating that Justice Dennis Perluss

8

would refuse to comply with a subpoena to appear at the bar trial. The Judicial

9

Council of California responded to all three requests with only a partial disclosure

10

of relevant documents and stated that as to certain requests that responsive

11

documents would not be provided. These documents would be used in Sanai’s

12

upcoming bar trial, or be useful in identifying other documents that could be

13

obtained by subpeona.

14

125. Sanai is entitled to an order under the California Public Record Act and

15

California Rule of Court 10.500 to an order releasing all documents requested,

16

which include, without limitation, all documents which refer, relate or pertain to

17

Sanai, and all documents which refer, relate or pertain to litigation or proceedings

18

specified therein. Sanai is further entitled to public disclosure of all documents

19

which are or may be exculpatory or offer a defense to the remaining state bar

20

charges, including documents which would in the mind of a reasonable person show

21

an unconstitutionally unacceptable risk that judges or justices who are or have been

22

members of the Judicial Council of California are biased against Sanai.

23
24
25
26
27
28
-48-

COMPLAINT

Caseata-3S0S8yaffi2BffiOEajcUihiftrtF!D3a0fticCMBrttf1«4Page8©Bc®«Sf 58
055

1
2

NINTH COUNT
INJUNCTIVE RELIEF AGAINST VIOLATION OF CONSTITUTIONAL

3

RIGHTS

4

(By Sanai as Against Does 1-10)

5
6

124. Sanai hereby incorporates by this reference paragraphs 1 through 76 as
if set forth in full.

7

125. Does 1-10 are state and federal judicial officers, employees and

8

organizations which have information and documents relevant to Sanai’s defense in

9

his resumed bar trial. Sanai has a constitutional right to obtain their documents and

10

compel their presence at this trial. On information and belief, Sanai alleges that

11

such persons and organizations will frustrate Sanai’s right to compel witnesses and

12

testimony because of the embarrassment and the professional injury it will cause

13

them when the truth is revealed. It is also possible that their identity, influence and

14

position in the state and federal judiciary may cause a California Superior Court

15

judge or appellate justice to refuse to enforce a subpoena against them.

16

126. The need for such discovery was proximately caused by the actions of

17

the 2010 JC Defendants and Catterson. But for their tortious conduct alleged above,

18

no bar proceeding would have been initiated against Sanai. Accordingly, obtaining

19

the judicial assistance of this Court in forcing recalcitrant witnesses to submit to

20

depositions and appear at Sanai’s bar trial and to furnish documents is necessary

21

and appropriate relief. It is a certainty that Judge Kozinski will use every resource

22

at his command to fight this lawsuit and retaliate against Sanai. Kozinski’s modus

23

operandi for retaliation in the past has been through himself and through proxies,

24

who included the late Stephen Reinhardt, Catterson and even the JC itself. On

25

information and belief, Sanai alleges that such unknown persons are currently

26

conspiring to impair Sanai’s rights, and will do so once subpoenas are either issued

27

or sought to be enforced; such persons by virtue of their participation in the

28

conspiracy are included as Does 1-10.

-49-

COMPLAINT

Cas©ata-83ffi8yaffl28ffi02ttKiIihidrtFID33afticDlflafl/3<94Page^tec»S®f 58
056

1
2
3
4

127. The identities of the persons who will seek to frustrate Sanai’s
constitutional right to a fair trial are not known and will not be known until they take
overt action.
128. Once identified and a Doe amendment is made, Sanai will be entitled to

5

injunctive relief to compel the production of documents and presence of Does 1-10

6

at depositions and his bar trial.

7
8
9

WHEREFORE, Plaintiff Cyrus Sanai respectfully demand the following
relief on behalf of himself:

10
ll

On the First Count
1.

A mandatory injunction that all Defendants should provide to Sanai all

12

documents that they possess, own or control (including emails and telephonic

13

messages) that:

14

A.
B.

15
16

Refer, relate or pertain to Sanai;
Refer or relate to any litigation referenced in his misconduct
complaints filed with JC;

17

C.

18

Refer relate or pertain to the interactions between Catterson and
OCTC and Catterson and Kozinski;

19

D.
E.
F.

20
21

Refer, relate or pertain to Kozinski’s battle over the firewall;
Refer, relate or pertain to Kozinski’s treatment of his clerks;
Refer, relate or pertain to the misconduct complaints made or
identified against Kozinski and other judges herein; and

22

G

23

Refer, relate or pertain to retaliatory conduct instigated by Kozinski,

24

and any of the 2010 JC Defendants against Sanai, Mecham or any

25

other persons acting on behalf of them or the JC.

26

2.

A prohibitory injunction barring the Current JC Judges and Collins

27

from participating as a judge or justice in any way in a matter involving Sanai, as

28

party or attorney.

-50-

COMPLAINT

Caseafca-9Sffl88yaffl2Bffi02ajdDnftrt7ID3a9fticDl!aBre/J94page^ecfl6Sf 58
057

1
2

3.

sanction or penalty on any judicial misconduct complainant.

3

4

A prohibitory injunction barring the JC from imposing any kind of

4.

A mandatory injunction on the JC requiring it to promulgate effective

rules and procedures requiring judges in the Ninth Circuit to fully disclose past and

5

current relationships between the judges in which the case is proceeding and

6

lawyers, law firms, identified witnesses, and parties in the case as and when the

7

identity of each such lawyers, law firms, identified witnesses, and parties is

8

disclosed to the judge.

9

5.

10

On the Second Count

11
12

Reasonable costs incurred in this action.

1.

An injunction vacating the Censure Order and barring the JC from

imposing any kind of sanction or penalty on any judicial misconduct complainant.

13

2.

14

Reasonable costs incurred in this action.
On the Third Count

15

1.

After full discovery and provision of the documents identified above, a

16

trial in which Court will enter a declaratory judgment which fully sets out the

17

history of Kozinski’s sexual harassment, the enablement of it by the JC, Catterson,

18

and other members of the Court, and retaliatory conduct by Kozinski, the JC,

19

Catterson and others that was conducted against Mecham, Walter, Sanai, Hakala and

20

others. This declaratory judgment shall also set out the facts alleged in his

21

misconduct complaints as true, or, to the extent they are not accurate, the actual

22

facts.

23

2.

On the Fourth Count

24
25

Reasonable costs incurred in this action.

1.

Monetary damages for emotional injury, lost income and opportunities

26

to obtain income, reputational injury and out-of-pocket expenses arising from the

27

abuse of process by Kozinski, Catterson and the 2010 JD Defendants in the amount

28

of at least $10,000,000.00, plus punitive damages.
-si-

COMPLAINT

Casg:a^-35a$-8yQS!2e^0£)^cliIihi^rtF!D33e[fecCaaElre^94Pagg^G5B®f 58
058

1

2.

2
3

Reasonable costs incurred in this action.
On the Fifth Count

1.

Monetary damages for emotional injury, lost income and opportunities

4

to obtain income, reputational injury and out-of-pocket expenses arising from the

5

malicious prosecution by Kozinski, Catterson and the 2010 JD Defendants in the

6

amount of at least $10,000,000.00, plus punitive damages.

7

2.

8
9

Reasonable costs incurred in this action.
On the Sixth Count

1.

Monetary damages for emotional injury, lost income and opportunities

10

to obtain income, reputational injury and out-of-pocket expenses arising from the

11

wrongful use of administrative proceedings by Kozinski, Catterson and the 2010 JD

12

Defendants, in the amount of at least $10,000,000.00, plus punitive damages.

13

2.

14
15

Reasonable costs incurred in this action.
On the Seventh Count

1.

Monetary damages for emotional injury, lost income and opportunities

16

to obtain income, reputational injury and out-of-pocket expenses arising from the

17

retaliatory misconduct committed by Kozinski, Catterson and the 2010 JD

18

Defendants in the amount of at least $10,000,000.00, plus punitive damages.

19

2.

On the Eighth Count

20
21

1.

An order disclosing all documents requested by Sanai from the Judicial
Council of California; and

22
23

Reasonable costs incurred in this action.

2.

Reasonable costs and attorneys fees incurred in this action.
On the Ninth Count

24
25

1.

Injunctive Relief against Does 1-10.

26

2.

Reasonable costs incurred in this action.

27
28
-52-

COMPLAINT

Cas©at§-35ffi2-8vGGffi!2?5^02ffiidiIi)n4rtF!D336^cCaaElie^94Pagg2^cfl$®f 58
059

1
2
3

4

Dated:

December 16, 2019
By: _/s/

Cyrus Sanai
CYRUS SAKS!
In pro per.

5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

21
22
23

24
25
26
27
28
-53-

COMPLAINT

P1

i

APPENDIX P

P2

RELEVANT STATUTORY AND CONSTITUTIONAL PROVISIONS
AND COURT RULES

The Fifth Amendment to the U.S. Constitution provides in relevant part:
“[N]or shall any person...be deprived of life, liberty, or property, without due
process of law.” U.S. Const., Amend. V, § 1.
28 U.S.C. §455 reads in relevant part:
(a) Any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might
reasonably be questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or
personal knowledge of disputed evidentiary facts concerning the
proceeding;

(c) A judge should inform himself about his personal and fiduciary
financial interests, and make a reasonable effort to inform himself
about the personal financial interests of his spouse and minor children
residing in his household.

P3

28 U.S.C. §455 reads:
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of
Columbia, subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action
at law, suit in equity, or other proper proceeding for redress, except
that in any action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, injunctive relief
shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of Columbia.

28 U.S.C. §2201 reads:
(a) In a case of actual controversy within its jurisdiction, except with
respect to Federal taxes other than actions brought under section
7428 of the Internal Revenue Code of 1986, a proceeding under
section 505 or 1146 of title 11, or in any civil action involving an
antidumping or countervailing duty proceeding regarding a class or
kind of merchandise of a free trade area country (as defined in section
516A(f)(9) of the Tariff Act of 1930), as determined by the
administering authority, any court of the United States, upon the
filing of an appropriate pleading, may declare the rights and other

P4

legal relations of any interested party seeking such declaration,
whether or not further relief is or could be sought. Any such
declaration shall have the force and effect of a final judgment or
decree and shall be reviewable as such.
(b) For limitations on actions brought with respect to drug patents see
section 505 or 512 of the Federal Food, Drug, and Cosmetic Act, or
section 351 of the Public Health Service Act.

